<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                  AGRICULTURE, RURAL DEVELOPMENT, FOOD
                  AND DRUG ADMINISTRATION, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS
                              FIRST SESSION
                                ________

     SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES

                     JOE SKEEN, New Mexico, Chairman

JAMES T. WALSH, New York               MARCY KAPTUR, Ohio
JAY DICKEY, Arkansas                   VIC FAZIO, California
JACK KINGSTON, Georgia                 JOSE E. SERRANO, New York
GEORGE R. NETHERCUTT, Jr., Washington  ROSA L. DeLAURO, Connecticut
HENRY BONILLA, Texas                   
TOM LATHAM, Iowa                       

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  Timothy K. Sanders, Carol Murphy, John J. Ziolkowski, and Joanne L. 
                       Orndorff, Staff Assistants
                                ________

                                 PART 7
               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 40-074 O                   WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          




                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director






   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                            Tuesday, March 4, 1997.

                       COALITION OF EPSCOR STATES

                                WITNESS

DR. GREG WEIDEMANN, ASSOCIATE DEAN, DALE BUMPERS COLLEGE OF 
    AGRICULTURE, FOOD AND LIFE SCIENCES, UNIVERSITY OF ARKANSAS, 
    FAYETTEVILLE

    Mr. Skeen. The committee will come to order.
    We have outside witnesses today. Dr. Greg Weidemann is the 
first gentleman up at the bat. What I'd like for you to do, as 
much as possible, is abstract your statement. You are 
submitting it in writing, I'm assuming?
    Dr. Weidemann.  Yes, sir.
    Mr. Skeen.  We'd appreciate that because we do read them. 
Thank you. Welcome.
    Dr. Weidemann.  Mr. Chairman, Members of the subcommittee, 
my name is Greg Weidemann. I'm the Associate Director of the 
Arkansas Agricultural Experiment Station and Associate Dean of 
the Dale Bumpers College of Agricultural Food and Life 
Sciences, University of Arkansas.
    Thank you for the opportunity to be here today to support 
the EPSCOR Program, experimental program, to stimulate 
competitive research. This afternoon, I'm testifying on behalf 
of the coalition of 18 EPSCORE states and Puerto Rico. I would 
ask the committee to include my entire testimony in the record 
and ask your indulgence for briefly summarizing my report.
    EPSCORE is a science and technology development program 
involving several federal agencies, including USDA where a 
small portion of the federal R&D budget is targeted to the 18 
states and Puerto Rico that have historically received a 
smaller portion of federal R&D dollars. The funds set aside are 
competitively awarded and receive the same rigorous scientific 
review as other projects. The program has been a remarkable 
success. It has significantly enhanced the research 
capabilities and quality of those institutions that lag behind 
in acquiring federal R&D funds.
    The program helps to ensure that federal research dollars 
are not concentrated in a few states and a few institutions. It 
ensures that all areas of the nation become more globally 
competitive in science and technology. Within the USDA NRI 
program, 10 percent of the program funds are set aside for this 
program for the EPSCOR states.
    Scientists that are funded through this program no longer 
qualify for EPSCOR funding and must compete with other 
scientists for non-EPSCOR funds. This program has had major 
impact on the Agricultural Research Program at the University 
of Arkansas.
    USDA NRI funding has increased from approximately $80,000 
in 1991 to over $1 million in 1995 and 1996. Most of these 
funds now come from non-EPSCOR standard research grants. This 
clearly illustrates that the program is achieving its goal of 
enhancing the research capacity of our scientists at our 
institution.
    Many of the grants awarded are addressing critical research 
priorities of national importance such as water quality, food 
safety, pesticide contamination, and so on. We request that 
this committee again direct USDA to set aside ten percent of 
fiscal year 1998 NRI funds for EPSCOR as in previous years. 
EPSCOR fosters our leadership in agricultural research by 
ensuring that all parts of the country continue to build our 
science and technology expertise.
    That we strengthen our research capacity in all regions of 
the country and that we're responsive to the needs of rural 
America. Mr. Chairman, thank you for the courtesy of allowing 
me to testify today on behalf of this very important program. I 
certainly would answer any questions that you have.
    Mr. Skeen.  Thank you Dr. Weidemann. We appreciate what you 
do and the way you do it. I have no questions of you. Mr. 
Serrano.
    Mr. Serrano.  No questions.
    Mr. Skeen.  Thank you, sir, for your presentation. Can we 
have Professor James N. Siedow? Welcome. Go ahead and proceed.
    [The prepared statement of Dr. Weidemann follows:]

[Pages 3 - 9--The official Committee record contains additional material here.]


                                            Tuesday, March 4, 1997.

                AMERICAN SOCIETY OF PLANT PHYSIOLOGISTS

                                WITNESS

JAMES N. SIEDOW, PAST-PRESIDENT

    Mr. Siedow.  Thank you, Mr. Chairman. My name is Jim 
Siedow. My testimony is on behalf of the American Society of 
Plant Physiologists which I represent as past-president. I'm 
also a professor of botany at Duke University. My research is 
on plant respiration and is currently funded by the National 
Research Initiative Competitive Grants Program of the USDA.
    Despite its few years of existence, the NRI has supported 
leading research which has already been recognized for its 
major contributions. Fundamental research supported by the NRI 
has led to the first transgenic soy bean cultivated that 
produces its own environmentally benign insecticide, thus 
reducing the need for pesticide applications and increasing 
cost effectiveness for growers.
    NRI supported fundamental research in plant genetics, plant 
metabolism, and plant growth and development has helped give 
U.S. industry the capability to regenerate genetically 
transformed plant tissues. This aids in producing new enhanced 
crops and has given the plant biotechnology industry in the 
U.S. a world leading position.
    The list of NRI successes is a long one which I cannot 
cover adequately in this testimony. I request to submit for the 
record cover articles of other important NRI supported research 
published in two leading plant science journals, Plant 
Physiologist and Plant Cell.
    Mr. Skeen.  It will be introduced in its entirety.
    Mr. Siedow.  Thank you very much.
    All agricultural research supported by the USDA, including 
NRI, ARS, Formula Funds and other programs represents an 
investment of about $6 per American per year. When you consider 
that this research helps assure a stable and safe food supply, 
promotes better health and longer lives, supplies materials for 
our clothes, furnishings, homes and offices, and helps make 
American agriculture the nation's leading sector in creating 
export surpluses, we firmly believe the support for 
agricultural research represents an outstanding value among 
public investments for Americans.
    We had hoped that the new Fund For Rural America would 
offer more basic research opportunities like the NRI, but after 
reading the RFP for the Fund For Rural America we find it has 
more of an applied focus that does not include fundamental 
research. USDA officials have confirmed this complementary role 
of the Fund For Rural America which they expect to fund multi-
disciplinary research in areas not currently supported by NRI 
or ARS.
    If agricultural research is interpreted to include issues 
such as rural development research, essential agricultural 
research funds could be diverted. Such diversion of funds will 
make it more difficult to make the gains in crop productivity 
that farmers and consumers as a nation require. I and my 
colleagues at ASPP admire the courageous efforts bythis 
subcommittee to protect support for research in the face of declining 
allocations.
    Last year, ASPP coordinated for the 20 Science Society 
Coalition on Funding Agricultural Research Missions, several 
advertisements published by the Congressional Quarterly's 
Congressional Monitor, which we request to submit for the 
record.
    Mr. Skeen.  It will be done.
    Mr. Siedow.  Thank you.
    We strongly agree with the quote in one of these ads by 
you, Mr. Chairman, and the committee in its report which said 
the only way that less than 2 percent of this country's 
population can produce food and fiber for all the needs of this 
country and also provide this country with its tremendous 
export opportunities is through research.
    It's a pretty impressive fact that we can manage with 2 
percent of our population. I thank you for this opportunity to 
share our views with the distinguished Members of this 
subcommittee and we'd be happy to answer any questions.
    Mr. Skeen.  Well, you scientists are a pretty awesome group 
yourself because you're the ones that have produced the kind of 
incentives and methodology that we use in producing as much as 
we do because there are few people doing it and for I think a 
very minimal cost.
    Mr. Siedow.  I appreciate that statement. It's a team 
effort though that requires I think all of us.
    Mr. Skeen.  We'd like to pat you on the back and not in the 
middle of the head. Mr. Serrano?
    Mr. Serrano.  Just a comment. Thank you for your comment 
that this subcommittee has done a great job continuing to be 
helpful in the area of research. There are some folks who may 
not understand and who wonder why we try to fund it as we do. 
So, I appreciate your comments.
    Mr. Siedow.  Thank you.
    Mr. Skeen.  We thank you. Mr. Samuel Minor. We welcome you. 
Your entire written testimony will be put in the record. If you 
will abstract it, we'd appreciate it.
    [The prepared statement of James N. Siedow follows:]

[Pages 12 - 21--The official Committee record contains additional material here.]


                                            Tuesday, March 4, 1997.

        COUNCIL FOR AGRICULTURE RESEARCH, EXTENSION AND TEACHING

                                WITNESS

SAMUEL MINOR, DAIRY FARMER

    Mr. Minor.  Good afternoon and thank you Mr. Chairman.
    I come from the other end of agriculture. My name is Sam 
Minor, a dairy farmer, retail market and restaurant operator 
with my wife and family just south of Pittsburgh, Pennsylvania.
    On this farm we milk 100 cows and grow the forage for those 
dairy cattle, plus grow several acres of popcorn, sweet corn, 
and other vegetables for our retail market and restaurant. 
These products are primarily marketed to the dairy store and 
the restaurant which is operated by five family members and 
approximately 55 additional full-time and part-time employees.
    The customer count at this rural market or restaurant would 
indicate that in excess of 200,000 people visited our farm in 
this past year. In addition to working in this farm business I 
have for a number of years had the opportunity to serve on the 
boards of directors of two farm cooperatives; Penn West Farm 
Credit in Western Pennsylvania that provides credit and 
financial services for about 4,600 farmers and Agri, Inc. the 
primary farm supply cooperative for 85,000 farmers in the 13 
northeastern states.
    I am here today to testify on behalf of the Council For 
Agriculture Research, Extension and Teaching or commonly 
referred to as CARET. CARET is a national organization of 
grassroots or lay people such as myself. It was created in1982 
by the National Association of State Universities and Land Grand 
Colleges commonly referred to as NASULGC.
    Our mission of CARET is to enhance national support and the 
understanding of Land Grant University Food and Agriculture 
Research, Extension and Teaching mission and programs. Now, I 
have taken the time to talk about my personal background here 
today because the importance of this subject that we are 
discussing, agriculture research and education.
    It's been very important to our family, to our farm 
business, to the farmer members of the cooperatives which I 
work with and to the agricultural industry. For example, prior 
to the time that we started farming in 1975 I had the 
opportunity to work for several years in the artificial 
breathing industry where we saw first-hand the fullest of the 
applied research and extension work in dairy cattle genetics 
and semen physiology.
    That work which allows U.S. dairymen today have the highest 
producing and most efficient dairy herds in the world. Then it 
really hit home when we started our own farming business in 
1975. Although growing up on a family farm in the hills of 
Southwestern Pennsylvania I was not fully appreciative of the 
full impact of a Land Grant Research and Extension Programs 
until we started this own farm and retail farm business.
    We soon learned that research and extension was the very 
basis of nearly every program we carried out in this business, 
literally everything from testing the soil and planning, to 
selecting the varieties and harvesting, all the way through to 
producing, processing, and the selling the milk that we 
produced on this farm.
    Now, I know that these comments are very basis, but this 
availability of science and technology is the very reason that 
today American agriculture is the envy of the world. It has 
been, I'm sure, said many times here today that federally 
supported programs of research, extension and teaching that are 
provided the scientific basis to allow 1.8 million U.S. firms 
such as our in Southwestern Pennsylvania to produce a record in 
excess of $200 billion of food and fiber; a record 60 billion 
of which went to the export market allowing for that very 
positive $30 billion contribution to the balance of trade.
    And it's important time to talk about agriculture research 
and extension because we are aware of the fiscal restraints of 
the changing world of the federal government and the conduct of 
our agricultural businesses. We will rely less upon the 
commodity support programs. We will compete more effectively in 
the world market place.
    A result of these past efforts in research, extension and 
Education will have--we will have an agricultural system that 
is even more competitive in the global economy. An economy for 
agriculture provides almost 20 percent of the jobs in this 
country and accounts for 16 percent of the Gross National 
Product.
    And yet as I'm sure has been said many times, we just spend 
a little bit more than 10 percent of our disposable income to 
meet these food needs. Specifically we're here to request 
support for the fiscal year 1998 budget recommendations of the 
NASULGC Board on Agriculture of $891.2 million; an increase of 
6.6 percent over the current year appropriations.
    This request is for the federal portion of the funding for 
research, extension and higher education. And the federal 
administration--turned leverages up to five times at the state 
and local level. I realize this is a large amount of money but 
really it's quite moderate when one considers this in relation 
to the total federal appropriations, or even when one considers 
the simulation to the agriculture appropriations.
    Mr. Chairman, I especially want to emphasize the importance 
of the request of the small increase in the amount appropriated 
for the base programs for research and extension. These base 
funds represent the ongoing state-federal partnership. It 
represents a long-term commitment to U.S. agricultural research 
and a transfer of this research to implementation.
    The importance of these base funds cannot be over-
emphasized. The Land Grant University system works very closely 
as you are well aware with CSREES. The Land Grant system has 
gone through recognizing the changes that have taken place in 
government and the changes taking place in society; a thorough 
evaluation of preparing for the future. The recognition of the 
need for this change has resulted in a very thorough assessment 
or future process has brought about a plan for action on 
agricultural natural resources for the Land Grant Universities.
    This plan of action, the future process, has six goals that 
are coordinated very closely with the USDA REE section. And I'm 
sure you are very, very familiar with those. The Land Grant 
University system, one of the greatest inventions ever in 
higher education is today in cooperation with its federal 
partner, CSREES, positioned with a renewed commitment to help 
the U.S. food and fiber section to prepare to take advantage of 
the great opportunities that lay ahead.
    As an individual farmer and a member of the agricultural 
community, I'm very proud of what this partnership has provided 
to us. At the same time, I believe that agriculture research 
and education must be an important part of our long-term 
agricultural policy. We must strengthen our financial 
commitment to ensure that these basic programs for the Land 
Grant system will be prepared to address the emerging needs of 
this food and fiber sector.
    We want to be prepared as the opening of global markets, 
deregulation of commodity programs, the promise of scientific 
breakthroughs and the complexity of environmental and food 
safety issues provide an unprecedented opportunity to put 
science and education to work for farmers such as myself and in 
support of mankind.
    Thank you very much for the opportunity to be with you here 
this afternoon.
    Mr. Skeen.  Thank you, Mr. Minor. We appreciate what you're 
doing. You have a very effective organization for talking to 
us; one of them, my wife belongs to.
    Mr. Minor.  Yes. We're very familiar with her, sir.
    Mr. Skeen.  You're certainly getting a good ear.
    Mr. Minor.  We missed her last week.
    Mr. Skeen.  Well, she missed you too. They're sheering 
sheep today. Somebody had to stay there and tend to the real 
business while we're sneaking off up here having all of this 
fun.
    Mr. Minor.  Good.
    Mr. Skeen.  We certainly appreciate what you're doing and 
the group that you represent. They've been a tremendous and 
significant gift to the whole United States agricultural 
system.
    Mr. Minor.  Thank you very much.
    Mr. Skeen.  By the way, New Mexico's number one 
agricultural product is now dairy.
    Mr. Minor.  Is that right?
    Mr. Skeen.  Yes, sir. We have refugees from California that 
have moved in.
    Mr. Minor.  We read about them and we read about the 
increased production.
    Mr. Skeen.  They're sure producing a lot of cheese. We're 
glad to have you and we'll certainly take a look at your 
testimony. We appreciate your support.
    Mr. Minor.  Thank you very much. It's a pleasure being 
here.
    Mr. Skeen.  Thank you. It was a pleasure having you. Dr. 
John C. Owens from the grand State of New Mexico and New Mexico 
State University. Please proceed.
    [The prepared statement of Samuel Minor follows:]

[Pages 25 - 30--The official Committee record contains additional material here.]


                                          Tuesday, March 4, 1997.  

   NATIONAL ASSOCIATION OF STATE UNIVERSITIES AND LAND GRANT COLLEGES

                                WITNESS

DR. JOHN C. OWENS, DEAN, COLLEGE OF AGRICULTURE AND HOME ECONOMICS, NEW 
    MEXICO STATE UNIVERSITY

    Dr. Owens.  Chairman Skeen, I'm delighted to be here again 
before the committee. I want to thank you and the committee 
itself for the investment that you've made in agriculture 
research, extension and education in the past. Its very 
investment is what's made the system so strong.
    Pennsylvania Delegate Minor said it very well. And with 
your permission, I'll make my remarks extremely short. There is 
no need repeating what he said.
    Mr. Skeen.  We certainly appreciate that.
    Dr. Owens.  I thought you might.
    Mr. Skeen.  We're not rushing you.
    Dr. Owens.  No. We're in good shape. Thank you very much 
for that. I would like to remind you that the fiscal year 1998 
budget priorities that are before you represented by the 
NASULGC request were identified by a process of nationwide 
consultation within the Land Grant community with the CARET 
delegates, with farmers and agribusiness persons, consumers, 
industry individuals, families as well as local community 
leaders.
    You will tell from all of this there are two cross-cutting 
priorities that define the NASULGC fiscal year 1998 budget 
recommendations. Those are two things. Number one is to 
strengthen the base funds in agriculture research, extension 
and higher education programs. And number two is targeted funds 
which advance some special initiatives in support of the food 
agriculture and environmental system that we all have. As you 
know we often refer to the base funds as the heart of the Land 
Grant system.
    They're those funds that create this unique partnership 
between the United States Department of Agriculture, the State 
Land Grant Universities, and country governments. And this 
system has ensured a profitable and successful food and 
agricultural industry that as Mr. Minor said, is the envy of 
the world.
    I'll stop right there and tell you that I'd be happy to 
answer any questions that you might have about the budget. We 
made a request for a modest increase in funds. We know that you 
guys face a really tough budget year as we face back in home 
states also.
    These dollars are the fuel that keeps the system going. And 
the federal investment is the money that coordinates the entire 
system nationwide. And I think that's the key ingredient that 
has made our Land Grant system of research, extension, 
education and teaching so awfully strong.
    Mr. Skeen.  You're exactly on the mark. That's a dilemma 
that we face today. It is because we're trying to balance 
budgets without taking into account some of the most important 
activities that we're involved in, particularly in agriculture. 
It's been very difficult.
    The few people represented in the agricultural community 
just don't out vote some of the others. But we're going to try 
to make this thing an equitable situation. They also enjoy 
eating.
    Dr. Owens.  Three times a day.
    Mr. Skeen.  Three times a day and regular, and excellent 
food and so forth. We appreciate your testimony. We will 
certainly have it in the record. I have no questions. Mr. 
Serrano.
    Mr. Serrano.  No questions. Thank you.
    Mr. Skeen.  Thank you, Dean Owens. Dr. Terril Nell. 
Welcome. Glad to have you here. We'll proceed.
    [The prepared statements of Dr. John C. Owens, Dr. Thomas 
L. Payne, Dr. William B. Lacy, Dr. John M. White, Dr. P.S. 
Benepal, Dr. James P. Lassoie, and Dr. Donald K. Layman 
follow:]

[Pages 33 - 69--The official Committee record contains additional material here.]


                                            Tuesday, March 4, 1997.

                      SOCIETY OF AMERICAN FLORISTS

                                WITNESS

DR. TERRIL NELL, CHAIRMAN, DEPARTMENT OF ENVIRONMENTAL HORTICULTURE, 
    UNIVERSITY OF FLORIDA IN GAINESVILLE

    Dr. Nell.  Thank you. It is a pleasure once again to be 
here to share information with the committee about the 
environmental horticulture and floriculture industries in this 
country. I am Chairman of the Environmental Horticulture 
Department, University of Florida.
    I am here representing the Society of American Florists. I 
serve on their board and also Chairman of their Government 
Relations Committee. I have over 20 years experience in 
agriculture. There are times I wish I didn't have to admit 
that. But I do; specializing in floriculture.
    My career has been specializing in research and education 
in floriculture. You have the written testimony. In the past 
we've talked about the value of the floriculture industry to 
the economy of this country and the significance to society. 
And I will leave that to the testimony.
    Now, what I would like to do first representing the floral 
industry and the researchers around the country who are doing 
work on floriculture commodities which can be translated to 
other commodities throughout agriculture is to thank you, Mr. 
Skeen, Members of this committee, and Congress for recognizing 
the value of this industry and for putting into this current 
year's budget $200,000 that could be used for floriculture 
research, NARS.
    That money had been very helpful and it has served to 
really encourage the industry and the academic community, the 
researchers with new hope for progress and research. Today, I'd 
like to concentrate on four areas: research funding, pesticide 
registration and research, international trade, and also 
statistical information.
    The funding that is in this year's budget clearly will help 
this industry to meet the increasing strict environmental 
regulations that are facing this industry. Also, it will help 
this industry to become much more competitive in an 
international market. And it will help the small business 
people that are represented by the growers and retailers 
throughout the country to maintain good employees, be good 
employers and help the economy.
    We were excited with the funding that was put into the USDA 
budget this year, but we are also disappointed to see that, 
that funding has been deleted from the proposed budget for the 
coming year. We are asking that you and the committee make sure 
that, that funding is placed back into the budget so that this 
effort can go forward as it was originally intended.
    I am also very pleased to share with you that the Society 
of American Florists and the American Association of Nurserymen 
have joined together with USDA and are in the process of 
developing a new initiative that will be used to address issues 
that are facing the floriculture and the nursery industries 
which might be recognized as the green industries in this 
country.
    The goals of the new joint research initiative will be 
directed to refund research on the floral and nursery crops. It 
will leave with the goal simply of leading the growers to 
better environmental protection, including research for reduced 
use of chemicals and reduced runoff and other waste, maintain 
biodiversity by establishing first an ornamental plant germ 
plasm center at the Ohio State University.
    And that is a part of the USDA national plant germ plasm 
system; enhance environmental--efforts such as those around 
wetlands and for reclamation of wetland areas by developing 
better plants and trees that will work for remediation. And 
improve our rural and suburban economies by helping growers and 
retailers to be more efficient in their businesses and prove 
our international competitiveness and improve the quality of 
life for the citizens of this country.
    In order to develop that initiative and go forward, first, 
we need to make sure that the funding that was in this year's 
budget is maintained. Second, we are asking for your help as we 
bring that initiative forward in the coming year. And that is 
not just for this industry. It is for our environment. It's for 
our economy. And it's for the society in this country.
    We would also direct your attention to four items in the 
written testimony. First, we are asking that specialattention 
be directed to maintain the funding for the IR4 program. It is through 
that program that pesticides can be evaluated and ultimately registered 
for minor use pesticides which are those primarily used by the 
floriculture industries. And also to support, as you heard earlier from 
the USDA presentation, funding for methyl bromide. That is a serious 
issue that's facing many of the floriculture businesses throughout this 
country.
    We ask also that there be a no-year emergency fund set-up 
for APHIS. So this can be accessed when there is a real 
problem. And we've seen a few of those that need to be 
addressed quickly. We would also ask that APHIS be continued 
fighting the Chrysanthemum white/rust issue. This has been a 
problem that surfaced several years ago in California and 
became a serious issue in Washington State and Oregon last 
year.
    And if it spread through the rest of the country, it could 
lead to considerable increase in pesticide usage. And we ask 
for strong funding for the Census of Agriculture and that the 
horticulture census be included as a part of that. With this 
request we realize fully that you face many budget restraints. 
We are in a time of change.
    We appreciate what you've done. We ask that you realize the 
significance of this industry to the economy and the people. 
I'll be happy to answer any questions.
    Mr. Skeen.  Thank you Dr. Nell. Let me ask you a question 
about what the agriculture research service is already doing on 
pest management. Does your industry derive any benefit from 
that work?
    Dr. Nell.  Yes, sir, it does. The research that the 
Agricultural Service and CSREES is doing throughout the country 
it is greatly benefitting the industry. The difficulty is there 
are not enough people directly related to the floriculture 
nursery industries.
    Mr. Skeen.  So, you're talking about a very specific----
    Dr. Nell.  I'm talking about a very specific situation.
    Mr. Skeen [continuing]--pest management, that you'd have to 
use for horticulture.
    Dr. Nell.  Right, because those materials have to be 
leveled for that use. We have unique pests. And because of the 
global importation of many cut flowers today, we're seeing this 
industry plagued by a number of new insects and diseases on a 
regular basis.
    Mr. Skeen.  So, what's your proposal? You need to be more 
specific as to your research dealing with pest management.
    Dr. Nell.  Our proposal on pest management is very simply 
that the researchers need to be conducting the work on floral 
and nursery crops.
    Mr. Skeen.  What other research benefits do you get from 
the science now being funded by the government?
    Dr. Nell. It's not specific to horticulture. Some benefits, 
clearly the presentation earlier by the plant physiologist 
group, the genetic engineering is now beginning to flow into 
floriculture. We are hoping that floriculture begins flowing 
into other areas as well.
    We are also benefitting when new pesticides, new pest 
management strategies are developed that they can be brought 
from other segments of agriculture into floriculture. But also 
much of the IPM material began with the floriculture industry 
and has been moved from the floriculture industry out.
    Mr. Skeen.  So, it's kind of a swap situation to some 
degree.
    Dr. Nell.  Earlier in the USDA testimony it was mentioned 
about chemigation where a small amount of fertilizer is 
injected into the irrigation system and applied directly 
through the irrigation system. That chemigation or fertigation 
system was actually developed in the floriculture industry 25 
years ago.
    Mr. Skeen.  It is like the drip system with the additives 
and the pesticides and also the fertilizers and things of that 
kind.
    Dr. Nell.  Correct.
    Mr. Skeen.  With regard to the agricultural product, 
wheredoes floriculture stand right now in dollars--I would suspect it's 
very high.
    Dr. Nell.  Environmental horticulture represents 11 percent 
of farm gate value. It is currently more valuable nationwide 
than cotton, wheat or tobacco.
    Mr. Skeen.  So, it stands very high.
    Dr. Nell.  Yes.
    Mr. Skeen.  A lot of folks never realize that horticulture 
or that particular undertaking is ranked as such a high 
agriculture dollar producer.
    Dr. Nell.  It's a very high economic value that has also 
been the most rapidly expanding segment of agriculture for 
approximately 12 years.
    Mr. Skeen.  So, we've become aware of that here of late.
    Dr. Nell.  People love them.
    Mr. Skeen.  We have no more questions. Thank you very much 
for your testimony. Dr. John Suttie. Welcome. Glad to have you 
here.
    [The prepared statement of Dr. Terril Nell follows:]

[Pages 73 - 78--The official Committee record contains additional material here.]


                                            Tuesday, March 4, 1997.

       FEDERATION OF AMERICAN SOCIETIES FOR EXPERIMENTAL BIOLOGY

                                WITNESS

JOHN W. SUTTIE, PH.D., PRESIDENT

    Dr. Suttie.  Thank you, Mr. Chairman and subcommittee 
Members. I'm John Suttie. I'm the current president of the 
Federation of American Societies for Experimental Biology, 
commonly called FASEB. I'm also professor of biochemistry and 
Chair of a Department of Nutritional Sciences at the University 
of Wisconsin.
    I appear before you today as president of the Federation in 
support of the research budget of the Department of 
Agriculture. If you're not familiar with FASEB it's coalition 
of 12 societies with a combined membership of more than 46,000 
scientists. In general they work in the biomedical research 
area.
    The Federation was created in 1913 to provide an 
organization which could represent the views of the basic 
scientists in the relevant policy debates of its day. This 
remains our fundamental purpose to this time. We appear before 
you today not only as advocates for life science research but 
also to express our views on the approaches to agricultural 
research which we as bench scientists believe will be the most 
productive.
    These approaches are grounded in the principle that a 
competitive system for allocating government funds is the most 
effective mechanism for getting the results we all seek. It is 
for this reason that FASEB recommends to the committee an 
increase in funding for the Competitive Grants Program at the 
Department of Agriculture from its current level of $94 million 
to $138 million. This is similar to the request that the 
President presented to Congress last month.
    Let me describe for the committee briefly the Department's 
current program and give you one example of the quality of 
research which is already being carried out. Officially 
referred to as the National Research Initiative Competitive 
Grants Program, or more commonly simply as the NRI, this 
program funds extramural research projects at public and 
private universities.
    Proposals are evaluated based on a regular system of peer 
review. Projects have a schedule for completion and both yearly 
reports and a final report are required. We believe that recent 
accomplishments of the NRI provide rich evidence in support of 
our request that this program be expanded. Let me describe just 
one in the field of animal health.
    Porcine reproductive and respiratory syndrome is a viral 
disease of pigs which has been cited by the National Pork 
Producers Council as its most important animal health problem. 
It's the cause of significant economic loss. NRI supported 
research has identified and characterized the causative agent 
of this disease and has contributed to the development of the 
first vaccine which will protect swine against it.
    The vaccine is now being used by swine producers throughout 
the United States. Mr. Chairman, we believe this example is 
typical of the quality of science that can be expected from an 
expanded competitive research program at the Department of 
Agriculture. FASEB has previously distributed to this 
subcommittee other recommendations in several areas under your 
jurisdiction. In the interest of time, I will not cover these 
in my testimony.
    We hope that this subcommittee will consider them carefully 
when it marks up this year's appropriation bill. Mr. Chairman, 
I'd be pleased to answer any questions.
    Mr. Skeen.  Thank you very much Dr. Suttie. I appreciate 
your statement. Competitive research, I think, has proved to be 
a vastly productive way of doing this. You've certainly hit on 
the high spots. Our problem is, we had it funded at about $94 
million. The President's administrative budget comes in at $138 
million, I believe, and so you're looking for a compromise of 
about $130 million. We'd like to produce that for you, but I 
think we're going to be lucky to get the $94 million back.
    Dr. Suttie.  I think what the scientists are looking for, 
if at all possible, is some indication that the committee and 
the USDA sees this as the type of program which really occupies 
the niche within their research programs that we think that it 
should. We all realize the problems of the budget.
    Mr. Skeen.  I think you've earned that slot. There is no 
question about it. Our problem is how do you get the funding 
for it under the sanctions that we have to deal with because 
we've got every idealist in the world telling us how the budget 
ought to be done. Not a one of them knows how to build it. And 
that's what we're doing down here. We've got a lot of folks who 
have great visions, the visionaries. We're trying to be the 
functionaries and make this thing go. Give us a little leeway. 
We appreciate it very much.
    Dr. Suttie.  It's a difficult task. We do appreciate the 
difficulty.
    Mr. Skeen.  We appreciate your testimony. We think a great 
deal of the Competitive Research Grants. Thank you, sir. Next 
we have Ron Brichler speaking on my favorite topic--crop 
insurance. You've got a good man there too by the name of Mike 
McLeod that's following you around. Welcome.
    [The prepared statement of Dr. John W. Suttie follows:]

[Pages 81 - 94--The official Committee record contains additional material here.]


                                            Tuesday, March 4, 1997.

                 AMERICAN ASSOCIATION OF CROP INSURERS

                                WITNESS

RONALD J. BRICHLER

    Mr. Brichler.  Thank you, Mr. Chairman. and Mr. Serrano. My 
name is Ron Brichler and I'm here representing the American 
Association of Crop Insurers who write 80 percent of the multi-
peril crop insurance premiums throughout the United States. 
During recent months we have heard many buzz words.
    We hear risk management for farmers. We hear safety net. We 
hear revenue insurance. We have also repeatedly heard Secretary 
Glickman talk about freedom to farm and how it generates more 
risks for farmers. We feel that crop insurance plays the major 
role in farmers risk management today. As you know if the 
program is not adequately funded, it will cease to operate on 
October 1, 1997.
    We need your help to secure this funding. The issues are 
pretty straight forward. If there is no funding then we have no 
program. If we have no program there is no safety net. If we 
have no safety net, we have an increased risk for farmers and 
our rural communities.
    In order to effectively deliver crop insurance and service 
the risk management needs of farmers, we need adequate funding. 
In 1996 the private industry wrote over 2.2 million policies of 
all types. And these were delivered to farmers all throughout 
the United States. This covered 204 million acres which is two 
times the acreage that was covered in 1994.
    In addition, during 1996, this coverage was done at a 76 
percent loss ratio which means that for every dollar in premium 
that was collected, the government only paid out 76 cents in 
losses. If you fund delivery correctly the private sector will 
respond. Last year, industry responded in a tremendous way to 
delivery newly designed catastrophic levels of coverage.
    We delivered over 360,000 policies. And we are retaining 
them in greater numbers than our FSA counterparts. Based on our 
efforts, we are asking that Secretary Glickman announce prior 
to April 30th the complete transition to private delivery of 
all policies. Let me get back to funding again.
    The Administration has proposed a reimbursement rate of 
24\1/2\ percent for administrative and operating costs. We feel 
this represents a broken promise. For fiscal year 1998 it was 
supposed to be 28 percent. However, the Administration's budget 
calls for 24\1/2\. I think that we are being asked to do an 
awful lot.
    You're asking us to deliver the safety net to U.S. farmers, 
but you're asking us to do it with our hands tied behind our 
backs. While our expense reimbursement is dropping, the cost of 
regulation is increasing. The Federal Crop Insurance Act of 
1994 mandated corresponding reductions in paperwork to offset 
our reimbursements.
    What did we get? Red tape increased. Our costsincreased. 
The Risk Management Agency has ignored its mission. It is contrary to 
statute and it is contrary to Vice President Gore's initiative on 
reinventing government. We need a new mind set within RMA or we need 
new leadership. In the private sector, if I ignore regulation or my 
corporate mission I will soon be looking for a new employer.
    In closing, Chairman Skeen, let me read a quote. In 1994 
this administration strongly opposed an amendment to reduce the 
reimbursement stating ``The basic reimbursement rate has 
already been from about 34 percent to 31 percent of premium. 
However, to mandate that the reimbursement on renewals now be 
lifted to 28 percent or a lower level could impose serious 
burdens particularly on smaller companies. Some companies may 
even refuse to participate in the reform program. If companies 
do not participate, both farmers and tax payers will lose.''
    Chairman Skeen, you refused to support the pending 
amendment says that you didn't before Congress should cut the 
insurance any more until the new crop insurance was well-
established. Your wise advice was followed. We have a 
successful beginning. We appreciate that you have kept your 
word and we ask that you insist that the Administration keep 
its word.
    If the needed funding is appropriated and we move to a more 
simplified program, the private sector will be a true partner 
in delivering risk management tools to farmers. We have held 
and will continue to hold our end of the net. We ask the 
Administration to hold theirs. Thank you.
    Mr. Skeen.  Thank you, Mr. Brichler. This has been one of 
the hot topics that we have discussed over the last number of 
years; going back at least ten years or so. Privatization of 
that is getting away from the old disaster payment mode and 
trying to come to a real business like crop insurance has been 
very, very difficult. You folks have done a real good job 
trying to accommodate it.
    Of course the question is, who is going to pay; the Federal 
Government or are we going to use user fees. When the Vice 
President called you was he in his place or was he outside?
    Mr. Brichler.  Mr. Chairman, I've never spoken with Vice 
President Gore. I'd like to, but I haven't.
    Mr. Skeen.  Well, I've spoken to him, but I didn't get any 
answers. Now the Administration has taken the view that's it's 
of less importance than some of the other programs. I think it 
is a marketing tool that we should have had put in place a long 
time ago. The private supporter supports this. We should be 
augmenting this rather than shelling out for disaster payments.
    Mr. Brichler.  I agree. That's clearly where we want to go.
    Mr. Skeen.  I haven't changed my mind on that.
    Mr. Brichler.  Thank you.
    Mr. Skeen.  By the way, it's still a good management 
practice. If you've got crop insurance over there, your bankers 
are a whole lot more interested in funding you. And those of us 
in agriculture know how sensitive a situation that is. You've 
got to keep a happy banker or you won't have a happy crop. But 
we thank you for your patience. We're going to try to make this 
thing come out whole.
    Mr. Brichler.  I appreciate it.
    Mr. Skeen.  Mr. Serrano.
    Mr. Serrano.  No questions. Thank you.
    [The prepared testimony of Ronald J. Brichler follows:]

[Pages 97 - 106--The official Committee record contains additional material here.]


                                            Tuesday, March 4, 1997.

               AMERICAN HONEY PRODUCERS ASSOCATION, INC.

                                WITNESS

JERRY STROOPE

    Mr. Skeen. Next we want to welcome Mr. Stroope who 
represents an industry that has always intrigued me.
    Mr. Stroope, you're as busy as your hives, the bees and the 
rest. We appreciate it. You took a lot of cursing and blasphemy 
and profanity over the years along with the wool act. So, now 
we're producing wool and honey without the government storing 
it anyplace.
    Mr. Stroope.  And we're doing a pretty good job.
    Mr. Skeen.  I think you're doing a pretty fair job; try to 
anyway.
    Mr. Stroope.  I do want to thank you for allowing us to 
come here today. I appreciate your taking the time to listen to 
our testimony.
    Mr. Skeen.  Well, if you had brought a little honey along 
with you. We're glad to see you.
    Mr. Stroope.  I want you to know, you're not the first 
person that has said that.
    Mr. Skeen.  Go ahead. We'll use the verbal honey.
    Mr. Stroope. Mr. Chairman, Mr. Serrano, I appreciate your 
time. I'm here to speak in behalf of the American Honey 
Producers' Association. I'm a third generation bee keeper from 
the State of Texas. And I have Mr. James Ross from Oklahoma, 
and if you want to hold it against him for moving to Oklahoma; 
he tells me he grew up in New Mexico. So, we're glad to have 
him here today.
    He is also past-president of the Oklahoma Bee Keepers 
Association. On my left I have Mr. Mark Brady. He is a 
commercial bee keeper from the State of Texas. And Mr. Brady is 
the current President of the Texas Bee Keepers Association.
    Mr. Skeen. Glad to have you here.
    Mr. Stroope. We've come here to ask you for some 
appropriations to go to honey bee research. As you may well be 
aware, honey bees have been attacked over the last ten years by 
parasitic mites. About a year ago when we testified before this 
committee.
    Mr. Skeen. Excuse me; what are they?
    Mr. Stroope. Parasitic mites. We have two parasitic mites 
now. We have one that resides internally in the tracheal tubes 
of the honey bee and one now that resides on the outside of the 
honey bee. So, we have two types. Either one of them can put 
the bee keeper out of business, but we have both.
    About a year ago when we testified before this committee, 
30 percent of the colonies in the United States had both mites. 
Now that figure has reached close to 100 percent. Very few 
colonies now can survive without treatment. All of our wild 
bees are the--colonies that exist which the wildlife depend so 
heavily on and our home gardeners and such.
    Those bees have been virtually wiped out. So, now basically 
you have the commercial bee keepers that are holding on to the 
only bees left in this country. And we are losing the battle 
against the mites. We do have a treatment. The mites are 
already developing a resistance to this treatment. And if we 
don't do something fairly soon to get us on the right road to 
solving the problem against these mites, we will be put out of 
business.
    And of course, you are well aware that one-third of our 
food supply in this country is dependent upon honey bee 
pollination. So, it is our understanding that the President's 
budget has called for $4.7 million to be earmarked for honey 
bee research. We would hope that this committee would support 
that level of funding.
    An additional $995,000 on top of the $4.7 million to be 
earmarked for our Wesleco Bee Lab down in Texas. Now, you may 
be familiar with it. This is the new lab. It's only been there 
for five or six years now. It's a beautiful establishment, but 
it's never been properly staffed.
    Currently, we have four research scientists working out at 
this lab. Two are permanent. One is a part-time temporary, 
full-time. And then we have one on loan from Mexico which her 
funds are covered by the University of Mexico. So, what we'd 
like to do to help us against this fight against the mites is 
receive an additional $995,000 to properly staff that lab in 
Wesleco. And that would bring the level to seven full-time 
scientists there.
    Maybe with this increase in research, we can start gaining 
a handle on these mites. But at the current level, we're losing 
the battle and we could use some help. Now, at this time, I 
don't have much more to say. So, I'll open it up to questions 
if you have any.
    Mr. Skeen. Thank you, Mr. Stroope. What about the African 
bee situation? Has that been a problem?
    Mr. Stroope. Well, the African Honey Bees, as it turned 
out, were heavily hit by the mites as well.
    Mr. Skeen. The mites were getting the African Honey Bees 
also?
    Mr. Stroope. Yes, sir. They were advancing pretty fast 
through Texas. They got up right to the edge of the City of 
Houston where we operate and their advancement stopped. And it 
was quite puzzling at the time exactly why they stopped right 
where they did. But come to find out at the time they stopped 
we started losing bees at a very rapid rate in our operation in 
Houston.
    As a matter of fact, we have bees right up next to his 
fence. The mites appeared to have set those African Honey Bees 
back seriously. But for the domestic bees that were living in 
the wild which we call feral colonies, which are no different 
from the ones we house in our hives, the African Bees snapped 
back pretty quick. Now, they're on the road to recovery. Their 
numbers are increasing now. But our domestic bees are not 
recovering.
    Mr. Skeen. Because of the mite.
    Mr. Stroope. Because of the mite. So there are some 
qualities there. If you can pick the good from the bad with the 
African Honey Bees, it's possible----
    Mr. Skeen. Well, it's a good research project. It's very 
selective. We want a mite that eats only African Honey Bees.
    Mr. Stroope. And the thing about it is it's real possible 
that we can take some good traits from the Africanized as far 
as its ability to survive against the mites. We need more 
research or continued research on the Africanized bee because 
we did find it had some good traits involved there.
    But we need to gear up and really zero in on mite research 
at this time. We're more afraid at this point of the mites than 
the Africanized Honey Bees.
    Mr. Skeen. You are?
    Mr. Stroope. Yes, sir. Mr. Chairman, we're afraid that if 
we don't staff this laboratory at Wesleco with bee research it 
will get staffed by ARS by some other commodity and eventually 
we'll lose that lab which was specifically built for bee 
research. And eventually we won't have it for our needs, but 
for some other commodity.
    Mr. Skeen. That wasn't the site of the original screw worm 
experimentation. That was Mission wasn't it Mission, Texas?
    Mr. Stroope. That, I don't know. I believe they did come to 
the valley.
    Mr. Skeen. If they're in the valley, I didn't know 
wherethey were. We initiated that program back in 1955 or somewhere 
along in there.
    Mr. Stroope. Well, we have already been told that if we 
don't get that lab properly staffed in Wesleco, we will----
    Mr. Skeen. They're going to shut it down?
    Mr. Stroope. Not shut it down. They will fill it with other 
research other than honey bee research. And at this time we 
don't need less honey bee research, we need more. So, we're 
zeroing in on that right now.
    Mr. Skeen. Have you lost any producers over the last 
several years?
    Mr Stroope. Mr. Brady might be able to answer that.
    Mr. Brady. I would say in the last five years, we're 
probably down 30 percent.
    Mr. Skeen. Thirty percent as far as just overall?
    Mr. Brady. In the United States, yes, sir. Some of those 
numbers are due to bad economics. But a lot of those numbers 
are due to the mite. It's interesting, since----
    Mr. Skeen. But this mite is a tremendous threat to you.
    Mr. Brady. A tremendous threat, yes, sir. To give you a 
real quick example, about four or five years ago when those 
mites hit my outfit, in the first year we lost about 1,500 
colony; not really knowing exactly what they were or how to 
handle them. And it was very interesting today, I ran across 
some people from California. They were in the almond business.
    One of the questions they asked me is why don't you guys 
get enough bees out there and pollinate our almond grove? And 
that's one of the reasons. We're having a hard time keeping our 
numbers up. So many people have gone out of business due to the 
mites.
    We just can't supply enough bait. The almond orchards are 
growing. Sunflowers, watermelons, cucumbers, tremendous amount 
of crops that have to have the bees for pollination. If we're 
going to be able to supply those bait, we're going to have to 
come into this research and try to keep these mites out.
    Mr. Skeen. Let me ask you one other question and this is on 
imported honey. Is that still a big problem for the industry?
    Mr. Brady. It's still a problem. We've begun to get a 
handle on that through, an anti-dumping suit. Prices have 
rebounded----
    Mr. Skeen. Against whom?
    Mr. Brady. China.
    Mr. Skeen. China?
    Mr. Brady. Yes, sir. Prices have rebounded somewhat. We're 
in better economic shape than we were a few years back. But 
it's not going to matter, in another five years it's not going 
to matter if honey is worth $5 a pound if we can't keep these 
bees alive.
    Mr. Skeen. If you don't keep your colonies alive.
    Mr. Brady. Yes.
    Mr. Skeen. Is this a full-time business for both of you 
gentlemen?
    Mr. Stroope. Yes, sir.
    Mr. Brady. Yes, sir; for all three of us.
    Mr. Skeen. All three of you.
    Mr. Brady. Yes, sir.
    Mr. Ross. I usually loose about 5 percent to 10 percent 
each year. Year before last I lost over between 40 and 50 
percent to the mites. I haven't recovered from that.
    Mr. Stroope. The thing that we're concerned about is we 
have a chemical, as Jerry said, which is a mite strip that we 
can use in the colony. We're very sensitive to what we put in 
there because honey is a food product, a pure food product. 
We've got to be very careful what we introduce into the hives.
    Mr. Skeen. You're talking about any chemicals.
    Mr. Stroope. Yes, sir. The one strip that we're using and 
is approved in the United States is the only chemical that 
we've got. And up to this point, we don't have anything to 
replace it; anything that's approved. Like Jerry said, the bees 
are already showing some resistance to this chemical; the mites 
are.
    If we don't get something else on the road coming in to 
help us--bar the door because there is not anything that's 
going to stop it.
    Mr. Skeen. Well, we certainly appreciate your testimony.
    Mr. Stroope. We appreciate your listening to us.
    Mr. Serrano?
    Mr. Serrano. I've been appreciating your testimony in the 
sense that people like myself, coming from New York would have 
at times a limited understanding of the issue. Your 
presentation was clear. And I understand it is a serious 
problem. I was really taken by the fact that 33 percent of our 
food supply is directly related to honey bee pollination. So, 
you've made your point certainly to me. And I fully understand 
what the problem is.
    Mr. Skeen. Do you have any environmentalists that are 
supporting the mites?
    Mr. Stroope. We hope not.
    Mr. Skeen. We'll send you some coyote lovers.
    Mr. Stroope. Send them on down.
    Mr. Skeen. All right. You've got a mite for them?
    Mr. Stroope. We may have.
    Mr. Skeen. We'll take care of that problem. Any other 
questions?
    Mr. Serrano. No, Mr. Chairman.
    Mr. Skeen. Thank you very much for your testimony. We 
understand it is a severe problem. We will see what we can do 
to help you.
    Mr. Stroope. We appreciate that very much.
    Mr. Skeen. Thank you all. We want to thank all of you for 
attending. We're adjourned.
    [The prepared statement of Jerry Stroope follows:]

[Pages 111 - 112--The official Committee record contains additional material here.]


                                           Tuesday, March 11, 1997.

               AMERICAN SOCIETY FOR NUTRITIONAL SCIENCES

                                WITNESS

ROBERT J. COUSINS, PRESIDENT

    Mr. Skeen. The committee will come to order.
    We have outside witnesses here today. First up is Dr. 
Robert J. Cousins, American Society For Nutritional Sciences. 
Welcome. We are glad to have you abstract your statement. We 
have a copy of your written one and it will all be entered in 
full in the record.
    Dr. Cousins. Thank you.
    Mr. Skeen. If you will abstract it, the floor is all yours. 
Welcome.
    Dr. Cousins. Thank you very much. Good afternoon. My name 
is Bob Cousins. I'm the Boston Family Professor of Human 
Nutrition at the University of Florida. For 25 years I've 
taught and conducted research in the area of nutritional 
biochemistry.
    I'm here today as President of the American Society For 
Nutritional Sciences. Our professional society is comprised of 
3,500 nutritional research scientists. Our members hold 
positions at virtually every Land Grant and private institution 
in the United States that conducts nutrition research. Our 
members are also in the food and nutrition related industries.
    I'm very glad to have the opportunity to be here today. I 
want to thank Congress for the past generous support of all 
USDA programs. I specifically would like to address the USDA 
programs in nutrition and food safety which are important to 
individuals in all Congressional districts.
    My specific purpose is to emphasize the importance of the 
Competitive Grants Program of the National Research Initiative. 
As you know, research under the NRI is in the form of peer-
reviewed, modest, two- to three-year awards. But unfortunately 
the NRI has never come closer than 20 percent of its full 
authorized level of $500 million.
    In the Human Nutritional Program funding is such that on 
average there is only one proposal for every two states. And 
unfortunately, this is at a time when research tools in all of 
biological sciences are of greater potential than ever before. 
This is really the golden age of the life sciences.
    And in my written testimony I've given a number of examples 
of just a few that really highlight what has been accomplished. 
The area of obesity, for example, is now being studied at the 
molecular level based upon observations that were made over 40 
years ago.
    And I mention this really because research is a long-term 
investment. And the USDA has made a long-term investment in 
this research. Our society recommends increasing the NRI budget 
to $138 million for fiscal year 1998.
    This recommendation is at the level for the NRI that was 
arrived at, at a consensus conference on funding in the life 
sciences held recently by the Federal of American Societies For 
Experimental Biology. We believe the NRI is the best method of 
getting the most highest quality research in a cost effective 
way for programs that are of vital interest to the American 
people.
    Thank you for the opportunity and if there are any 
questions I'll try to answer them.
    Mr. Skeen. Dr. Cousins, how many Land Grant Colleges are 
involved with your effort; all of them?
    Dr. Cousins. Virtually all in our society, yes.
    Mr. Skeen. Virtually all of them.
    Dr. Cousins. It covers the full gamut.
    Mr. Skeen. Texas A&M is one?
    Dr. Cousins. You'd better believe it.
    Mr. Skeen. Well, I just want to be sure we are.
    Dr. Cousins. You are. Ed Harris and Joann Lupton is the 
Associate Editor of our Journal.
    Mr. Skeen. Well, we appreciate the work you're doing. Your 
research is important. Money is our big problem. As you know, 
we will try to do the best we can with the request. We think 
this is a fundamentally important piece of work. We appreciate 
what you do. Mr. Walsh.
    Mr. Walsh. No questions, Mr. Chairman.
    Mr. Skeen. You are scott free.
    Dr. Cousins. Thank you very much, sir.
    Mr. Skeen. Your check will be in the mail.
    Dr. Cousins. Thank you.
    [The prepared statement of Dr. Cousins follows:]

[Pages 115 - 129--The official Committee record contains additional material here.]


                                           Tuesday, March 11, 1997.

                        AMERICAN CANCER SOCIETY

                                WITNESS

MARY THOMPSON, VOLUNTEER

    Mr. Skeen. We have next Mary Thompson, a lady that I've 
known for just a few years. I wanted to say it was quite a long 
time, Mary. Welcome, Mary.
    Ms. Thompson. Just don't say how old we were when we met 
each other and we'll be okay, Mr. Chairman.
    Mr. Skeen. Well, we were a lot younger, but we still made 
it.
    Ms. Thompson. That's right. That's right.
    Mr. Skeen. Glad to have you here, Mary.
    Ms. Thompson. Thank you.
    Mr. Skeen. If you will abstract your statement, it will 
appear in full in the record. Then we will open for questions. 
Thank you, Mary.
    Ms. Thompson. I want to tell the committee that I am from 
Las Cruces, New Mexico. And I'm a volunteer with the New Mexico 
Division of the American Cancer Society and a former state 
legislator. I am pleased to be here on behalf of the American 
Cancer Society, the nation's largest community based voluntary 
health organization dedicated to the elimination of cancer.
    With more than two million volunteers nationwide, the 
American Cancer Society is the community based leader in cancer 
control.
    The American Cancer Society is also the largest source of 
private cancer research funds in the United States. Although 
most federally funded cancer research and control programs are 
coordinated by the Department of Health and Human Services, 
there are other key players.
    The American Cancer Society believes that the war on cancer 
requires a coordinated national effort. The Food and Drug 
Administration and the Department of Agriculture are an 
important part of this national effort. And I will focus my 
remarks on some specific programs of interest.
    Research shows a clear relationship between diet, 
nutrition, and cancer. As many as 35 percent of all cancer 
deaths in the United States are related to poor nutrition. We 
are pleased to see that federal agencies such as the FDA and 
the USDA are taking steps to reverse this trend. The society 
applauds the work of the FDA in implementing nutrition labels 
for food, which are allowing people to make better, more 
informed choices about the food they eat. We also commend the 
USDA, through its Food and Consumer Service, for its emphasis 
on ensuring healthy high quality foods for children enrolled in 
federally funded child nutrition programs.
    An integration of these programs with federal nutrition 
guidelines is an excellent example of a cost effective 
coordinated federal approach to primary disease prevention. In 
addition to providing sound nutrition guidelines, our nation 
must ensure that our youngest citizens get the fuel they need 
to succeed in school.
    Nutrition experts estimate that as many as 20 percent of 
children do not get regular meals at home and are chronically 
hungary. The American Cancer Society urges this subcommittee to 
provide full funding for the National School Lunch Program, the 
School Breakfast Program, WIC, and the Child and Adult Care 
Food Program which will level the playing field and allow all 
children an equal opportunity to succeed in school and in life.
    Another significant health threat is tobacco use. We 
believe the federal government should no longer support tobacco 
growth and promotion through the United States Department of 
Agriculture. The Centers For Disease Control and Prevention 
have publicly acknowledged the dangers of tobacco use and have 
spent millions of tax dollars to fund public health programs to 
prevent or reduce tobacco use.
    In our view, it does not make sense to continue providing 
federal assistance for the growth and promotion of tobacco 
products when we are working to protect our children from its 
dangers. We believe these funds would be better spent to 
facilitate the growth of alternative crops for the tobacco 
farmers.
    The American Cancer Society is also extremely 
concernedabout the growing number of children who are using tobacco 
products. Tobacco use remains the single largest preventable cause of 
premature death in the United States. This year alone tobacco use will 
claim more than 420,000 lives, including over 30 percent of all cancer 
deaths.
    What is most distressing is that 90 percent of all smokers 
start as teenagers. And the use of tobacco products among the 
teenage population is on the rise. Every day 3,000 children 
start using tobacco. The Centers For Disease Control recently 
reported that teen smoking is at a 20-year high.
    Five million of our children will ultimately die from 
tobacco related diseases and will cost our economy $200 
billion. Our greatest opportunity to save lives is to stop 
children from ever beginning to use tobacco products. The 
American Cancer Society urges this subcommittee to support the 
strong federal youth tobacco control policies being instituted 
by the FDA.
    We believe the FDA's regulation of tobacco is a critical 
step to reduce the number of children using tobacco products. 
The American Cancer Society believes that enforcement is the 
critical component of this comprehensive program. The $34 
million to enforce the Youth Access Initiatives included in 
FDA's budget is an important first step.
    We are hopeful that States will be encouraged by this 
leadership at the federal level to increase state funding for 
enforcement that will enhance the FDA's efforts. The programs 
mentioned above are important in preventing or reducing risks 
from cancer. Equally important are policies that assure quality 
health care for all Americans.
    For decades, the FDA has played a vital role in ensuring 
safety and effectiveness of drugs and medical devices. The 
American Cancer Society supports a strong FDA that, based on 
sound scientific practices, assures that Americans have speedy 
access to safe and effective drugs.
    We believe reforms that have already begun to speed the 
approval of safe and effective drugs for cancer patients must 
continue. We realize that the current system for approving 
drugs is imperfect, but believe that there has been some 
improvement in the last year.
    We applaud the cancer initiatives implemented by the FDA 
last year, and are pleased that efforts are being made to 
improve patient access to promising new cancer therapies. The 
General Accounting Office suggests that since the 
implementation of the Prescription Drug Users Fee legislation, 
the FDA has been able to reduce the length of time necessary to 
approve drugs. But there is still work to be done in this and 
in other areas within the FDA.
    Finally, we call your attention to the Mammography Quality 
Standards Act of 1992. The intent of Congress in enacting this 
law was to improve the safety and effectiveness of this breast 
cancer screening modality through a national quality assurance 
program.
    Mammography, along with physical examination of the breast, 
is the only screening modality clearly tied to reducing death 
from breast cancer. However, the benefits of screening for 
breast cancer may be lost or diminished if women do not receive 
high quality mammography.
    Since its enactment, more than 10,300 mammography 
facilities have fully or provisionally met the law's 
requirements to become certified. Today, we ask that you 
continue your support for this valuable program and provide 
full funding for the MQSA.
    Mr. Chairman, that's the total of my remarks. I thank you 
all for the time.
    Mr. Skeen. We thank you for the presentation. You've 
touched on some very important topics. FDA is under the purview 
of this subcommittee. We have a new head. We think they've done 
an admirable job in the past, but we think we can brighten 
things up by getting this process in a little quicker stance.
    We appreciate the recommendations you have made on cancer 
and tobacco use. These are all vital topics of conversation and 
legislation in the body today. We share your concerns. Thank 
you for your presentation. Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman, and I do too. Thank 
you; nice job. I would just like to tell you I agree with you 
on the Mammography Quality Standards Act of 1992. I will do 
everything I can to make sure that's fully funded. That's very 
important.
    Mr. Skeen. Thank you, Mary.
    [The prepared statement of Mary Thompson follows:]

[Pages 133 - 144--The official Committee record contains additional material here.]


                                           Tuesday, March 11, 1997.

                    GROCERY MANUFACTURERS OF AMERICA

                                WITNESS

STEPHEN A. ZILLER, VICE PRESIDENT, SCIENTIFIC AND REGULATORY AFFAIRS

    Mr. Skeen. We have Stephen Ziller with the Grocery 
Manufacturers of America. Welcome, Steve.
    Mr. Ziller. Thank you.
    Mr. Skeen. We'll take an abbreviated version. Your full 
text will be in the record. You may proceed any way you'd like.
    Mr. Ziller. Thank you, Mr. Chairman and other Members of 
the subcommittee. I am Steve Ziller, Vice President of 
Scientific and Regulatory Affairs for the Grocery Manufacturers 
of America. We appreciate the opportunity to come in on behalf 
of GMA on the FDA and USDA budgets for fiscal year 1998. And in 
particular, share our views about user fees for the food 
industry. GMA is the organization representing companies that 
make and market the world's best known brands of food and 
consumer package goods. GMA member companies have sales of 
nearly $400 billion representing the largest volume, about 90 
percent, of all of the products that are sold in retail in the 
United States.
    Our members are regulated by both FDA and USDA. GMA opposes 
the President's fiscal year 1998 user fee proposals on the food 
industry for the following reasons. One, user fees imposed on 
the food industry are bad public policy.
    User fees, by definition, are intended to reimburse 
agencies for specific private benefits that they provide to 
identifiable regulated companies. The availability of asafe, 
plentiful, and affordable food supply however benefits the public 
generally.
    Consequently, regulatory activities such as post-marketing 
surveillance and inspection should be paid by public funds and 
not user fees. As Congress itself has repeatedly pointed out in 
previous years, these regulatory activities are designed to 
protect the public health and should not be funded by new taxes 
on the regulated industries.
    Two, user fees are essentially a regressive tax on food 
products. Imposition of user fees in effect would constitute an 
inappropriate tax on products essential to the health and well-
being of the American public. Although user fees would be paid 
by food companies, the ultimate cost would be borne by 
consumers, many of whom are least able to pay.
    Number three, FDA principally regulates food by taking 
regulatory action against adulterated and mis-brand products, 
and are largely dedicated to enforcement activities which 
benefit the public at large, and which therefore are properly 
funded out of general revenues.
    Four, the imposition of user fees on food companies would 
encounter serious practical difficulties. Unlike the drug 
companies which are subject to FDA registration and product 
listing requirements, there is at present no way to identify 
all of the hundreds of thousands of food establishments and 
food products for which user fees might be imposed.
    Five, unlike the new drugs, food manufacturers may change 
product formulas frequently, taking advantage of availability 
of various raw materials. Thus, creating new products all the 
time. Thus, a user fee for products would be virtually 
impossible to manage.
    Six, the only type of food product for which any form of 
FDA pre-market approval is required is for individual food 
additives. And there are only about one petition every year for 
a new direct food additive.
    Seven, a user fee requirement related solely to food 
additive petitions would be inappropriate. Unlike a new drug 
application which gives the successful applicant an exclusive 
private license to sell a drug product, a food additive 
petition results in promulgation by FDA of a non-exclusive 
public regulation authorizing use of the additive by any person 
wishing to do so. Thus, there is no unique benefit to the food 
additive petitioner.
    Mr. Chairman, in conclusion GMA opposes any effort to 
extend the user fee concept to the food industry. As we've 
written in letters to Members of this committee, GMA remains 
committed to a strong FDA and USDA. Congress, however, should 
provide funding to meet its statutory requirements; that it is 
to protect the public health, that it is assigned to these 
agencies.
    Thank you very much.
    Mr. Skeen.  Thank you very much, Steve. We appreciate your 
presentation. We will put you down as doubtful about user fees.
    Mr. Ziller.  Thank you.
    [The prepared statement of Stephen A. Ziller, Ph.D., 
follows:]

[Pages 147 - 154--The official Committee record contains additional material here.]


                                           Tuesday, March 11, 1997.

                     AMERICAN PHYSIOLOGICAL SOCIETY

                                WITNESS

C. TERRANCE HAWK, PH.D., DEPUTY DIRECTOR, DIVISION OF LABORATORY ANIMAL 
    RESOURCES, DUKE UNIVERSITY MEDICAL CENTER

    Mr. Skeen.  Terrance Hawk.
    Mr. Hawk.  Good afternoon.
    Mr. Skeen.  Welcome, Mr. Hawk. You've heard the litany 
about the abbreviated forum. The entire text will be in the 
record. We welcome you here, and you may proceed any way you'd 
like.
    Mr. Hawk.  I'd like to start out by mentioning that toward 
the end I will have something to say about user fees, myself.
    Mr. Skeen.  Everybody's got a little itch.
    Mr. Hawk.  That's right.
    My name is Terry Hawk and I am here today to testify on 
behalf of the American Physiological Society concerning the 
appropriate funding level for enforcement of the Animal Welfare 
Act; a subject of profound concern to the biomedical research 
community.
    I'm the Deputy Director of the Division of Laboratory 
Animal Resources at Duke University Medical Center located in 
Durham, North Carolina. I am, in fact, both a scientist and a 
veterinarian. I have a doctorate in human physiology and was 
previously an NIH-funded research scientist.
    I also have a doctorate in veterinary medicine and I'm 
board certified as a specialist in laboratory animal medicine. 
My background in both physiological research andlaboratory 
animal medicine gives me a unique perspective on the importance of 
animal welfare to science itself. For the past two years I've been the 
Chairman of the American Physiological Society's Animal Care and 
Experimentation Committee.
    The American Physiological Society is the nation's oldest 
learned society dedicated to medical research. It was founded 
in 1887. And the Society now has more than 8,000 members.
    I've come to testify in support of funding the Animal 
Welfare Act enforcement within the USDA's Animal and Plant 
Health Inspection Service, also known as APHIS.
    Given the current budget environment we also believe that 
APHIS should have clear priorities to make the most of its 
funding. Enforcing regulations concerning USDA license Class B 
Dealer should be one of those priorities. I note the Class B 
Dealer supply about one-third of non-purpose bread dogs and 
cats used by research institutions.
    You are no doubt aware of allegations that large scale pet 
theft is taking place in this country. There have been well-
publicized claims that as many as one- to two-million stolen 
dogs and cats are sold each year to research laboratories.
    Because Class B Dealers supply dogs and cats to research 
institutions there has been a call to eliminate these dealers 
as a way to end pet theft. However, in some places where animal 
activists have succeeded in closing pounds and shelters to 
research, there is no source of non-purpose bred animals other 
than Class B Dealers.
    I note that last year the House Agriculture Subcommittee 
held hearings on pet theft allegations and USDA enforcement 
efforts. The research community finds itself in an impossible 
position of proving a negative.
    That animals used in research are not stolen pets. We don't 
want to use stolen pets in research. I think everyone is aware 
of that. We want legally acquired non-purpose bred animals that 
no one wants to so that we can study important health problems 
that affect humans and animals alike.
    These accusations of massive pet theft frightened the 
public. And while there is a very good reason to doubt those 
claims, there is also evidence that some aspects of APHIS 
enforcement have been inadequate. Therefore we believe that the 
answer to the pet theft claim is good enforcement of existing 
animal welfare act regulations which already has provisions to 
ensure that Class B Dealers do not receive stolen animals.
    The research community supports enforcement of the Animal 
Welfare Act regulations, including revoking the license of any 
animal dealer that acquires stolen animals or repeatedly 
refuses to comply with other provisions of the law. APHIS 
clearly recognizes the importance of its enforcement rule and 
has taken steps to ensure compliance by investigating 
complaints against Class B Dealers. APHIS must continue to give 
these inspection efforts the high priority they deserve. The 
Administration has requested $9.175 million for Animal Welfare 
Act enforcement. The program's funding has hovered around this 
figure for the past five years.
    This has required APHIS to take difficult steps such as 
closing regional offices and not filling vacant Animal Welfare 
Inspector positions. Even if the current budget precludes an 
increase, APHIS definitely needs the full $9.175 million in 
fiscal year 1998 to carry out its responsibilities.
    While unclear, the Administration's budget request seems to 
rely upon new user fees to supply $3 million of the requested 
funds. Unfortunately, these fees have not been formally 
proposed by the Administration, much less approved by Congress.
    Nevertheless, the request seems to rely upon these fees to 
replace $3 million in appropriated funds. I urge this committee 
to take a very close look at this matter. APHIS needs to be 
given both the necessary funding and a clear sense of 
priorities to continue its work of enforcing the Animal Welfare 
Act regulations.
    Thank you for this opportunity to express the views of the 
American Physiological Society.
    Mr. Skeen. Thank you very much, Doctor. How many doctors do 
you have?
    Mr. Hawk. I have two.
    Mr. Skeen. Two. It sounds like three. I was going to give 
you another one there. That's a fair presentation. How do you 
assess user fees on a situation such as yours? How in the world 
would that work?
    Mr. Hawk. Well, when an investigator comes, let's say, he 
would come to Duke University to do our site visit, then we 
would probably be charged for the amount of time that he is 
there. That's one way of producing the user fee.
    Mr. Skeen. So, you have to pay for the inspection.
    Mr. Hawk. Right.
    Mr. Skeen. Well, I'll tell you what. There is a lot of 
artificial thinking going on around here.
    Mr. Hawk. That's what it sounds like.
    Mr. Skeen. I really appreciate the response. How do you 
impose user fees on a research project? But then, I guess it 
could be done.
    Mr. Hawk. Right.
    Mr. Skeen. Mr. Walsh.
    Mr. Walsh. I've got a feeling no if you have anything to 
say about it, Mr. Chairman. No. Thank you very much for your 
comments.
    Mr. Hawk. Thank you again.
    [The prepared statement of C. Terrance Hawk follows:]

[Pages 158 - 170--The official Committee record contains additional material here.]


                                           Tuesday, March 11, 1997.

                             HUMANE SOCIETY

                                WITNESS

WAYNE PACELLE, VICE PRESIDENT, GOVERNMENT AFFAIRS AND MEDIA

    Mr. Skeen. Wayne Pacelle from the Humane Society.
    Mr. Pacelle. Thank you, Mr. Chairman. Good afternoon, Mr. 
Walsh.
    Mr. Walsh. Good afternoon.
    Mr. Pacelle. I'm Vice President of Government Affairs and 
Media for the Humane Society of the U.S. And I'll summarize our 
testimony. There are 12 subject areas which would be covered in 
the written testimony. I'll just address three very briefly.
    Mr. Skeen. We appreciate that. It will all be in the 
record.
    Mr. Pacelle. Yes. First is the Market Access Program. And 
one particular program in Market Access we supported the 
elimination of funding for the Mink Export Development Council 
in 1995. And the House and the Senate overwhelmingly voted to 
bar funding for that program.
    Your committee continued that bar in 1996. We would urge 
you to do the same in 1997. Regarding the Animal Welfare Act, 
we request $12 million in funding towards the Animal Welfare 
Act. We're concerned about continuing problems in 
implementation for the Animal Welfare Act.
    Currently there are 73 inspectors covering 13,000 licenses 
facilities, including 2,992 registered research facilities that 
house laboratory animals. The USDA continues to chase down 
class B dealers; those individuals that the previous gentleman 
mentioned, individuals who sell random source animals to 
laboratories. There are only about 40 of these B dealers.
    The USDA seems to be looking toward eliminating B dealers. 
We support that wholeheartedly. We're very concerned about the 
issue of pet theft. We cannot quantify how many animals, and 
we've never issued a figure in that regard.
    But obviously your committee has a responsibility for 
funding the Animal Welfare Act. We think that the funds should 
be spent wisely and judiciously. And a disproportionate amount 
of funds are being spent on chasing down these B dealers.
    Finally, Mr. McConnell on the Senate side was instrumental 
in getting a provision in the 1996 Farm Bill dealing with the 
commercial transportation of equines for slaughter; horse 
transport; Humane Horse Transport Standards. The agency folks 
have basically requested about $400,000 for developing 
regulations and implementing this program.
    It is our understanding that the Administration has now 
requested zero funds for this provision. We are quite 
concerned. We have a request here for basically the same amount 
that was originally requested by the people who know how to 
implement this program.
    There have been many problems with the transport of horses; 
animals being shipped on double-deck trailers, and all sorts of 
inhumane standards with respect o the treatment; almost 
entirely unregulated.
    That concludes my testimony, Mr. Chairman.
    Mr. Skeen. Are you opposed to, say, livestock haulers who 
take sheep on the triple deckers?
    Mr. Pacelle. Are we opposed to the shipping of livestock, 
non-equines?
    Mr. Skeen. Yes, non-equine.
    Mr. Pacelle. You know, I'd have to talk to some of our 
folks in our farm animals section. I don't believe we've ever 
commented on it.
    Mr. Skeen. I was just curious about it.
    Mr. Pacelle. Yes. We're principally concerned about the 
double deckers with respect to the horses.
    Mr. Skeen. The horses.
    Mr. Pacelle. Yes.
    Mr. Skeen. You realize that the ownership of federal land 
from a management situation has been over-blown in the press. 
Only about 900 head; their original compilation was something 
like 2,000, 3,000, 4,000; something like that.
    Mr. Pacelle. In terms of the number of VLM horses that go 
to slaughter?
    Mr. Skeen. A lot of them are just transported by private 
deals. How many sectors did you say they have?
    Mr. Pacelle. Seventy-three.
    Mr. Skeen. Seventy-three.
    Mr. Pacelle. Yes.
    Mr. Skeen. To cover the entire spectrum of it. How many 
possible inspections are you going to make? How many thousand?
    Mr. Pacelle. I don't have the figure with me.
    Mr. Skeen. You mentioned one in your text.
    Mr. Pacelle. Yes. There are 13,000 licensed facilities.
    Mr. Skeen. Thirteen thousand.
    Mr. Pacelle. Yes. Almost 3,000 are registered in research 
facilities that house laboratory animals.
    Mr. Skeen. That's a tough job for that number.
    Mr. Pacelle. Well, it's incredible. It almost strikes me as 
a farce. The spending priorities need to be set very 
explicitly. And the B Dealer issue is just taking too much 
time. How every one feels about the B Dealer issue, it's just 
taking too much time for the Agency.
    Mr. Skeen. I understand. Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman. Thank you for your 
testimony, sir. I'm just curious. On your list of issues, and 
you didn't cover all of them, but sustainable agriculture 
programs is in here. Why would the Humane Society be interested 
in those? There is strong support I think for those, but why 
the Humane Society. Why don't you comment on those.
    Mr. Pacelle. Generally, we're critical of intensive 
confinement systems for animals when they're being raised for 
commercial food production. The more intensive the confinement 
conditions, the less the animals social and behavioral needs 
are taken into account. Generally, we think there is a 
correlation between sustainable agriculture and more extensive 
systems to take the behavioral and social needs of the animals 
into account.
    Mr. Walsh. So, you would be opposed to any large scale 
livestock farming operations?
    Mr. Pacelle. We'll we're particular about things like 
battery cages for hens and egg-laying productions when you've 
got six or seven hens crammed into a small battery cage of 
confinement systems for pigs.
    Generally, our view is the animal's welfare is not taken 
into account as much in those systems. And we prefer more 
extensive systems, like Mr. Skeen who has them on the range 
there.
    Mr. Walsh. I see.
    Mr. Pacelle. Range fed sheep.
    Mr. Walsh. Thank you.
    Mr. Pacelle. Thank you.
    Mr. Skeen. Thank you for your presentation.
    [The prepared statement of Wayne Pacelle follows:]

[Pages 173 - 180--The official Committee record contains additional material here.]


                                           Tuesday, March 11, 1997.

                        UNIVERSITY OF PUERTO RICO

                                WITNESS

DR. STUART J. RAMOS, CHANCELLOR OF THE UNIVERSITY OF PUERTO RICO AT 
    MAYOGUEZ

    Mr. Skeen. Dr. Stuart J. Ramos. Welcome.
    Dr. Ramos. Thank you.
    Mr. Skeen. Dr. Ramos, please proceed any way you'd like.
    Dr. Ramos. I am Stuart J. Ramos, Chancellor of the 
University of Puerto Rico at Mayaguez. With me is Dr. John 
Fernandez Van Cleve, Dean and Director of the University's 
College of Agricultural Sciences. I want to thank you for the 
opportunity to testify before you today, and for this 
subcommittee's support of the UPR and other Hispanic serving 
institutions dedicated to high quality research of equations in 
science, engineering, and technology.
    In the past 14 years the Department of Agriculture has been 
a partner with the University of Puerto Rico in research 
programs aimed at improving agricultural development and 
production in the Caribbean Basin region. This region plays an 
integral part in the nation's agricultural trade mission.
    Recently, the University has recognized the need for a 
centralized structure that will coordinate tropical research 
efforts in the Caribbean with those in the United States in a 
more efficient and productive manner. Today, there has never 
been a systemic assessment of assisting research efforts, nor a 
long time term for addressing many of the regions 
agriculturally related problems.
    As a result, the University of Puerto Rico has initiated 
efforts to establish a comprehensive, multi-
disciplinaryinstitute of tropical agriculture, food and environmental 
safety to serve as the central point for coordinating agricultural 
research and training efforts within the United States and countries in 
the Caribbean Basin.
    There are many factors which support the establishment of 
the Tropical Agricultural Institute of the University of Puerto 
Rico. First, the University of Puerto is the only Land Grant 
Institution in the United States with a tropical agricultural 
science program positioned in the Caribbean.
    Second, Puerto Rico is uniquely qualified to support the 
variety of tropical agricultural research activities. In 
addition to its multiple ecosystem that goes from a tropical 
rain forest to semi-arid regions, the island is home to 15 of 
the 16 known soil samples in the world.
    Sir, Puerto Rico's agricultural issues are also similar to 
those countries in the Caribbean Basin. The island shares many 
tropical diseases, climate conditions, water management and 
quality, and soil conditions that affect most of the countries 
in the Basin.
    Lastly, the University of Puerto Rico is already partnering 
with many of the countries in the Caribbean Basin, the federal 
government, as well as mainland institutions of higher 
education. As the base for mainland research in tropical 
agriculture, the University of Puerto Rico hopes to be an 
important tool in the nation's understanding of the 
agricultural issues affecting this region of the world. With 
this in mind, Mr. Chairman, we ask for funding to maintained in 
the fiscal year 1998 for the Department of Agriculture's 
Special Research Grant Program, which supports tropical 
research activities. And that $250,000 be added to that account 
or be provided through the Fund For Rural America account to 
support the establishment of the Tropical Agricultural 
Institute.
    Mr. Chairman, this concludes my testimony. And I thank you 
again for allowing me to appear before you today.
    Mr. Skeen. Delighted to have you here. We take your message 
very seriously. I had the pleasure of visiting your country on 
the Island of Puerto Rico a couple of times. I never cease to 
be amazed at how beautiful it is. We've had a lot of discussion 
about the importation of fruits, and vegetables, and so forth.
    We need to do something about getting the kind of quality 
and approaching some of the problems that you've had with plant 
diseases. So, we take your message very seriously.
    Would you introduce your companion please?
    Dr. Ramos. Dr. Joseph John Fernandez Van Cleve, the Dean of 
the Agricultural Sciences.
    Mr. Skeen. Bienvenido.
    Dr. Cleve. Gracias.
    Mr. Skeen. De Nada, Senior. Thank you very much.
    Dr. Ramos. Thank you.
    Mr. Skeen. Mr. Walsh.
    Mr. Walsh. No questions, Mr. Chairman. Thank you both very 
much.
    Dr. Ramos. Thank you very much for your attention.
    [The prepared statement of Dr. Stuart J. Ramos follows:]

[Pages 183 - 203--The official Committee record contains additional material here.]


                                           Tuesday, March 11, 1997.

                      REGIONAL AQUACULTURE CENTER

                                WITNESS

DR.  KEN  CHEW,  DIRECTOR,  WESTERN  REGIONAL  AGRICULTURE CENTER

    Mr. Skeen. Dr. Ken Chew. Welcome, Dr. Chew.
    Dr. Chew. Good to see you again.
    Mr. Skeen. It's good to see you again. Did you bring any 
fish with you this time? No fish?
    Dr. Chew. No fish.
    Mr. Skeen. We welcome you and would you proceed with your 
message. We'd appreciate it if you would abstract it if you 
can. The script in full will be in the record. Thank you.
    Dr. Chew. Thank you Chairman Skeen and Mr. Walsh, and of 
course the other Members of the subcommittee who are not able 
to hear my statement.
    But we do appreciate the opportunity to come before you 
today to express our thanks for your continued support over the 
years. It has been just great. We have put out a good product. 
In any case, I am Ken Chew. I am presently the Director now of 
the School of Fisheries. I used to be a former Director of the 
Western Regional Aquaculture Center; one of the five centers 
that is funded.
    And now, I'm on the Board of the Western Regional 
Aquaculture Center. I'm really here to represent the Regional 
Aquacultural Center, per se. And the Directors of the five 
centers are all here and they're sitting behind me. But any 
how, the center's efforts are basically driven by the industry 
itself. I'm not going to take a lot of time. I'm going to turn 
it right over to Mr. Lester Meyers, to my right, who is the 
President and General Manager of Delta Western, Inc. And over 
to my far left is Mr. Jim Parsons who is the Research and 
Technical Director for Blue Trout Farm at Twin Falls, Idaho.
    Mr. Skeen.  Welcome to both of you. Go ahead and proceed.
    Mr. Meyers.  As Dr. Chew said, my name is Lester Meyers and 
I operate a family farm near Inverness, Mississippi. I have 
about a 400 acre fish farm and we also have rice and soybeans. 
For the past number of years I've served as an industry advisor 
Chairman for the Southern Regional Aquaculture Center.
    So, I've been associated with the centers here a good bit. 
There are basically three characteristics that set the regional 
centers apart from any other government funded operations. 
First, it's industry driven. The industry advisory people, 
which are made up of producers, marketing people, bankers, and 
other individuals set the priorities.
    Secondly, the Technical Committee, which is made up of 
research and extension people. They refine our priorities down 
to a research project.
    And then thirdly, it has to be basically in a regional 
significance. In the Southern region--technically, we have to 
cover two or more states. In the Southern region, all of our 
projects basically cover seven or more states. And I think this 
makes it very money efficient by encompassing all of the 
scientist personnel.
    In summary, the Regional Aquaculture Centers have a $7.5 
million annual budget. In fiscal year 1997 they were funded at 
$4 million or $800,000 per each of the centers. For the 1998 
budget, we strongly urge the $7.5 million funding if possible. 
On behalf of the aquaculture centers, we thank you for the 
opportunity to present our case in front of you today.
    Mr. Skeen.  We are glad to have you here. If the other 
gentleman has a statement he'd like to make, you may proceed.
    Mr. Parson.  As Dr. Chew mentioned, my name is Jim Parsons. 
I'm the Research and Technical Director for Blue Lakes Trout 
Farm in Twin Falls, Idaho. I've been personally involved with 
aquaculture for almost 20 years, usually in a research and 
development capacity.
    And as such, I've seen a lot of programs, both state, 
federal, and university that have offered research assistance 
to our industry. I truly feel that the Regional Aquaculture 
Center programs rank among the most well-conceived and 
productive programs that have been put forth for our industry.
    I think the success as Lester mentioned is due to several 
factors. Perhaps the most unique is that it is an industry 
driven program. Researchers identify, prioritize, and also 
monitor by an industry committee, and consequently focused on 
problems that are critical to our success or in often cases our 
survival as an industry.
    Secondly, and another very unique function of the RAC 
centers, is it brings research institutions together in a 
spirit of cooperation. It's truly refreshing to see 
researchers, that normally are competing for research dollars 
through grants, to sit side-by-side and work cooperatively with 
us on research needs addressed by our industry. So, I believe 
that both the concept and the reality of the Regional 
Aquaculture Center programs have demonstrated their worth.
    This program is an investment that is continuing to 
contribute manyfold returns to our industry and the nation's 
economy. And I thank you for your support of this program to 
date. I think that perhaps one of the best uses of our federal 
dollars in support of our aquaculture industry is through the 
full appropriation of the authorized funding level of $7.5 
million for the Regional Aquaculture Centers.
    Mr. Skeen.  We thank you. Give me some idea of what the 
total value, money-wise, in aquaculture production is in the 
United States today. Dr. Chew, do you have anything?
    Dr. Chew.  Yes. The total production has been slowly 
increasing. And it's up to 950 million pounds now; close to 
about $900 million.
    Mr. Skeen.  $900 million?
    Dr. Chew.  Yes.
    Mr. Skeen.  Well, this is a whole venue that has opened up 
only in the last 20 to 30 years. The research I think has made 
a direct contribution to that.
    Mr. Meyers.  It is 600 million pounds of catfish.
    Mr. Skeen.  How many?
    Mr. Parsons.  He had to put that in there.
    Mr. Meyers.  Six hundred million pounds of catfish.
    Mr. Skeen.  I was going to ask you what kind of fish do you 
have.
    Mr. Meyers.  Catfish.
    Mr. Skeen.  I love trout and catfish. That's a good 
combination.
    Dr. Chew.  If I might just add a point. I just came back 
from a U.S.-China joint coordinating panel over in NOAA. I was 
meeting with the Chinese. They were talking about their little 
figures of aquaculture production. They have a total of seafood 
production of 62.8 billion pounds right now. He said 55 to 60 
percent of that is from----
    Mr. Skeen.  This is in China?
    Dr. Chew.  In China.
    Mr. Skeen.  What's the population of China?
    Dr. Chew.  It is 1.3 billion people.
    Mr. Skeen.  No wonder. They've got to eat a lot of fish.
    Dr. Chew.  Well, I'll tell you they're going at it and 
they're looking at us for technology.
    Mr. Skeen.  That's quite a population base.
    Mr. Meyers.  The per capita consumption of fish in the 
United States is 13 to 14 pounds.
    Mr. Skeen.  Thirteen to 14 pounds.
    Mr. Meyers.  Eight-tenths is catfish. Eat it one more time 
and we'll double our industry.
    Mr. Skeen.  I don't want you all now fighting between 
catfish and trout.
    Mr. Parsons.  No, we're not. We're not.
    Mr. Skeen.  We were in Hawaii recently and went through the 
new research station that's being developed there and the 
propagation of marine fish. It's a tremendous situation in the 
laboratory there. They're practically carved out of almost 
nothing. This is becoming a very vital part of your food 
culture system of the whole country.
    Dr. Chew.  Well, very definitely because it is estimated 
that 70 percent of our present catchable stocks in the ocean 
now are depressed.
    Mr. Skeen.  Do you know what's depressed it?
    Dr. Chew.  If you want to, you can go and catch with nets. 
Aquaculture is going to have to pipe in.
    Mr. Skeen.  We will revitalize this whole situation. Thank 
you. Mr. Walsh.
    Mr. Walsh.  Thank you, Mr. Chairman. I'm an avid fisherman. 
I also did a little fish farming once. I've been a lot more 
successful at fishing than I was at fish farming. I'll tell you 
my story. I was a Peace Crops volunteer in Nepal which is a 
little country between India and China.
    There was a local agriculture station nearby, government 
agriculture. They grew grass carp there. And so we were going 
to do some fish farming in my district, but we had to do some 
soil samples first. So I took the soil samples up to the 
Capitol. I was gone for a couple of weeks. I told the farmer, 
don't do anything until I come back. When I got back there was 
a great big dry whole in the ground.
    It was all sand; it just was not going to hold water. Over 
there you don't just blow a whistle or pick up the phone and 
get a payloader. You get 20 guys with these things called 
codallies, which are like a maddox. And that's how they move, I 
don't know how many, yards of soil.
    It wasn't going to hold water very long. So, we didn't do 
any fish farming in that place. They saw the benefits. It was a 
growing industry there too. I think it really will benefit 
everybody. I think it will help the wildstocks tremendously. It 
already is in the fresh water industry.
    Not a lot of pressure on catfish in the wild I guess in the 
North as much as it is trout. But they're eating a lot of 
catfish in upstate New York; now, a lot more than they used to. 
I'm kind of interested, and maybe Dr. Chew, you can answer 
this. You mentioned the wildstock, specifically seafood. We're 
talking primarily about fresh water aquaculture here.
    But, you know, the cod stocks and haddock and all of the 
popular fish stocks. I know they're doing salmon. Salmon is 
commercial fishing in other countries, not quite as much here, 
but do you see the development of commercial fisheries for wild 
blue water fish stocks like cod, haddock, halibut; fish like 
that?
    Dr. Chew.  Yes. I think that very definitely there has been 
a big push to go into the marine area for production 
enhancement, you might say, putting small juveniles back into 
the open ocean. There is a controversy on those, but by the 
same token, this whole thing wasn't until stocks had been so 
depressed and eliminated, something had to be done.
    I know that being the Director of School Fisheries, we have 
a real solid program in resource and management. We try to help 
train people to go out to maintain the wildstocks at their 
level or improve it as much as we can. It's a very difficult 
situation right now. The halibut, fortunately, it's coming 
back, for example, in the North Pacific.
    And thank God, you know, we have one major fish we like, 
like the North Pacific salmon run in Alaska. At least it's 
holding its own in all of these things. But there are other 
stocks like even the Georgia banks and right off our coasts in 
California. In Washington, the sea bass, the little sea basses 
and all of these stocks that used to be in abundance is gone. 
The fisheries are disseminated.
    Mr. Walsh.  In Florida, they've pretty much banned netting 
in the inter-coastal waters.
    Dr. Chew.  Yes. Even, for example, on the global scale, 
some of the people like in the South China Sea they just 
abandoned a lot of these fishing areas because they're all 
fished out.
    Mr. Walsh.  My question was, as opposed to our artificial 
spawning in hatcheries and so on, do you see businesses like 
yours only in the ocean with a set-up of, not netting, but 
setting up a fish farm in bays in the ocean where you could 
raise the fish from spawn or from fingerlings up to a point 
where they're commercially saleable and not even have to go out 
and net the wildstocks?
    Dr. Chew. It's done now in the Northeast in Connecticut.
    Mr. Walsh.  It's done on salmon. Is it done also on cod and 
other stocks?
    Dr. Chew.  Not yet. Not yet. They're doing some on flat 
fish and the likes, and some of them like the red fish down in 
the south, in the Gulf. We're so brand new in this whole 
concept of aquaculture, because when you think about it 30 
years ago when you asked somebody on the street what's 
aquaculture, they scratched their heads. Is it agriculture or 
something like that?
    And so really it's a new thing. The trout, the salmon, and 
all of these sorts of things. A lot of things are happening. 
Catfish--a lot of the research work that has gone on, and this 
is what Lester alluded to, gone on back in the days of the 
experimental station, the experimental advisory in the USDA. 
They helped the catfish industry really get started way back.
    And in the trout industry, the same thing, to a great 
extent. So, many of these other fisheries that deal with the 
marine environment, it's just Johnny come late. And it's just 
starting to break through. Like for example, the very tasty--if 
you haven't tried it, you should try it, black cod from the 
Pacific Northwest.
    It is very oily, loaded with Omega 3s and things. And 
they're starting to culture those in British Columbia now and 
in the National Main Fisheries Service. They're doubling with 
it over in some of our local areas in Puget Sound. So, all of 
these new things, and also halibut, same thing.
    We're all looking at it very specifically with the idea of 
getting them through the hatchery state and maybe, like you 
said, put pans out and growing them up to market size and the 
like.
    Mr. Walsh.  Was there any--you may know this and you may 
not. Was there any reduction in the salmon run that would have 
been generated by the year the Valdez broke up in Alaska? Was 
there any impact on the succeeding year? The year that class of 
fish would have been generated, was there any reduction in the 
out years from that?
    Dr. Chew.  In fact, I talked to one of the researchers off 
the Valdez area who said, it came and they went. And basically, 
things are getting back to normal, that they don't see any 
major effects due to this.
    Mr. Walsh.  I just finished a book. It was a novel. It was 
fiction by a fellow named Kenkiai who wrote about a fishing 
village up in Alaska. And one of the things he talked about was 
a lot of it had to do with the effects of pollution and some of 
the things that were going on in the world.
    One of the things that he postulated was that a major oil 
spill destroyed much of the fish. While he wasn't talking about 
the Valdez oil spill he comments that every other year there 
was a real bad salmon run because the year the shipwreck 
occurred a lot of the fry were killed off.
    Dr. Chew.  That's not necessarily true because they are 
somewhat healthy, they come back. I mean, all it takes is a 
few. And this is what they're finding up in Prince William 
Sound and in some of these areas. In fact, in some of our 
farming operations, ocean ranching for example, in the 
Southeastern, you read about fish being given away. We have so 
many salmon. A lot of that is due to the aquaculture effort.
    Mr. Walsh. The price of salmon was so far down, they 
weren't even going out for them because there were so many of 
them. Just one last pitch. Tunicin Lab is in my district, 
Cortland, New York, developed most of the salmon fish. I think 
they, to a large extent, helped to make salmon farming a 
practical reality. And they're still there working away.
    Thank you very much.
    Dr. Chew. I just want to clear one point. We're presently 
receiving $4 million for the five centers. I think what Lester 
alluded to was we were authorized for $7.5. and if we can 
realize that we only have one increment at one time, we have 
$3,750,000. And then we've got an increment of $250,000 five 
years ago.
    Mr. Skeen. That was the last raise you had.
    Dr. Chew. That was the last raise. So, we're looking for 
it.
    Mr. Walsh. I think it's a good investment. We will do 
everything we can.
    Dr. Chew. Well, good.
    Mr. Skeen. We thank you.
    [The prepared statements of Dr. Ken Chew, Mr. Jim Parsons, 
Mr. Lester W. Myers and additional supporting statements 
follow:]

[Pages 210 - 273--The official Committee record contains additional material here.]


                                           Tuesday, March 11, 1997.

                      NATIONAL WATERSHED COALITION

                                WITNESS

RICHARD G. JONES, CHAIRMAN

    Mr. Skeen. All right, next we have Richard G. Jones with 
the National Watershed Coalition.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Skeen. Welcome. I'm glad you're here.
    Mr. Jones. I'm Richard Jones. I'm the current Chairman of 
the National Watershed Coalition. The National Watershed 
Coalition is pleased to present testimony in support of the 
most beneficial water resource conservation programs ever 
developed.
    We believe the Small Watershed Program, the Public Law 566, 
and the Flood Prevention Operations Program, Public Law 534, 
are programs that address our nation's vital natural resources, 
do so in a way that they provide more benefits than costs and 
serve as models for all federal programs.
    We are advocates of both the Small Watershed Program and 
the Flood Prevention Operations Program administered by the 
USDA's Natural Resource Conservation Service. These programs 
deserve much higher priority than they have had. Even in 
difficult financial times, their revitalization would pay 
dividends in monetary and other benefits and jobs.
    Every state in the United States has benefited from the 
Small Watershed Program. In order to continue this high 
priority work in partnerships with states and local 
governments, the Coalition recommends that fiscal year 1998 
funding level of $350 million for small watersheds and flood 
prevention operations, Public Law 566 and Public Law 534. We 
recognize in these difficult financial times that Congress may 
not find it possible to provide that amount. But we also 
believe we are not doing our job of helping recognize the true 
need if we continually recommend the federal share of these 
needed program funds be less.
    The local project sponsors in these federally assisted 
endeavors have also made tremendous investment. Additionally, 
the Coalition supports the $10.5 million for watershed 
planning, $13 million for River Basin surveys and 
investigations, and $38 million for the Resource Conservation 
and Development Program.
    The Coalition also supports $6.6 million for the Forestry 
Incentive Programs and suggest that the Emergency Watershed 
Program be provided with $20 million to allow the NRCS to 
provide rapid response in times of natural disaster. We would 
like to express our great concerns with the way the 
Administration's budget proposes to change the Watershed 
Program funding in fiscal year 1998.
    The Administration proposes taking $60 million from the 
Public Law 566 Small Watershed Program and putting it in the 
NRCS Conservation Operations account. While the 
Administration's budget suggest this approach simply combines 
some of the NRCS' technical assistance expense into one 
account.
    And the funds will be used for water resource assistance, 
we believe this is a means to put these funds in an account 
where they will not be used for Public Law 566 Small 
Watersheds, but will instead be spread around with virtually no 
program accountability.
    In our view, this represents a long-time desire of some in 
the Administration to circumvent the will of Congress and 
eliminate the Small Watershed Program. The Administration's 
budget also eliminates any funding for the 11 watersheds 
authorized by the Flood Control Act of 1944, which was about 
$18 million in 1997.
    But suggests that worthwhile Public Law 534 projects can be 
continued under the Small Watershed Program. How can that be 
with no adequate funding for small watersheds. We see this, 
again, as an administrative way to eliminate a Congressionally 
mandated program, and one which has provided many millions of 
dollars of benefits to society.
    Watershed project sponsors who were encouraged to assume 
that responsibility by the federal government now feel 
abandoned by that same federal partner. The Administration's 
budget also provides for an additional $18 million in the RC&D 
Program account, which we believe was the original Public Law 
534 funding.
    They would use this money for local non-federal watershed 
and range land coordinators. It is time for lesscoordinating 
and more actual work on the ground. The money taken from the Small 
Watershed Program, $60 million, put in the Conservation Operations 
account, and the $18 million in the RC&D account would be far better 
used and provide more real benefits if left in programs where Congress 
intended it.
    Please don't allow this Administration's money switching 
scheme. With the downsizing, in the NRCS' experience, we would 
be remiss if we did not express concern as to their ability to 
provide adequate technical support in these watershed program 
areas.
    The NRCS technical staff has been significantly reduced. 
And budget constraints have not allowed that expertise be 
replaced. We see many states where the NRCS capability to 
support responsibilities in these program areas is seriously 
diminished. This is a disturbing trend that needs to be halted.
    This downsizing has a very serious affect on state and 
local conservation program. The delivery system currently is in 
place. And by downsizing NRCS, we are ruining the most 
effective and efficient coordinative means of working with 
local people to solve environmental problems ever developed.
    Our system and its ability to produce food and fiber is the 
envy of the entire world. These programs are the most important 
federal programs in terms of national priorities. The Watershed 
Coalition thanks you for this opportunity to testify.
    Mr. Skeen. We appreciate your testimony. Unscramble for me, 
if you will, the differences between the various Public Laws 
you've cited, 566 and 534. Then also give me an idea of what 
they're trying to compress that into or what the Administration 
is trying to propose.
    Mr. Jones. The Public Law 566 Small Watershed Program came 
about in the 83rd Congress. It is administered by local people 
at the local level.
    Mr. Skeen. At the local level.
    Mr. Jones. At the local level. The 534 Program was a flood 
prevention operation program established by the government in 
which they came in, in certain watersheds like in Oklahoma. I 
know they've done a lot of work with that under the federal 
government. That was prior to the 566 Public Law.
    Mr. Skeen. I see. You're just stepping it up one notch this 
time.
    Mr. Jones. Yes.
    Mr. Skeen. Now, the Administration is proposing to put all 
of that money together.
    Mr. Jones. Yes. They're funding it at $101 million.
    Mr. Skeen. Your concern is that you'd lose your Small 
Watershed Program.
    Mr. Jones. Yes.
    Mr. Skeen. Thank you. I appreciate that. I just wanted to 
get the nuances straight with this thing. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman. Mr. Jones, one of 
the questions I've always had and have never quite been able to 
figure out on RC&D, there seems to be some overlap with them on 
what they're able to do in a community development block grant 
on some of the projects. Can you clarify in my mind better what 
RC&D does? I work closely with our folks and support the 
program.
    Mr. Jones. Well, the RC&D, the Rural Development & 
Conservation Program is also a local oriented program. It's a 
multi-jurisdiction program that local people, through a 
counsel, developed at the local level, and through a 
coordinator from NRCS.
    They do rural development work. They can work anywhere in 
the area of public housing, to hospitals, to flood prevention, 
to conservation, lumber mills, saw mills, those kinds of 
things. The difference between them and local watershed 
districts, the watershed district is a flood damage reduction 
program run by local--setup by state law.
    Mr. Kingston. Well, they seem to have a wide mission 
statement and a great multiplier. I see a woman in the back 
shaking her head vigorously. So, let me address both of you. 
It's a very good program, yet, at the same time, I wonder 
aren't there other federal programs doing it?
    And the reason why I say that is because I suspect that 
RC&D can do it better. I look at some of their programs and 
think these community development block grants do some of the 
same things. She's assured me there are none.
    Mr. Jones. I was not. I was going to, if allowed to, refer 
to Ms. Peggy Blackman who is on the National Board of the RC&D 
Association. I'm with the National Watershed Coalition and do 
not propose to be an expert in the RC&D area.
    Mr. Kingston. Okay.
    Mr. Jones. We are concerned that they shipped the money 
from the watershed program over to RC&D. That is our concern. 
Ms. Blackman is the expert who happens to be in the back row 
who can answer your question, if allowed.
    Mr. Skeen. Please come forward.
    Ms. Blackman.  I'm Peggy Blackman and I'm from Marion, 
Kansas. I am a legislative liaison for the National Association 
of RC&Ds. I'm on the Board. I'm also State Chairman of the 
Kansas Association.
    And yes, I was shaking my head vigorously because I 
participate with a lot of dedication to this program. I have 
been a mayor, an elected official of a very small community in 
rural Kansas. I know that the RC&D Program gave us the ability 
to go into programs that we simply were not aware of.
    Elected officials in your small communities have no time to 
go to meetings and so forth. Maybe you have staff and so forth 
from urban communities that do so. I also was the Chairman of 
the CDBG Task Force for the State of Kansas when the CDBG funds 
were turned over at the state level for the Small Cities 
Program.
    So, yes. I can answer to that too. The federal government's 
idea of a small city is anything under 50,000. We have over 13 
million people in this nation that live in towns of under 2,500 
in population. And the RC&D Program brings the technical 
assistance through one coordinator or 290 councils. I mean, 
each one has a coordinator.
    We receive nothing but an office space and a coordinator 
and the funding for the RC&D Program. Now, of that 290, 118 new 
ones have been approved and we have 39 additional ones waiting 
for authorization, plus new ones filing paperwork because they 
see the RC&D Program works in rural America.
    So, that is the vast difference between the CDBG funding 
and what we see coming through. We take the technical 
assistance offered through the RC&D and just in 1996 utilized 
by matching for every dollar coming in $10 to $20 of the 
federal funds for assistance. It ended up with over $432 
million coming into rural America that helped with 
infrastructure, economic development, housing; a whole gamut of 
things.
    It gives us the ability to network, and we do not have any 
other vehicle so to speak in place to do that. Again, Richard 
answered very correctly. We do not have nor have allowed 
jurisdictional boundaries to get in our way.
    Mr. Kingston.  Well, thank you Ms. Blackman. I appreciate 
that answer.
    Mr. Skeen.  I'm certainly glad we got a great education on 
the program. That lady knows her business.
    Ms. Blackman.  I've been in it a long time.
    Mr. Skeen.  Thank you very much.
    [The prepared statement of Richard G. Jones follows:]

[Pages 278 - 284--The official Committee record contains additional material here.]


                                           Tuesday, March 11, 1997.

                            KOTASYS PROJECT

                                WITNESS

RICHARD MOLSEED, ASSISTANT VICE PRESIDENT FOR MARKETING AND STRATEGIC 
    INITIATIVES

    Mr. Skeen.  Mr. Richard Molseed from the Kotasys Project. I 
hope I'm pronouncing that right.
    Mr. Molseed.  That's correct, Mr. Chairman. Thank you for 
seeing us today even though there was some mix-up about 
witnesses today, and we apologize for that mix-up.
    Mr. Skeen.  Well, we apologize for not getting it 
straightened out earlier with you. So, we will share the blame 
with you and go right on about our business like we really 
intended to do in the first place. So, welcome. Glad you're 
here. Proceed.
    Mr. Molseed.  Thank you, Mr. Chairman and Members of the 
subcommittee. My name is Richard Molseed. I'm Vice President, 
Marketing and Strategic Initiatives for McKennan Hospital in 
Sioux Falls, South Dakota. And I have administrative 
responsibility for the development, implementation, and 
operation of our tele-medicine operations in South Dakota.
    Project Kotasys will sponsor and evaluate continued 
development of a pilot tele-medicine system being built in 
South Dakota to care for patients, and support health care 
providers, supervise allied health, instruct medical students, 
and proctor medical residents in remote areas of a five-state 
region.
    McKennan Health Services together with Sioux Valley Health 
System and Rapid City Regional Hospital have begun 
experimenting throughout South Dakota using federal grants, 
state support and internally generated funds to install basic 
tele-medicine equipment, connecting the hospitals with select 
rural constituencies.
    The new consortium of these three pioneering hospitals, 
together with the University of South Dakota Medical School, 
and Georgetown University Medical Center is planning to expand 
into a statewide tele-medicine web link, linking providers, 
patients, students and medical residents with each other as 
well as with central hospitals.
    We believe the Kotasys project to be unique in a number of 
ways, first of all, in project design. From the beginning, the 
project was designed to define quality, cost and access of 
medical information to a large and diverse geographic region.
    Secondly, Kotasys integrates various technologies. The 
development of the Kotasys is unique in developing a tele-
medicine network utilizing a public access switch technology. 
Kotasys will integrate interactive video, satellite distance 
learning, tele-radiology, and a wide area computer network 
technology into a single accessible tele-medicine project.
    Dissemination of information, Kotasys places an increased 
value in dissemination of information to physicians, staff, 
patients, and general community members alike by incorporating 
distance learning and creating rural access tothe University of 
South Dakota Medical School Library resources.
    Fourth, the regional focus, unlike other tele-medicine 
projects, Kotasys is truly regional in scope. Supported by the 
University of South Dakota Medical School and the three largest 
medical centers in the State of South Dakota, the Kotasys 
Project will actually impact all of South Dakota and portions 
of Minnesota, Iowa, Nebraska, Wyoming, and Montana.
    To my knowledge, no other comprehensive tele-medicine 
network has been designed to effectively impact rural health 
care over such a large geographic region, utilizing public 
switched and open architecture technology.
    Fifth, Kotasys actually creates a public access tele-
medicine network. This done by creating a consortium of 
competing health systems. This, to my knowledge, will be the 
first that competing health systems have joined to create a 
public access tele-medicine network on a multi-state basis.
    And finally, Kotasys is designed from a rural perspective. 
Successful tele-medicine programs are designed to meet clearly 
defined rural goals. Kotasys is consistent with meeting the 
needs of rural practitioners to reduce isolation, increase 
rural resources, include long-term care facilities, and promote 
rural economic development.
    This in a nutshell is a brief description of the Kotasys 
Project. I would be happy to entertain any questions the 
committee may have.
    Mr. Skeen.  Well, thank you very much for the dissertation. 
I was shocked to find out the other day that one of our larger 
communities in the State of New Mexico has no fiber optics 
which I think the whole system depends upon. There is no fiber 
optics delivery into Farmington, which is in the Four Corners 
area.
    I want to do something about getting that rectified because 
rural communities, this is the only help that they really have. 
This is the greatest help that they could have is being in a 
part of this system as far as health care delivery.
    Mr. Molseed.  To be able to bring the specialties that's 
found in the two extremes in the State of South Dakota and 
bring that to the population in another state, and many of them 
the Native American population where they have tremendous 
health needs, and to be able to do this with competing networks 
and through public access where that can be reached anywhere 
through the public telephone network, is we think a real step 
forward in the development of sustainable cost effective tele-
medicine to rural communities.
    Mr. Skeen.  Thank you. Mr. Kingston.
    Mr. Kingston.  Thank you, Mr. Chairman. Mr. Molseed, how 
much is this appropriation?
    Mr. Molseed.  The current appropriation at Kotasys is one 
of four projects where $10 million has been appropriated for 
four projects. We're looking for a $5 million appropriation to 
move forward on the Kotasys Project.
    Mr. Kingston.  And this is the only one of its nature in 
the country?
    Mr. Molseed.  No, sir. There are a number of tele-medicine 
programs throughout the country. But most of them are 
proprietary in nature. Many of them use a closed network so 
that no one has access to them. And most of them are in much 
smaller defined geographic areas, with perhaps the exception of 
the Medical College of Georgia which has a number of their real 
sites connected interactively.
    But this brings together a multi-state, large region and 
competing networks that have agreed to move forward with an 
open architecture to allow access by any mid-level practitioner 
to physician, and nursing home area within a five-state region 
to access the medical knowledge, do distance learning, or 
interactive tele-medicine consults with specialists at any one 
of the four larger medical centers in the state.
    Mr. Kingston.  The $5 million is the total or the federal 
share?
    Mr. Molseed.  That would be the federal share.
    Mr. Kingston.  What is the total and how much is the State 
putting in or the hospital?
    Mr. Molseed.  Well, we're asking for $5 million for the 
next federal fiscal year appropriation. And I don't know at the 
present time what the total cost of the project would be. We're 
anticipating that probably direct expenditures in the State of 
South Dakota to be $12 million over three years.
    Mr. Skeen.  I hate to interrupt you, but we have a vote in 
progress.
    Mr. Kingston.  Okay. Saved by the bell.
    Mr. Skeen.  Thank you very much. We're adjourned.
    [The prepared statement of Richard Molseed follows:]

[Pages 288 - 295--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

                         COALITION FOR FOOD AID

                                WITNESS

MICHAEL R. WIEST, DEPUTY EXECUTIVE DIRECTOR OF CATHOLIC RELIEF SERVICES

    Mr. Skeen.  The committee will come to order.
    We have outside witnesses today. Is anyone here from the 
Sac and Fox Nation?
    [No response.]
    Mr. Skeen.  No Native Americans?
    [No response.]
    Mr. Skeen.  Then we will move on to Michael R. Wiest. 
Welcome. Your entire written testimony will be entered in the 
record. If you will abstract it, we will appreciate it. It is 
nice to have you here this morning.
    Mr. Wiest.  Thank you very much. Mr. Chairman, thank you 
for this opportunity to testify on behalf of the Coalition For 
Food Aid. My name is Michael Wiest. I'm the Deputy Executive 
Director of Catholic Relief Services. And I'm responsible for 
overseas operations for Catholic Relief Services.
    I've been with that agency, CRS for 24 years, and 20 of 
those years I've lived and worked in Africa and in Asia, and 
have had the privilege of managing on the ground Public Law 
480, Title II Programs in many countries throughout the world.
    I'll now summarize my written testimony which will be 
submitted for the record. Thank you. The Members of the 
Coalition For Food Aid, like Catholic Relief Services are 
private voluntary organizations and cooperatives that conduct 
Public Law 480, Title II Programs in less developed countries.
    Cooperating sponsors take full responsibility of 
commodities donated under Title II. Except for special 
emergency situations, all Title II food must be provided 
through cooperating sponsors, the Red Cross, or the United 
Nations.
    The Title II food commodities are purchased, processed, 
fortified and packaged in the United States. And 75 percent of 
the commodities must be shipped on U.S. vessels. CRS, Catholic 
Relief Services, believes that the United States, as a member 
of the world community has a measure of responsibility for the 
800 million people in the world suffering from hunger.
    To meet their minimum nutritional needs, 22 million tons of 
food aid are required. This year the United States will provide 
less than 3 million tons; a 40 percent drop from five years 
ago. The regular Title II Program is shrinking in the face of 
urgent needs.
    Sadly when the U.S. cuts its assistance other governments 
follow. Congress has mandated that Title II Programs be 
implemented by private voluntary organizations and 
cooperatives. There is a very good reason for that mandate. 
Cooperating sponsors have extensive networks in poor 
communities where the needs are greatest.
    Catholic Relief Services works with community based, self-
help organizations in over 80 poor countries throughout the 
world. This extensive network cannot be duplicated by any 
United States Government agency for reach or accountability. 
Unlike contractors, cooperating sponsors commit substantial 
amount of their own human and financial resources. For example, 
last year Catholic Relief Services matched $71 million in 
private contributions to the $80 million of Title II food aid 
received.
    By using cooperating sponsors food aid is able to reach the 
poorest of the poor where and when it is needed, regardless of 
political, religious, or ethnic considerations. For instance, 
in Haiti, Ghana, or Kenafaso, and India School Lunch Programs 
improved students' attention and attendance, especially among 
young girls.
    Maternal Child Health Programs throughout Africa, Latin 
America, and South Asia distribute nutritious food for mothers 
attending clinics. This supplement, accompanied by basic health 
education, improves the health and vitality of both mother and 
child. And self-help public work projects construct wells, 
clinics, schools, roads, and improve agricultural practices in 
places as diverse as Ethiopia, Bangladesh, and Guatemala.
    Mr. Chairman, I sincerely want to thank this committee for 
its past support of Public Law 480. And I urge you to consider 
the following recommendations as you determine the fiscal year 
1998 appropriations. First, no further cuts in Public Law 480. 
The Administration's budget requests an increase in 
International Affairs, but cuts Public Law 480 by 10 percent.
    Second, Public Law 480, Title II should be funded at a 
level to meet minimum requirements. The legislation mandates a 
minimum tonnage for Title II Programs. For fiscal year 1998 
this would require $886 million, still less than in 1996.
    Three, support administrative changes to ensure that Title 
II reaches the neediest. Private voluntary organizations and 
cooperatives are increasingly pressured by AID to program Title 
II only in those countries that match AID priorities. This 
stops us from providing Title II food to the neediest countries 
and reaching the poorest of the poor.
    Mr. Chairman, I thank you for this opportunity to testify. 
And I'd be glad to answer any questions that I can.
    Mr. Skeen.  Mr. Wiest, I appreciate what you've said in 
your testimony because the most severe problem I know of is 
hunger in various parts of the world that causes internal 
strife. It leads to usually warlike actions between neighbors 
and so forth.
    We are one of the few countries in the world, along with a 
few others, that have small populations but high agricultural 
production. They've been trying to feed the rest of the world. 
I want to commend you on the work that you've done and the 
objectives. It has been a very difficult, difficult process.
    I'm sure that there ought to be medals or something of real 
worthwhile note for the kind of service that you have given, 
personal service. The Administration is proposing that Congress 
rescind $50 million from the Title I Program and to give this 
to the WIC Program. Have you looked at that proposal and what 
are the consequences of it to Public Law 480 if such a 
reduction takes place?
    Mr. Wiest.  I am familiar with your proposal, Mr. Chairman. 
I haven't studied the proposal. In our opinion, Catholic Relief 
Services, this would be a bad idea because it would have a 
further impact on the overall ability of Public Law 480 to 
reach the poor overseas, regardless of the fact of whether it's 
Title I or Title II.
    Mr. Skeen.  You didn't mention that in there. That's why I 
asked the question because that's one of the first notable 
changes that they've made in that particular program area. 
Well, we certainly appreciate your work and we appreciate your 
testimony.
    We're going to do our best because we think this is a very 
important program. It has always been well-administered. I 
think you've cleared up a lot of the troubles about deliveries 
and things of that kind in foreign countries where they've had 
a terrible time.
    We've sent them a lot of food, but it never gets to the 
hungry. It goes somewhere else. I think you've done a good job 
in making sure it gets to where it's supposed to go. Thank you, 
sir.
    Mr. Wiest.  Thank you, Mr. Chairman.
    [The prepared statement of Michael R. Weist follows:]

[Pages 300 - 316--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

                   AD HOC COALITION ON PUBLIC LAW 480

                                WITNESS

JOHN C. KIRTLAND

    Mr. Skeen.  Next we call on Mr. John Kirtland.
    Mr. Kirtland.  Good morning, Mr. Chairman. I'm joined today 
by Bob Bore.
    Mr. Skeen.  They say that's a familiar name around this 
place.
    Mr. Bore.  Mr. Chairman.
    Mr. Skeen.  Bob, it's good to see you.
    Mr. Bore.  Thank you, sir.
    Mr. Kirtland.  Bob, of course, as you know is Counsel to 
the USA Rice Federation.
    Mr. Skeen.  Well, I'm glad to see he's still counseling.
    Mr. Kirtland.  Yes, sir.
    Mr. Skeen.  We think a great deal of Mr. Bore.
    Mr. Bore.  Well, thank you very much, Mr. Chairman.
    Mr. Skeen.  He's been a great guy to work with.
    Mr. Kirtland.  He's been a mentor of mine for about the 
last 20 years. I've appreciated and learned a lot from him.
    Mr. Skeen.  Well, you're being steered in the right 
direction.
    Mr. Bore.  Thank you, sir.
    Mr. Skeen.  Your entire written testimony will be in the 
record. If you will abstract it, we'd appreciate it. Thefloor 
is all yours. I see that this is a day's ration of food; 80 grams of 
wheat. That doesn't look like much, but it makes a whole lot of 
difference to people who are starving to death.
    Mr. Bore.  It really does, Mr. Chairman.
    Mr. Skeen.  Thank you, sir. Go ahead. I'm sorry to 
interrupt you.
    Mr. Kirtland.  Thank you, Mr. Chairman. Thank you for 
including our full statement in the hearing record. My name is 
John Kirtland appearing on behalf of an ad hoc coalition 
supporting increased funding levels above those proposed in the 
President's fiscal year 1998 budget request for Food for Peace, 
Title I, consessional credit sales and the Food For Progress 
Program.
    The coalition members that we're representing today include 
the USA Rice Federation, the National Association of Wheat 
Growers, the National Cotton Council of America, the National 
Council of Farmer Cooperatives, the American Soy Bean 
Association, the American Maritime Congress, the Maritime 
Institute for Research and Industrial Development, the 
Transportation Institute, Gulf Coast Transit Company, and 
Liberty Maritime Corporation.
    Others have asked to join our coalition on Title I. And 
they will be contacting the committee directly themselves to 
indicate their support of the coalition. Now, Mr. Chairman, 
Title I of Public Law 480 continues to be a key instrument of 
trade development policy even as it also serves as an important 
Food Assistance Program. The coalition respectfully requests 
that the appropriations for Title I be maintained in fiscal 
year 1998 at funding levels not less than those provided in 
fiscal year 1997.
    And that the proposed rescission of $50 million be 
disapproved with explicit instructions to the Department to 
allocate fully all appropriated monies for the Title I Program. 
Mr. Chairman, the Administration's proposal to reduce Title I 
is very short-sighted.
    The prosperity of American agriculture depends upon strong 
export markets and new foreign markets must be developed every 
year. New foreign markets must be developed every year to 
maintain farm income. Our agricultural exports last year were a 
record $60 billion in value. And a net farm income was a record 
$50 million.
    But USDA's Economic Research Service projects a 12 percent 
decline in U.S. corn exports this year; a 12 percent decline in 
corn exports just this year, and a 23 percent decline in wheat 
exports just this year. And that's projected by the USDA's 
Economic Research Service.
    Mr. Skeen.  This is from the Public Law 480 Program?
    Mr. Kirtland.  No, sir. The U.S. corn exports are projected 
to decline by 12 percent; commercial and otherwise. And total 
U.S. wheat exports are projected to decline by 23 percent as 
compared to last year. So, this is a very serious concern of 
all of the agricultural commodity organizations that have 
joined our coalition.
    Now, Mr. Chairman, our farmers continue to rely upon Public 
Law 480 and other developmental programs to open potential new 
markets. The new democracies in Eastern Europe and the former 
Soviet Union could become major commercial markets for U.S. 
agricultural commodities.
    Today, they purchase about $2 billion a year and that 
actually includes Food For Progress and Food For Peace as well 
as commercial shipments. But in Western Europe, total sales on 
an annual basis are $8 billion to $10 billion. We believe that 
Eastern Europe and the former Soviet Union have the potential 
to become that large of a market if we actively use Title I 
today.
    Mr. Chairman, Title I's recent successes are impressive. At 
least eight countries have graduated in the 1990s from Title I 
to commercial GSM Program shipments. And that's just in the 
1990s. Title I, accordingly, remains extremely important. In 
fiscal year 1996, for example, one half of all of the Title I 
shipments went to ten Eastern European countries. And this year 
seven of them will receive Title I allocations.
    Now, Mr. Chairman, Congress for 43 years has funded Title I 
shipments with a combined present day value of $88 billion. 
That's about $2 billion a year over 43 years in current 
dollars. This long term commitment has helped produce huge 
gains for American agriculture and the industries that support 
it from the farm to the market.
    But since fiscal year 1990, Mr. Chairman, Title I 
allocations through this year have been reduced 73 percent; a 
73 percent reduction through fiscal year 1997. And the 
Administration proposes a 50 percent cut from last year in the 
Title I appropriation.
    This is an unfortunate reversal of longstanding support. 
Our future commercial market share and thus our future farm 
prosperity may well depend upon stronger commitments now to 
Title I and other market development and food assistance 
programs.
    So, to preserve prosperity on the farm, and promote future 
export sales, the coalition strongly urges this subcommittee to 
reject the Administration's proposed additional cuts in Title I 
funding.
    Thank you, Mr. Chairman. Bob and I will be happy to answer 
any questions you may have.
    Mr. Skeen.  In talking about the reductions, the proposed 
reductions, in this thing, we're talking about a rescission of 
$50 million from the amounts we've appropriated to Title I. 
This equates to some 200,000 metric tons.
    Mr. Kirtland.  That is correct, Mr. Chairman.
    Mr. Skeen.  How many people are we talking about?
    Mr. Kirtland.  How many people can be fed by 200,000 metric 
tons?
    Mr. Skeen.  Yes. Give me some kind of a number.
    Mr. Kirtland.  I don't know, sir. Perhaps Ellen knows. I 
don't know the answer to that, sir.
    Mr. Skeen.  It would be interesting.
    Mr. Kirtland.  We will find out and submit it for the 
record.
    Mr. Skeen.  Match up what you're doing to people with what 
you're doing with reductions.
    Mr. Kirtland.  Yes, sir. We'll submit for the record our 
response.
    [Clerk's note.--The information is contained in Committee 
files.]
    Mr. Skeen.  If you could do that, please give us that kind 
of information.
    Mr. Kirtland.  Yes, sir. But if you look at since 1990 the 
value of commodity allocations under Title I has declined from 
three-quarters of a billion dollars down to an allocation in 
fiscal year 1997 of only $205 million. That's a 73 percent 
decline that we've already sustained.
    And our view is this. It's true that in 1996 the American 
farmers had the best year perhaps in history with $60 billion 
in export sales, $50 billion in net income, $233.5 billion in 
gross sales, gross receipts from their farms and livestock. But 
this kind of prosperity is premised upon continued development 
of new export markets; particularly in view of the competition 
from Latin America. And we think that over 43 years the Food 
For Peace Title I Program has proved itself over and over 
again.
    Mr. Skeen.  I was interested in looking at the match-up and 
the figures you used. This is a ram into commercial production 
from a public program that equates to a good, sound economic 
base for shipments.
    Mr. Kirtland.  It is.
    Mr. Skeen.  I understand that through the Panama Canal we 
are shipping more corn into China than ever before in our 
history.
    Mr. Kirtland.  Yes, sir.
    You may have noticed, Mr. Chairman, yesterday in the Wall 
Street Journal it reported that soy been prices are at an 
eight-year high right now. One of the reasons is that China is 
increasing soy bean purchases from U.S. farmers this year by 
substantial amounts.
    You know, our farmers really, really depend upon this. One 
of our coalition members has told me that of the 50 countries 
in the world that regularly buy U.S. farm commodities, 41 of 
these countries are graduates of the Title I Program.
    Mr. Skeen.  The Title I Program.
    Mr. Kirtland.  Yes, sir.
    Mr. Skeen.  So, it's been very effective.
    Mr. Kirtland.  Well, I think so. There are a few examples 
to the contrary. A few countries have disappointed us in terms 
of becoming long-term customers. But around the world, you 
know, Indonesia and the Philippines buy almost a billion 
dollars worth of farm products today from the United States.
    Brazil and Columbia buy $600 million each a year from the 
United States. Peru buys $400 million a year from the United 
States. The list goes on and on; Egypt $1.5 billion. These 
countries are graduates of the Title I Program. Now, our 
farmers today are benefitting from the commitments that 
Congress made over decades to develop these markets. The point 
that our coalition wants to make is that we cannot afford to 
give up one of the principal weapons that we've had in breaking 
open these new markets.
    It is shortsighted if this committee, if this committee 
three years from now has to come in with an emergency bail out 
plan for American farmers costing $30 billion or $40 billion 
because prices have collapsed, because markets have collapsed 
overseas, then there won't be money for anything else. We have 
to continue to develop these export markets. It's a life or 
death thing for farmers.
    Mr. Skeen.  Thank you very much because I think that's the 
crux of the whole situation. We appreciate the major points 
you've made, and they're very interesting.
    Mr. Kirtland.  Thank you, sir.
    Mr. Skeen.  I think they are well-taken.
    Mr. Bore.  Thank you very much, Mr. Chairman.
    Mr. Skeen.  Thank you, sir.
    Mr. Bore.  It's a pleasure to see you again.
    Mr. Skeen.  Well, it's a pleasure to see you. Take care of 
yourself.
    Mr. Kirtland.  Thank you.
    [The prepared statement of John C. Kirtland follows:]

[Pages 321 - 326--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

                      CENTER FOR BUDGET PRIORITIES

                                WITNESS

BOB GREENSTEIN

    Mr. Skeen.  Bob Greenstein, Center for Budget Priorities. I 
understand we rushed you a little bit.
    Mr. Greenstein.  No. That's fine.
    Mr. Skeen.  Well, we appreciate the response. You look like 
you're well-equipped to take care of the thing. We will put 
your entire testimony in the record, the written record, and if 
you will summarize now, we would appreciate it. Please 
commence.
    Mr. Greenstein.  Thank you, Mr. Chairman. I appreciate it. 
I would like to talk this morning primarily about the WIC 
Program. I'd just like to start by noting the long standing 
support of this subcommittee and you and other Members for the 
WIC Program. It's due to your efforts that it's reached the 
level that it has today.
    As you know, the research on this program shows that it's 
probably the single most effective of all social programs the 
federal government runs here in the United States. I'd like to 
discuss some funding issues relating to WIC in 1997 and 1998 as 
you've just mentioned.
    The Administration has requested a supplemental for 1997. 
And the supplemental is necessary to prevent the number of 
women, infants, and children served in the WIC Program from 
declining by several hundred thousand. The question I think 
then comes up is, why are we in this situation? Is there a 
management problem in the WIC Program? And is this 
requestreally needed? I've been looking at the figures in recent weeks 
and have prepared a paper on this that I've provided earlier in the 
week to staff here. Basically, Mr. Chairman, several things have 
occurred.
    This subcommittee has encouraged the Department in recent 
years to squeeze down the amount of money that carries forward 
from one year to the next. One of the things that's happened is 
that it now turns out that the amount of money that's carried 
forward from 1996 into 1997 and is available this year is $50 
million to $65 million less than had earlier been projected.
    So, in a sense progress was made on that front, but it's 
one of the factors that create the problem and the need for a 
supplemental in 1997. Basically, what happened is particularly 
due to rising dairy prices and WIC foods ended up costing about 
1.1 percent more in 1996 than had been projected.
    In addition, because the caseload rose slowly in 1995, this 
subcommittee was critical of the Department for forecasting a 
large increase in caseload than actually occurred. There was a 
cautious forecast for 1996 that the caseload would be at 7.3 
million people at the end of the year. It was 7.4 million.
    It's this combination of about one percent more people on 
the program than had been forecast, a little higher food 
prices, and lower carry over money that puts us in a situation 
that was not foreseen when the subcommittee acted last year. 
The current amount of money out there appears to be sufficient 
to support an average of about 7.2 million this year, as 
opposed to the 7.4 million level that we're currently at.
    That creates the need for additional funding if we're to 
avoid reducing the number of women, infants, and children 
served in this successful program. I think the question that it 
leads to though, and I frequently hear asked, is would there be 
a need for a supplemental if there is still carry over money in 
the program?
    I note that in some of the other subcommittees, Labor HHS, 
and HUD there are a series of social programs where the 
proportion of the budget authority that's spent in the same 
year is 50 percent, 30 percent, 20 percent. In WIC it's about 
96 percent or 97 percent.
    The reason it's not 100 percent I think is actually due 
primarily not to mismanagement, but to cautious and prudent 
management by the States. When they issue WIC vouchers each 
month, not every voucher is used. Cereal, for example, some 
participants don't eat that much cereal and they don't cash 
every cereal voucher.
    Every voucher that's issued is something the State is 
liable for if it's cashed. But they only know after the month 
is over how many of them actually were cashed. You don't know 
for the August and September vouchers how many were actually 
used until the fiscal year is over.
    Similarly, as you know these are quite like Food Stamps 
with a $5 or a $1 amount. The grocer fills in the price of the 
food the day that it's purchased in the store. Again, the State 
does not know until the retailers take them to the banks and 
then to the State exactly what the price was.
    For the August, September vouchers, that's after the fiscal 
year is over. So, States have to be cautious. They have to make 
sure they don't overspend and they need to leave a little 
margin for error. This inevitably creates a small amount of 
carryover money from one year to the next.
    Another factor here is, as you know, we have a very 
successful cost containment effort on infant formula cost. It 
saves over $1 billion a year. But for the infant formula that's 
sold in September, the State will bill the companies in 
October. There were 25,000 cans of formula sold in September. 
Here is the number of cans and the company pays the rebate per 
can.
    That check which the State will get in October or November 
is considered money from the prior fiscal year because the 
formula that it's for was sold in September. This is another 
reason why it's hard for a State, virtually impossible, to 
spend exactly 100 percent of its money because the State does 
not know in advance the exact amount of the vouchers and the 
exact amount of the rebate checks.
    Now, the final issue on 1997 is as you know the Department 
a week or two ago provided the committee with information that 
it asked the States for. If one simply looks at the State 
figures and looks at the total number of people they say they 
could support, that does seem to come to 7.4 million.
    Some people have asked if the supplemental really is 
needed, given the figures the State submitted? From analyzing 
the figures and talking to some of the State people who 
submitted them, what we've found is that in a number of States 
if they run their program prudently, they spend 97, 98 percent 
of their money.
    They would had to have submitted a plan to the Department 
that said we're going to reduce the caseload, but we're going 
to leave some money unspent; this 2 or 3 percent that they 
couldn't spend. In some States politically, they could not 
clear a document through their political clearances that said 
we're going to leave money unspent even though it isn't 
necessarily bad management.
    We're going to have reductions in the caseload. So, 20 of 
those States submitted documents that basically estimated how 
many people they could serve if the State spent 100 percent of 
the grant and had no unspent funds whatsoever. In 1995, the 
last year for which we have data, there was only one state in 
the United States that spent 100 percent of its grant.
    Mr. Chairman, it was the District of Columbia. My fear is 
that the District spent more than 100 percent of its grant and 
had to perhaps make up some of it--and I'm afraid that's right. 
None of the other States exercising prudent management hit 100 
percent.
    We talked on the phone two days ago to one of the States, a 
large State, that said it would spend 100 percent of its grant 
in the material that it submitted. The State Director told us 
over the phone that State is actually planning to reduce its 
caseload up to 10 percent, even though it reported in the 
information it submitted to USDA that it would increase its 
caseload.
    We said, how can you be reducing the caseload when you 
reported to the Department you would increase it? And the State 
said look, the report we submitted was how many people we could 
serve were we able to spend a full 100 percent of our grant. We 
can't do that. And we have to reduce the caseload.
    Basically, if you look at all of the State estimates as a 
whole, largely because of these 20-State unrealistic 
submissions, they indicate that the total amount of 
unspentfunding would be reduced more than 75 percent in a single year. 
And I don't know of any WIC analysts who think that is likely to occur 
or is credible.
    So, the conclusion this leaves us is added to the fact that 
when we have looked at the Consumer Price Index for those items 
that are in the WIC food package; milk, eggs, cheese, and so 
forth. The first four months of 1997 it was 5.8 percent above 
the first four months of 1996, which is actually higher than 
the Department predicted.
    I think the conclusion one comes to from this is that a 
supplemental is needed if one wants to maintain the caseload at 
the current level. I would hope the subcommittee would 
seriously entertain that.
    The last point I would like to make is that we've also 
looked at the 1998 issue. I know 1998 is going to be very tough 
for this subcommittee. The Administration has requested an 
increase to 7.5 million people in the WIC Program and a new 
contingency fund.
    We looked at the question, what would be the need if one 
didn't have the contingency fund, if one didn't increase the 
caseload to 7.5 and one simply maintained the caseload at that 
7.4 level?
    Unfortunately, the story is that even if the State 
estimates proved to be right, which I think is extremely 
unlikely for the reasons I've mentioned for 1997, that wouldn't 
reduce the cost in 1998 because the State estimates are 
basically saying if we can get the unspent money all the way 
down to about $45 million, which would be remarkable, at the 
end of 1997, then we could serve more people in 1997.
    But if you have $45 million carrying from 1997 to 1998, and 
$45 million carrying from 1998 to 1999, no one believes one 
could get it any lower than that. Then the amount you would 
need to maintain caseload in 1998 would still be 7.4 million 
people times the cost per participant.
    Just to conclude, Mr. Chairman, when we simply multiply 
that out the figure it came to was that if you froze the 
farmers market and froze the WIC caseload at the 7.4 level, 
that the requirement in 1998 to do that would be $3.975 
billion. That's about $135 million below the Administration's 
request, but it's still above the level that was appropriated 
for the current fiscal year. Thank you.
    Mr. Skeen.  Thank you. As you know we have assiduously 
funded this program because we think it's doing the right thing 
at the right time. It's been forward funded as a matter of 
fact, which is most unusual for programs that come out of this 
body. Now, we're dog eating dog, so to speak.
    What do you think about the $50 million reduction in Title 
I that's to go? Is this a happy hunting ground?
    Mr. Greenstein.  Mr. Chairman, listening to the first two 
witnesses, I knew you were going to ask me that question.
    Mr. Skeen.  I felt that you probably would think I would.
    Mr. Greenstein.  I've tried to make it a practice in the 
work that I do on public policy issues here not to offer 
opinions on things that I don't know that much about. I'm not 
that knowledgeable in the Public Law 480 Program. I do plan to 
try to learn more about this in the next week or two.
    Mr. Skeen.  But you like the $50 million.
    Mr. Greenstein.  I do not know the affects of the $50 
million change in Public Law 480. What I can say is that all of 
the analysis we have done indicates that the WIC Program does 
need a supplement of at or close to it--it might be a little 
less than $100 million in 1997. I do not know whether the 
Public Law 480 is or is not the best place to finance it. I'm 
not familiar enough with the issues in that program.
    Mr. Skeen.  Well, we'll be more familiar with it by the 
time we get through with this process. I'm sure.
    Mr. Greenstein.  I will try to become more familiar with it 
myself.
    Mr. Skeen.  Well, they're both good programs. But trying to 
find the money without raising taxes or doing something else 
has been the criteria they're operating under. What's the 
anticipated carry over that's projected with and without the 
supplement?
    Mr. Greenstein.  In the Administration's budget they assume 
that the carryover which came down I think between this year 
and last year will come down again somewhat. Their estimate is 
that $100 million which would be about 2.5 percent, maybe a 
tiny bit more, of the funds available this year would be 
carried over and reallocated in 1998.
    I'd note, Mr. Chairman, that we've looked at the levels of 
carry over in the past five or six years. They always were 
between 3 and 4 percent, except in 1990. 1990 is interesting 
because there was a freeze in the orange groves. There was an 
Avian Flu and the egg prices went up.
    And we also had a situation that year where the States had 
to reduce WIC caseloads because there wasn't enough funding. 
They ultimately took them down over 100,000 people. Despite 
that, the carry over that year was about 2.5 percent. I'm 
skeptical that it can be squeezed lower than the 2.5 percent 
level.
    Mr. Skeen.  What carry over would you figure you'd have in 
your program if you got the supplemental? Also, what would be 
the deficit if you didn't get the supplemental?
    Mr. Greenstein.  I don't think the supplemental would have 
a----
    Mr. Skeen.  Well, make a conjecture on that.
    Mr. Greenstein. I don't think the supplemental would have a 
large affect on the carry over. I might go a little larger with 
it. But the fact of the matter is that even with the 
supplemental that would support a caseload of only 7.4 million. 
This would be the first time in 15 years, I think, that WIC is 
not in a growth mode where the caseload at the end of the year 
is much bigger than at the beginning of the year.
    Given that's the case, I think the Department's estimate 
that the carry over would get squeezed down somewhatwould be 
accurate; the best estimate that we can make. I'd also note that even 
with the supplemental, some states will probably still have to reduce 
caseload some. That would push them to run as close to the mark as they 
could. I think that in either event, we're likely to see carry over 
somewhere in the vicinity of the Administration's forecast.
    Mr. Skeen.  Thank you very much for your testimony.
    Mr. Greenstein.  Thank you, Mr. Chairman.
    Mr. Skeen.  We appreciate it. We have a vote going on. So, 
I think we will run vote and we will be right back. Thank you 
very much for your testimony. If you will excuse us here, 
folks. Be patient and I'll be back.
    [Recess.]
    [Clerk's note.--The prepared paper referred to has been 
retained in Committee files.]

                              ----------                              

                                         Wednesday, March 12, 1997.

                   AMERICAN ASSOCIATION OF NURSERYMEN

                                WITNESS

BENJAMIN C. BOLUSKY, DIRECTOR, GOVERNMENT AFFAIRS

    Mr. Skeen.  Mr. Bolusky with the American Association of 
Nurserymen. Welcome.
    Mr. Bolusky.  Thank you, Mr. Chairman.
    Mr. Skeen.  Sorry we kept you on hold there for awhile.
    Mr. Bolusky.  That's quite all right. Thank you, Mr. 
Chairman. The American Association of Nurserymen welcomes this 
opportunity to present the nursery industry's views regarding 
the fiscal year 1998 budget for the U.S. Department of 
Agriculture.
    I am Ben Bolusky, Director of Government Affairs for AAN. 
AAN is the national trade association for the nursery and 
landscape industry. I would ask that the entire statement be 
placed in the record. In the interest of time and to salvage 
what's left of my voice, I will be happy to summarize.
    Mr. Skeen.  Please do that. We will be happy to hear you 
summarize.
    Mr. Bolusky.  Thank you. According to USDA's Economic 
Research Service the nursery and greenhouse industry remains 
the fastest growing sector in agriculture in terms of cash 
receipts. In 1994, nursery and greenhouse crops totaled an 
estimated $10.04 billion in farm gate value, representing about 
11 percent of the total cash receipts for all U.S. farm crops.
    Nursery and greenhouse crops in 1994 ranked sixth in total 
grower cash receipts among all agriculture commodities. It is 
the third largest plant crop behind corn and soy beans. But it 
is ahead of wheat, cotton, and tobacco. Nursery and greenhouse 
crop production now ranks among the top five agricultural 
commodities in 27 states, including New Mexico, Ohio, and New 
York, and among the top 10 in 43 states.
    And although nursery farms can be profitable, they're often 
more capital intensive than other agricultural operations. And 
are extremely labor intensive given the thousands of different 
plant species and the wide ranging sizes in which they are 
grown.
    Mr. Chairman, we're pleased to inform you that the nursery 
and fluroculture industries are in the process of developing a 
detail proposal establishing coordinated research initiative 
for the nursery and floral industry. AAN is very pleased that 
his committee provided $200,000 in fiscal year 1994 to help 
address nursery and greenhouse industry research needs.
    So, you can imagine that we are deeply disturbed that the 
Administration has failed to provide for a continuation of 
these research dollars in fiscal year 1998. We respectfully 
urge Congress to restore in fiscal year 1998 the $200,000 in 
funding, which serves as an encouraging springboard for the 
joint research initiative that the nursery and floral industry 
is currently developing.
    Research into methyl bromide alternatives is imperative 
since methyl bromide is a critical input to many nursery crop 
management and quarantine systems. The U.S. National Arboretum 
continues to play a preeminent cutting edge role in the 
breeding and introduction of new plant cultivars, and deserves 
this committee's continuing strong support.
    With respect to the Animal, Plant Health Inspection Service 
and its pest and disease management, the American Association 
of Nurserymen notes that APHIS plans to discontinue funding for 
the Imported Fire Ant Quarantine.
    The fiscal year 1997 funding level of $1 million 
represented only 27 percent of the funding level three years 
ago, yet the workload associated with the quarantine has 
increased as the pest has continued to spread. AAN respectfully 
urges Congress to direct APHIS to maintain Imported Fire Ant 
funding at the fiscal year 1997 funding level of $1 million.
    The small federal funding share is used to carry out 
cooperative efforts with infested states in the south and 
southeast. Continued federal involvement does two things. 
First, it strengthens the level of protection of 
uninfectedstates. And second, it ensures a fair, consistent framework 
for domestic commerce for nurseries located in the 11 affected states 
from North Carolina, through Florida, and Westover to Texas.
    With respect to the Pesticide Clearance Program under 
CSREES, AAN strongly supports the Administration's fiscal year 
1998 budget proposal of $10.7 million for the IR-4 Program. 
This represents a $5 million increase over the last fiscal 
year, which is needed and justified in view of the new 
requirements of the Food Quality Protection Act passed by 
Congress last year.
    That Act requires the reassessment of virtually all 
pesticide dietary tolerances over the next ten years. And while 
most IR-4 projects focus on minor use food crops, to-date the 
program has generated very crucial data supporting uses of most 
products registered for nursery and greenhouse use.
    Mr. Chairman, in closing the American Association of 
Nurserymen is mindful of the budget constraints faced by this 
committee. Yet, we believe that federal funding of the kinds of 
activities supported in our testimony is not only justified, 
but necessary if the nursery industry is to continue to prosper 
and to play its increasingly significant role in our nation's 
economic strength.
    As in past years, we genuinely appreciate this opportunity 
to present the nursery industry's view. And we particularly 
appreciate the leadership, support, and interest that you have 
given the nursery industry. Thank you for your consideration. 
And we look forward to continuing to work with you, other 
committee Members, and your staff.
    Mr. Skeen.  We thank you, sir. It was astonishing to 
believe or to understand after you've seen all of the 
statistics how fast the nursery industry has grown; how 
important it's become as an agricultural product.
    Most people don't class it as an agricultural product, but 
certainly it is. As far as dollar volume is concerned, I think 
it has made its place in the whole spectrum and done it very 
well. It is one of the few entities I know in agriculture where 
someone can start if you've enough money to make the 
investment, and you don't have to be in error as you do in a 
grazing operation like we have in the West.
    So, we look with a great deal of admiration at what's 
happening in the nursery industry. You folks have done a good 
job with it.
    Mr. Bolusky.  Thank you, Mr. Chairman. To underscore that 
point, in the last 25 years, you may be interested to know that 
the number of nursery farms in the nation has actually grown by 
about 2.5 times of what it used to be.
    Mr. Skeen.  I'm not at all surprised. We have quite a 
horticulture group producing in New Mexico. A lot of roses come 
out of there using geothermal energy. It's a good producer. 
Tell me more about this IR-4 Program. Explain it to me.
    Mr. Bolusky.  Well, the IR-4 Program is a program whereby 
it looks at pesticides that are primarily developed for the 
food markets. The IR-4 Program actually provides the support to 
look at uses beyond those which were originally intended.
    Mr. Skeen.  For consumption?
    Mr. Bolusky.  For consumption, right. A lot of the 
pesticides that are produced or manufactured for food products, 
the nursery industry, nursery and floriculture, may ride as a 
piggy back as a result of the work that the IR-4 Program does 
support in developing the necessary protocols.
    Mr. Skeen.  What success has been made on the fire ant 
eradication?
    Mr. Bolusky.  The success in the fire ant eradication is 
one that it has not largely spread beyond where it is today. 
The concern--and that is perhaps one of the reasons that we 
understand that APHIS would prefer to do away with the funding 
of that Imported Fire Ant Quarantine Program.
    However, our analysis and the science shows that the 
Imported Fire Ant could probably expand greatly beyond the 11 
states in the South and Southeast, moving over towards the West 
Coast, California, Washington, Oregon, and moving up the East 
Coast. It could probably withstand the climate in those areas.
    So, we maintain that the Fire Ant Program must be 
maintained at the million dollar federal funding level 
thatAPHIS has kept these years in order to prevent the expansion of the 
Fire Ant. And two, to keep a level playing field for those nurseries 
and those affected states. If you do away with the federal quarantine, 
what you would have in effect is the ability for all of the states to 
begin to impose their own rules and regulations regarding shipment of 
nursery stock out of those states that are infested.
    Mr. Skeen.  We thank you for your presentation.
    Mr. Bolusky.  Thank you, Mr. Chairman. It's always a 
pleasure to be here with you.
    Mr. Skeen.  Well, it's a pleasure having you. We appreciate 
the testimony. We will do the best we can by it. We're going to 
have a tough year this year with the funding. We're juggling 
and only have two hands. We've got seven or eight places to 
grab. So, thank you very much.
    [The prepared statement of Benjamin C. Bolusky follows:]

[Pages 335 - 343--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

                    HOLDEN'S FOUNDATION SEEDS, INC.

                               WITNESSES

DR. DAVID HARPER, PLANT BREEDER
DR. DIRK BENSON, CORN BREEDER

    Mr. Skeen.  Dr. Harper and Dr. Benson with the Holden's 
Foundation Seeds, Inc. Welcome.
    Dr. Harper.  Thank you. Glad to be here.
    Mr. Skeen.  Well, we're glad to have you. Your entire 
written text will be in the record. If you will abbreviate it, 
we would appreciate it. We have some questions we would like to 
ask.
    Dr. Harper.  Thank you, Mr. Chairman.
    Mr. Skeen.  We appreciate you being here. We appreciate 
your testimony. Proceed.
    Dr. Harper.  And we appreciate the time we have here.
    Mr. Chairman, thank you for hearing us today. I'm Dave 
Harper. I'm a corn breeder with Holden's Foundation Seeds in 
Iowa. This is Dirk Benson. He is a corn breeder for specialty 
products with Limagrain Genetics Corp. in Indiana.
    We're here representing the Corn and Sorghum Basic Research 
Committee of the American Seed Trade Association. We're 
requesting $500,000 be appropriated annually for enhancing corn 
germ plasm in order to strengthen the germ plasm base in the 
U.S.
    The present USDA budget has $500,000 budgeted for this 
project. Those appropriations were originally from this 
committee, starting in 1995. We've been very thankful for this 
money. After the last couple of years, we've been able to make 
an excellent beginning to this research program. In order to 
completely fund--to the American economy as a raw material, 
about 20 percent of this reduction is exported each year 
providing a positive trade balance of over $4 billion in corn.
    Approximately 17 percent of the crop is refined into 
products such as corn sweeteners used in soft drinks and 
through feeding livestock. The rest of the crop is processed 
into meat, eggs, and dairy products that affect everyone in our 
society as you know.
    All of this production is based on using only 5 percent of 
the corn and germ plasm available in the world. And broadening 
this germ plasm base would provide genes to improve yields and 
protect against new disease, insect, and environmental stresses 
resulting in reduced pesticide use.
    In recent years export markets, industrial processors, and 
other end users have begun demanding changes in grain quality 
to meet their changing needs. It is likely that unique grain 
quality characteristics to meet these end user demands will be 
found in this exotic germ plasm.
    In addition, this germ plasm can provide many genes of 
interest for emerging technologies and biotech. In the Lamp 
Project, 12 countries in the Americas evaluated 12,000 
accessions and picked the top 268. These are prime candidates 
for enhancing our germ plasm here.
    Most of this exotic germ plasm, however, is unadapted to 
our growing conditions in the U.S. and requires a concerted 
long-term breeding effort to adapt it so it is usable in 
commercial breeding programs. The total price of enhancement is 
too large and long-term for public institutions alone and/or 
seed companies to accomplish this individually.
    Therefore, this present program represents a joint USDA/
ARS, Land Grant University, and industry effort to enhance 
these and other exotic accessions so they can enter into 
commercial corn breeding programs.
    The U.S. GEM Program stands for Germ Plasm Enhancement of 
Maize. This project serves a national need and the primary 
effort and direction is coming from the USDA/ARS. And this GEM 
Program is the project we've developed to adapt these materials 
to U.S. conditions.
    Two permanent ARS locations are being used as primary sites 
for breeding and coordination. One is in Ames, Iowa and the 
other in Raleigh, North Carolina. The number of corn 
researchers at various Land Grant Universities and other ARS 
locations are also taking part in the enhancement and the 
evaluation of this exotic germ plasm.
    Industry is also involved. A total of 21 companies have 
pledged research and nursery yield trial plots for this 
breeding effort. This in-kind support is valued at $450,000 a 
year. Companies have also used their elite inbred lines to 
cross to these exotic populations in the breeding effort--
intellectual property shows the importance industry places on 
this kind of effort. Never before has industry been willing to 
donate their own intellectual property for something that will 
become publicly available.
    This germ plasm to the program is not added in this 
calculation of $450,000 per year. It is worth millions of 
dollars. Looking at accomplishments of some of the work done in 
1996, at Ames there was one discovery from this research that 
aligned from one of the breeding crosses measured a total 
protein of 16 percent.
    And corn bell germ plasm normally has 10 percent; and total 
oil level of 6 percent. And corn bell is normally 4 percent. It 
is extremely unique to find increased levels for both of these 
traits in the same line and is potentially very useful for food 
and feed applications.
    In Raleigh, North Carolina from their disease screening 
work, they found that eight of the tropical and elite breeding 
crosses were more resistant to Gray leaf spot than the 
commercial resistant checks. And the Gray leaf spot has been 
the largest disease problem in the Mid-West and throughout the 
United States in the last three years on corn.
    Also, in yield trials in the Southeast some of the breeding 
crosses out yielded the commercial checks. Other public 
cooperators studied these materials for various trades. This 
included the States of Delaware, Georgia, Illinois, Iowa, 
Louisiana, Mississippi, Missouri, New York, Ohio, Pennsylvania, 
Tennessee, and Wisconsin. So, you can see it's quite a broad-
based effort.
    The private company cooperators conducted yield trials on 
over 200 germ breeding populations this last year. The top 15 
breeding populations were sent to winter nurseries for 
continued research work and advancement.
    Also, in 1996 the companies increased their nursery and 
yield trial in-kind support over 1995 by 25 percent. In 1997 
the research will continue at the various ARS, University, and 
company locations similar to 1996.
    The affects of increased funding in 1998--the appropriation 
of the additional $500,000 annually would provide funds to 
increase research in the following ways. In Ames, it would 
provide laboratory equipment to conduct analysis for feed 
quality.
    Approximately 60 percent of corn is federal to animals. And 
the 20 percent that is exported mostly is federal to animals as 
well. In addition, the research plot combine for conducting 
yield trials could be purchased. In Raleigh, North Carolina 
testing and development work could be increased from two 
tropical by elite breeding crosses per year to six or more, 
greatly speeding up the introduction of these adapted germ 
materials into private and public breeding programs.
    As far as other public cooperators, it would increase the 
number of public cooperators from ten to over 30. This would 
allow for full evaluation and development of new breeding 
materials. Additional funding would also allow public materials 
to reach commercial breeding programs in half the time.
    However, appropriated funds could be used, could be seen 
detailed in the budget. Copies of this budget have been given 
to Mr. Sanders. This nationally coordinated Corn Germ Plasm 
Enhancement Program is a unique USDA/ARS, University and 
industry cooperation that will lead to an increase in the 
productivity, quality and marketability of hybrid corn in the 
U.S. and for export, benefitting the farmer, the feed and 
processing industries, and the consumer.
    And I might add that in some recent public discussions this 
U.S. GEM Program has been listed as an example of cooperation 
between industry and the public sector that is the type of 
cooperation that needs to be done more in the future in many 
agricultural areas of research. Thank you very much.
    Mr. Skeen.  Thank you, sir. You said that 20 percent of 
your produce is germ plasm and is exported?
    Mr. Harper.  Twenty percent of the grain crop.
    Mr. Skeen.  Oh, the grain crop.
    Mr. Harper.  That first section was on the use of the grain 
itself.
    Mr. Skeen.  Use of the grain itself. Who are the importers?
    Mr. Harper.  There are a number of them. China was 
mentioned earlier.
    Mr. Skeen.  You mention China because I think it was one of 
the banner years. It took more bottoms going through the Panama 
Canal carrying American corn to China.
    Mr. Harper.  Right. And we think and the indications are 
that, that would continue to increase with----
    Mr. Skeen.  They don't grow it themselves over there.
    Mr. Harper.  No. They grow it. As a matter of fact, their 
acreage is about the same as ours, but their population of 
course is much larger.
    Mr. Skeen.  It's a huge population.
    Mr. Harper.  And our yields per acre are much higher also.
    Dr. Benson.  And as their economy continues to increase, 
their demand for protein in their diet will increase, which is 
primarily chicken. And they feed those chickens American grain.
    Mr. Skeen.  American grain. That's real interesting. It's 
been a noted fact there is a huge export market. I don't know 
how many billions of dollars each year, but it is very valuable 
for American producers.
    Mr. Harper.  I think it's over $4 billion in just grain 
itself.
    Mr. Skeen.  Four billion dollars.
    Mr. Harper.  And if you look at some of their processed 
products coming directly from grain, it adds another $1.7 
billion to export.
    Mr. Skeen.  I see. Well, we thank you for your testimony 
and appreciate you being here today.
    Mr. Harper.  Thank you very much for your time.
    [The prepared statement of Dr. David Harper follows:]

[Pages 348 - 355--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

                     PICKLE PACKERS, INTERNATIONAL

                                WITNESS

JIM TERSKI, REPRESENTATIVE, VLASIC PICKLES

    Mr. Skeen.  Mr. Jim Terski, Pickle Packers.
    Mr. Terski.  Good morning, Mr. Chairman. Mr. Chairman and 
Members of the House Appropriations Subcommittee, it's my 
distinct honor to come before you as a representative of the 
growers and processors of the pickle vegetable industry. 
Specifically, Pickle Packers, International and the field 
research committee members that are here with me today.
    We are here to ask for your continuing and increased 
support of the agriculture research service of the Department 
of Agriculture, in particular, the Food Fermentation Lab at 
North Carolina State University, the Crop Research Lab at the 
University of Wisconsin in Madison, and the Vegetable 
Harvesting Unit at Michigan State University.
    The research performed by these laboratories has been and 
continues to be of critical importance to the pickle vegetable 
industry. These labs are responsible for many improvements made 
to our industry today. Growers have experienced higher yields 
on their crops, less waste due to fruit disease, new mechanical 
methods of harvesting the product, and a significant reduction 
of pesticide usage as a direct result of ARS research.
    Processors, on the other hand, have found new ways to 
handle the fruit without damaging it, less salt usage in their 
techniques, and an increase in the overall quality of the fruit 
which they can pass on to the consumers; again, a direct result 
of ARS.
    Economically, all aspects of our industry have benefitted 
from the work of these labs and continue to do so. Our industry 
is not just made up of growers and processors, but also of jar 
and lid manufacturers, freight haulers, salt grinners, seed 
companies, farm equipment manufacturers, and many others who 
benefit financially from these crops.
    The research must continue. There are still many problems 
to solve and these labs are working at solving them. In a time 
when food safety has become so prominent a topic, the research 
is critical to enable us to comply with all rules and 
regulations and still put out competitively priced products to 
compete with imports coming in from other countries.
    Food safety is of the utmost importance to our companies 
and to our consumers. We must find new ways of growing these 
crops without excessive use of pesticides and other chemicals. 
These ARS labs have the proven capability of finding and 
developing these new methods for us so that we can continue to 
produce safe and healthy products of a very high quality.
    Finally, I would like to thank the committee on behalf of 
those I represent for the past funding, and urge you to 
continue to provide the funds for these labs so that they can 
continue the important work they do for us all.
    Mr. Skeen.  Thank you for your testimony. What diseases and 
what pests does the pickle grower have to contend with 
primarily?
    Mr. Terski.  There are a number of diseases out there that 
are unique to the pickle industry. To the pickling cucumber 
itself riseactonia is one of them. It's a fruit disease that 
ages the fire fruit and begins to eat away at a bacteria. They 
have another one that's referred to as belly rot. It does the 
same thing from sitting on the ground.
    The scientists are coming up with new ways of making the 
seed and the gene disease resistant to that type of a problem. 
The same thing with the pesticide. There is a pickle worm that 
is specific to the cucumber. Peppers have a number of various 
worms that love to bore in and eat into the fruit.
    With disease resistance, again, without having to spray, 
these research people are finding ways to put it into the seed, 
into the gene so that it has the results.
    Mr. Skeen.  So, they're doing it genetically.
    Mr. Terski.  But we're not spraying anything out in the 
field.
    Mr. Skeen.  I see. What sprays do you use; the common use?
    Mr. Terski.  It's various to the different crops. Cucumbers 
are different than peppers.
    Mr. Skeen.  So, it would be similar pesticides.
    Mr. Terski.  It's similar pesticides, herbicides. That's 
correct.
    Mr. Skeen.  All right. What's the monetary value in the 
pickle industry in production in the United States?
    Mr. Hentchel.  Good morning. I'm Richard Hentchel, the 
Executive Vice President for Pickle Packers, International. The 
value we place on it at this point is $1.5 billion.
    Mr. Skeen.  $1.5 billion.
    Mr. Hentchel.  For the cucumber pickles. That does not 
include all of the other kinds of pickled vegetables that we 
eat. But at least for pickling cucumbers, it's about $1.5 
billion.
    Mr. Skeen.  It's a very substantial return.
    Mr. Hentchel.  Yes.
    Mr. Skeen.  Thank you. Mr. Serrano.
    Mr. Serrano.  No, questions. Thank you, Mr. Chairman.
    Mr. Skeen.  We thank you gentlemen.
    Mr. Hentchel.  Thank you.
    [The prepared statement of Mr. Jim Terski follows:]

[Pages 358 - 362--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

                  NATIONAL FOOD PROCESSORS ASSOCIATION

                                WITNESS

 KELLY D. JOHNSTON, EXECUTIVE VICE PRESIDENT, GOVERNMENT AFFAIRS & 
    COMMUNICATION

    Mr. Skeen.  Mr. Johnston.
    Mr. Johnston.  Good morning, Mr. Chairman.
    Mr. Skeen.  Good morning, sir. Welcome. Sorry we have kept 
you kind of hanging around here while we were getting on with 
our work. We appreciate you being here. Would you please go 
ahead and commence. Your entire written testimony will be in 
the record, and if you will highlight it, we will appreciate it 
and we will see if we can't come up with some good questions 
for you.
    Mr. Johnston.  Well, sir, I'll be very, very brief.
    Mr. Skeen.  Thank you.
    Mr. Johnston.  In respect of your time as well.
    First of all, Mr. Chairman, again, thank you for inviting 
us. I am Kelly Johnston. I'm Executive Vice President for 
government affairs and communications for the National Food 
Processors Association. NFPA is the voice of the $400 billion 
food processing industry on scientific and public policy issues 
involving food safety, nutrition, on technical and regulatory 
matters and, of course, consumer affairs as well.
    Mr. Chairman, first I want to thank you for two things. 
First of all, your subcommittee took a lead role in the last 
Congress in urging improvement in the practices of FDA and 
FSIS, calling on FDA in particular to act within statutory 
review deadlines or periods for applications and petitions. We 
strongly encourage you to keep the pressure on.
    There are still needs in that area. In addition, you have 
provided some opening comments when Dr. Michael Friedman was 
here recently to testify on FDA's proposed budget. We strongly 
concur with the comments you made with respect to their 
proposed so-called user fees.
    And that's one of the reasons that we wanted to come here 
today to talk about that proposed budget that came from the 
Administration. They had proposed $450 million in what they 
call user fees. We prefer to call them what we believe they 
really are, which is regulatory taxes.
    Any time you try to impose a fee on a regulated industry 
for programs that benefit the broad public, that's not a user 
fee. That's a tax. And our industry strongly opposes those. 
It's a highly regressive tax. It certainly will be passed on to 
consumers in the form of higher taxes.
    In addition, we believe as we've testified in past years, 
it will erode public confidence in the independence of the 
regulatory process. We wanted to convey those comments to you 
as well.
    Mr. Chairman, at this point, I just what to stop and thank 
you again for your leadership and the opportunity to testify 
this morning. I'd be happy to answer any questions you might 
have.
    Mr. Skeen.  We thank you. And of course the battle cry this 
year is user fees. So, we appreciate the fact that they want to 
raise more money, but they want to do it with a user fee and a 
user fee is a tax.
    Mr. Johnston.  Yes, sir. It is.
    Mr. Skeen.  Or at least some form of taxation.
    Mr. Johnston.  Yes, sir.
    Mr. Skeen.  We appreciate that stance. Mr. Serrano.
    Mr. Serrano.  I have no questions, Mr. Chairman.
    Mr. Skeen.  We thank you.
    Mr. Johnston.  Thank you, sir.
    Mr. Skeen.  That concludes our work for today, unless we 
have someone else.
    [No response.]
    Mr. Skeen.  We are adjourned.
    [The prepared statement of Mr. Kelly D. Johnston follows:]

[Pages 365 - 371--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

                NATIONAL UTILITY CONTRACTORS ASSOCIATION

                                WITNESS

WALTER GAINER, PRESIDENT

    Mr. Skeen. The committee will come to order.
    I want to welcome all of you here this morning. We have 
outside witnesses. We will start with Walter Gainer, who is 
with the National Utility Contractors Association, and your 
subject is going to be Rural Utilities Service.
    Mr. Gainer. This is a piece of water line.
    Mr. Skeen. It looks like some of ours around the country, 
alkali.
    Mr. Gainer. It's one of the problems they have around the 
country, mostly in large cities. That is the problem they have 
in D.C., for your information. That is why you can't drink the 
water.
    Mr. Skeen. That is what is wrong in the Rayburn Building 
and others, too. We can't pass EPA standards right here. We 
will get into sludge later.
    Mr. Gainer. That is correct. There's fire protection, too. 
The city of Rockville had to put pumps on it because they can't 
get enough water out of the fire hydrants to put a fire out.
    All right. My name is Walter Gainer. I am representing the 
National Utility Contractors Association.
    Mr. Skeen. Excuse me. Let me say your full written 
testimony will be entered into the record, and you can 
summarize it any way you would like. We would appreciate it.
    Mr. Gainer. Mr. Chairman, members of the committee, I am 
pleased to appear before you on behalf of the National Utility 
Contractors Association.
    I have been in business with a company that has been in 
business for 50 years. I have been there for 28 years and 
repaired water sewer systems all over the State of Maryland. My 
professional experience has shown me there is a critical need 
for Federal water and sewer construction funding in rural 
America.
    I grew up in the back country in West Virginia in a small 
place called Nicholas County, and I would like to talk about 
that. We were fortunate in the little town I grew up in. We had 
a big mill there, and we got the water from there.
    In the late 1960s, the mill changed hands. The fathers had 
to go out and build their own water system, and through this 
funding, that is how they got it. Since then, in Nicholas 
County, which is the surrounding county of where Richwood was 
where I grew up, they have put this water system all over the 
county in different places and, just like Rural Electric, has 
brought modern water to the different areas there in the county 
and has helped the economy. It is hard to put a price on how 
much it has helped the economy and gotten good water into the 
area. But there is still a lot of work to be done.
    There is an area that I am particularly fond of above 
Richwood that is called Hinkle Mountain, and they have been 
trying to get a water system up there for 15 years. They have 
been hauling water in the back of pickup trucks, much like a 
Third World country; and I think they are not even high on the 
priority list in West Virginia right now.
    So there must be serious problems elsewhere in the State; 
and, like I said, there is a real need for this construction 
assistance if not alone to help the people of Hinkle Mountain.
    I know they don't put brass plaques underground, but this 
system really works, and I have seen it work in the county I 
used to live in. I still own property down there, and I go down 
two or three times a year, and I can see the development and 
everything that has happened from this program. It really works 
down there, and I think there is a real need, and we urge you 
to support this in the administration's $1.2 billion request 
for fiscal year 1998.
    Thank you.
    Mr. Skeen. Let me thank you.
    I understand perfectly well what you are talking about. It 
has been one of the greatest programs in the world, but the 
maintenance and upkeep kind of goes in a cycle. You can 
initiate these systems and so forth, but somebody has to run 
them.
    Mr. Gainer. Somebody has to run them.
    Mr. Skeen. That is absolutely true.
    We have some severe problems, particularly in small 
communities. And now, with EPA and some others setting new 
standards they cannot even meet, there is going to be a 
collision somewhere down the road; and it is going to cost a 
lot of money somewhere. That is what we are trying to do, get 
these systems up and get water running. You can't have a 
community if you don't have a water system.
    Mr. Gainer. That is correct. A lot of these communities in 
the country are still like Third World countries as far as 
toting and moving water around.
    Mr. Skeen. I think some Third World countries are better 
off than some of our remote communities.
    Mr. Gainer. I won't disagree with that.
    Mr. Skeen. Walter, we sure do thank you for your testimony 
and we are going to do our best to keep these systems coming 
through.
    [The prepared statement of Walter Gainer follows:]

[Pages 375 - 381--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

               NATIONAL CENTER FOR APPROPRIATE TECHNOLOGY

                                WITNESS

TERESA MAURER, PROJECT MANAGER

    Mr. Skeen. Teresa Maurer, who is of the National Center for 
Appropriate Technology.
    Ms. Maurer. Yes, my name is Teresa Maurer. I am Project 
Manager for the ATTRA program, which is a project in the 
National Center; and it is funded through Rural Business-
Cooperative Service, part of rural development. I appreciate 
the opportunity to testify, and I am going to just highlight a 
few parts of my written testimony.
    Mr. Skeen. We thank you for that.
    Ms. Maurer. Okay. We are an agriculture information 
service, accessible by a toll-free telephone line from all over 
the country, all 50 States and some of the territories.
    We operate by finding out a little bit about the person's 
farming operation. We put together written materials gathered 
from a number of sources, refer them to other farmers who are 
doing these practices, provide them with various kinds of 
marketing information, if we know about marketing channels, and 
this is summarized and mailed back to the person. So a person 
can call-in and the information is mailed back directly to the 
person's mailbox.
    Sixty-five percent of our callers are farmers. Thirty-five 
percent are from Extension, various government agencies and 
agriculture businesses that are interested in learning about 
these practices.
    Since 1987, which is when the program began, we have 
responded to nearly 100,000 requests and in fiscal year 1996 
alone 18,000; and that annual figure has quadrupled the rate 
that we did in fiscal year 1989. We have been level funded at 
$1.3 million for the past 6 years, and in the fiscal year 1998 
budget it has been proposed that we be funded at that level.
    One thing we have noticed with farmers over the last couple 
of years is that we are getting more farmers not only asking 
about production, but about marketing avenues for these 
sustainably produced products, and they want to be able to know 
how they are going to market the product before they actually 
put it in the ground and how to evaluate adding that enterprise 
to their operation.
    So this increase in marketing questions, helping the 
farmers develop their capabilities to market these kinds of 
products, is the reason why we are actually asking for a small 
increase over the 1.3. And I know the budget is very tough, but 
I think that will help us to deal with the doubling and the 
number of marketing questions that we are getting from farmers 
who want to develop these agriculture enterprises.
    I want to make a couple of final points.
    We do work with a couple other sustainable ag programs. The 
SARE program uses us as an outlet for the materials that they 
produce through their research and education program since they 
don't have dissemination capabilities, and we have been real 
partners with Extension training in all four of the regions. As 
a matter of fact, in the last year, I have spoken at two 
Extension conferences and had pleas from Extension people to 
continue our service and to continue helping them find 
materials that they need. Since the research program is 
relatively new, they need to be able to get information out 
faster from that SARE program. So we have really worked closely 
with Extension, but we are unique from them.
    I guess I would like to say we are convinced that we 
provide a national service that is valuable to broadening the 
acceptance and marketing of sustainably produced products. We 
appreciate the past support that Congress has provided, which 
enables this unique service to provide information which helps 
farmers with the choices they face, especially with the new 
farming legislation, and they look at some big changes over the 
next 6 to 7 years.
    I urge you to continue to support the work, and we pledge 
to continue to improve the efficiency of the program and the 
quality of information we offer to farmers.
    Mr. Skeen. Thank you for your testimony.
    What kind of an increase are you asking for? I haven't had 
a chance to look at that.
    Ms. Maurer. Oh, I am sorry. From 1.3 to 1.5. So about 15 
percent. And we do understand the tightness of the budget, but 
that will help us deal with the quadrupling in the request for 
our service.
    Mr. Skeen. We appreciate your sensitivity in that area. We 
are all going to have to deal with that.
    Let me ask you a question. You mentioned tech transfer. 
Give me an example.
    Ms. Maurer. Well, for example, we have had farmers, for 
example, that are really concerned about the methyl bromide, 
you know, the outlying of methyl bromide.
    Mr. Skeen. That has been a persistent problem across the 
entire field.
    Ms. Maurer. Right, exactly. So one of the things we have 
been able to do is provide them with some access to some 
cutting edge information about what else they can do, what 
options they have.
    Mr. Skeen. I see. Thank you very much for your 
presentation.
    Ms. Maurer. Thank you for your time.
    [The prepared statement of Teresa Maurer follows:]

[Pages 384 - 388--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

                    NATIONAL RURAL HOUSING COALITION

                                WITNESS

ROBERT A. RAPOZA, EXECUTIVE SECRETARY

    Mr. Skeen. Mr. Robert Rapoza. Did we pronounce that right?
    Mr. Rapoza. Yes, sir. Good morning, Mr. Chairman.
    Mr. Skeen. Good morning, sir.
    Mr. Rapoza. I am Bob Rapoza. I will submit my statement for 
the record.
    Mr. Skeen. Thank you, sir.
    Mr. Rapoza. I am with the National Rural Housing Coalition. 
We lobby on behalf of the rural development efforts of the 
Agriculture Department. We have appeared before the 
subcommittee many times in the past and appreciate the 
opportunity to testify this morning.
    We want to start off by supporting, in general, the budget 
request from the President. The housing and development funds 
of the Agriculture Department have been cut over the last 3 
years; and while the President's budget isn't all that we would 
have hoped for, it does stem the tide of cuts. Certainly the 
budget has fallen hard on development funds over the last 3 
years, and the President's budget does take us in a better 
direction in terms of providing funding for housing, water, 
sewer and related activities.
    We would urge the committee, as it looks at the budget, to 
look at the subsidy rates that are projected in the President's 
budget. The 1997 budget did not hit the mark with regard to 
interest rates and subsidy rates; and, therefore, in Section 
502, direct loans in particular, there was a big reduction 
because it was based on the subsidy rates in the President's 
budget.
    While the 1998 budget does seem to do a better job, it 
still projects that interest rates will be down; and, thus far, 
one would expect that might not be the case, just based on the 
economic reports of the last few days and the fact that the 
stock market went down because it expects rates to go up soon.
    So we are once again in a situation where the interest rate 
projections and, therefore, the subsidy rate projections in the 
President's budget could well fall short of the mark; and the 
result would be if that were followed that there could be a cut 
in Section 502 that the committee and Congress----
    Mr. Skeen. It puts a wet blanket on your program, doesn't 
it?
    Mr. Rapoza. That is right. We think that Section 502 is 
important and the only option for low-income home ownership in 
small communities. We would like to see the BA provided to 
support that at the billion dollar level. It works particularly 
well with self-help housing.
    And I know you have been to Tierra del Sol and some other 
sites----
    Mr. Skeen. Yes, sir.
    Mr. Rapoza [continuing]--where self-help groups help 
families build their own housing, save the government 10 to 25 
percent off the cost of a Section 502 house and do a lot of 
good things for the families. Self-help families are poorer 
than regular Section 502 borrowers, but yet have lower default 
rates. We are supporting the budget request for self-help 
housing, which is a grant, which is a grand total of 26 or so 
million dollars.
    We worked very hard and supported the efforts that the 
Chairman, Mr. Skeen, made on Section 515 reform. Now, we hope 
that the committee will be able to provide a fair level of 
funding for Section 515. The reform effort was a difficult one, 
but we certainly want to thank you for the effort that you made 
to get that down, Mr. Chairman.
    Finally, the budget does propose a consolidation for rural 
development act activities. It stems from the farm bill. It is 
called the RCAP. The Appropriations Committee over the last 2 
fiscal years has provided three consolidations which we think 
ought to continue. The RCAP isn't a substantive departure from 
what the committee has done, but it does set aside some funds 
for the States. At a time of really tight budgets, we do not 
think that is justified. To set up a duplicative and redundant 
state of rural development effort funded by Federal funds, it 
does not seem to make much sense.
    I will stop now. Thank you for the opportunity. And I would 
be happy to answer any questions that you might have.
    Mr. Skeen. Thank you, Robert.
    We have tried to do a lot of budget bending for these 
programs because they are so vital and we think so important. 
You have done very well with it.
    Now we are squeezing these budgets down, and it is a little 
difficult for us to prophecize what is going to happen in this 
situation. But you have a good program, and you have adjusted 
some of the problems we have had with it. We are going to try 
to keep you viable.
    Thank you very much for your presentation.
    Mr. Rapoza. Thank you very much, Mr. Chairman.
    [The prepared statement of Robert Rapoza follows:]

[Pages 391 - 397--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

                 NATIONAL ASSOCIATION OF HOME BUILDERS

                                WITNESS

MICHAEL GLASS, PRESIDENT, GLASS DEVELOPMENT COMPANY, LANCASTER 
    PENNSYLVANIA

    Mr. Skeen. Michael Glass with the National Association of 
Home Builders on rural development. Welcome, Michael.
    Mr. Glass. Good morning, Mr. Chairman.
    Mr. Chairman, my name is Michael Glass. I am the President 
of Glass Development Company in Lancaster, Pennsylvania. I 
serve on the board of trustees of the National Association of 
Home Builders' Rural Housing Counsel and am here today 
representing the 190,000 member firms of the Association. I am 
a builder and developer of affordable housing, and I build 
homes in Central Pennsylvania and in upstate New York. My 
company has provided first-time homeownership opportunities to 
approximately 1,000 families.
    I am also the Chairman of the Commonwealth of 
Pennsylvania's Regional Housing Advisory Committee, appointed 
by Pennsylvania's Secretary of Community and Economic 
Development; and I serve as Chairman of the Pennsylvania 
Builders Association Housing Policy Subcommittee.
    Thank you very much for the opportunity to present the home 
building industry's views on rural housing appropriations. I 
have a written statement that I would like to submit for the 
record.
    Mr. Skeen. It will be in the record in its entirety. We 
appreciate your abstracting it.
    Mr. Glass. As you know, rural housing programs provide 
affordable housing to rural areas. Unfortunately, rural areas 
traditionally have lacked the financial resources for home 
financing. For this reason, the rural housing service programs 
are vital to increase the availability of decent, safe and 
affordable housing for lower and moderate income rural home 
buyers and renters.
    The Section 502 single family direct and guaranteed loan 
programs and the Section 515 rural rental house program have 
been overwhelmingly successful in providing cost-effective, 
affordable home ownership and rental housing opportunities; and 
they have provided additional capacities through job creation 
and the generation of tax revenue.
    I would like to commend the Department of Agriculture for 
their work to reduce the cost of the single family program by 
30 percent and the regulatory burden by 90 percent over the 
past 2 years. I would also like to share with you examples of 
how the single family program can improve the life of a hard-
working, creditworthy family.
    A 41-year-old single mother, who, in addition to raising 
her own son, is a mentor for troubled children, was able to 
purchase a new quality-built, energy-efficient home with 
affordable monthly payments, leaving behind her old dilapidated 
house in an unsafe neighborhood.
    The loan of a 26-year-old nurse's aid with two sons under 
10 years old is a textbook case of public, private, State and 
Federal partnership. Her home was purchased with a first 
mortgage from the Pennsylvania Housing Finance Agency with an 
interest rate of 5.5 percent, a second mortgage provided with 
home funds with no interest, and a third mortgage provided by 
the Rural Housing Service at their applicable interest rate.
    These loans were originated and completed by the private 
sector in partnership with the State and Federal Governments.
    Mr. Chairman, great strides have been made to reduce the 
cost, regulatory burden, leverage funds and coordinate housing 
activities with other economic, industrial and community 
development activities in rural areas. However, despite all the 
progress, there is still a desperate need for affordable 
housing in America's rural areas.
    The funding for rural housing programs has decreased by 69 
percent over the last decade, with rental housing suffering an 
80 percent decrease. The decrease in funding far exceeds the 
percentage reduction in all other areas of the Federal budget.
    Meanwhile, the number of rural poor in need of affordable 
shelter has steadily increased. This, coupled with welfare 
reform, will place a disproportionate burden on the already 
strained rural communities.
    For fiscal year 1998, the administration's budget included 
funding for program levels of $1 billion for Section 502 single 
family direct loans, $3 billion for Section 502 single family 
guaranteed loans, $150 million for Section 515rural renting 
housing, and $25 million for credit sales.
    Taking into account the current tight budget climate, NAHB 
would like to see rural housing programs funded at the highest 
level possible. Adequate shelter must be considered a priority 
for rural areas, along with nutrition and workfare programs.
    Regardless of funding levels, rural housing programs are 
still susceptible to pressures from outside the appropriation 
process. The Section 502 single family direct loan program is 
completely sensitive to changes in interest rates. Last year, 
as you are well aware, the appropriated program level was cut 
in half when the credit subsidy rate was calculated at the 
beginning of the fiscal year. As a matter of fact, it is our 
understanding that interest rates have risen again since the 
President submitted his budget in February, and the proposed 
budget authority will produce a program of lower than $1 
billion.
    The administration also proposes to reduce the loan term on 
the Section 515 rural housing program from 50 years to 30 
years. This will reduce the subsidy rate and allow the program 
to be funded at the $150 million level program level. Without 
this change, Section 515 will be funded at $128 million.
    NAHB is disappointed the administration did not recommend 
funding the Section 538 rural renting guarantee program. This 
new program guarantees loans made by certified lenders from 
multi-family housing in rural areas. It is our hope that the 
Congress will reauthorize and fund the program again this year.
    NAHB supports a bill introduced by Congressman Doug 
Bereuter to permanently authorize the Section 538 program. 
Since the program level for the Section 515 program has 
continued to decline, NAHB would like to explore with this 
committee other options to use housing guarantees, combined 
with rental assistance and credit subsidy, to provide much-
needed rental housing to rural areas in the future.
    On behalf of the National Association of Home Builders, I 
would like to thank you, Mr. Chairman, for the opportunity to 
testify today on important rural housing appropriations and 
especially for your continued support of home ownership and 
rental opportunities for lower and moderate income rural 
families.
    Mr. Skeen. Michael, we thank you for your presentation. 
There is an absolute need of horrendous proportions taking 
place in rural communities, and I think you have highlighted it 
very well.
    Also, I think the input you have is a good example of 
government and private sector working to the benefit of the 
population and particularly in rural communities. It has been a 
very successful program, and we would hate to lose it.
    The funding is going to be the tough part of the thing and 
also getting the authorizing committee working to make the 
changes in the program to resuscitate section 538 and some of 
the others.
    We thank you for your presentation.
    Mr. Glass. Thank you, sir.
    [The prepared statement of Michael Glass follows:]

[Pages 401 - 409--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

                 NATIONAL ASSOCIATION OF WIC DIRECTORS

                                WITNESS

ELOISE JENKS, PRESIDENT

    Mr. Skeen. Eloise Jenks with the National Association of 
WIC Directors. There you are. Welcome.
    Ms. Jenks. Thank you.
    Mr. Skeen. You know the chorus. We will put all the written 
work in the record, and you summarize it any way you would 
like. Thank you for being here, Eloise.
    Ms. Jenks. Thank you very much.
    Mr. Chairman, on behalf of the National Association of WIC 
Directors, NAWD, I thank you for the opportunity to present 
testimony on the President's budget request.
    I am Eloise Jenks, President of NAWD and Executive Director 
of the Public Health Foundation WIC program of Los Angeles.
    WIC is a program of which you should be very proud. WIC is 
a short-term intervention program designed to influence 
lifetime nutrition and health behaviors in a targeted high-risk 
population. WIC provides services in 9,000 clinics administered 
by 1,800 local agencies in 86 State WIC programs.
    Of the Federal appropriation, only 9 percent of the WIC 
grant is used for program administration; 16 percent is used 
for direct client services needed to assess each individual's 
nutrition, health and income eligibility, to provide nutrition 
education, breast feeding support and promotion, prenatal 
pediatric and immunization screening and referral, to provide 
drug, alcohol and tobacco abuse information, to prescribe and 
issue food benefits, register voters and provide other mandated 
or necessary client services.
    The remaining 75 percent of the WIC grant is allocated for 
food benefits. WIC's monthly food prescription package is 
tailored to meet the specific nutritional needs of each client 
and is serving 7.4 million participants, including 1.8 million 
infants and 3.9 million children.
    WIC requires that each client has one or more documented 
nutrition risks and income less than or equal to 185 percent of 
the poverty level. In fact, 94.5 percent of all WIC 
participants have incomes below 150 percent of the poverty 
level.
    Numerous studies show that pregnant women who participate 
in WIC seek earlier prenatal care and consume more healthy 
diets. They have longer pregnancies, leading to fewer premature 
births, have less low and very low birth rate babies and have 
fewer fetal and infant deaths.
    It costs $544 a year for pregnant women to participate in 
WIC. By contrast, it costs $22,000 per pound to grow a low and 
very low birth weight baby to normal weight of 7 pounds in 
neonatal intensive care unit. WIC prenatal care benefits reduce 
the rate of very low birth rate babies by 44 percent.
    WIC promotes breast feeding as the preferred method of 
infant feeding. Breast milk contains all the nutrients 
younginfants need to grow and develop. Breast-fed infants tend to be 
healthier since they receive antibodies from the breast milk which 
protects them from infection. In 1994, WIC mothers increased their 
breast feeding initiation rates to 44 percent.
    WIC helps to assure children's normal growth, reducing 
levels of anemia, improving access to regular health care, 
increasing immunization rates and improving diets.
    Forty-seven percent of all infants born in the United 
States are on WIC. Eighteen percent of all children in the 
United States are on WIC.
    Four- and five-year-olds whose mothers participate in WIC 
during pregnancy had better vocabulary test scores than 
children whose mothers had not received WIC benefits. Children 
who participated in WIC after their first birthday had better 
digit memory test scores than children who did not participate 
in WIC.
    States stretch available WIC funds through rebates on foods 
and other cost-saving initiatives. State WIC agencies use their 
infant formula buying power to achieve bulk purchase savings in 
the form of monthly rebates paid by infant formula 
manufacturers. These rebates save over $1.1 billion for Federal 
taxpayers and fund services for $1.5 million women and 
children.
    NAWD supports both the administration's $100 million 
supplemental appropriation request for WIC in 1997 and its 
increase for just over $378 million in WIC funding for fiscal 
1998.
    We are aware that a major concern of the committee has 
continued to be the amount of carry over funds projected for 
the next fiscal year. Why is this supplemental needed, given 
that carryover funds are available?
    WIC directors cannot overspend the WIC grants. It is not 
possible nor is it prudent management for WIC to expend all of 
its appropriated resources in a given fiscal year. WIC managers 
have typically experienced carryover margins of 3 or 4 
percent--or about 3 cents on the dollar of the total WIC grant. 
This is well within the operating margins of the Nation's 
Fortune 500 companies.
    I would like to describe to you what happens at the local 
level which makes it difficult to give precise estimates of the 
expenditures.
    My program schedules about 240,000 families to receive WIC 
services within a 2-month period. Each month, about 110,000 
families will come in to receive services. Each WIC-certified 
member will receive about 10 checks for specific foods. Some of 
these checks are for this month, and some are for next month. 
Each family spends the WIC checks at authorized grocery stores. 
The price on the foods on each check will vary from store to 
store and day to day.
    The food instruments are for specific choices of foods, for 
example, two dozen eggs. They have dollar limits on the checks. 
But the food instruments are not for a specific dollar figure. 
In other words, the cost of the two dozen eggs may be $1.79 
today at one store and $1.75 at a different store. The market 
deposits the food checks to the bank, which in turn submits the 
checks to the State for reimbursement.
    The WIC client has 30 days to purchase the WIC foods. If 
she receives WIC food checks on 25 September, she will purchase 
the food perhaps in three or four trips to the market in the 
30-day period. The market also has a legal time frame in which 
to deposit the checks to the bank.
    The point of all this is that USDA, the State and local 
agencies do a remarkable job of bringing the participation and 
expenses of this wonderfully complex problem to within 97 cents 
of each dollar appropriated.
    The administration's fiscal year 1998 budget request of 
nearly $378 million includes a $100 million contingency fund to 
cover unexpected WIC food increases. The amount is necessary 
for the following reasons:
    The amount of carryover funds anticipated for fiscal year 
1998 are expected to be less than the current fiscal year. To 
maintain current participation levels and to prevent caseload 
reduction, the reduction of carryover funds available in fiscal 
year 1998 must be adequately offset by 1998 proposals. WIC food 
costs rose dramatically in fiscal year 1996 and 1997 and may do 
so in 1998 as well.
    Finally, if the WIC program is to reach the 
administration's full funding goal, additional resources will 
be needed. The committee should note that even if the 
administration's goal is met, there will still be over 1.5 
million potentially eligible WIC participants who will not be 
served.
    The President's budget proposal provides $12 billion to 
fund the Farmers Market Nutrition Program, FMNP. NAWD 
recognizes the importance of FMNP, which supports WIC's health 
and nutrition objectives. NAWD recommends that alternative 
methods for funding the FMNP be explored. Currently, funding 
for FMNP is subtracted or set aside from the WIC appropriation.
    If its funding is to be at the expense of cutting WIC 
caseload, then maintaining WIC caseload must be the priority. 
If FMNP is to remain a part of the WIC appropriation, we urge 
the committee to empower WIC directors with the ability to make 
management decisions to protect WIC caseload.
    Again, Mr. Chairman and members and the rest of the 
committee who are not here, I thank you for this opportunity to 
present testimony on behalf of the National Association of WIC 
Directors, NAWD, and remain available, along with 
theAssociation's Executive Director, Douglas Green, to answer any 
questions you may have.
    Mr. Skeen. We thank you very much. We have a very serious 
problem, as you know, with the $100 million and the funding in 
general; but we have always tried to full and forward fund this 
program. You folks have done a good job with it and we would 
like to keep it up, but we have another side of the ballgame 
going on around here when it comes to allocations. We will do 
the best we can.
    Thank you for your presentation.
    Ms. Jenks. Thank you very much, Mr. Chairman.
    [The prepared statement of Eloise Jenks follows:]

[Pages 413 - 418--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

                  RURAL ENTERPRISES OF OKLAHOMA, INC.

                               WITNESSES

HON. WES WATKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
JOHN GREEN, CHAIRMAN OF THE BOARD OF DIRECTORS,

    Mr. Skeen. I want to skip down here to Mr. Wes Watkins, our 
colleague.
    Welcome, Wes; and I understand you have John Green with 
you.
    Mr. Watkins. You bet. I have three individuals with me.
    Mr. Skeen. They are not all Oklahomans, are they?
    Mr. Watkins. Yes, sir, you bet they are.
    Mr. Skeen. You know where Baha, Oklahoma, is. That is 
Texas. We vote 100 percent of them there.
    I had a friend one time who was a very strong Democrat, as 
most Oklahomans had been at one time, almost solid; and we were 
visiting, and I said, what do you do if you find a Republican? 
He said, we just run them around the pasture until they drop 
dead. We keep the votes.
    But I see what some Democrat Oklahomans do, they switch to 
Republicans.
    We are delighted to have you. Go ahead with the 
introduction, Wes.
    Mr. Watkins. Mr. Chairman, I am just honored, I want you to 
know, from the bottom of my heart about getting to be here and 
appear before you and this committee.
    Mr. Skeen. It is nice to have you back.
    Mr. Watkins. I am delighted to be here. I am honored also 
to make some introductions, Mr. Chairman, if you don't mind.
    A long-time friend Jan Montgomery is from my district and 
also very much a leader in the home economics area, nutrition 
area, leadership in the extension area, and a multitude of 
other things, but always gave time to the Rural Enterprise 
program.
    The gentleman to my immediate right is the Executive 
Director of Rural Enterprises and has done a tremendous job in 
helping it to be probably the most creative program on 
developing jobs and creating private sector jobs in a depressed 
economic rural area of our part of the State.
    And the gentleman to my left, who is a private sector 
businessman, is an innovator, an entrepreneur in his own right, 
has been Small Businessman of the Year in his hometown of 
Stillwater, where I also live, Mr. John Green who serves as 
Chairman of Rural Enterprises Inc.
    And these people don't look at the clock--they're up early 
and stay late in order to get the job down.
    Mr. Skeen. Get the job done and worry about where you're 
going later.
    Mr. Watkins. Exactly. That is why, with the help of this 
committee and the funding, which has helped along the way, we 
have been able to achieve great success in this area. We have 
come back to ask you for your help again, Mr. Chairman, you and 
the staff and other members. If you don't mind, I would like to 
enter my remarks for the record.
    Mr. Skeen. They will be in the record.
    I just want to say before you leave here, though, I have 
never known anyone who was so dedicated to a program as the one 
which you are involved in right now; and in your prior years of 
service over there, you did a lot for rural development.
    Mr. Watkins. We have to have it in the rural areas.
    Mr. Skeen. Glad to have you back, because those are tough 
communities to take care of. I had to make you feel good.
    Mr. Watkins. Thank you, Mr. Chairman.
    [The prepared statement of Rep. Wes Watkins follows:]

[Pages 421 - 423--The official Committee record contains additional material here.]


    Mr. Green. Mr. Chairman, I am John Green, Board Chairman of 
Rural Enterprises of Oklahoma, Incorporated. I am here today on 
behalf of Rural Enterprises to request continuance of funding 
from the U.S. Department of Agriculture in accordance with the 
Cooperative Extension Service to fund and create jobs through 
small business financing and technical assistance for rural 
Oklahoma businesses.
    Rural Enterprise is a non-profit, economic development 
organization. Our mission is to create jobs through business 
financing, business development efforts, business incubators 
and manufacturing assistance. Technology and resource services 
of the organization include memorandum of agreements with the 
Oklahoma Cooperative Extension Service to provide small and 
mid-sized businesses in rural Oklahoma with technical 
assistance to increase profitability.
    REI has helped provide technical research and document 
procurement services to OCES and to support the OCES technology 
transfer agent. Rural Enterprise is a certified development 
company and a one-stop capital shop for the U.S. Small Business 
Administration. In 1996, REI was designated as a community 
development financial institution by the U.S. Treasury 
Department. Appropriations from USDA have permitted REI to 
provide financing and technical assistance to small businesses.
    Since 1981, over $94 million has been secured for 
ruralbusinesses. In 1996, REI has secured over $20 million for small 
businesses and helped create and retain 809 jobs. Also, last year, 
microloans for rural entrepreneurs totaled over $143,000.
    REI is one of the co-applicants for rural business 
incubators and foreign trade zone centers to encourage 
exportation. Continued USDA appropriations of the $433,000 plus 
almost $80,000 through Cooperative Extension Service derived 
from the $333,000 allocated to technology transfer projects in 
Oklahoma and Mississippi.
    Funding will permit Rural Enterprise to continue the 
economic development efforts that USDA funding has provided 
since its first agreement between REI and the USDA prior to 
1997.
    As Federal and State level governments move towards 
increasing privitazation, intermediary organizations like REI 
are needed as a link to deliver services. REI is well 
positioned to be that link, and the USDA funding is the key to 
sustaining and strengthening that link.
    Thank you for your considering our testimony and the 
request that you continue the funding.
    Mr. Skeen. Thank you very much for your testimony.
    You touch on a tough situation. A lot of our rural 
communities have begun to die off and have been for some time. 
It takes an infusion of some kind of enterprise operation, and 
we have finally recognized that.
    New Mexico is a good example. We have a lot of Californians 
who have rediscovered New Mexico and are bringing their dairy 
cows in there, and we have some avenues now called Holstein 
avenues. It is not only the milking herds; it is also the 
processing. That is what you are talking about, new enterprise 
in these rural communities that helps keep them viable.
    Thank you.
    [The prepared statement of John Green follows:]

[Pages 425 - 430--The official Committee record contains additional material here.]


    Mr. Watkins. I thank you, Mr. Chairman. I might say, I 
mentioned Jan Montgomery a while ago. She lives on a ranching 
operation besides giving so much time to causes such as this, 
trying to build off farm jobs.
    I thank you, Mr. Chairman, for your leadership and your 
dedication and commitment. And I just wondered, behind you 
there, is that Dolly?
    Mr. Skeen. No, that is some clones we are working on.
    Mr. Watkins. I just kind of wondered.
    Mr. Skeen. They used to be Scotsmen.
    Mr. Watkins. We have some. Thank you, Mr. Chairman.
    Mr. Skeen. Let me tell you a story.
    When I first came up here, I was sitting next to a young 
man on Science and Technology who later became a governor of a 
great State and saw we were talking about limited rural 
communities; and he said, well, where do you live? I said, I 
live south of a little town called Picacho, New Mexico. And he 
said, well, where is that? I said that is west of Roswell about 
39 miles. He said, where is Roswell? I said I live at the 
ranch; it's about 17 miles off the paved road. He said, there 
is no place in the United States that is 17 miles off a paved 
road.
    So these folks from the east have a lot to learn.
    Mr. Watkins. I have had a similar experience.
    Mr. Skeen. We like that living out there in the country, 
you don't have to fight with all your neighbors unless you make 
a long trek to do it.
    Thank you all very much.
                              ----------                              --
--------

                                            Friday, March 14, 1997.

                       U.S. TELEPHONE ASSOCIATION

                                WITNESS

JACK KEEN, PRESIDENT AND GENERAL MANAGER OF WESTERN NEW MEXICO 
    TELEPHONE COMPANY

    Mr. Skeen. Mr. Jack Keen with the U.S. Telephone 
Association thank you for being patient. Welcome.
    Mr. Keen. Good morning, Mr. Chairman. I wish we had some of 
those 17 miles off the paved road myself instead of 50 miles.
    Mr. Skeen. We have some that are a lot worse, you bet. That 
is a good pin you have on there.
    Mr. Keen. I thought you might like that. I wear that on 
occasion.
    Mr. Skeen. What is it you need?
    Mr. Keen. I have submitted my written testimony for the 
record.
    Mr. Skeen. Yes, sir. We appreciate that. It will all be in 
the record.
    Mr. Keen. Good morning, Mr. Chairman. My name is Jack W. 
Keen. I am President and General Manager of Western New Mexico 
Telephone Company, Silver City, New Mexico. Western is a RUS 
borrower, as you well know, and serves over 5,000 customers 
spread out over 15,000 square miles in the southwestern part of 
the State.
    Mr. Skeen. You are one of the most unique telephone 
companies anywhere in the world--or in the United States, I 
should say--because you are not a big corporate entity, you are 
still a family-owned telephone system.
    Mr. Keen. Roughly the size of the State of Maryland, andwe 
are still in charge of all the operations of the company.
    Mr. Skeen. I have been bragging about you a lot.
    Mr. Keen. Thank you.
    I appear before you today as a representative of the United 
States Telephone Association. USTA represents over 1,000 local 
telephone companies that provide over 95 percent of the access 
lines in the United States. I present this testimony on behalf 
of the members of USTA and, of course, the customers they 
serve.
    Local telephone companies have two goals--meeting the needs 
of our customers and maintaining universal service at 
reasonable rates. USTA members strongly believe that the RUS 
telephone loan program is needed to maintain universal service. 
We appreciate, of course, the strong support you and this 
committee in particular have provided the telephone program 
since its inception back in 1994.
    As you know, the telephone industry is in the midst of a 
major change. It is hard to keep up with it all. Without system 
upgrades, rural areas will likely be left out of the 
information revolution. As the need and demand for new service 
evolves, rural telephone systems must have access to low-cost 
RUS financing to fund improvements.
    We look to digital switching, access to the Internet, a lot 
of new things coming down the road; and, of course, that 
requires broad band fiber optic lines in order to accommodate 
that.
    Mr. Skeen.  That was one of my questions for you, fiber 
optics.
    Mr. Keen. And we have fiber optics about 380 miles in our 
system.
    Mr. Chairman, you know that New Mexico is one of the most 
rural states in the United States; and you know that my 
company, Western, and other RUS borrowers have worked hard to 
build the infrastructure to serve those customers.
    We also have a responsibility, as many of those are 
ratepayers as well. Many local phone companies are concerned 
about making long-term commitments needed to build rural 
telecommunications infrastructure itself. One answer, of 
course, is that RUS has always been an important element in 
convincing local telephone companies to make those needed 
investments.
    After all, RUS is a voluntary program designed to provide 
incentives to local telephone companies to build a plant 
essential to rural economic growth. RUS endures because it 
truly is a private-public partnership in which the borrower 
telephone systems are channeled through the Federal Government 
to help rural customers, the true beneficiaries of the RUS 
program. That is the way RUS borrowers look at it, is for the 
benefit of our customers.
    The government's contribution is protected by the equity, 
technical expertise and dedication of local telephone 
companies. Continuation of the loan levels for the RUS 
telephone programs that were recommended by this committee, 
signed into law for fiscal year 1997, would maintain our 
ability to serve the Nation's telecommunications needs and to 
maintain universal service.
    Rural Americans, I have learned, in our service area don't 
want to wait any longer to be full participants in the 
information age. They are very much like people all over the 
country. One and a half million dollars in subsidy authority 
would restore the proposed $35 million cut in hardship loan 
levels. This seems like an excellent use of scarce government 
resources for the benefit of rural Americans.
    In conclusion, I am pleased to remind you that the RUS 
telephone program has a perfect record of no defaults in over a 
half century of existence. We as RUS borrowers take great pride 
and take deadly serious our obligations to the government, the 
Nation and our subscribers; and certainly I can pledge that we 
will all do our best to assure universal telephone service at 
reasonable rates.
    I would like to quote Senator Conrad Burns, who spoke to 
our USTA convention last year in 1996. The people say to me, my 
gosh, how do you make a living in Montana? We go through here, 
and we don't see anything for miles. And I say, you know what? 
There are people in houses in Montana, and they have got faces, 
and they have got dreams, too, and their needs are the same as 
anybody in any other part of this country.
    I represent a big State. From one end to the other is 
further than from Washington, D.C., to Chicago, so I have got 
to deal with distances. But you know what? Our kids are just as 
important, their eyes are just as bright, and their dreams are 
just as valid as any other kids. They just want an opportunity, 
and local telephone companies are a vital part of the 
infrastructure that will allow them that.
    Thank you.
    Mr. Skeen. Thank you, sir.
    I really appreciate what you have to say, particularly from 
the aspect of new technology involvement in the communications 
system. However, I was shocked to find out here a few days ago 
that we have one large community in New Mexico that has, 
though, no fiber optics that is serviced by one of the bigger 
companies, but not to mention the name. A community in New 
Mexico has no fiber optic access at this point.
    Mr. Keen. It will be hard to be part of the information 
superhighway without it.
    Mr. Skeen. The technology is there and is part of the 
everyday living. I don't know how you can, particularly from a 
health standpoint and some of the other things.
    Mr. Keen. That is right. Healthcare, distance learning, all 
of the new things.
    Mr. Skeen. All the technology base. Thank you very much, 
Mr. Keen.
    Mr. Keen. Thank you.
    [The prepared statement of Jack Keen follows:]

[Pages 434 - 439--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

                  WESTERN RURAL TELEPHONE ASSOCIATION

                                WITNESS

SAM J. MASELLI, EXECUTIVE VICE PRESIDENT

    Mr. Skeen. Sam Maselli with the Western Rural Telephone 
Association. Welcome, Sam.
    Mr. Maselli. Good morning, Mr. Chairman.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you this morning related to agriculture appropriations 
for fiscal year 1998. We sincerely appreciate your ongoing 
commitment and hard work for the benefit of rural America.
    Mr. Chairman, my name is Sam Maselli; and I am the 
Executive Vice President of the Western Rural Telephone 
Association. WRTA is a regional trade association comprised of 
nearly 150 small, rural, local telephone systems scattered 
throughout the western United States and the Pacific rim 
territories. All of WRTA's member systems rely or have relied 
heavily on the RUS telecommunications loan program for their 
infrastructure financing needs.
    In this context, WRTA strongly supports the continued 
strength and viability of the RUS program in order for it to 
allow rural LECs to meet their infrastructure development needs 
in the future.
    Mr. Chairman, the RUS telecommunications loan program 
stands as a remarkable private-public partnership success story 
which continues to produce tangible results in the lives of our 
rural citizens. With the assistance of RUS capital and 
technical standards, rural telephone systems are providing 
modern services of a highly sophisticated quality.
    However, with the dynamic pace of change in the development 
of information technology, the need for RUS lending is greater 
than ever. Due to the nature of rural areas, particularly in 
the rural west, the challenge of providing modern service is 
truly formidable. Compared to their urban counterparts, rural 
communities are faced with higher poverty rates, lower income 
levels, physical isolation and, ultimately, higher costs 
associated with the deployment of modern infrastructure.
    Rural economic development is often frustrated by these 
unique rural conditions. With our Nation in the midst of the 
information revolution, rural areas are confronted with the 
dilemma of being left behind.
    Despite these obstacles, information technology holds 
significant promise for our rural communities. As we have seen 
in recent years, information services can directly benefit our 
schools, libraries, hospitals, clinics; and it can facilitate 
commercial opportunities such as telemarketing, insurance and 
manufacturing not possible in previous years.
    While the explosive nature of technological change offers 
our rural areas genuine opportunity for economic and social 
progress, we believe special attention must be placed on 
providing these communities with the appropriate set of tools 
to address their unique needs. The RUS telecommunicationsloan 
program is playing that critical front-line role in ensuring that rural 
America is indeed linked to the technology of the future.
    Mr. Chairman, in this regard WRTA believes that loan levels 
next year should be continued at the same level that Congress 
authorized last year. We also are requesting that the 7 percent 
interest rate cap on Treasury-cost loans be removed again in 
fiscal year 1998 to protect the viability of the program.
    We also believe that this year's bill should continue the 
restriction on the retirement of RTB Class A stock as provided 
in the past 2 fiscal years.
    Finally, we support the President's budget request for the 
DLT loan and grant program and urge the subcommittee to 
strongly take these recommendations into consideration.
    Again, thank you, Mr. Chairman, for the opportunity to 
appear before you this morning.
    Mr. Skeen. Thank you, Mr. Maselli. We appreciate what you 
had to say and leave with us, and we share the same concerns. 
We will try to get it all weeded out here through the 
allocation process, and if we ever decide on what kind of 
budget we have, we will get on the road.
    Mr. Maselli. We appreciate your hard work.
    Mr. Skeen. Thank you. We appreciate your testimony.
    [The prepared statement of Sam J. Maselli follows:]

[Pages 442 - 447--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

               NATIONAL COOPERATIVE BUSINESS ASSOCIATION

                                WITNESS

DAVID CARTER, PRESIDENT, ROCKY MOUNTAIN FARMERS UNION

    Mr. Skeen. Mr. David Carter of the National Cooperative 
Business Association. Welcome, Mr. Carter.
    Mr. Carter. Good morning, Mr. Chairman. It is good to see 
you again. Dave Carter. I am President of the Rocky Mountain 
Farmers Union, a general agricultural organization representing 
13,000 farm ranch families in Colorado, Wyoming, and New 
Mexico. I also serve as the administrator for our foundation, 
through which we administer the Rocky Mountain Regional 
Cooperative Development Center, and I am testifying this 
morning on behalf of both the Farmers Union and the National 
Cooperative Business Association.
    Cooperative development is a part of a proud heritage 
within the Farmers Union and in the Rocky Mountain region. 
Specifically, our organization has been directly involved in 
several innovative and exciting programs utilizing the 
cooperative model as a tool to foster sustainable human and 
economic development in the underserved regions of our area.
    The funding that we have received, the assistance we have 
received through USDA's Rural Cooperative Development Grants 
program has been instrumental in providing us with the capacity 
to provide useful, meaningful assistance to these groups.
    I want to mention just a couple of specific examples.
    Imagine a group of predominantly Hispanic subsistence 
ranchers in southern Colorado and northern New Mexico working 
directly with rabbis from Baltimore to process and market 
certified Kosher and natural meat products in markets from 
Santa Fe to San Francisco. But that is exactly what is 
happening today. It is happening because we were able to 
provide assistance to a group of ranchers who demonstrated the 
willingness and perseverance to put together what has now been 
chartered as the Ranchers Choice Cooperative.
    In eastern Colorado, a group of wheat farmers are now in 
the midst of an equity drive to launch a cooperative project to 
purchase a state-of-the-art bakery to process and market 
specialty breads. We have got ranchers in western Colorado who 
are developing a cooperative to work directly with the 
restaurant trade. We have producers in New Mexico, wheat 
farmers, who are now completing a feasibility study regarding 
the purchase or construction of a flour mill and cooperative. 
And in little more than a week, I will be down in Las Cruces to 
meet with leaders in the longhorn industry who are now working 
to produce a branded longhorn beef cooperative.
    The 1996 Farm Bill has made a significant transition in the 
Federal approach to agriculture. Producers have been told that, 
rather than relying on farm programs for the baseline 
assistance, that we have to move more into the competitive 
marketplace.
    The program that is now called the Grants for Rural 
Cooperative Development, section 747, paragraph C, paragraph 4 
of Public Law 104-127 provides an important part to that 
process. This program focuses on supporting nonprofit 
institutions for the purpose of enabling the institutions to 
establish and operate centers for rural cooperative 
development. It is authorized to provide funding at $50 million 
per year.
    The new statutory language defines the goals of these 
centers as facilitating the creation of jobs in rural areas 
through the development of new rural cooperatives, value-added 
processing and rural business. The Rocky Mountain Center 
perfectly fits this definition of eligible applicant for the 
program's assistance.
    Let me just add that it is not just an issue of jobs. What 
we are creating right now is ownership, producer ownership and 
some new businesses, as we move more into the global 
marketplace, new businesses that are going to provide producers 
and rural citizens with the ability to compete against the 
established companies.
    Centers in other regions of the country have similarly 
undertaken such projects in building value-added agricultural 
processing facilities. They have also developed community 
development credit unions, partnership among cooperative 
financial institutions, flexible manufacturing networks and 
cooperatives providing housing and child care for impoverished 
farm workers.
    Accompanying my testimony is a copy of a document entitled 
Best Practices for Cooperative Development, Defining, 
Communicating and Replicating Success; and this has been an 
important document in providing some guidance to those of us 
that are in the field working with producers to develop these 
new enterprises.
    This coming year, centers will be involved in replicating 
successes they have achieved and breaking new ground in areas 
where cooperative development is needed. The electric industry 
is rapidly being deregulated in every part of the country; and 
consumer-owned, rural electric cooperatives have provided 
reliable and affordable electricity to rural Americans since 
the rural electrification program began directly for them in 
the 1930s.
    Once again, a small Federal investment can provide 
essential assistance to develop consumer-owned energy 
purchasing cooperatives so that rural Americans won't be left 
in the dark by the current restructuring.
    The President has proposed allocating $1.7 million in his 
budget for this program. Though these funds would indeed 
provide important support for the center's endeavors, further 
funding would have a far greater impact. Again, $50 million is 
authorized under this program. In fiscal year 1996, 87 
proposals submitted for program funding qualified for approval 
under USDA's criteria, and the amount of funding requested for 
these meritorious applications was $13 million.
    The administration recognized the importance of these 
programs when it requested that $5 million be allocated to it 
for fiscal year 1995, and we feel that $5 million in funding 
for the program would be a wise and cost-effective use of the 
limited funds available for rural development in the Federal 
budget. Each dollar invested in cooperative development yields 
many more benefits for our economy in the long-term.
    I thank you again for this opportunity to testify.
    Mr. Skeen. Thank you, too, and thank you for a very robust 
presentation.
    Mr. Carter. Yes, sir.
    [The prepared statements of David Carter and Russell Notar 
follow:]

[Pages 451 - 460--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

               HEALTH INDUSTRY MANUFACTURERS ASSOCIATION

                                WITNESS

G. GREGORY RAAB, VICE PRESIDENT FOR GOVERNMENT AFFAIRS

    Mr. Skeen. Gregory Raab? Welcome, Gregory.
    Mr. Raab. Thank you.
    Thank you, Mr. Chairman. My name is Greg Raab, and I am 
Vice President for Government Affairs at the Health Industry 
Manufacturers Association.
    I wish to stress four points today, Mr. Chairman.
    First, we urge you to keep the pressure on FDA to improve, 
particularly its review of breakthrough medical technologies.
    Second, FDA's medical device program can be improved 
without increases in appropriations, but it must receive stable 
funding.
    Third, if cuts are to be made in the FDA budget, they 
should be focused on low priority work. They should not 
threaten activities central to FDA's core mission such as 
product reviews and patient safety.
    Finally, the administration's medical device user fee 
proposal masked dangerous cuts to the FDA's budget that could 
undermine public health.
    Without question, FDA's performance in regulating medical 
devices has improved in the past 2 years. It has instituted 
administrative reforms that even a year ago seemed unlikely. We 
draw a number of lessons from this.
    First, the impact of this subcommittee is significant when 
it comes to reforming FDA. We have urged you to continue to 
push the agency for a clearer picture of just how resources are 
used and to press the agency to make improvements needed to 
meet its statutory goals.
    Second lesson is that FDA can improve without increases in 
appropriations. It has begun to rely on the management tools at 
its disposal, just as this subcommittee directed, and is 
beginning to see some solid results for the effort.
    The third lesson of the agency is that the agency does not 
need medical device user fees. Congress has repeatedly rejected 
these fees, and the agency has shown it can make improvements 
without them.
    This last lesson is particularly important this year, Mr. 
Chairman. The administration's medical device user fee proposal 
is set up in such a way that if Congress does not accept the 
savings it offers, the budget authority for FDA's medical 
device program would be slashed by $40 million, or 388 FTEs. If 
that happens, product review performance would fall well below 
current levels, which are already far short of congressional 
mandates; and patients, without question, would suffer.
    We strongly oppose these reductions. FDA personnel and the 
medical device program must be able to count onreasonable 
funding to do their jobs. Beyond that, before the subcommittee 
considers any kind of medical device user fee, the agency must be doing 
all that it can to use its existing funds wisely in performing its core 
duties.
    Unfortunately, it is not. Its performance in reviewing 
life-saving and life-extending MPA products, the high-tech 
products, have been poor at best. This is due to a variety of 
policies that hinder innovation and slow approvals. Until these 
activities are substantially reformed, FDA can't claim that it 
has done all that it can to use scarce appropriations 
efficiently.
    Ultimately, we believe that FDA's tendency to veer away 
from its primary responsibilities, such as clearing new PMAs, 
can be achieved only through legislative reform. We have 
learned that administrative reforms must be locked in, Congress 
must pass legislation to modernize the agency and outfit it for 
the next century.
    While Congress grapples with the elements of this 
modernization effort, we urge you to take the following steps 
in the FDA budget: reject medical device user fees; ensure 
level funding for the device program; force the agency to 
continue to modernize; and, finally, ensure that any budget 
reductions are not made in the areas that are central to the 
agency's primary mission, that is medical device reviews and 
patient safety.
    By taking these steps, you will help us and the jump-start 
that you gave FDA reform in the past couple of years so that 
Congress can, in fact, tune up the agency legislatively.
    I appreciate this opportunity to be here and would be glad 
to answer any questions you might have.
    [The prepared statement of G. Gregory Raab, Ph.D., 
follows:]

[Pages 463 - 476--The official Committee record contains additional material here.]


    Mr. Skeen. Mr. Raab, you go right down the list of problems 
we have been dealing with in the FDA, and we have made some 
improvement, and I appreciate you bolstering it, and I think it 
is a good presentation.
    Mr. Raab. Thank you.
    Mr. Skeen. You have touched on exactly the problems we have 
had all along. It is going to be hotly debated.
    Mr. Raab. That is exactly right, Mr. Chairman. You have 
been wonderful here helping the agency, prodding them to 
reform.
    Mr. Skeen. At least we have had the conversation between 
the two elements, the providers and the regulators, and I think 
at least we have a talking situation going on, and we have 
moved some mountains. Small ones.
    Mr. Raab. Pretty soon we will move the entire mountain.
    Mr. Skeen. Very well.
                              ----------                              

                                            Friday, March 14, 1997.

               NATIONAL TELEPHONE COOPERATIVE ASSOCIATION

                                WITNESS

FAYE WELLS, RINGGOLD TELEPHONE COMPANY

    Mr. Skeen. The National Telephone Cooperative Association.
    Ms. Wells. Good morning.
    Mr. Skeen. Good morning, Faye.
    Ms. Wells. Mr. Chairman, I want to thank you for the 
privilege of testifying before you today regarding 
recommendations for fiscal year 1998. I appreciate the 
opportunity to discuss the future funding needs for the Rural 
Utility Service, RUS, telecommunications loan programs.
    Mr. Chairman, I am the Director of Governmental Affairs for 
Ringgold Telephone Company in Ringgold, Georgia. I am 
testifying today on behalf of the members of the National 
Telephone Cooperative Association.
    NTCA is a national trade association representing 500 
telephone companies and cooperatives in 45 States. Our 
telephone company was established in 1912 in the back of a 
vacant store building. The first telephone cable was installed 
in 1929 to serve approximately 125 customers. Today, we serve 
nearly 11,000 subscribers in rural Georgia. We certainly would 
not have been able to if Ringgold had not had access to funding 
provided under the REA and RUS programs. We have been borrowers 
of the agencies since 1959. With the help of these lending 
programs, we have been able to build office switches and new 
exchanges to meet the demand for better customer service, and 
as our community has grownwe have been able to grow with it.
    In the mid-1970s, Ringgold was able to provide all of its 
customers with one party service. In 1994, we launched a $7.2 
million project which, when completed, will include 10 digital 
remote switches offices tied to each other and a host switch by 
fiber-optic cable ring. This switch has allowed Ringgold to 
provide its customers with enhanced telecommunications services 
such as caller ID, voice mail, Internet and Equal Access.
    We currently have a loan application pending before the RUS 
for $12 million to build additional facilities and switching in 
order to provide telephone service and accommodate growth in 
our area. If Ringgold is denied access to a RUS loan, it will 
be costly and difficult to provide telephone service for new 
customers and we may not have adequate facilities to meet the 
increasing demands of our existing customers for ISDN and 
Internet, ultimately denying them access to the information 
superhighway.
    Mr. Chairman, as you can see, the challenge of providing 
modern telecommunications is formidable. The RUS 
telecommunications lending program is helping extend the 
benefits of the information superhighway to rural America. Due 
to the capital-intensive requirements of rural 
telecommunications infrastructure, and the commitment to 
advanced communications made by the enactment of the Telecom 
Act of 1996, the RUS program has become increasingly important 
and necessary. As we continue to move into the information age, 
many rural telecommunications systems will be unable to 
modernize their networks without RUS.
    RUS borrowers average only six customers per mile compared 
to 37 per mile for the much larger telephone companies. Average 
plan investment per customer is 38 percent higher for those who 
use the RUS programs. RUS is making a difference by allowing 
assistance to provide rural Americans with communications 
services comparable with what other Americans have access to. 
RUS is also making a difference in rural schools, libraries, 
and hospitals through extensive use of distance learning and 
telemedicine grant programs.
    NTCA, which represents our concerns here in Washington, 
recommends the subcommittee continue its ongoing commitment to 
the RUS programs. Specifically, we support continuing the 
current funding levels. The current fiscal year funding bill 
removed the 7 percent cap on the RUS treasury loans and we 
support a continuation of this policy.
    NTCA also supports full funding of the distance learning 
and telemedicine grant and loan program. A final request would 
be for the subcommittee to continue its critical report 
language ensuring that the funds in the rural telephone bank 
are not swept by the treasury.
    Mr. Chairman, thank you for the opportunity to address you 
today, and on behalf of NTCA, Ringgold Telephone Company and 
rural telephone companies across America, we deeply appreciate 
your commitment to rural telecommunications development.
    Mr. Skeen. Thank you very much, Faye.
    [The prepared statement of Faye Wells follows:]

[Pages 479 - 483--The official Committee record contains additional material here.]


    Mr. Skeen. What is your population base, population numbers 
for your system?
    Ms. Wells. In our county, it is about 42,000. Ringgold 
serves two-thirds of Catoosa, which is the more rural side and 
our counterpart----
    Mr. Skeen. So you are spread out over quite an area, then.
    Ms. Wells. Yes, sir. We have 11,000 access lines and it is 
pretty rural. We are spread out pretty far.
    Mr. Skeen. We thank you for your testimony and your 
service.
    Ms. Wells. Thank you.
                              ----------                              

                                            Friday, March 14, 1997.

                   NATIONAL RURAL TELECOM ASSOCIATION

                                WITNESS

JOHN F. O'NEAL, GENERAL COUNSEL

    Mr. Skeen. John O'Neal, National Rural Telecom Association.
    Mr. O'Neal. Thank you, Mr. Chairman. It is always a 
pleasure to appear before you.
    Mr. Skeen. Glad to have you.
    Mr. O'Neal. I am appearing again in support of a 
continuation of a strong telecommunications lending program, 
and it is a sincere pleasure to follow that testimony by Faye 
Wells, to pinpoint precisely why this program is important to 
rural America.
    For the record, I am John F. O'Neal, General Counsel of the 
National Rural Telecom Association. NRTA is comprised of 
commercial telephone companies which borrow their capital needs 
from the Rural Telephone Service of USDA to extend and 
modernize telephone service in rural areas.
    Our U.S. borrowers serve almost 6 million subscribers in 46 
States. In accepting loan funds, borrowers assume an obligation 
to serve the widest number of people in their service 
territory.
    Almost $11 billion has been loaned for rural 
telecommunications infrastructure development since the 
program's inception. Through 1996, Mr. Chairman, over $4 
billion in principal and $5 billion in interest has been paid 
by telephone borrowers. Program principal repayments now 
annually exceed outlays so there is no adverse impact on the 
treasury.
    Mr. Chairman, I am proud to report again this year there 
has never been a default on telecommunications lending 
programs. All loans are being repaid in accordance with their 
terms. Given the current and projected loan demand, which is 
detailed more thoroughly in my prepared statement, NRTA 
believes that hardship, cost of money, and guaranteed loan 
levels next year should be continued at the same levels that 
Congress authorized last year. We particularly believe that 
hardship loans should be continued at last year's level, $75 
million, despite the fact that the President's budget proposes 
a reduction.
    There is a substantial backlog in this program and a 
substantial demand in this program. The current backlog is $84 
million this year with almost the entire annual authorization 
being already approved for this year. So there is substantial 
demand there.
    Again this year we are supporting removal of the 7 percent 
ceiling on the cost of money loans so that this program can be 
maintained at 1996 levels without subsidy cost. We also believe 
that this year's bill should continue the restriction on the 
retirement of Class A stock in Rural Telephone Bank as well as 
the prohibition against the transfer of its fund to the general 
fund.
    A new loan and grant program targeted to rapid deployment, 
telemedicine, and distance learning technology was authorized 
in the farm bill last year. We support the President's budget 
request for $150 million in cost of money loans and $21 million 
in grant authority for this important program.
    Mr. Chairman, our U.S. telephone program is truly a sound 
program that is in step with the economic and political needs 
of our time. It represents an investment in rural 
infrastructure and rural jobs, sound investments which form the 
basis for meaningful rural development, as pointed out by the 
administration witnesses yesterday.
    At the same time it is cost efficient for the taxpayer, 
most of subsidy cost is eliminated. That which remains has been 
targeted to the highest cost, lowest density systems. Most 
loans are made at Treasury's cost-of-money or greater today. 
The Rural U.S. Telecommunication Lending Program has a proud 
historical record, and I believe an unlimited future potential 
for our country.
    Thank you again, Mr. Chairman, for the opportunity to 
present our views.
    Mr. Skeen. Thank you, John, and you have a lot to be proud 
of, because the associations have been well managed, well 
operated, and no defaults. It speaks well for the system.
    Mr. O'Neal. Absolutely. We are proud of that record.
    Mr. Skeen. Not only that, but you have a lot of maintenance 
costs. Thank you.
    Mr. O'Neal. Thank you, sir.
    [The prepared statement of John F. O'Neal follows:]

[Pages 486 - 491--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

          PHARMACEUTICAL RESEARCH AND MANUFACTURERS OF AMERICA

                                WITNESS

ALAN F. HOLMER, PRESIDENT

    Mr. Skeen. Mr. Holmer is here with the Pharmaceutical 
Research and Manufacturers of America. Welcome.
    Mr. Holmer. Thank you very much, Mr. Chairman.
    Mr. Skeen. Your entire testimony will be in the record. You 
can abstract it any way you would like.
    Mr. Holmer. Thank you very much.
    As you know, the PhRMA represents the research-based 
pharmaceutical industry. That is, companies you are familiar 
with like Merck, Pfizer, Bristol-Myers, Squibb, and many other 
companies like them that are devoted to coming up with more 
cures and more treatments for more patients.
    We are very concerned about the administration's proposed 
budget for the FDA. A couple weeks ago you described their 
approach as being phoney, and we concur with that completely. 
We care passionately about the administration's budget, because 
it puts at great risk the Prescription Drug User Fee Act. This 
is the program where the pharmaceutical industry over the last 
5 years has paid $327 million in exchange for approved drug 
approval process at the FDA, and that is exactly what we have 
achieved: Approval, the approval times have gone down in the 
last 5 years from about 30 months to get a drug approved, down 
to about 15 months to get a drug approved.
    Mr. Skeen. Now, this is some progress.
    Mr. Holmer. Yes, and we are very pleased with that.
    They can do more, we think, and we are working with them. 
In fact, we have been in negotiations with the FDA and they 
have agreed that for the renewal of this program, which expires 
on September 30th, we have a program that we believe will 
reduce the drug development and approval time by another 12 
months. So we will get drugs to patients about a year earlier 
than would otherwise be the case. We have agreement on that.
    The problem is we have got to find a way to fund the 
program. And as we count it, the President has proposed roughly 
an 8 percent cut in the FDA, and with that kind of cut you are 
certainly going to lose the improvements in the program we have 
negotiated. You will probably lose the improvements that were 
in the program initially, and when you add it all up, that 
could cause a delay in the time it takes to get a drug to 
market by roughly 2\1/2\ years. It would just be a horrible 
problem.
    Every person on this panel knows of individuals who are 
waiting for a cure or for better treatments for disease. It may 
be a Member of Congress individually, it may be a member of 
their family, it may be a friend or coworker. But we all know 
there are millions of Americans who are in desperate need to 
have an FDA that is going to be able to operate asefficiently 
and effectively as possible. An 8 percent cut in their budget, we 
believe, is going to preclude that.
    So as you go about making your decisions with respect to 
the budget for fiscal year 1998, we hope you will remember 
those patients and the extent to which they will be 
disadvantaged if the FDA is not fully funded.
    What we are looking for, we respectfully suggest, Mr. 
Chairman, is level funding for the agency with an adjustment 
for inflation, plus a special level funded designation for the 
human drug approval process at the FDA. That is our position, 
Mr. Chairman, and we hope it can receive your sympathetic 
consideration.
    Mr. Skeen. Thank you.
    [The prepared statement of Alan F. Holmer follows:]

[Pages 494 - 499--The official Committee record contains additional material here.]


    Mr. Skeen. After hearing the news this morning about the 
President's dilemma, maybe he will be interested in talking 
about user fees on medications.
    Mr. Holmer. We expect that to be the case.
    Mr. Skeen. We are all rooting for him to have a quick 
recovery.
    We are glad you are making progress and you folks have 
certainly responded well, and we appreciate that.
    Mr. Holmer. Thank you. Our companies, just so you know, Mr. 
Chairman, are going to be investing in 1997, $19 billion on 
research and development, over 21 percent of their sales. And 
as a result of that you were able to see in 1996, there were 53 
new medicines to treat 40 different diseases that were approved 
by the Food and Drug Administration that had been promoted by 
our companies, submitted for our companies for approval. So it 
is a tremendous record of achievement that the industry and the 
FDA have achieved, and we want it to keep going.
    Mr. Skeen. We certainly appreciate that because we saw 
enough of it go overseas.
    Mr. Holmer. Thank you.
                              ----------                              

                                            Friday, March 14, 1997.

               SOCIETY FOR ANIMAL PROTECTIVE LEGISLATION

                                WITNESS

CATHY LISS

    Mr. Skeen. Cathy Liss with the Society for Animal 
Protective Legislation. Welcome, Cathy.
    Ms. Liss. Thank you. This morning, Mr. Chairman, I was 
going to testify regarding four separate matters. The first----
    Mr. Skeen. Boy, you are very versatile.
    Ms. Liss. A lot to talk about and I will try to make it as 
brief as possible.
    The first is a desperate need for $12 million in 
appropriations for Animal and Plant Health Inspection Services' 
Animal Care Program, so they can enforce the Animal Welfare 
Act.
    Nationwide, there are more than 1 million animals covered 
by the Animal Welfare Act's standards for basic care and 
treatment. The USDA inspectors visit more than 10,000 separate 
sites to ensure compliance with the law, the dealers, research 
facilities, exhibitors, carriers, and handlers. And really what 
they need would be about 100 field inspectors to adequately 
enforce the act and visit these sites an appropriate number of 
times. And sadly, the number of inspectors have been decreasing 
over time from a peak of 86 inspectors back in fiscal year 
1993. Now, however, there are only 72 field inspectors 
responsible for making these compliance inspections at more 
than 10,000 sites. Congress has maintained virtually level 
funding for the program and, in fact, it has gone down the past 
couple of years, and for each year it maintains about the same 
level, they are losing about four staff people. The program 
simply cannot continue to sustain such continued losses.
    There also are a couple of areas within the Animal Welfare 
Program where we might be able to save a little bit of money, 
and one would be to eliminate what they call the Preceptor 
Program, which is a specialized education that costs $10,000 
and educates only two or three inspectors, and they are taking 
these two or three inspectors out of the field where we should 
be doing inspections for up to 6 weeks. So that is a serious 
loss.
    Mr. Skeen. For the course?
    Ms. Liss. For the course. I think they could do something 
through the use of videos that would be available for all the 
inspections versus giving specialized training to just a couple 
of inspectors.
    Another possible change in the Animal Care Program would be 
to eliminate the random source Class B dealers who are 
supplying dogs and cats for research purposes, and there is 
legislation to this effect pending in Congress introduced by 
Agriculture committee members Congressman Charles Canady and 
Congressman George Brown, H.R. 594, and this would greatly 
reduce USDA's regulatory burden. These few entities require 
four times the number of inspections than the other 
licenseesand registrants do, simply because they have such a tough time 
complying with the minimum requirements of the law that we should just 
get rid of them altogether.
    And research still would be able to obtain the dogs and 
cats they need through our means without having to get them 
through these particular class of dealers, and they are known 
for acquiring people's pets through fraud and outright theft 
and it would be very useful to do away with that problem.
    Moving on to another area where hopefully there could be an 
appropriation of at least $900,000 made available for the 
Animal Welfare Information Center at the National Agriculture 
Library. It has received funding of $750,000 since its creation 
more than 10 years ago. In addition, approximately half of the 
funds that are intended for this center are actually being 
taken by the National Agriculture library and used for other 
purposes. Therefore, we are hopeful of one of two options, 
either that the center would get an appropriation of this 
$900,000, or there might be a line item appropriation assuring 
that the whole $750,000 would be made available to the Animal 
Welfare Information Center.
    The center provides an essential resource for scientists 
and veterinarians, caretakers and administrators involved in 
the care and use of animals for research purposes, providing 
information on reducing pain and suffering in experimental 
animals, including use of anesthetics and analgesics and 
replacing use of animals in experiments, and they also provide 
employee training. It is a very small dedicated staff that are 
doing wonders with computers and have a great Web site and 
provide a tremendous resource to researchers.
    Under the Horse Protection Act, we are hoping for an 
appropriation in the amount of $500,000 for enforcement 
purposes. Historically, there has been a reliance on the 
designated qualified persons, the DQPs, to conduct checks of 
the horses to see which ones may be sore, and what we have 
found over time consistently is that when the USDA veterinary 
inspectors are present they are finding far more horses that 
are sore than when the DQPs are there alone. When USDA is 
present, the turndown rate is 2.48 percent whereas when it is 
just the DQPs present, it is .95 percent.
    There are more than 500 horse shows a year which need to be 
monitored with over 100,000 horses that have to be examined, 
and APHIS was only able to be present for 50 of those horse 
shows. In addition, they do have use of thermography equipment, 
which we strongly support, and the committee graciously made 
funds available for them to purchase this equipment a few years 
ago. It has been proven to be very effective as identifying 
scientifically those horses that are sore.
    Unfortunately, there isn't enough proper education in how 
to use the thermography equipment and it is not being widely 
utilized. As well as its usefulness in identifying the horses 
that are sore, just the presence of the equipment appears to be 
doing a very good job. Individuals have been known to show up 
at the horse shows, see the equipment, load their horses back 
on the trailer and drive away immediately, so it is certainly 
known as being a useful tool.
    The final issue is the Animal Damage Control Program, and 
we are hoping the program will be shifting and focusing on 
effective and publicly acceptable nonlethal methods, and 
particularly, there are a variety of alternative traps to the 
use of steel jaw leghold traps. This past year a couple of 
initiatives were adopted in the States of Colorado and 
Massachusetts prohibiting the use of leghold traps, killing 
snares, and a variety of other devices that we have recognized 
the need for controlled tools; however, we think the days of 
the leghold trap are numbered and it is time to move on to 
other options. And we have submitted for the Chairman this 
publication entitled ``Alternative Traps,'' which does describe 
the variety of alternatives for foot traps and killing traps.
    Thank you very much. We appreciate the opportunity to 
testify.
    Mr. Skeen. We thank you.
    [The prepared statement of the Society of Animal Protective 
Legislation follows:]

[Pages 503 - 507--The official Committee record contains additional material here.]


                                            Friday, March 14, 1997.

                  AMERICAN ASSOCIATION OF BLOOD BANKS

                                WITNESS

KATHLEEN SAZAMA, M.D.

    Mr. Skeen. Dr. Kathleen Sazama, American Association of 
Blood Banks. Welcome.
    Dr. Sazama. Thank you. Good morning, Chairman Skeen.
    Mr. Skeen. Good morning to you.
    Dr. Sazama. I am Dr. Kathleen Sazama. I am a Professor of 
Pathology and Laboratory Medicine at the Allegheny University 
of the Health Sciences at Philadelphia, and I serve on the 
American Association of Blood Banks' Board of Directors.
    We appreciate this opportunity to appear before you today 
to support full funding for the FDA in fiscal year 1998. 
Adequate FDA funding is essential to ensuring the safety of the 
Nation's blood supply. I will also discuss reforms to improve 
blood safety and conserve FDA resources.
    The AABB is the professional society for almost 8,500 
individuals involved in blood banking and transfusion medicine. 
More than 2,200 AABB members select virtually all of the blood 
supply of this country and transfuse more than 80 percent of 
it. The AABB sets standards and inspects and accredits blood 
collection and transfusion facilities.
    Since the early 1980s, the FDA has increased its regulatory 
oversight of blood in response to the emergence of HIV, the 
virus that causes AIDS. The AABB also met this challenge by 
continuously revising its standards to adopt new donor 
screening and revise blood testing methods. As aresult of these 
methods, blood safety levels have vastly improved. In fact, this week, 
the GAO released a report that said, ``The blood supply is safer today 
than at any time in recent history.''
    To maintain this level of safety, and to continue progress 
toward safer blood, it is essential that the FDA has the 
resources it needs. The AABB is concerned that the 
administration's budget for the FDA is dangerously inadequate 
and relies excessively on unauthorized user fees. While user 
fees may be appropriate for pharmaceutical companies who are 
willing to pay for faster license application reviews, as a 
matter of policy, user fees are inappropriate for blood. Blood 
is a shared resource that is drawn from altruistic individuals 
and processed by nonprofit organizations. Imposition of user 
fees on this system would result in higher medical bills for 
patients.
    As an alternative to user fees, the AABB and other national 
blood organizations are working with the FDA to develop 
improved regulations. Currently, the FDA must license each 
blood product at every production facility even though the 
manufacturer is fully licensed.
    This dual licensing system requires the agency to engage in 
redundant and lengthy application reviews that cause 
unnecessary delay in the application of new technologies. The 
AABB proposes that the FDA issue a single license authorizing 
the production of a specific set of blood products at any of 
the licensee's manufacturing facilities.
    Blood facilities could also implement new technologies 
faster if the FDA would adopt regulations to expedite approval 
of manufacturing changes for already licensed products. We 
support using certified private sector organizations to perform 
compliance inspections. Under this approach, the accredited 
organizations would report their finding to the FDA, which 
would retain the ultimate enforcing authority.
    The AABB applauds the FDA for taking an innovative approach 
in its new proposal for regulating cellular and tissue based 
products. Although aspects of the proposal need clarification 
and possibly revision, the AABB supports many of the reforms in 
this proposal. The AABB is very interested in exploring the use 
of a similar system in the blood area.
    We are hopeful that in the future the FDA will adopt 
innovative and more efficient regulatory practices for blood 
facilities. For the present, adequate FDA funding is critical 
to blood safety.
    I urge the subcommittee to fully fund FDA programs without 
consideration of unauthorized user fees. For our part, the 
American Association of Blood Banks will continue to work with 
the FDA to develop a more efficient and effective regulatory 
system so that the American people will continue to have access 
to the safest possible blood supply. Thank you.
    Mr. Skeen. We thank you.
    [The prepared statement of Kathleen Sazama, M.D. follows:]

[Pages 510 - 539--The official Committee record contains additional material here.]


    Mr. Skeen. We have been very concerned about the levels of 
blood supply because of some of the situations attendant to 
collection and so on, and I hope we can get past this kind of a 
stalemate in our supplies. What is our supply situation?
    Dr. Sazama. Our supply situation has been very problematic 
and certain of the products are not readily available 
currently. There are throughout the year--there are times of 
the year when blood supplies are scarce, typically around 
holiday times. But currently we have also been experiencing 
shortages in such basic supplies as albumin, which are used in 
the place of blood supplies in the course, and we believe the 
industry is working hard to rectify that.
    Part of it is the unpredictable nature of when approvals 
for new technology will be made available and they are placed 
in the position of guessing when that will happen and not being 
able to adjust their manufacturing to accommodate the new 
happening, and some of the shortages are occurring that way. 
Others are similar to the situation with HIV, and that is 
unknown threats become known and we have to respond to those 
known threats, and that probably will always plague a human-
based industry, if you will.
    Mr. Skeen. Well, we will see if we can't approve it, and we 
have the same reluctance to using the user fees as funding for 
this thing, because we don't think it is going to work. It 
doesn't make any sense to us. It is kind of a phony effort by 
saying we are going to reduce the cost of operating government 
but shift it to user fees.
    Dr. Sazama. Same pockets. Thank you.
                              ----------                              

                                            Friday, March 14, 1997.

                            FDA-NIH COUNCIL

                                WITNESS

LAURA LIEBERMAN, EXECUTIVE DIRECTOR, CANDLELIGHTERS CHILDHOOD CANCER 
    FOUNDATION

    Mr. Skeen. Laura Lieberman, the FDA-NIH Council.
    Ms. Lieberman. Good morning, Mr. Chairman.
    Mr. Skeen. Welcome, Laura.
    Ms. Lieberman. Thank you. I am Laura Lieberman, the 
Executive Director of the Candlelighters Childhood Cancer 
Foundation. Candlelighters is a member of the FDA-NIH council 
on whose behalf I am presenting this statement this morning.
    I would like to highlight a few points in my written 
statement. Over the past 6 years, the committee has been 
vitally important in addressing the funding needs of the FDA, 
and we are grateful for your support of the agency.
    Candlelighters represents over 44,000 children with cancer, 
their parents and the health professionals who care for them. 
We are an international organization founded 27 years ago who 
directs a network of over 450 self-help support groups across 
the country, who provide support, information and assistance to 
families and individuals whose lives have been challenged by 
cancer.
    To children diagnosed with cancer, the FDA's effectiveness 
can mean life and death. Without a strong and vigorous FDA 
positioned to respond to the research enterprise supported by 
partnership of our Nation's medical schools, universities and 
industry, children diagnosed with cancer will be denied cutting 
edge therapies.
    I am here today on behalf of those children. A diagnosis of 
cancer robs children of their innocence and vitality. It 
challenges their families financially, emotionally and 
physically. The only hope that a parent has when their child is 
diagnosed with cancer is that someone will have created a 
miracle through medical research and will save their child's 
life. It is through medical research that provides beneficial--
the stuff that miracles are made of, end up in front of the 
FDA.
    The clock is ticking for millions of Americans affected 
with catastrophic diseases like cancer. The trends and time 
lines of what it takes to identify and develop new therapies 
are troubling to me and the lives threatening to the children I 
represent today. The total development time to move a product 
from the laboratory to the patient grew from 8 years in 1960 to 
15 years in 1990. At the same time, the cost of developing a 
new drug has risen from over $70 million to over $500 million. 
This extended development time impacts the availability of 
therapy time for patients and drives up the price of the end 
product. Thus, it is crucial that when these products arrive at 
the FDA that the resources and tools necessary to review and 
approve them exist.
    The FDA is the last step in realizing the wondering hope of 
medical research and innovation. The FDA-NIH Council also 
recognizes that the members of this great body have a very 
tough job in terms of weighing the available resources in 
numerous worthy Federal programs. We recognize the tough 
choices that you have ahead of you. In making these choices, we 
urge you to do all you can to ensure that the FDA is provided 
the necessary resources to carry out its mandates.
    We respectfully request the following to be considered by 
the committee: A total program authority of $1.19 billion for 
fiscal year 1998 to fully fund the current operations of this 
agency. This includes $120 million to be collected from 
authorized user fees and congressional support of the 
Prescription Drug User Fee Act reauthorization this year.
    All the stakeholders in the research and innovation 
process, patients, health providers, research and industry 
agree on how enormously successful this program has been; user 
fees to be used to enhance the speed of the quality of review. 
We oppose any user fee whose primary aim is deficit reduction.
    Mr. Chairman, I appreciate the opportunity to present this 
statement before you today and we appreciate the support of you 
and your fellow committee members towards this agency and look 
forward to working with you in the future.
    [The prepared statement of Laura Lieberman follows:]

[Pages 542 - 546--The official Committee record contains additional material here.]


    Mr. Skeen. We appreciate your testimony. What is the child 
cancer population, do you have any estimate?
    Ms. Lieberman. There are 11,000 children diagnosed in the 
United States every year.
    Mr. Skeen. Eleven thousand?
    Ms. Lieberman. Eleven thousand.
    Mr. Skeen. Very significant number. Thank you very much for 
your concern and thank you for your testimony.
    Ms. Lieberman. Thank you.
                              ----------                              

                                            Friday, March 14, 1997.

                    NATIONAL PHARMACEUTICAL ALLIANCE

                                WITNESS

G. THOMAS LONG, LEGISLATIVE COUNCIL

    Mr. Skeen. G. Thomas Long. Welcome.
    Mr. Long. Good morning, sir.
    Mr. Skeen. Good morning.
    Mr. Long. I am Tom Long, Legislative Counsel for the 
National Pharmaceutical Alliance, and it is a pleasure to have 
the opportunity to present NPA's comments on the fiscal year 
1998 budget request for the Food and Drug Administration.
    NPA is a national trade association consisting of more than 
170 companies dedicated to the manufacturing and distribution 
of safe, effective and affordable pharmaceutical products. We 
have submitted a five-page statement for the record, Mr. 
Chairman, and if we could just summarize and have that 
included, I would appreciate it very much.
    Mr. Skeen. It will be included in its entirety.
    Mr. Long. Thank you. Generic drugs represent one of the 
most cost-effective means of controlling United States health 
care costs. These products save consumers and the Federal 
Government more than $11 billion annually because they are sold 
at a significantly lower price than brand drugs.
    Although FDA's Office of Generic Drugs has worked 
diligently, almost one-half of abbreviated new drug 
applications are not being reviewed within the statutorily 
required 180 days. These applications typically stay at the 
agency for 2 to 3 years. In fact, only 12 percent of theANDAs 
are approved within one year.
    The Federal Government and all purchasers could realize 
considerable additional savings if ANDAs were reviewed in the 
statutorily required time of 6 months. According to FDA's 
estimates, 90 percent of ANDAs could be reviewed within the 
required 6 months in OGD and an additional $13 million 
annually.
    In the context of the size of FDA's 1997 nonuser budget of 
$887 million and the value of the pharmaceutical products 
purchased by the Federal Government, almost $2 billion for the 
Veterans' Administration and DOD in 1996, 13 million is a 
relatively modest figure. NPA commends this subcommittee for 
including language in the fiscal year 1997 agriculture 
appropriations bill conference report that directs FDA to 
comply with its 180-day statutory mandate. However, FDA has not 
heeded this instruction. Rather, FDA has insufficiently staffed 
OGD and failed to provide it with adequate resources, even 
though OGD's workload has increased considerably.
    NPA recommends that the subcommittee implement its 
instruction to FDA by taking the following actions: Appropriate 
$13 million directly to the Office of Generic Drugs in addition 
to its fiscal year 1997 funding level. In the alternative, 
reallocate $13 million to OGD from FDA administrative offices 
which oversee few, if any, programs with statutorily required 
deadlines.
    As a further alternative, appropriate sufficient funds to 
restore OGD FTEs to at least the fiscal year 1995 level of 155 
FTEs. As a final alternative, ensure that OGD and its programs 
maintained 1997 funding levels in 1998, despite the 
administration's fiscal year 1998 budget request.
    Secondly, we request that FDA be required to submit as a 
line item agency expenditures for and by the Office of Generic 
Drugs. On behalf of NPI, I would like to thank the subcommittee 
for its time and attention to this critical aspect of FDA's 
fiscal year 1998 budget request and I would be happy to discuss 
this further with you, Mr. Chairman.
    [The prepared statement of G. Thomas Long follows:]

[Pages 549 - 555--The official Committee record contains additional material here.]


    Mr. Skeen. Thank you. You said something about the 
Government's use of some of these drugs is very substantial. I 
wonder what the government would think about paying user fees.
    Mr. Long. We would be very open about discussing that with 
them, and you raise a good point. Between medicaid and the 
Veterans Administration and the Department of Defense, it is 
close to $3 million. We would be delighted to discuss that with 
them and the appropriators who oversee their functions.
    Mr. Skeen. It is likely to be part of the argument.
    Mr. Long. Yes, sir.
    Mr. Skeen. Thank you for your attendance. Folks, that is 
all the entertainment we have for you this morning, and I want 
to tell you how much we appreciate you being here and the 
testimony you have given and to the reporter, you do an 
excellent job as always. Thank you. Thank all of you.

                            ---------                             

                                           Tuesday, March 18, 1997.

                     TEXAS A&M RESEARCH FOUNDATION

                                WITNESS

DR. EDWARD A. HILER, VICE CHANCELLOR

    Mr. Skeen.  The committee will come to order.
    Welcome, Dr. Hiler. You may proceed. Your entire written 
text will be entered into the record. You will please summarize 
it.
    Dr. Hiler.  I'll sure do that.
    Mr. Chairman, I'm Edward A. Hiler, Vice Chancellor for 
Agriculture and Life Sciences in the Texas A&M University 
System.
    Mr. Skeen.  What was that University again?
    Dr. Hiler.  Texas A&M University.
    Mr. Skeen.  Texas A&M. Thank you.
    Dr. Hiler.  As you know the 1996 Farm Bill and the phase 
down of the federal programs makes research, key research, 
very, very important to the technological underpinning of 
agriculture. I'd just like to describe a couple of examples. 
Our written testimony has our priority list in it.
    The first example is our number one priority. It's a new 
project that we have not received funding for yet. We are doing 
some preliminary work on it. It's one that I think has 
tremendous potential. It's called designing foods for health. 
And it's a joint effort between agriculture and medicine.
    It's focused on developing fruits and vegetables, modifying 
fruits and vegetables, to reduce the risk of diet related 
diseases; diseases such as many forms of cancer, cardiovascular 
disease, atherosclerosis, diabetes. All of these are diet 
related diseases that make up many of the diseases that are key 
today.
    This initiative links a very strong agriculture program at 
Texas A&M with a program in Arkansas on the fruit and vegetable 
genetics area with a strong medical system in the University of 
Texas System, the M.D. Anderson Cancer Center in Houston and 
Southwest Medical Center in Dallas.
    And in that linkage basically the medical researchers are 
determining the compounds that are very key to reducing the 
risk of these diseases. These compounds then are identified in 
fruits and vegetables and genetic work is done. Genetic 
research is done to increase their levels in those fruits and 
vegetables.
    You may recall last year we brought pieces of maroon carrot 
for you. That maroon carrot is novel because as you know, Mr. 
Chairman, maroon is an important color for Texas A&M, but it's 
even more important because it contains eight times higher 
level betacarotine than ordinary carrots. And it has a marker 
that way, too.
    That's just one example of the kinds of things that can be 
done. I believe this type of work represents our future in this 
country. I believe this is the long-term health care solution 
for the United States. Our researchers at M.D. Anderson are a 
part of this. They're extremely excited. And they say that 
their whole effort is focused in research toward preventative 
type medicine at this point. This is very high for their 
priorities as well.
    So, anyway, linking the world's foremost cancer, heart, and 
circulatory disease centers with the nation's top vegetable, 
fruit improvement research centers make this a unique 
combination to determine the affects of disease prevention and 
to develop fruits and vegetables to reduce the risk of these 
diseases.
    A second request is one for which we have had continuing 
funding. We are requesting continuing funding. It relates to 
animal fiber research. As you well know, Mr. Chairman, the 
phase out of the wool and mohair incentive payments, even prior 
to the 1996 Farm Bill have left the United States sheep and 
Angora goat industry in a very difficult position.
    We believe the U.S. must maintain a viable and competitive 
sheep and goat industry for efficient use of the land and feed 
resources and for supporting the existing U.S. wool and mohair 
infrastructure. This is particularly important for the large 
areas of semi-arid United States and the Southwest that have 
few options for alternative agriculture enterprises. This 
research is focused on development and expanded use of an 
objective fiber measurement process. It's a joint effort of 
Texas, Montana, and Wyoming. At our St. Angelo, Texas Center is 
where the work in Texas is done and where the majority of the 
funding for this effort goes.
    This approach that's being taken there permits using a 
value based marketing system that we think is very important to 
the future in this regard. So, we had more than 50 percent of 
the U.S. wool clip was measured with this process in 1996 
versus less than 15 percent only 10 years earlier; and about 25 
percent of all wool sold in the U.S. is now objectably measured 
before sale.
    More research is needed in this area to refine these 
measurements before industry fully adopts innovative practices 
for product, selection, and marketing. We believe this research 
will be very important in developing new markets and enable 
producers to be more competitive in the existing markets.
    There are several other items that we have that I will not 
go into at this point. We have policy centers that are joint 
with the University of Missouri and another one on livestock 
and dairy, joint with Cornell University. A Center for North 
American Studies that focuses on the impacts of NAFTA and GNATT 
to a certain extent, but mainly focused on NAFTA.
    A World Food Distribution Training Center which is a joint 
effort of Prairie View A&M University, Texas A&M University at 
Kingsville, and Texas A&M International at Laredo, as well as 
Texas A&M University at College Station, that is primarily 
focused on assuring greater numbers of minorities entering 
professional fields of world food distribution.
    And if you look worldwide, distribution is a big, big 
problem. We're using our interactive TV system to teach 
classes. There is one class taught by one person at four 
locations. And with teachers at each of those locations 
providing supplement. Sometimes one of them will teach and 
sometimes another.
    It's a very innovative approach that we will probably see a 
lot more of in the future. The Texas Department of Agriculture 
and the United States Department of Agriculture are a part of 
this program as well. It started out with the Center of 
Excellence funding from USDA.
    Funding is needed we hope for a year and possibly two years 
to keep this afloat. Our longer-term goal is to get industry to 
support this effort. And we're making some inroads there.
    With that, I'll stop and be happy to respond to any 
questions or move on to the next.
    [The prepared statement of Dr. Hiler follows:]

[Pages 560 - 567--The official Committee record contains additional material here.]


    Mr. Skeen.  Thank you for your presentation, Dr. Hiler. 
It's a very interesting thing. Recently, I had the opportunity 
to travel into Panama for about the second time. They have a 
tropical forest system, a rain forest, experiment island that's 
going to do exactly what you said by adopting plants' ability 
to ward off diseases related to human health.
    It's a very interesting category because penicillin was a 
product of that same kind of research that began some years ago 
that started us on the antibiotics. So, I think we're really 
getting down to the fact that nature tells us a whole lot about 
how to ward off diseases for human beings, just as it wards 
against diseases and pests and things in its natural state.
    It's a very interesting study. General fiber research of 
course interests me very much too because being in the sheep 
business, the greatest successes we had were the coyotes. We 
are trying to control those. The animal activists are raising 
hell about it. But I think we can survive that as well.
    Dr. Hiler.  Yes. I believe we are.
    Mr. Skeen.  First of all, if they want to guard them all 
night long and round them all up, we would enjoy having them 
come out and prescribe to that kind of duty. They'd learn real 
quick, that isn't the process.
    Dr. Hiler.  Yes.
    Mr. Skeen.  Thank you very much for your presentation. It 
is good to see you again.
    Dr. Hiler.  Thank you, Mr. Chairman.
    Mr. Skeen.  Jerry Skees, Consortium of Social Science 
Associations.
                              ----------                              

                                           Tuesday, March 18, 1997.

               CONSORTIUM OF SOCIAL SCIENCE ASSOCIATIONS

                                WITNESS

JERRY R. SKEES, PH.D., PROFESSOR OF AGRICULTURAL ECONOMICS

    Mr. Skeen. You almost have my name down.
    Mr. Skees.  Pretty close.
    Mr. Skeen.  Are you Catholic too or Scottish?
    Mr. Skees.  Yes, sir, Welch.
    Mr. Skeen.  That's pretty good; a pretty close 
neighborhood.
    Mr. Skees.  Thank you for the opportunity.
    Mr. Skeen.  You may proceed any way you'd like. Your full 
text will be in the record.
    Mr. Skees.  I appreciate the opportunity to come before you 
this afternoon.
    Mr. Skeen.  We're delighted to have you.
    Mr. Skees.  From the rank and file research community, I'm 
at the University of Kentucky, an Agricultural Economist. I 
also serve on the Board for the American Agricultural Economics 
Association. Today, I'm here to testify on behalf of the 
Consortium of Social Science Associations. This is over 100 or 
nearly 100 different associations, scientific societies, 
institutes, universities.
    So, I feel fairly humbled to be representing that diverse 
of a group of scholars. I've known a lot of these people 
through my years in my career and have a lot of respect for the 
scientists. Within the community of agricultural research 
system, social science sub-disciplines include agricultural 
communications, agricultural economics, agricultural education, 
family and consumer economics, human development, family 
studies, rural sociology; a whole scope of social scientists 
with very different approaches to problems and problem solving.
    These disciplines seek to help us understand the factors 
that affect the well-being of rural people, the viability of 
the rural communities, the sustainability of the farm, the 
rural businesses, preservation of rural environments. So, a 
very broad agenda, Mr. Chairman.
    At this time, I'm sure you're keenly aware that 
understanding the relationship between markets, society, the 
well-being of people, the behavior of people becomes a key when 
we start talking about economic development and creating new 
wealth in rural communities.
    So, clearly I hope you can sense that I'm committed to the 
cause here. This is a noble profession that we're in. We think 
there are some priorities that we would like to put on the 
table before you. We're interested in full funding at $8 
million, as recommended by the National Association of State 
Universities and Land Grant Colleges for markets, trade, and 
rural development, and the NRI Program.
    We're interested in full funding at $1.595 million, as 
recommended by NASULGC for the research programs administered 
by the four regional rural development centers. Funding is 
recommended by NASULGC for CSREES initiatives on managing 
change in agriculture and enhanced support for the Economic 
Research Service of USDA. I think you can appreciate that with 
the things that are going on now in the agricultural economy, 
change and adjusting to change, issues like risk management, 
environmental concerns; the new Farm Bill, of course, is what 
people are all talking about up here, what that means for 
change.
    I think that we can all agree that social scientists have a 
role to play here. In my testimony I've tried to highlight a 
few reasons that we're concerned about these areas of support. 
In particular, some things that we're interested in. So, I'll 
leave that for the record.
    I want to just point to a couple of examples now of some of 
the types of research that have occurred in the last few years. 
I went through a whole host of research the social scientists 
have done over the last couple of years. And it was hard to 
pick and choose. But I thought I would pick one here today.
    One area that clearly is going to be important is when we 
look at the trade negotiations that we've been through, one of 
the things that we've been successful at is breaking down some 
of the barriers to trade. But at the same time, we've got some 
studies here done by the Economic Research Service in 
collaboration with Virginia Tech University that recently 
provides the first analysis to help us understand some of the 
other types of barriers, some of the technical barriers to 
agricultural trade. This is going to be a very important issue 
for those that are concerned about barriers that are facing 
U.S. exporters. The VPI Study, along with a separate study 
conducted at Utah State University raise new concerns about 
regulatory barriers in the world markets.
    Clearly, social scientists are going to have to be involved 
in helping the U.S. understand this so that we can be in a good 
negotiation position with our competitors around the world. So, 
that's one piece of research that I wanted to highlight for 
you.
    Basically, again, I'm here to answer any questions. I 
appreciate the opportunity to come spend a few minutes with you 
and talk about some of the social science research priorities.
    [The prepared statement of Mr. Skees follows:]

[Pages 571 - 587--The official Committee record contains additional material here.]


    Mr. Skeen.  Dr. Skees, we appreciate your testimony. We 
understand this dedication to trying to renovate the economy of 
rural neighborhoods which is a very vital part of our problem 
today because there is only about 2 percent of our entire 
population actually producing agricultural products.
    If it wasn't for the research, and if it wasn't for these 
communities, they wouldn't be there at all. It's a tough 
proposition. But we also want to get into the trade business. I 
think you've touched on each and every one of these elements. 
That research is very vital to us and the input.
    Full funding, we may have a tough time with that because 
the money is scarce this time. But we do appreciate your 
presentation and the research that you're doing. Keep us 
abreast of it and we'll try to get the money to you for the 
research effort. That's our job.
    Mr. Skees.  Okay.
    Mr. Skeen.  Thank you, sir.
    Mr. Skees.  Thank you.
    Mr. Skeen.  And we're not ignoring Mr. Bonilla, but he said 
I'm doing such a good job of questioning all of you, that he 
won't.
    Mr. Bonilla.  I'm just learning something every minute, Mr. 
Chairman.
    Mr. Skeen.  Okay. Margaret Maizel.
    Did I pronounce it correctly?
    Ms. Maizel.  You did.
                              ----------                              

                                           Tuesday, March 18, 1997.

                NATIONAL CENTER FOR RESOURCE INNOVATIONS

                                WITNESS

MARGARET L. STEWART MAIZEL, PRINCIPAL INVESTIGATOR

    Mr. Skeen.  Welcome.
    Ms. Maizel.  Thank you very much, Mr. Chairman.
    Mr. Skeen.  We'll put the entire text of your presentation 
in the record, and if you'll summarize it, well, we'd 
appreciate that.
    Ms. Maizel.  Thank you. I'll do that. I thank you for the 
opportunity to testify today. I'm Margaret Maizel. I'm the 
Principal Investigator of the National Center For Resource 
Innovations, and one of its founders.
    One of the founding Board Members is here, Norm Berg. I 
notice also today NCRI is a national private not for profit 
consortium established by funding through the CSRS in 1990 
through the USDA. Our mission is to build geographic 
information systems for public and private policy development 
and decision making in primarily rural areas.
    We have six sites nationally. Most of our projects are 
outlined in written testimony, but I'll just highlight some 
here.
    Mr. Skeen.  Thank you.
    Ms. Maizel.  At the University of Arkansas, they've been 
concentrating on training and outreach to local governments. 
Recently, they tracked the tornado that passed the state. And 
as it went, they reported to the Governor's Office on damage to 
rural areas. The South Georgia Regional Development Center has 
been supporting local governments on the Florida border on 
assessment and taxation issues. At the University of North 
Dakota at the Regional Weather Information Center, they've been 
providing weather to farmers on their PCs in near real time 
format for precision farming applications.
    At Central Washington University and the Yakama Valley GAS 
analysis have been helping local governments deal with water 
supply, irrigation, old growth forests, bird populations, and 
soils. At the University of Wisconsin, they've been 
concentrating on satellite down links to educate local 
governments nationally about land information systems. NCRI 
Chesapeake, my program, is the one, of course, I am most proud 
of, of course. And one of the most interesting things we've 
been doing, Mr. Chairman, is recently we've been using private 
sector commercial target marketing techniques to understand 
socially, economically, environmentally, and from a farm 
perspective farming communities at a sub-county level.
    We think now we can understand why farmers adopt 
conservation practices; where farmers may, if they were 
properly approached. This has been done in a study area in 
Southeastern Pennsylvania and in two counties in Maryland.
    The idea is that we might be able to bring private sector 
techniques to USDA to help them implement conservation 
targeting to farmers pursuant to provisions in the Farm Bill 
and EQUIP.
    Most recently, we worked with the Washington Post in 
looking at future land use in the Washington region. And you're 
going to see us on Sunday's Post in the two-page spread. We're 
going to put things up on the net so that people can understand 
their neighborhoods and what's in store for them in the larger 
Washington area.
    Last, but not least, Mr. Chairman, the University of New 
Mexico has been a future site with NCRI for two years. This 
year, they are proposing to bring the Southwestern Indian 
Polytechnic Institute into our Consortium, and take advantage 
of the technology we have at NCRI, and to help us all work with 
Tribal Councils; more than 500 of them in the U.S. and 
nationally.
    By integrating at NCRI, we've been doing for seven years 
with OMB and Congress has decided it is important to do as 
prescribed in the Fund For Rural America. And, Mr. Chairman, we 
have consistently, every year, asked for $1.8 million in 
funding. To meet our objectives, we have either had to cut 
programs or find matching funds, which we've done rather well.
    Our matching funds have been equivalent to our federal 
funds. And in fact, last year when you asked us to do a cost 
benefit study, we were able to show that for every federal 
dollar spent, $7.40 in benefit was realized for our customers.
    For this year, Mr. Chairman, we are requesting the 
committee to restore our basic budget to $1.2 million from the 
$844,000 that we're operating on now. And we'd like to ask you 
to consider bringing New Mexico into our collaboration with 
some way to find funding for them in a level of $100,000. This 
will facilitate some significant existing funding that has been 
implemented by the private sector at Sippi in hardware and 
computer technologies.
    I'd like to thank you again, Mr. Chairman. You've been 
always so kind to us to give us time to testify. I'd be very 
happy to respond to any questions.
    [The prepared statement of Ms. Maizel follows:]

[Pages 591 - 600--The official Committee record contains additional material here.]


    Mr. Skeen.  Thank you very much, Margaret, and I appreciate 
including Sippi. That's been a hard piece of territory.
    Ms. Maizel.  Yes.
    Mr. Skeen.  The money is the most difficult part of this 
whole thing. You understand that too.
    Ms. Maizel.  Yes. I do. Yes. I do.
    Mr. Skeen.  The Lord giveth and then Congress taketh away.
    Ms. Maizel.  Yes. And restoreth; and restoreth.
    Mr. Skeen.  So, let's continue working with the Lord, and 
maybe Congress will be able to get----
    Ms. Maizel.  It's good to see good things happen.
    Mr. Skeen. We appreciate your support and your testimony. 
Thank you very much for your presentation.
    Ms. Maizel.  Thank you so much.
    Mr. Skeen.  We'll give it every consideration.
    Ms. Maizel.  Thank you.
    Mr. Skeen.  Gary Taylor with the International Association 
of Fish and Wildlife Agencies. Welcome, Gary.

                              ----------                              

                                           Tuesday, March 18, 1997.

        INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

                               WITNESSES

R. MAX PETERSON, EXECUTIVE VICE PRESIDENT
GARY TAYLOR, LEGISLATIVE DIRECTOR

    Mr. Taylor.  Mr. Chairman, thank you for the opportunity to 
appear before you today to share the prospectus of the fifty 
State Fish and Wildlife Agencies on the fiscal year 1998 budget 
request for several agencies of the Department of Agriculture.
    Mr. Peterson was unavoidably detained at a meeting across 
town and does send his regrets. I am Gary Taylor. I'm the 
Legislative Director for the Association.
    Mr. Chairman, we have some vital conservation programs 
under the U.S. Department of Agriculture that meet both the 
objectives of agricultural landowners and conservation of the 
natural resources our country is so abundantly blessed with.
    We recognize that the cooperation and support of the 
agricultural community is absolutely vital in maintaining fish 
and wildlife populations because, as you are well-aware, much 
of this resource is found on private agricultural lands.
    We believe that programs in the Department of Agriculture 
that facilitate and support partnerships between agricultural 
landowners and producers, and the natural resource agencies to 
meet objectives for both commodity production and natural 
resource vitality should be given the highest funding priority.
    These partnerships are vital in meeting both of our 
objectives. We further believe that most agricultural 
landowners, the vast majority of them want to be good stewards 
of the land and its natural resources. And we believe that with 
technical assistance, education, and various incentives from 
the federal and state natural agencies, our country's 
objectives for agriculture and conservation can be most 
effectively achieved.
    Now, you have my full statement, Mr. Chairman, of our 
budget recommendation. So, I'll just give a couple of 
highlights. First, we applaud Congress for passing the most 
environmentally sensitive Farm Bill ever in the form of the 
1996 Federal Agriculture Improvement and Reform Act.
    The Natural Resource Conservation service, as you know, has 
immense responsibilities for implementing the conservation 
provisions of this and its predecessor Farm Bills. And I would 
respectfully call your attention to the specific budget 
recommendations in our statement relative to funding technical 
assistance, funds for the Wetlands Reserve Program, the 
Wildlife Habitat Incentive Program, and other provisions.
    Similarly, we strongly advocate that the Farm Service 
Agency budget include sufficient funding to facilitate a very 
active conservation reserve program sign-up. Under the APHIS 
Animal Damage Control budget, we recognize that wildlife is 
sometimes in conflict with agricultural commodity production 
for grain, livestock, or other products. ADC has taken the lead 
in developing alternative wildlife control methods to address 
wildlife damage situations. We urge your favorable 
consideration of adequate funding for the animal damage control 
unit to address society's interest in having wildlife damage 
problems redressed in the most effective, efficient, and humane 
manner. And would specifically ask that the subcommittee add 
$350,000 in the Methods Development Program at ADC's Fort 
Collins National Wildlife Research Center to work with our 
state Fish and Wildlife Agencies to support trap research and 
humane trap development efforts.
    We think this is a vital program that needs just a little 
bit of money to help continue that partnership and to solve 
some of those problems, Mr. Chairman. Finally, the programs of 
the Cooperative State Research, Education, and Extension 
Service are vital in facilitating natural resource public 
education on such issues as wetlands, and urban and community 
forestry.
    We would respectfully direct your attention to our specific 
recommendations for these programs in our full statement. Thank 
you, Mr. Chairman. I'd be happy to respond to any questions you 
might have.
    [The prepared statements of R. Max Peterson and Gary Taylor 
follow:]

[Pages 603 - 612--The official Committee record contains additional material here.]


    Mr. Skeen.  Thank you for your presentation. I think what 
you are getting to that interest me the most is the people who 
are in agricultural production today are probably the best 
conservators and conservation oriented people I know of because 
their livelihood depends on how well they protect the land.
    I don't understand the idea we've grown into today that 
anybody who harvests anything or takes a natural resource and 
makes a product out of it is somehow or another working against 
the best interest of conservation ideas or propagation of soil 
and the soil base in this country.
    ABC, Sam Donaldson and I are having a real good time with 
that prospect this year because it's a great program. But some 
animal rights people don't get the message at all. They don't 
understand what goes on in these places. They will stand there 
and vilify somebody for doing control because they're producing 
a product over there, but have natural enemies, as you've 
pointed out.
    The most humane way to handle them is the ADC system that 
we've generated here in this country. I'm not excusing it or 
making excuses or trying to defend anything. But I just think 
it is tragic that a lot of people shoot their mouths off before 
they get their head in gear. That's going on in a lot of places 
throughout this country.
    Thank you for your testimony.
    Mr. Taylor.  Thank you, Mr. Chairman. We concur with your 
perspectives. We think the wildlife professionals can help 
solve these problems and appreciate your assistance in that.
    Mr. Skeen.  Well, thank you very much. When it comes to 
sheep and coyotes over there, sheep pay taxes and coyotes 
don't. When this world burns to a cinder, there will be one 
species that survives, coyote.
    Mr. Taylor.  Thank you, Mr. Chairman.
    Mr. Skeen.  Harlan James and Billy Frank. I understand they 
want to come up together; the Lummi Indian Business Council and 
Northwest Indian Fisheries Commission. I think you have 
something very much in common. So, welcome both of you.
    You know the process. We'll take your full dissertation of 
your full written text and it will be in the record. If you 
will highlight it and then we'll visit with you a little.
    Mr. James.  Thank you.
    Mr. Skeen.  Go ahead.
                              ----------                              

                                           Tuesday, March 18, 1997.

                     LUMMI INDIAN BUSINESS COUNCIL

                 NORTHWEST INDIAN FISHERIES COMMISSION

                               WITNESSES

HARLAN JAMES, LUMMI INDIAN BUSINESS COUNCIL
BOB WHITENER, NORTHWEST INDIAN FISHERIES COMMISSION

    Mr. James.  My name is Harlan James. I'm testifying for 
Merle Jefferson, Director of Lummi Nation Department of Natural 
Resources. Mr. Chairman and Members of the subcommittee, I want 
to thank you for the opportunity to testify.
    I'm asking for $385,000 from the Department of Agriculture 
funds, Rural Business and Enterprise Grants for each of the 
three years, 1998, 1999, and 2000 to complete the second phase 
of the Northwest Tribal Clam and Oyster Project. This project 
is supported by Tribes in the Pacific Northwest, Washington 
State Departments of Health and Fisheries, and private 
commercial shellfish industry.
    Beginning in fiscal year 1994, this subcommittee directed 
the Department of Agriculture to renovate and begin to operate 
a shellfish hatchery on the Lummi Indian Reservation. The 
Department of Agriculture has provided the grants as directed. 
And the hatchery has successfully distributed nearly four 
billion shellfish larvae to the Northwest Tribes which has 
produced 50,000 bags of oyster seed with a value of $2 million.
    This effort has brought the Tribes closer to self-
sustaining projects that will help meet increasing world 
seafood demands. Our request is for the second phase of the 
Northwest Clam and Oyster Project. This phase has two primary 
components.
    The first component is the remote setting of seed. Oyster 
larvae raised at the Lummi Hatchery is the first step of the 
production. The oyster larvae that is produced is then put into 
large tanks where they are combined with large volumes of 
cultch. In the case of oysters, use oyster shell. Manila clams, 
after setting, need room to grow to a large enough size to gain 
the survivability necessary for commercial viability.
    This is best accomplished at juvenile rearing sites near 
the growout area. We are proposing that four regional sites be 
developed for the setting and growout of seeds. This would 
increase both production and efficiency. The estimated cost for 
this one-time capital expense is $175,000 to construct the 
facilities. In the written testimony, the operating expense for 
this project is identified by year.
    The second component is for additional species capability. 
In phase one, the hatchery focused on Manila clams and Pacific 
oyster production. In Phase II, we proposed to add the 
capability to produce additional oyster species, mussels and 
geoduck claims. Mussel production in the State of Washington 
will exceed one million pounds in 1997 and is expected to 
double in 1998. Hatchery seed is in need for this expansion.
    Geoduck clam is an emerging industry that needs seed for 
development. This animal presently brings $7.50 per pound live 
weight. A market size claim of 1.5 to 3 pounds is produced in 
three to five years. Also, sub-tidal populations are inadequate 
to meet market demands.
    Mr. Chairman, in conclusion, the first phase of this 
project has been very successful. Tribes are rapidly increasing 
their capacity for growout of oysters and clams using seed from 
the Lummi Shellfish Hatchery.
    More than 50 jobs were initially created by this project 
which will expand to nearly 200 when harvest of these created 
crops occurs. This is a great opportunity to increase existing 
production with new low cost regional facilities and additional 
species. These areas are in rural areas of Washington that fit 
the federal mandates for rural development and Tribal capacity 
building.
    We strongly request your support for language instructing 
the U.S. Department of Agriculture to continue support of this 
valuable project.
    I would like to also add to the record that we have 
especially appreciated the support of John Bruger and Norrel 
Andrew on Phase I on the shellfish project. I thank you for 
your time.
    [The prepared statement of Mr. Jefferson follows:]

[Pages 616 - 619--The official Committee record contains additional material here.]


    Mr. Skeen.  Thank you, Harlan. Billy Frank.
    Mr. Whitener.  Well, this is Bob Whitener standing in for 
Billy Frank. I'm a Member of the Squakson Island Tribe. I've 
stood in for Billy the last three years. I think maybe next 
year I'll ask him to put my name on the testimony.
    Mr. Skeen.  Well, we want to give you full credit.
    Mr. Whitener.  Thanks, I need that.
    Mr. Skeen.  I'll tell Billy you did a good job.
    Mr. Whitener.  I appreciate that. That's my boss.
    Well, we have two things to add to this. We obviously are 
here supporting the Lummi Project because it benefits all the 
Tribes in the Northwest, not just the Lummi Tribe which is one 
key feature to that project.
    The other two are similar to what speaker Forest talked 
about in terms of the problems between the natural resource 
managers and the issues facing us in Washington. We'd like to 
consider earmarking some of the NRCS funds, the Natural 
Resources Conservation Service, to be used by Tribes to help in 
watershed analysis and monitoring services in the Northwest.
    We are deeply concerned about Pacific salmon and the ESA 
listings that we have in Washington State. The Tribes there as 
co-managers have been involved in a number of different 
agreements to prevent some of the major blow-ups that we see 
can happen with ESA. We especially see this conflictstarting to 
move into water and in the agricultural community.
    We've proposed a couple of different things to try to 
prevent that from destablizing both the fisheries and the 
agricultural community by coming up with processes that deal 
primarily with watershed restoration stewardship.
    One of those is like The Sake of the Salmon where watershed 
coalitions and communities have been established all the way 
from California, Oregon, and Washington. That's why we support 
The Sake of the Salmon from NRCS. We support the funding for 
NRCS. We'd like you to consider possibly and earmark for the 
Tribal role in that NRCS.
    Generally, that is my testimony. Thank you.
    [The prepared statement of Billy Frank follows:]

[Pages 621 - 632--The official Committee record contains additional material here.]


    Mr. Skeen.  Would you give the Reporter your name? We want 
to be sure we give the credit to the right place, since you're 
going to have your name on the document here next year.
    We appreciate very much your support for these programs. 
That aquaculture project with the Tribe has been imminently 
successful. There is no question about it. I think it has great 
commercial value to you as a tribal enterprise. We appreciate 
you folks making it work. You've spent the money, I think, very 
wisely in the way that you've handled that project.
    I know with my experience over the years, it's improved 
every year. Thank you for your testimony. I appreciate your 
being here.
    Next up is Norman Berg, Soil and Water Conservation 
Society. Welcome, Mr. Berg. Glad to have you here.

                              ----------                              

                                           Tuesday, March 18, 1997.

                  SOIL AND WATER CONSERVATION SOCIETY

                                WITNESS

NORMAN A. BERG, WASHINGTON, D.C. REPRESENTATIVE

    Mr. Berg.  Thank you, Mr. Chairman. This is the 36th year 
that I've had the privilege of testifying before this 
subcommittee.
    Mr. Skeen.  See there. There is a good argument against 
term limitations.
    Mr. Berg.  It was first as a long-term USDA career 
Conservationist. Then I've been a private citizen for the last 
14 years. Our Society really appreciates the time that you give 
us each year. And we'd be pleased to have our full statement 
put in the record.
    Mr. Skeen.  It will be done.
    Mr. Berg.  I also, just today, received a letter from a 
Chapter in North Dakota concerned about the possible closure of 
the Agricultural Research Service, the Northern Great Plains 
Research Lab. I'd like to have that made a part of the record.
    Mr. Skeen.  Thank you. It will be done.
    Mr. Berg.  Our thanks to you again is in support of several 
USDA Agencies that are responsible for soil, water, and 
watershed conservation activities, including research, 
extension, financing, and technical assistance. And the clients 
that these agencies serve include producers, not only of food 
and fiber, but many, many others.
    Each year that I've been coming up here I've noted a new 
challenge or challenges for your committee. One for this coming 
fiscal year will undoubtedly be what will be the long-term 
impact of the new Farm Bill. Until we know more about the 
implementation of the several conservation provisions, our 
budget recommendations for fiscal year 1998 are indeed modest.
    For most items, we support the Administration's proposal. 
As you know, the Federal Government proposes to suspend nearly 
$1.7 trillion in this next fiscal year. The non-defense 
discretionary portion of the budget has shrunk from 23 percent 
in 1966 to an estimated 17 percent in 1998. Of the $60.3 
billion proposed for USDA, only $15-plus billion is now 
discretionary.
    This obviously, is another challenge for your committee. We 
supported funding for several of the recent Farm Bill's 
conservation provisions as non-discretionary. The most costly 
will be the Conservation Reserve Program with the 15th bid 
process now open until the end of the month. Our Society 
supports that the new contracts for CRP be for the most 
environmentally sensitive soils and return to crop production 
those lands that should not continue in the CRP.
    A recent document released by Paul Johnson and his staff, 
America's Private Land, the Geography of Hope, has an excellent 
update on the state of the land. There is a report of good 
progress in this area, but they also cite a variety of soil and 
water conservation problems that still seek solution.
    Private land in our country constitutes the single largest 
part of our landscape. Farmers, ranchers, and foresters produce 
food and fiber that's the envy of the world. But the owners and 
operators of well managed soil and water resources also produce 
clean water, clean air, wildlife habitat, and a pleasing 
landscape, all increasingly valued by our rural and urban 
citizens alike.
    However, with federal spending each year for protecting and 
managing public land runs about $10 per acre, contrasted with 
less than $2 per acre for private land. USDA would spend $4.8 
billion in 1996 dollars to share the cost of conservation today 
if we were to match the spending of 1937.
    Instead, projecting conservation funding for private land 
each year for the seven years will be about $2.2 billion, less 
than half the commitment of 60 years ago. There are two pages 
from NRCS' budget document, this one here, that show the trends 
over the last ten years in today's dollars of the downward 
movement in terms of staffing and for appropriations.
    In the three minutes suggested for each witness, I'll 
finish by highlighting three issues quickly. First, given FAIR 
and the outlook for market prices, USDA is forecasting more 
land use for crops, with more intensive use of the soils.
    With appropriate assistance, farmers can do this without 
returning to the 1970 mentality of planting fence-row-to-fence-
row. The sod-buster and compliance requirements will help guide 
decisions. However, conditions make it important that NRCS' 
technical field work force be maintained.
    These new programs in the Farm Bill, including the non-
federal programs, will work with the 1.7 million producers with 
highly erodible land, should assist with the maintenance of 
conservation compliance plans in an adequate manner. However, 
the workload of the agencies, including conservation districts, 
will be heavy, even under the more farmer-friendly rules of the 
new Farm Bill.
    Second, the new provisions of the Farm Bill, Conservation 
Reserve, Environmental Quality, Wildlife Habitat Incentive, et 
cetera, now funded through the CCC, still leaves an unanswered 
question regarding the technical assistance that's in doubt. 
Will it require legislation to clarify this issue? I just don't 
know.
    We support the newly enacted Grazing Land Initiative from 
the bill. And we're really pleased that the committee led by 
including a $10 million item during this fiscal year. I think 
Chief Paul Johnson will, when he is here testifying will, point 
out that Fee Busby has been brought in. He is one of the top 
grazing lands people in the country.
    Third, the Farm Bill's provisions to requirements easements 
to help non-federal programs strengthen their programs to 
retain prime and unique agricultural lands for farm use long-
term has proven to be very popular. The fiscal year 1998 budget 
would use the remaining amount authorized by FAIR.
    Finally, over the past years, as you know the Department 
has reorganized and downsized. The Agency that I served for 40 
years, SCS, has even been renamed. We hope that USDA will 
continue to be able to deliver the most cost effective services 
to their clients.
    However, the proposed study of an NRCS, FSA possible merger 
in our view is a waste of taxpayers' money. We would also 
suggest that we need to monitor the authority that's been given 
to the President in terms of the line item veto. We're not at 
all sure how that will work. And we need to understand more as 
to what that may mean in the future.
    We appreciate the time that you give us. And thanks for the 
early action last year on this year's fiscal year 
appropriation.
    [The prepared statement of Mr. Berg follows:]

[Pages 636 - 644--The official Committee record contains additional material here.]


    Mr. Skeen. We thank you Norm. I think you're heading in the 
right direction because we used to have the technical help out 
in the field. We did away with it for so many years and reduced 
the technical help we had. I think we're going back down to the 
old system that worked as well. I think it's a step forward.
    I have no further questions. Does anybody? Mr. Kingston?
    Mr. Kingston.  No. The only thing I wanted to mention, Mr. 
Chairman, to Mr. Berg is that we don't know the impact of the 
line item veto either.
    Mr. Skeen.  No.
    Mr. Kingston.  But we do know that agriculture and 
agricultural products are easy targets because people can laugh 
at them and think that it doesn't affect them. And the 
President has already released somewhat of a potential list of 
a lot of agricultural research projects.
    Mr. Berg.  Mr. Kingston, that's why we're concerned that 
our urban base population in this country understand that 
farmers, ranchers, and foresters in this country under private 
lands, produce much more than food and fiber. They produce our 
wildlife habitat, clean water, et cetera, that's so valued by 
the urban citizens.
    Mr. Skeen.  Good point. Thank you, sir.
    Mr. Berg.  Thank you, Mr. Chairman.
    Mr. Skeen.  John Pierre Menvielle.

                              ----------                              

                                           Tuesday, March 18, 1997.

             IMPERIAL COUNTY WHITEFLY MANAGEMENT COMMITTEE

                                WITNESS

JOHN PIERRE MENVIELLE, CHAIRMAN

    Mr. Menvielle.  Chairman Skeen, how are you, sir?
    Mr. Skeen.  I'm fine. Did I pronounce that name right?
    Mr. Menvielle.  Yes, sir. You certainly did.
    Mr. Skeen.  I don't know whether my French was that good or 
not.
    Mr. Menvielle.  It's pretty good.
    Mr. Skeen.  Thank you, sir.
    Mr. Menvielle.  Chairman Skeen, today I have with me here 
to my left, Stephen Birdsall who is the Agriculture 
Commissioner from Imperial County, and to my right is Tom Vissi 
who is farmer and present Supervisor of Imperial County. Also, 
in the audience is Brad Luck, a farmer and former Supervisor of 
Imperial County.
    Mr. Skeen.  Welcome to all of you.
    Mr. Menvielle.  Thank you. Congressman Hunter was supposed 
to be here to give testimony with us. But he is tied up in a 
subcommittee meeting and you have his full testimony. You also 
have my full testimony. I'm just going to highlight what I'm 
going to speak to you about today.
    Mr. Skeen.  Well, Duncan is such a good friend. I would 
suspect that the only reason he wouldn't have been here was for 
real serious business like going hunting.
    Mr. Menvielle.  He's probably hunting for coyotes.
    Mr. Kingston.  Mr. Chairman, isn't this a project that was 
cut last year and Duncan came to intervene? Wasn't there 
something that----
    Mr. Skeen.  No. I don't think it was cut.
    Mr. Kingston.  No. That was something that was a research 
thing.
    Mr. Skeen.  Yes; some research project.
    Mr. Kingston.  Okay.
    Mr. Skeen.  Thank you. Proceed at your convenience.
    Mr. Menvielle.  Mr. Chairman, I am John Pierre Menvielle of 
Clexico, California in Imperial County where I am a third 
generation farmer with a diversified cropping program and a 
family farming operation. I am Chairman of the Imperial County 
Whitefly Management Committee, an organization of producers who 
rallied together in 1991 to do something about the economic 
disaster caused by an overwhelming invasion of whitefly that 
destroyed our crops and greatly impacted farm income and the 
whole economy of our county.
    Farmers assess themselves a fee and raise a significant 
amount of capital to go with contributions from allied 
industries. Imperial County supports the University of 
California--assistance from the California Department of Food 
and Agriculture, and the USDA with the support of this 
committee.
    This effort continues to be a fine example of how the 
private community can pool its resources with the county, 
state, university, and federal resources to tackle a 
significant problem. We continue to be a victim of this defiant 
pest that is spreading in other areas of the United States and 
California.
    The Whitefly is now showing up with increased frequency, 
and density, in other farming regions such as the San Joaquine 
Valley. It has infested greenhouses and fields in 36 of 
California's 52 counties, causing sizeable, economic damage in 
at least half of them.
    We know much more about the Whitefly than in 1991 when it 
devoured 98 percent of our fall mellon crop and much of the 
early winter vegetable production. It continues to inflict 
major damage, but thanks to the five-year national research and 
action plan supported by the various elements I just mentioned, 
we are learning to farm much differently; with fewer pesticides 
and more IPM orientation, and there is a vision of hope for 
relief from this pest.
    A new action plan commencing with fiscal year 1998 is 
focused on continued research, methods development, education, 
and extension that with technology transfer as a primary 
objective. Priority research and action areas have been revised 
to reflect our current knowledge of the Whitefly problem.
    We hope to expand participation from foreign countries, as 
well as the U.S. annual reviews have been effective for 
information exchange, analysts, and identification of research 
needs and will continue to be a vital part of the new plan.
    Although my time is limited, I must explain about our 
cooperative efforts and the technology transfer and biological 
control. The search for exotic beneficial insect species has 
been very intense, thanks to the efforts of ARS in cooperation 
with its European biological control lab in Montpelier, France.
    Candidate species have been quarantined at and distributed 
from the APHIS-PPQ Mission, Texas Biological Control Quarantine 
facility. Continue foreign exploration may increase the number 
of unique species available for evaluation. Based on three 
years' work by APHIS-PPQ researchers using a small half-acre 
plots, we are now willing to commit to an extremely large scale 
project utilizing the most effective parasites found today.
    This project will likely tax our manpower and research 
resources. Coordination of activities, communication with 
participants and various agencies will be extremely critical. 
The need for an effective biological control program is 
paramount. Chemicals provide only a short-term answer. We know 
that the--concept of the new Food Quality Protection Act is 
going to eventually rule out many of the chemicals being used 
today.
    We need to have increased participation by APHIS in this 
effort. We cannot understand why APHIS' interest in this 
program is not as vibrant as that of ARS. If we could get 
APHIS' annual funding in this program up to the $5 million 
level, together with around $6 million for ARS, you should see 
significant breakthroughs in biological control and much more 
rapid IPM involvement.
    This year, in an effort to help the USDA meet last year's 
budget reduction mandates, the transfer of USDA, ARS, Brawley 
Research Station to the County of Imperial will be concluded. 
The County plans to lease these facilities to the Imperial 
Valley Conservation Research Center Committee to maintain the 
necessary research which is relevant to desert agriculture.
    Although the Brawley Station is being conveyed to the 
County, we need to continue to have a critical mass of research 
such as only the USDA, ARS, and APHIS can provide. This station 
is where much of the local Whitefly research is being done.
    Therefore, every effort should be made to utilize this 
research facility. We invite other Whitefly infected areas to 
let us perform research for them. And we hope that you will 
encourage the ARS and APHIS to contract with the Brawley 
Station for as much of their research as possible.
    Mr. Chairman, thank you for your support this committee has 
given to the Whitefly Research and Control Program. We are very 
hopeful that you will continue your support. We invite each of 
you to come to the Imperial Valley and see how we are putting 
federal, state, county, university, and growers' dollars into 
an action to control one of this century's most damaging and 
defiant agricultural pests. I will be happy to answer any 
questions that you have.
    [The prepared statements of Mr. Menvielle and Congressman 
Duncan Hunter follow:]

[Pages 648 - 657--The official Committee record contains additional material here.]


    Mr. Skeen.  Well, John, it seems to me like we met when Tim 
and I toured out at Brawley. They moved a part of your research 
from the Brawley Station to the Imperial Valley?
    Mr. Menvielle.  Well, while research is going on there, and 
Stephen Birdsall will explain to you what's going on.
    Mr. Skeen.  Yes. Tell me what's going on. Tell me what the 
spin-off was because I really appreciate the work that you're 
doing on Whitefly. We had a very impressive, afternoon on that 
visit at the station.
    Mr. Birdsall.  Mr. Chairman, Stephen Birdsall. Essentially 
what happened is that ARS has conveyed the facility, the 
Brawley Research Station; two account errors in that process 
have gone through that.
    Mr. Skeen.  Well, it's a transition to the County.
    Mr. Birdsall.  It's in that process. We expect it will be 
transitioned by the end of this fiscal year. The County, in 
turn, is going to continue the research.
    Mr. Skeen.  Of the Whitefly?
    Mr. Birdsall.  Well, the Whitefly along with other research 
there also. But what we're asking particularly in this instance 
is that ARS, their continued Whitefly research, whatever 
Whitefly research that can be done, we continue it at the 
Brawley Station, either via contract, or cooperative agreement, 
or whatever.
    Mr. Skeen.  I appreciate that. I appreciate that the work 
is still going on because I was very impressed with the 
effectiveness of it. That's been replicated in other kinds of 
pest orientation. I figure you've got a good point about ARS 
and APHIS. There ought to be some accommodation made. There 
isn't any question about it.
    You know, we don't realize this in most parts of the 
country that you're able to produce agricultural products year 
around. There are only three areas in the United States like 
that; Florida, South Texas, and the Imperial Valley. I think 
it's a tremendous resource for this country.
    Mr. Birdsall.  Absolutely.
    Mr. Skeen.  Mr. Kingston.
    Mr. Kingston.  What do you guys know about BT cotton? Are 
you familiar with that?
    Mr. Birdsall.  Yes, sir. This year the Valley, even though 
the acreage of cotton is down substantially from an average of 
five years ago, ten years ago about 70,000 acres to about 
45,000. We're embarking on a project now with APHIS in 
conjunction with the California Department of Food and 
Agriculture, and several private organizations to try to, we 
hope, eradicate the pink bollworm by using BT cottons and the 
whole entire Valley, within the limitations stated by EPA as 
planted in BT cotton. That in conjunction with fairmones and 
sterile pink--we hope to start pushing this pink bollworm in 
the South and East from Imperial County.
    Mr. Kingston.  Would BT cotton stand a Whitefly?
    Mr. Birdsall.  No. They're not resistent to Whitefly. 
However, since we don't have to spray for the pink bollworm, 
that increases the chances of whatever natural parasites and 
predators that do affect or attack Whitefly a better chance of 
surviving in cotton.
    Mr. Kingston.  And you call cotton that's been attacked by 
Whitefly sticky cotton?
    Mr. Birdsall.  Yes, sir. That's correct. Sticky cotton is a 
Whitefly exudes a sticky substance which will drip onto the 
lower leaf--and the cotton in itself. It's a sugary substance. 
It's very sticky on the cotton and on the leaves. If it's heavy 
enough, there is a sooty black mold that will grow on that 
sugary substance. That will turn your cotton then black if it's 
serious enough in infestation and also make the limb sticky.
    Mr. Kingston.  The pesticide that works best against 
Whitefly; what kind of form is it in?
    Mr. Birdsall.  Well, it depends upon the crop. Cotton, 
particularly, the two best pesticides that are available at 
this point are some organic phosphate that you can normally put 
on by ground or by air. We have, however, asked the EPA to 
grant us a special registration for two insect growth 
regulators which have been extremely successful in Arizona.
    One application in some cases will take care of the 
Whitefly population all season long. It's a very, very soft 
pesticide, very non-toxic.
    Mr. Kingston.  Thank you, Mr. Chairman.
    Mr. Skeen.  Thank you all. I came home from that trip with 
a little souvenir. And that was I caught my finger in the door 
of that old repair station. You had those metal doors. It left 
an imprint on me for about a year. It reminded me of all of the 
good work that you do out there. We thank you.
    Mr. Birdsall.  It was that special finger also.
    Mr. Skeen.  It was.
                              ----------                              

                                           Tuesday, March 18, 1997.

                     NATIONAL FAMILY FARM COALITION

                                WITNESS

JEAN WYONT, FAMILY FARMER

    Mr. Skeen.  Next we have Jean Wyont.
    Ms. Wyont.  Thank you. I have submitted a written 
statement. I'd like for you to review some of those issues.
    Mr. Skeen.  We review every one of them. I promise you.
    Ms. Wyont.  Okay. So, I'm going to highlight. I'd like to 
talk to you today as a family farmer that is a single woman. 
That is a limited resource as far as it relates to the purpose 
or my testimony. Is that okay?
    Mr. Skeen.  You're talking to a family farmer sitting here 
last year.
    Ms. Wyont.  I'm going to get one of your programs in a 
mediation.
    Mr. Skeen.  Everybody that calls us says, I understand you 
are a sheep farmer. And I say, no. I haven't planted one here 
lately.
    Ms. Wyont.  I'm a dairy.
    Mr. Skeen.  Oh, you're dairy.
    Ms. Wyont.  I'm dairy from Wisconsin, even with my Southern 
accent.
    Mr. Skeen.  Please proceed. We'll take that into 
consideration. We like that Southern accent.
    Ms. Wyont.  Okay. I also wear another hat though that's 
important to me. I work as a farm advocate for limited resource 
minority and small farmers. And with this, I'm going to relate 
some of the things that are happening with our Agriculture 
Credit Programs with FSA as we're talking about appropriations.
    I would like to thank the Civil Rights Action Team for the 
work they've done. As a person, you know, that feels like when 
I go to FSA I haven't always been taken seriously because, as a 
woman, I do want to farm by myself. I really appreciate the 
effort that they've made in trying to correct the situation.
    At this point though I want to stress to you that this work 
will be in vane if Congress doesn't follow through with the 
implementation of the recommendations. That is a very important 
factor. And one of the ways implementation can start is with 
Agriculture Appropriations.
    It may be very easy for Congress to hold USDA accountable, 
but the FAIR Act of 1996 took away so many of the tools that 
USDA could use to help limited resource borrow. Sensible debt 
restructuring that makes sense to both farmers and taxpayers 
has been dismantled.
    Limited resource farmers will fail as it continues to be 
long waiting lines for FSA direct loans. As a limited resource 
borrower, we request that for fiscal year 1998 the 
appropriation level for credit subsidy ensures that there is a 
minimum of $500 million in direct farm operating loans. And I 
might point out that this is still a 20 percent cut from 1996 
levels. We request that for fiscal year 1998, the appropriation 
level for credit subsidy ensure that at a minimum there is $80 
million for direct farm ownership loans.
    Without these levels, many of us were being denied access 
to credit. Perhaps you're thinking and wondering why I have not 
referred to the Guaranteed Loan Program. I'd like to put it 
this way as a farmer, if I could to you.
    As a limited resource borrower, do I have 20 to 30 percent 
net equity in my farming operation? As a dairy farmer, how many 
cows do I have to milk on $12 per hundred weight milk, to come 
up to 10 to 15 percent positive cash flow? It's pretty hard to 
do for a small farmer.
    I milk 43 cows. So, I'm average size in the State of 
Wisconsin. I should also point out as it relates to the 
Guaranteed Loan Program, if I met those guidelines I would not 
be a limited resource borrower with the agency.
    Mr. Skeen.  You would not be eligible.
    Ms. Wyont.  I would not be eligible. So, I'm in a catch-22. 
Also, the Guaranteed Loan Program, we're hearing in the 
countryside that banks two years ago re-streamlined paperwork 
or the agency streamlined paperwork. And it was greatly 
appreciated.
    Now, with the Debt Collection Act, it's on the other end in 
the amount of paperwork to collect and the length of time to 
sometime collect the land loss claim. That's is turning many 
banks away once again. So, we're going back to where we started 
from.
    Minority Outreach is a vital part of implementation of the 
Civil Rights Action Team Report. It has increased awareness in 
the countryside of farmers and participation in the USDA 
programs. And it's done so with a very limited budget. For the 
first two years of the program it was almost as if Outreach was 
given a blank check and never signed.
    That's the way it needs to be thought of. We're requesting 
that this be funded at the full $10 million level. There is 
another problem as we think about farmers facing foreclosure 
and that's on our Indian Reservations. We need to fund the 
Indian Land Acquisition Restoration Act.
    This will permit tribes to keep land, and this is within 
their boundaries. It's not adding to their external boundaries. 
One important piece of this is on the Crow Reservation, there 
is approximately two million acres in that Reservation. Five 
hundred thousand are owned by the Tribe; 700,000 by Native 
Americans; and the balance of that Reservation are owned by 
non-Indians.
    This fund, if it were appropriated, even from the $1 
million to $10 million would assure that tribes could keep some 
of the lands with the farmers that are going to befacing 
foreclosure. I've got to stress that we've got to take these programs 
collectively.
    To say that we're going to cut farm ownership so we can 
have minority outreach isn't going to work. It doesn't do any 
good to do outreach if we don't have the program money to put 
out there. So, I requested, as you look at the Direct Loan 
Program, as well as Minority Outreach, Mediation Program, that 
these all be taken collectively.
    Mr. Chairman, I know in your county you have mediation. 
There are farmers that have used that program. We're requesting 
that this be funded at $4.5 million for fiscal year 1998. 
Twenty-two states currently have this process. And it is a 
vital important process.
    If we, as a minority, are limited resource borrowers are to 
graduate and go to commercial credit, there are direct market 
programs and technical assistance programs that are out there 
through USDA that would be beneficial to us. The Farmers Market 
Nutrition Program helps both low income consumers, as well as 
farmers direct market. We request that his program be funded at 
the $12 million level.
    One last issue that I would like to point out to you is if 
USDA is really going to be beneficial to us in the countryside, 
we need to move Farm Service Agency Agriculture Credit Programs 
back to Rural Economic Development. The way the system is 
currently working, it is a fragmented system. You have a rural 
housing loan here. You have your farm loan there. And at no 
point do the Rural Economic Development Grants tie into the 
total picture. On behalf of limited resource borrowers across 
the nation, I urge you to fund these programs at levels that 
will give us some access to them.
    All of us, even at these levels will not be eligible. I 
will be happy to answer any questions you have. Thank you for 
allowing me here this afternoon.
    [The prepared statement of Ms. Wyont follows:]

[Pages 662 - 666--The official Committee record contains additional material here.]


    Mr. Skeen.  Thank you, Ms. Wyont. To get into one of these 
so-called agricultural businesses, you say you have 43 cows 
that you milk.
    Ms. Wyont.  Right.
    Mr. Skeen.  Is that a sustainable number of cattle?
    Ms. Wyont.  Not on $12 milk.
    Mr. Skeen.  Not on $12 milk.
    Ms. Wyont.  Right. Last summer for three straight months, I 
took my milk check on 42 I was milking at the time, sat down 
and paid every bill I had, did not have to work off the farm to 
go to the grocery store, and I had a beginning balance the 
beginning of the month. Now, I milked Jerseys at that time. I 
was shipping about $17.80 milk, but it more than met my cost of 
production.
    Mr. Skeen.  But you're always in that space where you're 
just barely riding on the rim a little bit.
    Ms. Wyont.  Right. I supplement my farm with non-farm 
income.
    Mr. Skeen.  Non-farm.
    Ms. Wyont.  Right.
    Mr. Skeen.  That's another tragedy that's happening to us.
    Ms. Wyont.  Right.
    Mr. Skeen.  A lot of so-called farm operations are dual 
purpose situations because the farm is operated, but it's not 
their main source of income or it's not their total source of 
income.
    Ms. Wyont.  Right. And this is the important piece for 
getting FSA agriculture credit back to Rural Economic 
Development.
    Mr. Skeen.  Yes.
    Ms. Wyont.  There are a lot of business enterprises that 
would help me on my farm through that, that are not available 
through any agriculture credit program, if they could be tied 
together for family farmers and let me do something at home.
    Mr. Skeen.  Do you use computers?
    Ms. Wyont.  Yes.
    Mr. Skeen.  Are you computerized?
    Ms. Wyont.  I sure am.
    Mr. Skeen.  That's one avenue that I see being exploited. 
We're a very rural community as well. It's very difficult.
    Ms. Wyont.  My total county population is 10,000 folks. We 
had one iron ore mine that just finished up and is in a two-
year reclamation period. Beyond that, other than a few stores 
and shops, we have to drive 40 miles to Eclair. And these are 
family farmers that are in our population, except for our 
County Seat that's about 29.
    Mr. Skeen.  You are remote family farmers.
    Ms. Wyont.  Right; very remote. Mr. Kingston.
    Mr. Kingston.  Please further explain the Farmers Market 
Nutrition Program and how it works.
    Ms. Wyont.  Okay. It allows farmers to go directly to a 
farmers market and a low income person using WIC or Food Stamp 
have access to that market. It allows the farmer in a sense a 
value added. It is a value added, while the consumer gets 
wholesome food and still not paying what she's paying when that 
produce goes to the middle man.
    Mr. Kingston.  Why can't the farmer go directly to the 
farmers market?
    Ms. Wyont.  He can. But the importance of this project is 
the market that it gives the farmer. It's just not like going 
and pitching a tent on Saturday morning on a parking lot. It is 
a program that benefits that low income consumer, but it also 
gives the farmer the backing that he needs to make that market 
successful.
    Mr. Kingston.  I understand that farmers can go already 
directly to a farmers market. Is that not the case?
    Ms. Wyont.  That is true.
    Mr. Kingston.  So, they can do that now.
    Ms. Wyont.  They can do that now.
    Mr. Kingston.  So, then there is nothing new in the program 
with respect to that; correct?
    Ms. Wyont.  We need to develop more markets, okay. We need 
to develop--for me in Wisconsin, I was paying $1.99 for summer 
squash. In August when farmers in South Carolina were already 
plowing under summer squash because they couldn't give them 
away. So, we need to be able to develop transportation systems 
or whatever to get these markets so that they are more direct 
instead of to one small locale. That's the way they're working 
now.
    Mr. Kingston.  Right now, can a person with Food Stamp or 
WIC go directly to a farmers market?
    Ms. Wyont.  Until we go on the electronic card, yes. On the 
electronic card we're going to be in trouble.
    Mr. Kingston.  Why is that?
    Ms. Wyont.  Because we don't have the technical ability to 
use it.
    Mr. Kingston.  But that will be fairly close.
    Ms. Wyont.  Well, we hope. It's going to take some work to 
get there, but we hope so. And that's the importance of funding 
this program so we can get to that point.
    Mr. Kingston.  Thank you.
    Mr. Skeen.  Thank you very much for your testimony. We 
appreciate you taking the time and the effort to come here. 
Unless there is anything else for the good of the order, that's 
all for today. We're adjourned.

                              ---------

                                         Wednesday, March 19, 1997.

                    TESTIMONY OF MEMBERS OF CONGRESS

                                WITNESS

HON. TONY P. HALL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO

    Mr. Skeen.  The committee will come to order.
    Good morning to Congressman Hall and Mr. Bereuter. First up 
we have Congressman Hall and then Mr. Bereuter. The rules are 
that you can have all the time you need up to five minutes. For 
every minute over that we take a million off.
    Mr. Hall.  Mr. Chairman, thank you for the chance to be 
here. I appreciate your leadership on this most important 
issue, and certainly Congresswoman Kaptur. I would ask that my 
written statement be inserted in the record.
    Mr. Skeen.  In total, it will be in the record.
    Mr. Hall.  Thank you. My focus today is on two programs 
that are in my opinion most important in fulfilling the United 
States historic amendment to alleviating hunger and 
malnutrition in our country and overseas.
    First, the WIC Program and secondly Public Law 480 Food For 
Peace Program. It is a sad reality, Mr. Chairman, that over 20 
million, probably somewhere between 20 and 25 million people in 
America, including more than one in four of our children, do 
not consistently have enough to eat, and that 800 million of 
the world's poor face hunger on a daily basis.
    Budget cuts have dramatically reduced funding availability 
for both domestic and international food and nutrition 
programs. In my opinion, we have a tremendous responsibility 
and we have limited resources. In this light, my testimony will 
respectfully urge this subcommittee to consider the following 
recommendations.
    One, is to keep the WIC Program on the path to full 
coverage for all eligible participants by approving the 
requested fiscal year 1997 supplemental WIC appropriation of 
$100 million, and provide the requested level of $4.108 billion 
fiscal year 1998 appropriations for the WIC Program.
    Two, do not cut Public Law 480 as a means to fund WIC. A 
$50 million rescission in the Public Law 480 Title I Program is 
proposed as a partial offset for the much needed $100 million 
supplemental. Such a cut to Title I would further shrink the 
already drastically diminished Public Law 480 Program.
    Three, fully fund the Public Law 480 Title II Program in 
order to meet the 2.025 million metric ton floor level of 
commodities established by law for this program.
    Four, carefully review the use of the Food Security 
Commodity Reserve to ensure that it meets its priority purpose 
as an effective and timely back-up to the Public Law 480 Title 
II Program. Options for replenishment of the reserves should be 
thoroughly explored with the Administration, with the view to 
enhancing its viability as an emergency response mechanism over 
the long run.
    Mr. Chairman, it's a tremendous responsibility that we have 
in this Congress in feeding our own people, and certainly 
helping with the feeding of programs overseas. Those pictures 
over there on the wall, especially of the storage of grain, I 
have seen many places all over the world. And I've seen our 
food save a lot of lives. The tonnage for it continues to go 
down every year. As we lower our amount, other countries follow 
suite.
    They say, if the United States can do it, we can do it too. 
We've got a lot of crisis going on. A lot of emergency problems 
in the world today, and they don't seem to let up. So, I hope 
that we can help in this whole area of WIC with the 
supplemental and certainly with Public Law 480. Thank you, sir.
    [The prepared statement of Congressman Hall follows:]

[Pages 671 - 680--The official Committee record contains additional material here.]


    Mr. Skeen.  Thank you for your testimony and for your 
concern because we share that interest with your avidly. We're 
going to do our very best to keep these programs alive. When 
you talk about a worldwide hunger, you're talking our kind of 
language because we're the kind of nation with only 2 percent 
of our population producing a tremendous amount of agricultural 
food stuffs.
    We can almost feed the entire world. I think that attacking 
hunger worldwide is one way of keeping wars and conflicts down 
to an absolute minimum because we've had far too many of them. 
But hunger I think is the mainspring of the whole situation. 
So, we share your concerns and will do our very best. We 
appreciate you being here today.
    Mr. Hall.  Thank you.
    Mr. Skeen.  Thank you, sir. Mr. Bereuter.

                              ----------                             

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA

    Mr. Bereuter.  Chairman Skeen, thank you very much for the 
opportunity to testify before your committee. If the 
subcommittee would, I would like to make my entire statement a 
part of the record. 
    Mr. Skeen.  It will be done in its entirety.
    Mr. Bereuter.  Thank you, Mr. Chairman. I could certainly 
agree and do agree with Mr. Hall and the testimony just given, 
and in your response to it. I come today listing some of the 
priority projects for my district, the State and also some in 
the area of housing that are for the nation as a whole.
    The highest priority request I have is one that I've made 
before, Mr. Chairman, to this subcommittee and this 
subcommittee has assisted in the past. It is dealing with the 
hazardous waste problem generated by the CCC Grain Storage 
Programs across many parts of the country, but specifically and 
especially in the Plain States.
    I worked with then-Secretary of Agriculture, Clayton 
Yeutter, to establish a program to deal with the carbon 
tetrachloride hazardous waste problem we have. This was a 
fumigant used at our CCC grain bin storage sites in the 1940s 
through the early 1970s.
    It's a carcinogen. It's in the water supply of grain bin 
sites in approximately 268 communities in Kansas. My hometown 
of Utica which is a town of 700 is plagued by this problem. 
Help now is beginning to be given to us by USDA, but it's a 
major problem. USDA has worked out a program for dealing with 
it, but it takes money.
    These communities, having had to give us their water 
supplies, and in my cases all of their wells being 
contaminated, need the assistance the Federal Government should 
give as a result of the contamination that the CCC grain bin 
sites brought to those communities. The funding request divided 
equally between Kansas and Nebraska is $420,000 for each of the 
two States.
    The second program, and a Nebraska specific one, but it 
involves 12 universities in almost as many States is the Mid-
West Advanced Food Manufacturing Alliance. Its purpose is to 
develop and facilitate the transfer of new food manufacturing 
and processing technologies.
    Last year, the Alliance received $423,000 in funding. This 
year the Members of the Alliance, and I'm conveying it on 
behalf of them from those States, are requesting $500,000 
million to keep up with increasing demand for the program.
    These programs award competitively based research projects 
requiring a dollar-for-dollar corporate match. So, a $1 million 
allocation with the Alliance would generate at least $2 million 
in research in food processing, packaging, storage, and 
transportation.
    I am requesting that the subcommittee increase the Alliance 
funding to $1 million. I'd ask you to do what you possibly can 
in that area, Mr. Chairman.
    Third, I have listed a Drought Mitigation Project for the 
University of Nebraska. They received $200,000 in fiscal year 
1997 for a research project on Drought Mitigation. I've seen 
their work in plant pathology and plant breeding. It is very 
impressive today.
    I think that this kind of program bears benefit, not only 
for the Great Plains, but also for States like your own. I know 
that New Mexico is very active in drought related research 
activities as well.
    I have other Nebraska specific programs listed. I won't go 
over them in detail. Some of them are extraordinarily important 
directly to my farmers; things that relate to disease. Various 
plants and animals are listed very specifically.
    I want to save the remainder of my time to discuss two 
national housing programs. The first is the Section 502 
Unsubsidized Loan Guarantee Program. This is for middle and low 
income people in the 80 to 115 percent median area income. It's 
based upon a demonstration program that dates from 1991.
    I'm the author of the legislation with a lot of help and 
funding from this subcommittee in the past. As a result of 
this, there are 65,000 families across the country located in 
the communities of less than 25,000 that now have a home. 
Either they built on or they purchased an existing home.
    The default rate is incredibly low. I believe overall it's 
the best single housing program that exists in the entire 
Federal Government, and it met a need that was not being met. 
People who lived in large cities from HUD could receive such 
loan guarantees. But there was no program until 1991 when we 
began the demonstration program now available in all 50 States.
    Secondly, I wanted to mention something that is called the 
Section 538 Program, a Rural Rental Multi-Family Housing Loan 
Guarantee Program. This will enable us to build more units of 
low and middle income housing. But's it's a rental unit; five 
or more units. We've had a demonstration program underway for 
some time now.
    It leverages up greatly because these are loan guarantees. 
It is I think a partial answer to a very troubled Section 515 
Program. But this is a loan guarantee program and not a direct 
loan program. So, the dollars go a long way.
    Chairman Skeen, I'll be happy to answer any questions you 
might have about these housing programs or any of the other 
projects that I mentioned.
    [The statement of Congressman Bereuter follows:]

[Pages 683 - 686--The official Committee record contains additional material here.]


    Mr. Skeen.  Well, thank you very much, Mr. Bereuter. We 
certainly agree with you on the priorities that you've 
outlined; particularly, let's start with hazardous waste. I 
think it is one of the most ever-present problems we have in 
the United States today; waste disposal in general, both solid 
and liquid waste, true waste from manufacturers of atomic 
weapons and things of that kind.
    Pharmaceuticals and some of the rest of them have been very 
difficult. This is a very difficult problem. Also research has 
a very high priority with this subcommittee as well because 
with only 2 percent of our population producing food stuffs to 
feed us all, we depend on the technology to produce that kind 
of gain.
    In the housing programs also, we have a very avid interest 
in them. I'm surprised that you mentioned the Section 538 
programs, the rentals?
    Mr. Bereuter.  Yes.
    Mr. Skeen.  That's a loan guarantee program?
    Mr. Bereuter.  That's a loan guarantee program, right.
    Mr. Skeen.  I'm not as familiar with that as I am with 
Section 502.
    Mr. Bereuter.  It's relatively new. Mr. Chairman, we've 
been operating with it for less than two years now. But the 
Section 502 Program is for single family housing and dates back 
to 1991.
    Mr. Skeen.  It seems to me like you've got the rental 
program which kind of fits in between the direct and the 
guaranteed loan situation, but these are rentals. That 
interests me in agricultural country.
    Mr. Bereuter.  That's correct.
    Mr. Skeen.  Of course, I'm sure that the population could 
support rental units.
    Mr. Bereuter.  These are for multi-family housing with five 
or more units in the structure.
    Mr. Skeen.  In one structure.
    Mr. Bereuter.  Right.
    Mr. Skeen.  Thank you very much.
    Mr. Bereuter.  Thank you very much.
    Mr. Kingston.  Mr. Chairman, I wanted to ask one quick 
question.
    Mr. Skeen.  Oh, I beg your pardon. Mr. Kingston.
    Mr. Kingston.  Mr. Bereuter, do you know why the 
Administration did not have a budget request for the Section 
538 Housing? What was their reason?
    Mr. Bereuter.  USDA will provide a figure saying it was an 
accident on their part that they did not submit to OMB their 
support for the program. They'll be relaying it. I tried to 
have it for today. We did not. The USDA does assure us that 
they are supportive of the program, but they did not forward 
that request to OMB.
    Mr. Kingston.  The second question is, you had legislation 
last year on this. Did your bill pass? I do not remember.
    Mr. Bereuter.  It did not. It would have reauthorized it. 
We tried at the end of the session to get it reauthorized. It 
had been a part of a larger housing program which fell to 
Senate problems. So, again, I have on the first day of this 
session reauthorized it as a simply straightforward, stand 
alone bill. It would be for a reauthorization of the Section 
538 Program.
    Mr. Kingston.  And it doesn't do anything on Section 515?
    Mr. Bereuter.  No.
    Mr. Kingston.  Okay.
    Mr. Bereuter.  We understand our problems with Section 515, 
but there is no agreement about how to solve those problems.
    Mr. Kingston.  As I understand it, and I think it's real 
important for the record here that your bill saves 
substantially large amounts of money in the way this thing is 
administered. Is that correct?
    Mr. Bereuter.  It's a Loan Guarantee Program. So, we 
leverage very highly.
    Mr. Kingston.  Is it 20 cents on the hundred dollars or 
whatever the number is? Yes, 20 cents per hundred dollars?
    Mr. Bereuter.  That's the estimate. We are estimating a 
higher default rate than we think would be the case. We believe 
it would be less than that. But an effort to be conservative on 
what we're promising, that's the 20 cent figure you have of the 
default rate of the Section 502 Program which is not directly 
comparable with single family home ownership versus multi-
family units.
    But we have been much below the projected default rate 
there. It's been less than 3 percent throughout its history. 
And it is somewhere at about 2.7 today which is an incredibly 
low default rate because it filters through the commercial 
lenders who first look at whether or not the borrower is credit 
worthy.
    Mr. Kingston.  Are you more optimistic this year?
    Mr. Bereuter.  I am. Actually, Democratic Members of the 
committees came to me and said, would you move that legislation 
separately. So, I've gone to Chairman Leach and Chairman Lazio, 
the subcommittee Chairman and they said, they had no objection 
to moving it as a separate bill.
    Mr. Kingston.  Thank you.
    Mr. Skeen.  Thank you very much, Doug. Let's have 
Congressman Frank Pallone.
                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY

    Mr. Pallone.  Thank you, Mr. Chairman. 
    Mr. Skeen.  Welcome, sir.
    Mr. Pallone.  Thank you for the opportunity to testify; and 
my colleague there, Mr. Kingston. I have a complete statement 
for the record, but I'll just try to summarize it.
    Mr. Skeen.  If you will abstract it, we will appreciate it 
very much. The entire written testimony will be in the record.
    Mr. Pallone.  Thank you. I usually mention to you when I 
come before this subcommittee that I don't have any 
agriculture, per se, in my district.
    Mr. Skeen.  You have folks that eat though, don't you?
    Mr. Pallone.  I have people that eat and Rutgers 
University, which is the Agricultural Extension Service at Cook 
College at Rutgers University in my district. So, we're very 
dependent on some of the projects that relate to research, in 
particular, around the State and around the country.
    Basically what I'm requesting is funding for several of 
these agricultural projects at Cook College at Rutgers 
University. The first matter which we visited last yearis a 
request to include $3.5 million in the USDA's Facilities grant program 
to complete Phase II construction of the Walter E. Foran Plant Science 
and Biotechnology Complex. This would complete the federal contribution 
to the project.
    Phase I has been completed. The testimony details that. But 
Phase II involves construction of a wing off the existing 
structure, which originally called for a $10 million federal 
investment, of which about $7.47 million has been appropriated 
by Congress since fiscal year 1994.
    It gets a little complicated because the amount actually 
received by the University is about $7.24 million and USDA 
captures a 3 percent administrative allowance. But what I 
wanted to mention is that last year I had requested this 
funding and the committee included it in the House bill that we 
passed.
    I believe the Senate did the same. When it went to 
conference, the Agriculture Department provided incorrect 
information to the Appropriations Conference Committee that 
resulted in a substantial reduction in the fiscal year 1997 
appropriation for this Phase II.
    I wasn't at the conference, and, unfortunately, no one was 
there to challenge them. But later they admitted that was not 
the case and they had given the conference the wrong 
information. I discussed that with your staff, and, of course, 
there was nothing we could do about it at that point. Since 
1993 when this project was budgeted, construction costs have 
risen.
    So, actually the cost of this is a little higher. It now 
stands at $10.64 million or $3.4 million more than Rutgers has 
received. So, what I'm requesting is $3.5 million which would 
provide the 3 percent overhead that goes to USDA, plus the 
additional funding there that's necessary because of the fact 
that it's now a year later.
    Again, I hope that I can work with the committee to make 
sure that what happened last year doesn't happen again. The 
Department has assured me they will not be there at the 
conference this year giving you incorrect information again, 
but we'll see.
    Mr. Skeen.  It may be incorrect in itself.
    Mr. Pallone.  I don't know.
    Mr. Skeen.  We'll see.
    Mr. Pallone.  I just wanted to call it to your attention. 
The other thing I've requested is $220,000 for the USDA budget 
for Rutgers Blueberry and Cranberry Research and Extension at 
Chatsworth. This matches a similar amount from the State 
Legislature that they received.
    Again, this is something the committee included in the 
appropriations bill last year. I can't stress enough how 
important blueberries and cranberries are to New Jersey. It 
still ranks first. We rank first in blueberries and third in 
cranberries. But a lot of this research relates to activities 
in States around the country that have expressed support for 
this--California, Delaware, Louisiana; the list goes on. Those 
are the only two things that are not included in the 
President's budget, Mr. Chairman. But I wanted to mention two 
other things.
    The third program is what we call the IR-4 Project. This is 
headquartered at the New Jersey Agricultural Experimental 
Station. It's a national program to support the registration 
and re-registration of pest control agents for use on minor 
crops.
    Again, it serves all States and all territories. The 
President has recommended a funding level of $10.7 million, and 
I'm simply asking the committee to support the President's 
request.
    Lastly, I wanted to mention to try to make sure there is 
adequate funding for the Hatch Act and Smith Lever formula 
funding for scientific research and outreach. Again, this is 
very important not only to my State but to a number of States.
    The National Association of State Universities and Land 
Grant Colleges, of which Rutgers is a Member Institution, is 
basically stressing that the Hatch-Lever funding is the single 
most important component of agricultural research.
    Again, that's not a specific request, but essentially to 
support what the President has requested.
    [The prepared statement of Congressman Pallone follows:]

[Pages 691 - 693--The official Committee record contains additional material here.]


    Mr. Skeen.  Frank, what was the information that the 
Agriculture Department----
    Mr. Pallone.  They basically told the conference that the 
full federal funding had been provided for this plant, science 
and biotechnology complex. So, it was a very minimal amount 
that was included in the conference bill. I think it was like 
$.1 million or something, as opposed to the $3.4 million that I 
needed.
    Mr. Skeen.  I see.
    Mr. Pallone.  But you had included it and I believe the 
Senate did as well.
    Mr. Skeen.  I think it was in both.
    Mr. Pallone.  Yes. That's why I got very upset. Of course, 
as soon as I found out I called Agriculture and they came back 
and said I was right, but we had already passed the bill--it 
had gone to the Floor. It went to the President and that was 
it.
    Mr. Skeen.  Thank you. Mr. Kingston.
    Mr. Kingston.  Mr. Chairman, let me ask a question of you. 
Was that $220,000 a part of the President's potential hit list? 
Because you may not----
    Mr. Pallone.  For the blueberries and cranberries?
    Mr. Kingston.  Yes.
    Mr. Pallone.  That is never in the President's budget to my 
knowledge.
    Mr. Kingston.  But it's ongoing money. That's what it was 
last year.
    Mr. Pallone.  Oh, it's been going on ever since I've been 
in Congress.
    Mr. Kingston.  Because hasn't he floated a list of 
potential research projects that he wants to zap?
    Mr. Pallone.  He has, but that list is just a list of 
projects they did not ask money for is how it's stated on 
there. It's very strange. But he's correct. They never have 
asked for money for this. And they always use that project as, 
gee, this is a reason you should have line item veto.
    Mr. Kingston.  Is that on that list? Are you aware of that?
    Mr. Pallone.  No. I wasn't. I'm glad you're bringing it to 
my attention.
    Mr. Kingston.  Because you know this committee catches a 
lot of grief on agriculture research because it's always the 
screwworm or some peculiar named insect that makes good reading 
for Readers Digest articles and so forth. So, you may need to 
be aware of it.
    Let me ask you this. The States, Oregon, Michigan, 
Louisiana and so forth, are those the only ones participating 
in it? Are they the only ones who are----
    Mr. Pallone.  No. They're the ones that basically have sent 
letters to Rutgers saying that they support it and talk about 
the excellent work. That's why I cited them.
    Mr. Kingston.  You know they do blueberries in Georgia 
also. Is there a way that we can get the Georgia folks behind 
it if interested in it? Because they may be looking for----
    Mr. Pallone.  I'll contact them through you and we'll--
absolutely, sure. Thanks.
    Mr. Kingston.  Okay. Thanks a lot.
    Mr. Skeen.  Mr. Walsh.
    Mr. Walsh.  I have no questions, Mr. Chairman.
    Mr. Skeen.  Thank you very much.
    Mr. Pallone.  Thank you, Mr. Chairman.
    Mr. Skeen.  Mr. Clay Shaw.
                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. CLAY SHAW, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA

    Mr. Shaw.  Mr. Chairman, I will summarize and ask that my 
full statement be made a part of the record. 
    Mr. Skeen.  Welcome, Mr. Shaw. We appreciate that and we 
may have some questions for you. Proceed.
    Mr. Shaw.  Thank you very much. We are here to ask that the 
Appropriations Committee appropriate funds as provided in the 
President's budget for $4 million for the construction of a 
quarantine facility in Broward County Florida. We are presently 
in great danger in the Everglades.
    The second biggest threat in the Everglades today is the 
Melaleuca which is spreading at the rate of 52 acres a day. 
This is a crisis that we are facing. The Melaleuca was imported 
into the United States back in the 1930s, and it was thought to 
be an ornamental that came from Australia.
    Unfortunately, what was thought to be an ornamental which 
was brought in for lawn decoration as well as for its ability 
to soak up water has gotten totally out of control and is it 
ever soaking up water. It soaks up water I think at about four 
times the rate of a normal plant.
    It has no natural enemies, and no food value. It doesn't 
contribute to the food chain whatsoever. As a matter of fact, 
the paper weight there in front of you with the Melaleuca leaf 
and one of the beetles itself, down at the lower left-hand 
corner is the seed pod. The seed itself is about the size of a 
flea.
    It really doesn't even contribute anything to the bird 
population. The Melaleuca grows so thick that man cannot even 
walk through it. Literally, the trunks of the trees are almost 
back-to-back. It will grow to large diameters such as a pine 
tree.
    However, the number of trees that's in this area is really 
quite incredible. The only way of eradication now or the 
favored way of eradication now is actually doing this by hand, 
which is an incredibly laborious and painstaking process. We 
have found several insects that are being imported into the 
United States.
    The beetle there that's before you is one of them that was 
a result of the quarantine and testing facility in Gainsville, 
Florida at the University of Florida. The University of Florida 
has some land that would be available for this larger 
quarantine facility in South Florida.
    It would be much better to have that in South Florida in 
that when you're doing the research on these exotic types of 
species, the climate is correct. South Florida, being a 
tropical climate, with Gainesville being in the Northern part 
of the State is not considered to be a tropical environment.
    Therefore, it cannot sustain the life of these trees, and 
also other types of trees that have to be eradicated. As I 
said, $4 million was included in the President's budget. I was 
successful in having the Melaeuca put on the noxious weed list 
some years ago. And it appears that the best hope we have is 
this particular insect and other insects which we need to do 
some research on to be sure that if we let them go, they're not 
going to attack the grasses or other types of vegetation in 
South Florida. Thank you, Mr. Chairman.
    [The prepared statement of Congressman Shaw follows:]

[Pages 697 - 699--The official Committee record contains additional material here.]


    Mr. Skeen. Thank you. Melaleuca, where did it come from 
originally?
    Mr. Shaw.  Australia.
    Mr. Skeen.  Australia. It is almost as bad as the kudzu 
problem we had. That was a conservation effort that got out of 
hand. The kudzu was thought to be a nice cattle feed at one 
time. And, of course, that grows while you're looking at it. A 
foot a day.
    Mr. Shaw.  Water hyacinth. It seems that we bring these 
plants in that you think are kind of pretty, but are creating 
an entire environmental disaster in many parts of our country.
    Mr. Skeen.  You also were talking about a quarantine 
facility.
    Mr. Shaw.  Yes, sir. There has already been appropriated 
and then partially spent $1 million which was for the design 
and partial construction of the facility. What we're looking 
for now is $4 million so we can complete it. Again, I want to 
impress on the committee the urgency of this.
    We have this thing spreading at 52 acres a day, and this is 
into the Everglades National Park, which is a federal park. If 
we don't address this issue very rapidly, we could have the 
first national park that would be found ecologically dead at an 
early date.
    Mr. Skeen.  We've also taken a very avid interest in and 
have done some inspection work on citrus canker and also the 
relocation of the new citrus lab.
    Mr. Shaw. Yes, sir.
    Mr. Skeen.  You're a very prominent agricultural producing 
state over there. But also it invites all kinds of pests.
    Mr. Shaw.  Yes, sir.
    Mr. Skeen.  Melaleuca is the coyote of Florida. Mr. Walsh.
    Mr. Walsh.  No questions, Mr. Chairman.
    Mr. Shaw.  Well, I'll put you down as a friend of the 
Everglades.
    Mr. Walsh.  Thank you.
    Mr. Skeen.  Mr. Kingston.
    Mr. Kingston.  Mr. Shaw, how is it controlled in Australia?
    Mr. Shaw.  Well, they have these natural pests in 
Australia. Also Australia is a different climate. The Melaleuca 
is also in California and it creates no problem in their 
particular environment. Where it creates a horrible problem is 
when it gets into the wetlands such as tropical wetlands like 
Florida.
    It's a unique looking tree. You may have seen it on some of 
the trips to Florida. It has a trunk that looks like paper. In 
fact, when I was a kid we used to call it the paper tree. They 
used to plant them, actually, beside the front doors of houses 
because it gives off an odor that is thought to actually repel 
flies, mosquitos and other insects that would otherwise get 
into the house. But it's totally gotten out of control. Once it 
got into the Everglades, then we had some big, big problems.
    Mr. Kingston.  I know they harvest it commercially for 
agriculture and I think all kinds of Melaleuca products come 
from it; soap and stuff like that in Australia.
    Mr. Shaw.  It might. I was trying to promote the use of it 
as mulch or something down there in order to try to harvest it. 
It was thought at one time to have a value as lumber. However, 
it doesn't. It grows so fast and it's so soft that it cannot 
make a decent board either.
    Mr. Kingston.  Have you ever tried to kill bamboo?
    Mr. Shaw.  Yes.
    Mr. Kingston.  Is it as hard to kill as bamboo?
    Mr. Shaw.  Well, bamboo will come back from the sprouts. 
With this actually when you burn Melaleuca it will come back 
with a vengeance because the seed pods explode and throw those 
little seeds like dust on the ground. Then I'll tell you, when 
you look at the Melaleuca coming back it looks like hairs on a 
dogs back. It comes back so thick and with such a vengeance. 
This plant really fights back.
    Mr. Kingston.  May I ask you one other question on your 
bug. The love bugs that you guys have in Florida are coming up 
I-95. What did the love bug go to Florida for originally?
    Mr. Shaw.  I don't know. It's up mainly around the Orlando 
area. It really hasn't made its way into South Florida. The 
love bug itself, other than its unique characteristic of flying 
United with its mate, is a bigger problem than it is for 
automobiles and the mess it makes on your windshield.
    Mr. Kingston.  It was an issue that birds won't eat it.
    Mr. Shaw.  They won't?
    Mr. Kingston.  No, no. I don't think there is any--they 
just taste bad.
    Mr. Shaw.  See, you've got to be careful bringing in 
insects--I mean we could end up bringing in another problem. 
That's why when we import an insect, we want to be sure that 
it's exposed to just about everything you can possibly think 
of.
    Mr. Kingston.  That's why this research money is so 
important because you could----
    Mr. Shaw.  You can't just go and let these beetles go 
without knowing exactly what they're going to eat.
    Mr. Kingston.  Thank you. Thank you, Mr. Chairman.
    Mr. Skeen.  We thank you, sir.
    Ms. Emerson. Welcome, Jo Ann.

                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. JO ANN EMERSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSOURI

    Mrs. Emerson.  Thank you, Mr. Chairman. I want to thank you 
for allowing me to come before your subcommittee today on 
behalf of continued funding for cyst nematode research. I also 
want to thank you and the other Members of the subcommittee for 
the funding that you have given to this project in the past.
    As you know, the Delta Area Agricultural Research Center in 
Portageville, Missouri has been the premier national facility 
for extensive research on the soybean cyst nematode. Because of 
your subcommittee's past support, I know you're aware of the 
many benefits accruing to soybean farmers as a result of this 
research.
    Presently, scientists estimate that nearly 75 percent of 
the domestic farmland planted to soybeans in a given year is 
infested with the cyst nematode. According to the University of 
Missouri research, that figure climbs to nearly 90 percent in 
Mississippi and Missouri soybean acreage.
    Nationally, soybean producers lose more than $400 million 
annually in reduced yields to the soybean nemesis. As these 
numbers show, this problem goes far beyond Missouri State 
borders. Scientists in Illinois, Kentucky, Mississippi, 
Missouri, Nebraska, Iowa and Indiana now view the cyst nematode 
as one of our soybean growers' worst enemies.
    As you can see, soybean yields are continuing to decline 
due to this pest, and that translates into diminished profits; 
something both farmers and rural communities can ill-afford to 
lose. There is cause for hope, however, for farmers trying to 
cope with this profit destroying dilemma. That hope lies in the 
hands of research capabilities presently available at the Delta 
Center.
    Much of the progress that's been made has been the control 
of and eradication of cyst nematode as a result of the research 
that has been and is continuing to be conducted at the Delta 
Center. That progress would not have been possible without the 
$285,000 that the Delta Center received last year to continue 
its research program.
    As you know or perhaps know, funding for cyst nematode 
research was not included in the Administration's budget 
request. In fact, the Administration has never requested 
funding for this program. But fortunately Congress has always 
transferred funds from other accounts to allow this vital 
research at the Delta Center to continue.
    As a result, cyst nematode research has not increased the 
overall agriculture budget. Mr. Chairman, I can't overstate the 
importance of this research to soybean farmers across this 
country. The cyst nematode will threaten hundreds of millions 
of dollars in yields this year and potentially billions in 
years to come.
    Yield losses combined with the spread of this pest prove 
that additional funding is necessary in order to guarantee both 
sustained and accelerated progress in the eradication of the 
cyst nematode. By supporting research at the Delta Center, I 
think we'll be able to save farmers from financial ruin in the 
long-run. Thus, save the Federal Government many times what we 
hope to spend this year.
    I thank the subcommittee for continuing this request and 
for providing me the opportunity to testify.
    [The prepared statement of Congresswoman Emerson follows:]

[Pages 703 - 704--The official Committee record contains additional material here.]


    Mr. Skeen. Well, Jo Ann, I'll tell you right off the top, 
there is only one request that was ever made by Bill every 
year, year after year. I can see it right here today; cyst 
nematode.
    Mrs. Emerson.  Yes.
    Mr. Skeen.  It's in there and it's going to stay in there.
    Mrs. Emerson.  I thank you very much, Mr. Chairman. I 
appreciate that.
    Mr. Skeen.  We thank you, again, for taking the time. We 
appreciate it very much. Mr. Walsh.
    Mr. Walsh.  I associate myself with the remarks of the 
Chairman.
    Mrs. Emerson.  Thank you, Congressman Walsh.
    Mr. Walsh.  Thank you, Mr. Chairman.
    Mr. Skeen.  Thank you very much. Now, Congressman Hilliard. 
Welcome.
                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. EARL F. HILLIARD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ALABAMA

    Mr. Hilliard.  Good morning. Mr. Chairman and Members of 
the authorizing subcommittee, I thank you for this opportunity 
to testify before you about some programs that I'm very much 
concerned with and I very much would like to see them fully 
funded.
    These are programs that are very dear to America. They are 
very important to my Congressional district and very important 
to those people that I represent. There are many that I would 
like to talk about, but there are only three, because of time 
constraints, that I will speak of.
    The first one is the section 2501 Program. Last year, the 
President sent a budget and we passed a budget. We authorized 
it at $10 million, but only $1 million was appropriated. Of 
course, this program is very important. It provides outreach 
and technical assistance to socially disadvantaged farmers and 
ranchers.
    If we are ever to be able to have a diversified farm 
economy and to have small farmers, then we need the program 
fully funded so that it can help those persons who are in the 
category. Secondly, I'd like to urge this committee to continue 
to fully fund the Rural Development Programs.
    Now, those programs affect all Americans. They are the 
Waste Water Treatment Program, the Safe Drinking Water Program, 
Tele-Medicine, and Telecommunications. These programs are very 
much important to the rural areas of this country, not only to 
the rural areas of my district, but everywhere. And of course, 
if we are to really develop the rural areas, if we are to keep 
people there who want to live there, want to farm there, we 
need to make sure that we have tele-medicine so that they could 
be afforded the opportunity to thrive and live healthy, and at 
the same time work, in a part of our country where they are 
needed and perform a service for those of us who live in the 
rural areas.
    The third program that I would like to place a great deal 
of emphasis on is the program for those people who are unable 
to fend for themselves. This is the program popularly known as 
WIC. This is the National School Lunch Program, the Food Stamp 
Program, and the Women, Infants and Child Program.
    These programs really help the most vulnerable in our 
society. These are people that cannot fend for themselves. In 
most instances, they are not organized. They can't come here 
and lobby for themselves. But they are those that we must keep 
from falling through the cracks in our society.
    The test of any society, of any great country, is how they 
treat their young and how they treat their elderly. But also 
how they treat those who are unable to help themselves. If we 
are to retain the level of living of this country, the standard 
of living of this country, we must look out for those persons 
who cannot fend for themselves. Of course, this program helps 
those people in that category.
    I would like to thank you for considering my request. I 
would like to make sure that my remarks that have been 
submitted be made a part of the record because they are 
detailed and they set out in specification certain aspects of 
these programs that probably will be very important to you as 
you go about making your decision.
    I will be happy to answer any questions that you may have.
    [The prepared statement of Congressman Hilliard follows:]

[Pages 707 - 708--The official Committee record contains additional material here.]


    Mr. Skeen. Your full written testimony will be in the 
record, Congressman.
    Mr. Hilliard.  Thank you very much.
    Mr. Skeen.  We do appreciate your support for the programs 
that you've mentioned and highlighted because they are 
absolutely necessary for rural community development, for women 
and children, and the rest; the nutritional levels for the rest 
of the country. Those programs are very vital to us. We hope 
that we can fund them all to the fullest extent. We will do the 
best we can.
    Mr. Hilliard.  Thank you very much.
    Mr. Skeen.  Mr. Walsh.
    Mr. Walsh.  Thank you, Mr. Chairman. I agree with what the 
Chairman said. There is strong support for all of these 
programs. They are very important. We will do the best we can 
to make sure that they're fully funded. We just have very 
difficult decisions to make because we have a request for about 
$1 billion more in discretionary spending than we have money 
for right now. But some of these programs are going to be fully 
funded for sure.
    Mr. Hilliard.  I fully appreciate the circumstances that 
this subcommittee finds itself in. I just hope that you once 
again consider that these are people who have the least of 
those in our society. They are the ones who are actually in 
need of help.
    Mr. Walsh.  We understand. Thank you very much.
    Mr. Hilliard.  Thank you.
    Mr. Skeen.  Thank you, sir. Congressman Frank Lucas from 
Oklahoma. Welcome. Your entire written statement will be in the 
record.
                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. FRANK LUCAS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA

    Mr. Lucas.  Thank you. 
    Mr. Skeen.  You may go ahead and proceed any way you'd 
like.
    Mr. Lucas.  If I could also include a written statement 
from Dr. Sam Curl, the new Dean of Agriculture at Oklahoma 
State University along with mine, I'd appreciate that, sir.
    Mr. Skeen.  Certainly.
    Mr. Lucas.  I realize, Mr. Chairman and subcommittee that 
you have a very, rigorous hearing schedule. I will attempt to 
paraphrase in the briefest of manners. As a Member of the House 
Agriculture Committee I'm truly cognizant of the budget 
constraints that you face and that we all face in the coming 
year.
    I'm also aware of the importance of cost effective 
agriculture research and the future that it helps provide for 
all of agriculture in the great State of Oklahoma and all 
across this nation.
    That's why I'm here today, is to visit you with regard for, 
and very respectfully ask, that you consider the potential of 
supporting the federal appropriations for a couple of key 
research projects in the State of Oklahoma and at the Oklahoma 
State University.
    One of the most rapidly growing industries in Oklahoma 
right now is the swine industry. That's why I'm in support of, 
as you will see in my written statement, efforts that animal 
waste management in semi-arid as they say agroecosystems. That 
is one of the most rapidly growing industries in Oklahoma.
    We are in tremendous need of research to develop ways to 
deal with the waste problem that's coming up in Oklahoma. 
That's one of the key points there. Along with that, Mr. 
Chairman, as always, wheat remains the bedrock of production 
agriculture in Western Oklahoma.
    Any resources that might be available to help expand the 
research that's going on at Marshall, Oklahoma which is now in 
its seventh year, it's a very diversified effort involving not 
only the science agronomy, but agriculture economic departments 
at the Oklahoma State University, would also, I think, be very 
helpful in Oklahoma and agriculture as a whole in our State.
    With that, sir, basically those are the two points that I 
wanted to stress.
    [The prepared statements of Congressman Lucas and Dr. Sam 
E. Curl follow:]

[Pages 711 - 730--The official Committee record contains additional material here.]


    Mr. Skeen. Thank you very much. You haven't had any problem 
with Karnal bunt in your wheat production?
    Mr. Lucas.  We've had some nervousness, but our State 
Department of Agriculture has moved in a very aggressive 
fashion to try and make sure----
    Mr. Skeen.  Head it off.
    Mr. Lucas.  Yes; exactly.
    Mr. Skeen.  Very good. And your research on waste is 
primarily from hog production?
    Mr. Lucas.  Yes. That's the environment, and our regulatory 
environment in Oklahoma is very favorable. We have companies 
coming in and companies being formed in Oklahoma at a rapid 
clip. These hog operations, swine operations, are showing up 
all over the State.
    In Western Oklahoma, in particular, where we have water 
resources, but there is not that much background about how to 
deal with the waste factor and the odor is one of those hot 
discussions among the neighbors.
    Mr. Skeen.  I'm sure that's probably the case.
    Mr. Walsh.  Especially when it's hot.
    Mr. Lucas.  Oh, yes, and the wind does blow in Oklahoma 
most of the year round.
    Mr. Walsh.  Thank you. Thank you, Mr. Chairman.
    Mr. Lucas.  Thank you.
    Mr. Skeen.  I appreciate your effort. Ray LaHood from 
Illinois. Congressman, welcome.

                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. RAY LaHOOD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS

    Mr. LaHood.  Thank you, Mr. Chairman. I will be brief. I 
have a full statement and I know you will make it a part of the 
record. 
    Mr. Skeen.  It's a part of the record.
    Mr. LaHood.  I appreciate that.
    Mr. Skeen.  We appreciate your being here and abstracting 
it.
    Mr. LaHood.  Thank you. I want to thank you for allowing me 
to testify. I wanted to bring you up-to-date a little bit on 
one of the premiere ARS facilities in the country in Peoria, 
what we refer to commonly as the Peoria Agriculture Lab. The 
lab that's the largest of the four ARS utilization centers and 
the designated lead USDA Technology Transfer Facilities 
dedicated to the commercialization of research and technology.
    The Peoria Lab is a shining example of what government can 
do to provide a growing world with a safe and ample supply of 
food at a reasonable cost to the taxpayer. Throughout the 
years, my predecessor, former Congressman Bob Michael and 
Republic Leader, was instrumental in forwarding the growth of 
the lab with the Federal Technology Transfer Act.
    The act enhanced the lab's ability to commercialize new 
technology which lead to new uses and markets for agriculture 
commodities. As a result, approximately 25 percent of all 
technologies licensed by the entire USDA came from the Peoria 
Lab.
    Additionally, Mr. Chairman, we are proud of the 
Biotechnology Research Development Corporation which you're 
well-aware of and have been very gracious enough to meet with 
those folks on a number of occasions. We've appreciated your 
interest in BRDC. It's a direct catalyst of the Peoria Lab and 
it is instrumental in bringing research conclusions developed 
at the lab.
    Over the last fiscal year the lab filled 17 new patent 
applications on new inventions. One invention is in the process 
of being licensed for market, a remarkable achievement. Sales 
interests already exist from numerous food companies. The lab 
continues to develop new technologies for other government 
agencies, including FDA, FSIS, EPA, and CDC.
    Unfortunately, the Clinton Administration is proposing to 
cut some ongoing research and personnel at the lab. I hope you 
will look closely at whatever you can to restore the projects 
that have been on the block to be eliminated and the positions. 
I know you will look carefully at this and the future of 
agriculture research is dependent to a large extent on our 
ability to develop non-food uses of agriculture products.
    The Peoria Lab is the focal point of such research, and it 
should be fully staffed and funded to meet these demands. I 
appreciate again the chance to appear personally, to offer my 
testimony, and whatever interest you will have in the lab will 
be greatly appreciated.
    [The prepared statement of Congressman LaHood follows:]

[Pages 733 - 736--The official Committee record contains additional material here.]


    Mr. Skeen. Thank you very much. We have a very avid 
interest in all of the research facilities and the activities 
that go on there because they're not duplicative. In their own 
right, they are most important, and that's the reason why 2 
percent of our population is feeding us and could potentially 
feed almost the entire world.
    Mr. LaHood.  Amen.
    Mr. Skeen.  We appreciate it. Thank you.
    Mr. LaHood.  Thank you.
    Mr. Skeen.  Mr. Walsh.
    Mr. Walsh.  Nothing to add, Mr. Chairman. Thank you.
    Mr. Skeen.  Thank you. Could we have now the Honorable 
Richard Doc Hastings from Washington State. Welcome, Doc.

                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. RICHARD DOC HASTINGS, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman.
    Mr. Skeen.  Your entire written testimony will be in the 
record.
    Mr. Hastings.  Mr. Chairman, I'm wondering if I could make 
an addition to that?
    Mr. Skeen.  Certainly.
    Mr. Hastings.  Good. Thank you very much. In my testimony I 
focus on the Prosser Research Station. The Prosser Research 
Station, of course, is an agriculture research station, and a 
number of the commodity groups in my State, of course, match 
those dollars.
    But what I want to suggest today is not an increase 
necessarily in funding, but rather a reallocation of the 
President's budget on how he submitted the budget to you. I am 
very much in favor of agriculture research. I don't think 
anybody would argue with that.
    But if you look at the President's budget, the biggest area 
line item that increases in research is in nutrition research. 
I'm not opposed to nutrition research. But NIH spends ten times 
as much as USDA on nutrition research and I think that's where 
the emphasis ought to be.
    In fact, in the President's budget, his increase is 
approximately $11 million over last year. I should say $10 
million over last year. In nutrition research alone, it's $11 
million. In their words, the entire increase is in an area I 
think that may be duplicative. So I would just suggest to you 
that you as a committee look at reallocating those funds to 
basic agriculture research.
    Because there is a bit of difference on that. You can't 
stop and start research. We already have another area of the 
Federal Government where we allocate those funds. So, I would 
respectively suggest to you that you look at that particular 
line item and reallocate those funds in different areas.
    Basic agriculture research, particularly in my area in 
irrigated crops, is very important. Potatoes, for example, is 
being attacked now by a new nematode, research is being done 
specifically at the Prosser on this nematode. You can't stop 
and start it under the President's request, that is to be moved 
to a different area that isn't specialized in that particular 
area.
    So, I'm just simply saying that if we keep the dollars 
there in that basic research and shift those dollars away from 
nutrition research, which to me is duplicative, I think that 
would make a great deal of sense.
    With that, I just wanted to make my comments in that very 
short specific area.
    [The prepared statement of Congressman Hastings follows:]

[Pages 739 - 740--The official Committee record contains additional material here.]


    Mr. Skeen. Where is the location of that?
    Mr. Hastings.  It's in Prosser, Washington.
    Mr. Skeen.  Prosser, Washington. Yes. We're aware of the 
fact that the Administration recommended either closing it or 
moving it.
    Mr. Hastings.  Moving some people away from there. But they 
do specific research there like I said on potatoes.
    Mr. Skeen.  On nematodes?
    Mr. Hastings.  On nematodes. That would not be available 
where they're going to shift that.
    Mr. Skeen.  We'll certainly take a very close look at it.
    Mr. Hastings.  Thank you very much.
    Mr. Skeen.  Thank you, Doc. Mr. Walsh.
    Mr. Walsh.  No questions, Mr. Chairman.
    Mr. Skeen.  Mr. Gordon from Tennessee. We've been looking 
for you. You're right on cue.

                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE

    Mr. Gordon.  Thank you, Mr. Chairman. I thought I was going 
to be on at 11:00 a.m and someone wanted to go before me. 
    Mr. Skeen.  Well, we try to run it just a little bit ahead. 
Please proceed.
    Mr. Gordon.  Following the Chairman's role of being prompt, 
I'll try to be prompt here. But first, let me thank you for the 
time before you. More importantly, I want to thank you for the 
wisdom that this subcommittee showed last year in providing an 
appropriation of $2.5 million to my alma mata of Middle 
Tennessee State University where my father was also an 
agriculture graduate for an equine education, public service, 
and research center.
    Really the excitement that you helped create there has 
generated a lot of activity. One of the things that has been 
generated is that through private contributions, we were able 
to setup a chair of excellence in equine reproductive 
physiology. We've also been able to generate additional private 
funds to add onto the lab that you were kind enough to help us 
put together, for reproductive research.
    That's the reason that I'm coming before you today is to 
ask that we are able to expand this research facility to the 
reproductive area. We have the private funds committed to do 
our share. We've already put together this special chair of 
excellence, and I think that it's an appropriate time to do 
this because we're in the engineering design stage right now.
    While we're doing that it's going to be much more 
economical to make this expansion than to have to come back at 
a later time. The funds as I say are together on the local 
level. We have checked with the committee, as well as the 
Department of Agriculture concerning the facilities report.
    This does fall within the Favorable Facilities Report of 
1995. I would suggest this is not a new project, but rather an 
extension of your wisdom in creating one last year. I hope that 
you can help us to expand this for this important purpose in 
the equine industry.
    [The prepared statement of Congressman Gordon follows:]

[Pages 743 - 747--The official Committee record contains additional material here.]


    Mr. Skeen. We thank you for the interest. We thank you for 
the compliments that you paid to us. We appreciate that because 
a lot of times we'd rather have that than what is sometimes 
sent our way after the allocations are made.
    Speaking of the Equine Center, I think it probably should 
be noted that it is probably a premier institution because I 
don't think there is any duplication almost anywhere in the 
United States today. Horse breeding I think is a very large 
practice amongst a lot of these States, particularly in our 
part of the country for racing, for working, and the rest.
    I think you've certainly filled a gap that was a big void 
that was absolutely essential in doing these kinds of studies. 
An equine business is a very important part of our animal 
reproduction in the United States. Congratulations on that.
    Mr. Gordon.  Thank you for helping us. In our part of the 
country, unlike out West, or in the mid-West where you get on 
the tractor and you just sort of drive for a mile and you turn 
around, we have smaller farms. That's the reason tobacco and 
sort of labor crops have been so important.
    As we move away from those, the horse industry gets even 
more important because you can use those smaller parcels of 
land. The breeding is important. It's just important to our 
area of the country. I hope that some of the research can be 
taken out to those big ranches and farms out your way too.
    Mr. Skeen.  Well, we were in the quarter horse racing 
business, but we got out of it real quickly because they were 
too slow for that and just about right for roping. So, we've 
maintained that attitude. We had the same experiences. When you 
look down there in front of you and there is no head on that 
horse all of a sudden because he is looking up, you know that 
you're in deep trouble. Thank you very much.
    Mr. Gordon.  Thank you, sir.
    Mr. Skeen.  We appreciate your being here.
    We'll recess here for a short period.
    [Recess.]
    Mr. Skeen.  Mr. Meehan. Welcome, sir. Sorry to grab you 
right off.
                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. MARTIN MEEHAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS

    Mr. Meehan.  Thank you for giving me this opportunity, Mr. 
Chairman. Chairman Skeen and Members of the subcommittee, I 
have submitted written testimony to the committee. I do 
appreciate this opportunity to testify in support of the FDA's 
budget request in connection with the agency's final tobacco 
regulations.
    As co-Chairman of the Congressional Task Force on Tobacco 
and Health, whose membership now consists of 73 Members of the 
House, I'm here to urge you to ensure full and adequate funding 
of the FDA's rules. At issue here is the support the FDA needs 
to implement its rules to protect young people against the 
disease of tobacco related nicotine addiction.
    The smoking epidemic poses an immediate crisis, one which 
costs this country $50 billion a year in direct medical costs. 
The FDA has responded in a measured fashion requesting a budget 
that translates into an outlay of just $85 for each of the 
annual 400,000 smoking related deaths; a worthy investment in 
my view in prevention, if ever there was one.
    The FDA's rules were carefully crafted based on more than 
700,000 public comments. They represent an historic initiative 
to improve the public health by decreasing the 400,000 
preventable deaths caused by tobacco use each year. The number 
one goal of the new rule is to reduce tobacco use by children 
and adolescents by 50 percent within seven years. Nothing could 
be more important to improving the health of our citizens than 
the prevention of nicotine addiction among our youth. Today, 
5.5 million children smoke or use smokeless tobacco in the 
United States. Most adult smokers began smoking before reaching 
the age of 18.
    Most of them attest that they are physically dependent upon 
nicotine; a phenomenon that we now know is a direct result of 
the tobacco companies' manipulation of the drug and their 
products. Nearly one-third of the people who smoke will die 
prematurely as a result of tobacco related illness.
    To combat this trend, the first part of the rule sets a 
national minimum age of 18 for the purchase of tobacco 
products, and requires that tobacco sellers be shown a valid ID 
by anyone under the age of 27. Most kids who smoke are sold 
cigarettes by adult sales clerks.
    The FDA rules provide the tools to right this ongoing 
wrong. The FDA's budget request also includes $34 million for 
the cost of implementing the new rules, primarily through 
outreach and enforcement activities. More than half of the 
funds to be provided to State and local officials under 
contracts that are setup for enforcement. In this sense, the 
FDA's regulations are a funded mandate.
    I believe it would be penny-wise and pound-foolish for the 
Congress not to grant the President's budget request for FDA's 
new tobacco rules. Most Americans support the FDA's action to 
protect kids against tobacco. Each day 3,000 children smoke 
their first cigarette. Many of them will become addicted before 
they're old enough to make a mature, well-informed decision 
about whether to use the leading preventable killer in our 
society.
    Mr. Chairman, I believe we must slow this trend and 
hopefully reverse it. If we are to succeed, the FDA must be 
granted the basic funding request to fully implement its new 
rules. I think our children deserve it.
    Thank you, Mr. Chairman for this opportunity to speak 
before the committee.
    [The prepared statement of Congressman Meehan follows:]

[Pages 750 - 753--The official Committee record contains additional material here.]


    Mr. Skeen. Well, thank you, Mr. Meehan. This is going to be 
a very controversial topic and subject. We're going to have to 
deal with it with some intelligence and discernment. We 
certainly appreciate your input.
    Mr. Meehan.  I appreciate the opportunity to appear before 
the committee.
    Mr. Skeen.  Thank you, sir.
    Mr. Meehan.  Thanks, Mr. Chairman.
    Mr. Skeen.  Mr. Walsh.
    Mr. Walsh.  Mr. Chairman, yes. I have a couple of questions 
I'd like to ask Mr. Meehan. The reason that you feel that the 
FDA should be regulating tobacco is because of the nicotine in 
the tobacco which you consider to be a drug. Is that correct?
    Mr. Meehan.  Well, no. That's part of the reason. I mean, 
basically the reason is because we have 3,000 kids a day who 
experiment with the product; 1,000 of them become addicted. The 
tobacco companies have literally spent millions of dollars 
advertising the product to children.
    I think that we, as a government, ought to do everything we 
can to try to protect children from becoming addicted. Now, a 
part of that is that I believe nicotine is in fact an addictive 
drug.
    Mr. Walsh.  Right.
    Mr. Meehan.  That is the basis upon which the FDA ought to 
be able to regulate it in this fashion.
    Mr. Walsh.  So, should the FDA be regulating all drugs? Is 
that the point?
    Mr. Meehan.  Well, the FDA in this instance would be 
regulating tobacco because of the nicotine and the fact that 
the product is a drug in this particular instance. I think it's 
a balancing test, given the fact that 400,000 people die a year 
as a result of the product than the weight of the evidence 
would come down in favor in this case of the FDA regulating it 
on the basis of the fact that nicotine is an addictive 
substance.
    Mr. Walsh.  How about alcohol?
    Mr. Meehan.  There is certainly more regulation of alcohol 
in this country than there are tobacco products.
    Mr. Walsh.  Should the FDA regulate the content of alcohol 
and alcohol beverages, do you think?
    Mr. Meehan.  I think at this point the regulation of 
alcohol is adequate in the sense that certainly there are many, 
many more safeguards and regulations taken seriously by society 
about having young people drink alcohol. Now, there are going 
to be controversial hearings and a controversial issue before 
this Congress on the advertising of alcohol.
    I draw the line at least with regard to nicotine in the 
sense that tobacco is the only product if you use it 
specifically as intended will kill you, which I think 
distinguishes it from alcohol. But clearly, there will be 
hearings and this will be a controversial issue with regard to 
that.
    Mr. Walsh.  There are some parallels obviously.
    Mr. Meehan.  There are.
    Mr. Walsh.  Alcohol kills an awful lot of people too.
    Mr. Meehan.  Right.
    Mr. Walsh.  My other question is, other than this proposal 
for funding, I mean we hear all of the time about the Federal 
Government's subsidy of tobacco. There really isn't any except 
for, as I understand it anyway, crop insurance.
    Farmers of all sizes, regardless of the crops that they 
grow, get some support, some subsidy from the government, 
whether you're a wheat farmer, a grape grower, a tomato farmer, 
potato farmer, or a tobacco farmer.
    Is it your position, and you may not want to comment on 
this because it is different basically than what your testimony 
is. Is it your position that the Federal Government should not 
provide crop insurance subsidy or specifically for tobacco 
farmers as opposed to potato or tomato farmers?
    Mr. Meehan.  Again, I view this as totally a separate 
issue. But my personal position is that the Federal Government 
shouldn't provide a subsidy, but rather I think the Federal 
Government needs to undertake or begin the process of 
undertaking a plan that would help farmers find other crops. I 
do think we're going to have to make an attempt to assist 
tobacco farmers in this country in the event that tobacco use 
goes down. I think we have a strategy to try to do that. I 
think there is going to be a need for subsidies and assistance 
to tobacco growers, but I'm not sure that they should be in the 
growing of tobacco.
    Mr. Walsh.  Our dilemma is that in many cases these are 
very small farmers with no other options. I mean they can grow 
other crops and they do, but if they do grow other crops, then 
if we remove the crop insurance subsidy, they have to reapply 
and go through the paperwork if they go from corn to beans to 
tobacco.
    Sometimes it's a dilemma. But we're trying to help American 
agriculture here. We're not trying to support the tobacco 
industry, nor are we trying to support the cereal industry by 
helping farmers with crop insurance on wheat. It's a difficult 
dilemma.
    Mr. Meehan.  It is a dilemma. You know, it's interesting in 
my district, obviously I don't have tobacco farmers in 
Massachusetts, but I do have defense contractors. With the cuts 
in procurement over the last decade or so, it has been 
devastating to workers all over Massachusetts, particularly in 
my district where Raytheon is located. It seems to me, and it 
is a difficult question, but the issue is how to get these 
workers, in this case how to get the farmers, so that they can 
raise their families and make a decent living and make that 
transformation. I think that's a challenge as we go down the 
road that we're going to face.
    Mr. Walsh.  Thank you.
    Mr. Meehan.  Thank you.
    Mr. Skeen.  Thank you very much. I think in courtesy to Mr. 
Riggs who was a part of your panel, we'd like to give him a 
little exposure. That's a beautiful tie you have on. We'll 
trade you the tie for the testimony.
    Mr. Riggs.  Well, if you guessed it's a Rush Limbaugh tie 
you'd be right.
    Mr. Skeen.  Please proceed.

                              ---------

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. FRANK RIGGS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Riggs.  Mr. Chairman, it's good to be back in front of 
you. 
    Mr. Skeen.  It's good to have you here again.
    Mr. Riggs.  Well, I feel like I'm at home. This is actually 
the first opportunity I've had to testify before the 
subcommittee. Unfortunately, our colleagues aren't present, but 
I want you to know how much I enjoyed serving on the committee 
in the last Congress, especially under your Chairmanship and 
your leadership.
    Mr. Skeen.  You've been very kind. We appreciate it. We 
miss your great incisive look-see into the agricultural 
picture. We appreciate having you here this morning. We will 
have your entire written testimony in the record.
    Mr. Riggs.  Thank you, Mr. Chairman.
    I guess it's appropriate to perhaps pick-up where Mr. 
Meehan left off because I join him and Jim Hansen, the co-
Chairs of the Task Force on Tobacco to speak in support of the 
FDA's budget request for the 1998 fiscal year of $34 million 
for implementing its final tobacco regulations.
    These, of course, are the regulations that are designed to 
restrict access to tobacco products on the part of minors or 
teenagers under the legal age of 18. I think you may recall in 
the two years that I served on this subcommittee under your 
Chairmanship and I was active in this fight. In fact, I think I 
frequently raised the issue with Mr. Sanders and other members 
of the staff.
    I'm sure you know that tobacco is the single most 
preventable cause of death and disease in the United States 
responsible for one out of every five deaths nationwide. The 
estimate is that 420,000 Americans will die this year from 
tobacco use. One of every three long-term users of tobacco 
eventually will die from a disease related to their tobacco 
use.
    Almost half of all regular cigarette smokers will 
eventually be, for all intents and purposes, killed by their 
habit or their addiction. These are very avoidable deaths. 
Former FDA Commissioner Dave Kessler, who really sort of 
spearheaded this fight is correct to call tobacco a pediatric 
disease because each year 3,000 children, and they are our 
children, will start smoking tobacco.
    It is simply not right for this government to sit idly by 
while our children are bombarded by advertisements and 
promotions that target the young people of America. Every day, 
children are exposed to commercials and advertisements that are 
very sophisticated in nature, and are really more designed for 
a mature audience.
    Children are particularly susceptible to peer pressure and 
to the influence of slick public relations campaigns. In my 
view, it is really a disgrace that we have somehow glamorized 
tobacco smoking. That combination produces deadly consequences. 
I believe as a result, our government has a moral obligation to 
education and protect our children from influences that could 
jeopardize their health and well-being.
    As I mentioned, it is absolutely irrefutable that tobacco 
kills when children start smoking. It's really only a matter of 
time before they become addicted and suffer the consequences of 
tobacco related illnesses. Anyone who says otherwise I think is 
sort of kidding themselves.
    The FDA regulations on cigarettes and smokeless tobacco 
products is a good investment in our children and in the future 
of our country. The goal of the program is to reduce the 
availability and the appeal of tobacco products to children and 
teenagers and to educate young people about the very real 
health risk of tobacco use.
    As you know, the regulations are not an attempt, are not an 
attempt, I repeat, to curb access by adults to tobacco products 
or to infringe on the First Amendment rights of any American. 
They are common sense measures to address a severe public 
health crisis.
    This is a commitment to our children and our future. I ask 
that as you begin to draft the subcommittee mark for fiscal 
year 1998 that you include full funding for implementation of 
the FDA's final tobacco regulations.
    Again, I appreciate this opportunity to testify before you 
today, Mr. Chairman.
    [The prepared statement of Congressman Riggs follows:]

[Pages 758 - 762--The official Committee record contains additional material here.]


    Mr. Skeen. We appreciate the testimony. We also appreciate 
the terrible problem we're going to go through here in dealing 
with this thing, but that's what we're here for. We certainly 
do appreciate your input and the work that you do on behalf of 
this effort. I'm sure it's one of dedication. We appreciate you 
being here. We do miss you on this subcommittee. I'm glad to 
have you back.
    Mr. Riggs.  Thank you, Mr. Chairman.
    Mr. Skeen.  We will go off the record for a little short 
recess here until we get our last two Members.
    [Recess.]
    Mr. Skeen.  Ms. Hooley is here. The seat is ready for you.

                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON

    Ms. Hooley.  Thank you very much.
    Mr. Skeen.  What part of Oregon are you from?
    Ms. Hooley.  Mr. Chairman, I represent the Fifth District 
which includes Corvallis. It's just south of Portland and North 
of Eugene.
    Mr. Skeen.  I know exactly where it is. I started high 
school in Portland.
    Ms. Hooley.  Oh, is that right?
    Mr. Skeen.  Yes.
    Ms. Hooley.  Where about in Portland?
    Mr. Skeen.  Central Catholic.
    Ms. Hooley.  Oh, yes; know it well.
    Mr. Skeen.  I played on their first football team.
    Ms. Hooley. Is that right?
    Mr. Skeen.  Yes. We didn't do much.
    Ms. Hooley.  I was going to say, did you have a winning 
season?
    Mr. Skeen.  No. We didn't. We were pretty green, but I 
loved Oregon.
    Ms. Hooley.  It's a great State.
    Mr. Skeen.  It's a beautiful, beautiful State. I've always 
enjoyed the signs too because new comers there always had a 
terrible time with pronouncing the name of Willamette.
    Ms. Hooley.  Yes.
    Mr. Skeen.  And there used to be a sign that said 
Willamette, damn it.
    Ms. Hooley.  Yes. That's it. I told my staff that's not 
from Oregon. I said there are three things you need to know. 
You need to know how to pronounce Oregon, Willamette, and you 
need to know that we grow filberts there.
    Mr. Skeen.  That's exactly right. Welcome. We're glad to 
have you here. You may proceed. Your entire written testimony, 
will be in the record.
    Ms. Hooley.  Okay.
    Mr. Skeen.  So, you may proceed.
    Ms. Hooley.  Thank you, Mr. Chairman. I will try to be very 
brief.
    Mr. Skeen.  We appreciate that too.
    Ms. Hooley.  I am from the Willamette Valley which has 
probably the most fertile soils in the United States, as well 
as the most diversity in its crops. About 95 percent of the 
farmers in our district are small family farmers. My district 
includes one of the most prestigious agricultural and eduction 
and research institutions and that's Oregon State University.
    It has a network of agriculture experiment and extension 
stations and is an international leader in advancing 
agricultural industries through the discovery and application 
of new technology. Much of what's happened in Oregon State with 
its ground breaking research could not have been done without 
the help of you and this subcommittee. Thank you very much for 
your help in the past. I would ask for your continued support 
for Oregon State University's research projects in fiscal year 
1998.
    I have a full written statement that you have, and I'm just 
going to summarize the three projects that we're asking for.
    Mr. Skeen.  Very good.
    Ms. Hooley.  First of all, we would like to have $350,000 
from the Agricultural Research Service and $250,000 from the 
Cooperative State Research Education and Extension Services to 
fund the Pacific Northwest Center for Small Fruit Research 
Program.
    They've received federal funding since 1990. This is a 
national model. It's a cooperative between the growers, the 
researchers, three States and the Federal Government. Just to 
put it in perspective, Oregon, for example is leading in 
raspberry producers, Washington State, is second in grape 
growing.
    The Center focuses on the use of pesticides, genetic 
research, production practices and so forth. It's received 
acclaim because of its cooperative nature. It works with three 
States, again, as I've said in the Federal Government.
    The second project I respectfully request $1.5 million in 
Agricultural Research Service funding for the establishment of 
a Nursery Crops Research Center located in Oregon State. 
Although it would be located in Oregon, it would really be the 
center for the nation for both research and a meeting place. It 
would be located at Oregon State which really is the heart of 
the Northwest nursery industry.
    Again, we would work with the University of Idaho and 
Washington State University. It is really critical that we 
began to do a lot more research on our nursery crops. Finally, 
I'm requesting $275,000 from the Cooperative State Research, 
Education and Extension Services for the recovery of bioactive 
components from seafood waste programs.
    This program is not in my district, but I have a lot of the 
Oregon Coast and a lot of seafood producers. What this program 
would try to do is look at how we use the waste from seafood. 
Currently, we're using about 30 to 40 percent of the materials 
from seafood for production and we're throwing away 60 to 70 
percent.
    That's an incredible amount of waste. There is a lot of 
nutrition in that part that we throw away. We need to have a 
program going on what we can do with this waste material, and 
how we can use that for production.
    I think funding the program like the Seafood Waste 
Utilization Program can ensure that our agricultural industries 
in Oregon and across the country continue to lead the world in 
innovative ways to reduce waste, save money, and help feed our 
nation.
    Thank you for consideration of these three programs. They 
are very important to the agricultural community not only in 
Oregon, but I think as well around the nation.
    [The prepared statement of Congresswoman Hooley follows:]

[Pages 766 - 770--The official Committee record contains additional material here.]


    Mr. Skeen. Well, we thank you for your support and 
sponsorship of this part of the Agricultural Research System. 
Everyone says, well, why do we have so many Agricultural 
Research Stations? Because we produce so many different 
varieties of agricultural products throughout the entire United 
States, as big a country as we are.
    But then, once again, only 2 percent of our population is 
providing enough food to feed us and almost the rest of the 
world because of the research that we've done.
    Ms. Hooley.  It's the research that we've done that really 
has enabled us to stay as the leader, and I think the other 
thing people forget is the climate and the growing conditions 
are so different. I mean, what we do to grow blueberries is 
very different than what they do in Pennsylvania or what they 
do in another State. So, our growing conditions are very 
different.
    Mr. Skeen.  The byproduct, the waste, the utilization of 
the waste from your seafood industry interests me very much 
because once again, someone says well, it's just a matter of 
disposal. It's the utilization of something that has unique 
ingredients and could be useful in some process.
    Ms. Hooley.  Well, think about all of the----
    Mr. Skeen.  Sixty percent.
    Ms. Hooley. Sixty to 70 percent is thrown away, and you 
think of all of the nutritional value in seafood.
    Mr. Skeen.  Fertilization, as fertilizers.
    Ms. Hooley.  I think they can make some other products out 
of it.
    Mr. Skeen.  Edible products.
    Ms. Hooley.  Yes; edible products.
    Mr. Skeen.  That's interesting. Thank you very much for 
your testimony.
    Ms. Hooley.  You are more than welcome. Thank you for your 
time. I appreciate it.
    Mr. Skeen.  We're delighted working with you. You are 
welcome back any time. Whether we have money or don't.
    Ms. Hooley.  Okay. Thank you.
    Mr. Skeen.  Mr. Pomeroy.

                              ----------                              

                                         Wednesday, March 19, 1997.

                                WITNESS

HON. EARL POMEROY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    DAKOTA

    Mr. Pomeroy.  Hello, Mr. Chairman. 
    Mr. Skeen.  Good to see you again.
    Mr. Pomeroy.  Good to be here.
    Mr. Skeen.  Proceed any way you'd like. Your entire written 
statement will be placed in the record.
    Mr. Pomeroy.  Mr. Chairman, North Dakota has many issues 
before your subcommittee. But I'm going to involve my time this 
morning to talk just about one issue in particular.
    Mr. Skeen.  We appreciate that.
    Mr. Pomeroy.  The funding of the Northern Great Plains 
Research Laboratory in Mandan, North Dakota. The 
Administration's fiscal year 1998 budget request recommends 
closure of the Mandan Research Lab. I believe that would be a 
serious mistake for several reasons, including it would preempt 
the agriculture research facility review process established by 
the 1996 Farm Bill.
    It would halt the progress that's been made to develop 
environmentally sustainable cropping systems on the Upper Great 
Plains, and it would reduce the profitability of farming on the 
Upper Great Plains just one year after Congress eliminated the 
government's safety net for family farmers.
    For these reasons I ask you to reject the Administration's 
recommendation and provide the $2.8 million necessary to fund 
the Northern Great Plains Research Lab in fiscal year 1998. To 
provide some detail on those points. As you know, the last farm 
bill does provide for a base closure like review of all of the 
agricultural research facilities in this country.
    I find it very surprising and disappointing that the U.S. 
Department of Agriculture would recommend closure of the Mandan 
facility prior to this comprehensive review where the assets of 
the Mandan Station are evaluated competitively to the other 
stations under review.
    It reminds me something like closing the Holloman Air Force 
Base in New Mexico before the start of a base closure round. It 
just wouldn't be fair. It wouldn't be equitable. It's not the 
way to do it.
    Aside from the glaring unfairness of recommending the 
closure outside of the so-called base closure round for the 
Agricultural Research facilities the closure recommendation 
makes no notice of the fact that the U.S. Department of 
Agriculture has just spent $1.5 million in further improvement 
at the facility.
    I also believe they paid very little heed to the unique 
contributions of the Mandan Agricultural Research Station over 
the last several years, particularly in the development of 
minimum and no-tillage cropping systems for the Northern Great 
Plains. We're not just talking about a North Dakota facility 
here. The contributions from this station have benefitted the 
agriculture from Eastern Washington all the way down to Kansas. 
No-till and minimum till systems have helped control soil 
erosion and improve water quality by increasing the efficiency 
of water use and reducing the leaching potential of fertilizers 
and agriculture chemicals.
    The lab's research on the beneficial effects of no-till 
farming on wind erosion have lead to the development of an ARS 
Wind Erosion Prediction Model that is used today by farmers 
across the country. In recognition of their contribution for 
improving the environment, Ducks Unlimited and the National 
Audubon Society have expressed their strong opposition to 
closing the facility.
    In addition to the proven track record of success, the 
Mandan Lab is also looking to the future to discover new 
environmentally responsible farming practices. An area of 
particular interest to policy makers that is currently being 
evaluated by the lab is the development of new methods.
    Techniques for converting CRP land to crop production while 
preserving the soil and environmental quality are benefits 
derived from the ten-year CRP Program. We are going to be 
having thousands and thousands of acres coming out of the CRP 
Program in the highly, wind erodible types of conditions that 
are targeted by the Mandan Research Facility with their 
research.
    It is precisely the wrong time to attempt to close a 
facility that's helping producers learn how to bring land out 
of CRP and back into production. It is the critical time for 
the research that they are providing.
    Finally, the Mandan research lab plays a critical role in 
enhancing the profitability of farming across the Upper Great 
Plains, particularly in light of the passage of the 1996 farm 
law repealing the 60 year old system of agricultural price 
supports.
    We are going to have to find ways to make farming more 
profitable, now that it is even more dependent upon the free 
market and less dependent upon government price supports. This 
is an area where the Mandan Research Facility has made distinct 
contributions in the past, and its role in the future as I 
mentioned is even more critical.
    One of their notable contributions has been the leading 
role they have played in helping farmers change from a crop-
fallow system of farming to a continuous cropping system of 
farming. This conversion not only improved environmental 
conditions on the Great Plains and reduced wind erosion, it 
increased farm income in North Dakota alone by $16 million to 
$29 million per year.
    Likewise, a system of dry land crop rotations developed by 
the lab using alternative crops has proven to be 40 percent 
more profitable than the continuous planting of wheat. 
Importantly, the rotations being developed will reduce the 
incidents of disease and provide for safer raw food product.
    Mr. Chairman, in the interest of fairness and recognition 
of the Mandan ARS Lab's substantial contribution to protecting 
the environment and enhancing farmer productivity. I urge this 
subcommittee to fund the $2.8 million required for the fiscal 
year 1998 operation of this station.
    Let it be reviewed with every other Agricultural Research 
Station during the comprehensive review as authorized by the 
Farm Bill.
    That concludes my presentation. I'd be happy to answer any 
questions you might have.
    [The prepared statement of Congressman Pomeroy follows:]

[Pages 774 - 775--The official Committee record contains additional material here.]


    Mr. Skeen. Thank you very much, Congressman. I think we 
funded it in our last appropriation bill. Is that not correct; 
the Mandan?
    Mr. Pomeroy.  Correct. Yes. It's always been a part of the 
USDA budget. We didn't have any notice whatsoever prior to the 
publication.
    Mr. Skeen.  There was no consultation with you at all?
    Mr. Pomeroy.  No.
    Mr. Skeen.  This came out of the Administration.
    Mr. Pomeroy.  It came out of the blue out of the 
Administration.
    Mr. Skeen.  Well, you've been a very strong supporter of 
agriculture and agricultural research, and as I recall, I think 
you've probably had as many or more requests the last time than 
probably any other Member because it's so vital to you in your 
area.
    What was the rationale? What is your most prominent 
agricultural product; wheat?
    Mr. Pomeroy.  Wheat and barley, Mr. Chairman.
    Mr. Skeen.  Wheat and barley.
    Mr. Pomeroy.  Absolutely; wheat number one.
    Mr. Skeen.  Does Mandan play a part in that?
    Mr. Pomeroy.  It most certainly does. The Mandan Research 
Facility, in particular, is geared at productive farming, both 
crop and ranching, in areas where the moisturebegins to be 
reduced. So the farming a little more on the economic margin. Now, 
that's the situation in terms of Western North Dakota, also Montana, 
all the way out to Eastern Washington along the Northern tier, and as 
you know, all the way down South into Southern Kansas.
    So the research of this facility helps farmers that are the 
most economically on the edge in light of the challenging 
growing conditions that they're trying to operate in.
    Mr. Skeen.  Well, I'm a little surprised that the 
Administration made that recommendation.
    Mr. Pomeroy.  I think it is a ridiculous recommendation. I 
believe the U.S. Department of Agriculture blew it on this one. 
I don't think it was fair in terms of process. There is a 
process to review all of these facilities next year. Why single 
one out for closure this year?
    Second, it was flawed in terms of substance. The 
contributions of this facility are very important, for example, 
the acreage now bring brought out of the CRP Program. Farmers 
need to know how to bring it back into production in the 
optimal way possible without sacrificing the environmental 
benefits gained while it was in CRP. This station is unique in 
the country in their ability to help in that respect.
    Third, to recommend closure of this station when farmers in 
the semi-arid regions of the country dealing with the 
challenging circumstances of having a profitable farming 
operation are going to have a tougher go than ever before in 
light of the changes made to the Farm Bill. They need more 
help, not less.
    Mr. Skeen.  I agree.
    Mr. Pomeroy.  I think they really made a mistake this time.
    Mr. Skeen.  I agree with you. It's very difficult to make a 
profit because of margins and so forth, particularly in large 
cropping situations like wheat and some other grains. You're 
open to every kind of disaster situation and so forth.
    Mr. Pomeroy.  We seem to be experiencing our full share of 
disasters lately in North Dakota.
    Mr. Skeen.  Well, we've tried to support you. Now this is 
not a point of criticism, but we noticed that you didn't vote 
for the Agriculture Appropriation Bill last time. Was it 
because we had left something out?
    Mr. Pomeroy.  Yes, sir.
    Mr. Skeen.  What was the problem.
    Mr. Pomeroy.  You recall the Sugar Program is routinely 
attacked in the appropriations process.
    Mr. Skeen.  Yes. We have quite a tussle.
    Mr. Pomeroy.  It was a difficulty with some language 
relative to the Sugar Program that lead me to vote against it.
    Mr. Skeen.  Well, I appreciate that. Once again, that was 
no point of criticism.
    Mr. Pomeroy.  It's a fair point. I mean, agriculture, as a 
component of the state's economy, is a bigger deal in North 
Dakota than any of the other 50 States. So, when I'm in here 
looking for what I consider to be appropriate federal support 
for the tremendous agriculture taking place in North Dakota, it 
is my responsibility to support you, Mr. Chairman, in your 
efforts to make sure agriculture is fairly treated.
    I do that as a matter of course. Sometimes as you know, in 
an appropriations bill things get in that can cause particular 
heartburn to important commodities.
    Mr. Skeen.  Well, you have a large sugar beet industry.
    Mr. Pomeroy.  A very significant sugar beet industry in the 
Eastern part of the State.
    Mr. Skeen.  Sure. And--process as well?
    Mr. Pomeroy.  Yes. In fact, there are three major 
processing plants in the Red River Valley. We estimate at least 
30,000 are employed in the sugar beet industry in North Dakota 
with many, many millions of dollars of input to our economy.
    Mr. Skeen.  Well, we like to support the research efforts, 
because everything is so vital. I mean that's why I asked you 
this question.
    Mr. Pomeroy.  I think it's a fair question, Mr. Chairman.
    Mr. Skeen.  I want to get some idea, some scale on what 
goes on with these things because once in awhile you don't get 
a chance to visit with a Member about whether there is 
something wrong or what the situation was that caused a 
negative approach to the thing. So, I appreciate your candor.
    Mr. Pomeroy.  Mr. Chairman, I want to cite you in 
particular for having been a friend of production agriculture. 
I think your record is a clear, consistent, and highly 
distinguished one in that regard.
    Mr. Skeen.  Well, we appreciate that. It parallels yours. 
You certainly have been a great proponent of agriculture 
research and a supporter. We appreciate that too.
    Mr. Pomeroy.  Thank you, Mr. Chairman.
    Mr. Skeen.  Thank you for your testimony and thank you for 
being here. We have no further people on our list today so we 
will stand adjourned.

                              --------

                                          Thursday, March 20, 1997.

                               WITNESSES

HON. WES WATKINS, UNITED STATES CONGRESSMAN FROM THE STATE OF OKLAHOMA
DR. JOE TARON, DDS, POTTAWATOMIE DEVELOPMENT AUTHORITY

    Mr. Skeen.  The subcommittee will come to order.
    I apologize for being a little bit late. Let's start with 
Wes Watkins this morning from Oklahoma.
    Mr. Watkins.  Mr. Chairman, members of staff and all, I'm 
honored again to be in front of you and to be here on the 
committee I used to serve on. It was always one of the 
highlights of my previous 14 years.
    Mr. Skeen.  We're glad to have you back.
    Mr. Watkins.  Thank you, sir. I have the honor of 
introducing a dear friend; a friend who gets up early, stays 
late, and catches the Red Eye special that came in here last 
night and flew into Baltimore so he could save a few dollars 
and then catch a train down. He is a dentist by profession, a 
community leader.
    I knew him a long time and when I got his county in my 
district from redistricting, I noticed a paper where Dr. Joe 
Taron was working to try to solve the water problems in his 
county and spending untold hours doing so. He has been the 
Chairman of the Pottawatomie Development Authority.
    I called him personally and I said, you know, I have an 
interest in trying to help. I would like to meet with you 
whenever we can. Well, that was in the early 1980s. We've 
worked together night and day on the North Deer Creek Watershed 
and the impound area. That has come to pass.
    What has happened though is the local people have bonded; 
they have raised their money. They kept their word on the 
amount of dollars they would put up. The people have raised 
even their water rates and everything in order to meet their 
commitment.
    But on a federal level, we haven't kept our commitment of 
$750,000 in order to finish up some of the activities in and 
around the lake. The lake has been built, water is being 
impounded, and things are all in front, but the people cannot 
hold any more bonding. They've done everything they can.
    Mr. Chairman, with those comments, I would like to 
introduce to you one of the probably most dedicated civic 
workers who gives probably more hours to his fellow human 
beings than any person I know of, Dr. Joe Taron, for his 
comments if that's okay with you.
    [The prepared statement of Congressman Watkins follows:]

[Pages 781 - 783--The official Committee record contains additional material here.]


    Mr. Skeen.  You are welcome. Go ahead. You may proceed. 
Your full written testimony will be included in the record. If 
you will abstract it or summarize it we would appreciate it, 
sir. We appreciate your service.
    Dr. Taron.  Mr. Chairman, I want you to understand that I 
appreciate your allowing us to come here on behalf of the North 
Deer Creek Watershed Site 1M Program.
    When this first started we were working through the Natural 
Resource Conservation Service. They gave us a menu to pick 
from. They said if you'll go with no recreation we'll 
participate at a certain level. If you go with half recreation, 
we'll go at a different level of participation. But if you go 
with full recreation, we will 50/50 cost share with you.
    So, we selected that part from the menu. In 1987 the 
commitment was made then to participate at the level of 
approximately $3.2 million. The recreation funds, are the ones 
we want to talk about today because all of the other amenities 
are completed.
    The dam is finished. All of the relocation is done; utility 
relocation and everything. Based on this commitment, the 
participation of the Soil Conservation Service, we went back 
home and got the City of Shawnee and the City of Tecumseh to 
agree to purchase all of the water. On the strength of these 
take or pay contracts, we went to the bond market and sold $18 
million worth of bonds. So, the participation by the Natural 
Resource Conservation Service equated out about 18 percent of 
the total project cost. But it made it a feasible and a do-able 
project when we crunched the numbers.
    So, on this strength they agreed on a take or pay basis to 
take all of the water and pay the bills. Included in that was a 
recreational plan that they were depending on us to sell 
permits and such to generate the monies to do the operation and 
the maintenance on it.
    The life expectancy of this project is 100 years. So, they 
made a commitment for 100 years to operate and maintain this 
facility. That was a requirement of the Natural Resource 
Conservation Service that we give them an operation and 
maintenance plan. On the strength of these contracts we were 
able to sell our bonds and get the funding done.
    I think that's enough about that. In closing, I would like 
to read a quotation from the Geography of Hope, which is 
published by the Natural Resource Conservation Service. 
``Commodity for the market place are what our Nation's farms, 
ranches, and other private enterprises are about. But private 
land is about much more than this. The foundation of our farm's 
productivity is our soil, a complex, living system that, 
although largely unrecognized as important in our national 
environmental policies, is in fact the basis of all life.
    ``If we farm well, healthy soil will exist; most water that 
we use falls first on our Nation's farms and ranches. If we 
manage our soil well, water will be used efficiently. By the 
time it leaves the farm heading downstream to support our urban 
neighbors and other life, it will be clean. Healthy productive 
land does not simply happen. A good deal of thought, work, and 
conservation assistance, both technical and financial, are 
often requisite to success.''
    Of all the funds appropriated for the NRCS, 25 to 28 
percent are used to provide the oversight technical assistance 
and inspection.
    They provided all of the technical oversight. We provided 
the engineering. They provided the approval and oversight on 
that. They provided the inspections on this thing. I can't say 
enough. Though that was not a part of their appropriation to 
us, it was a part of your appropriation to them and they spent 
it on us.
    I really understand that and recognize how valuable that 
was. The Soil Conservation Act of 1935 charged the Soil 
Conservation Service to deliver conservation assistance to 
farmers, ranchers, and other private land owners.
    From the perspective of 60 years, we can see how they have 
helped. Conservation is a continuing responsibility that 
produces a continuing reward, particularly when multiple 
interests can act jointly. Thank God for your wisdom in the 
past. I pray for your wisdom now and in the future. Mr. 
Chairman, I thank you.
    [The prepared statement of Dr. Taron follows:]

[Pages 786 - 797--The official Committee record contains additional material here.]


    Mr. Skeen.  Thank you very much. I appreciate the hard work 
and the trouble you folks have gone through.
    What was the government's part as far as financing was 
concerned?
    Dr. Taron.  It was $3.2 million.
    Mr. Skeen.  It's the $3.2 million?
    Dr. Taron.  Yes, sir.
    Mr. Skeen.  Is that the total?
    Dr. Taron.  The total cost of the project was $21 million.
    Mr. Skeen.  About $21 million.
    Dr. Taron.  Yes, sir.
    Mr. Skeen.  The local communities bonded and did their part 
to put their share up.
    Dr. Taron.  Yes.
    Mr. Skeen.  One of your partners is not paying their share.
    Dr. Taron.  Yes, sir. Believe it or not, when we crunched 
our numbers, that 3.2 percent made the water affordable. 
Without it, it was not affordable for us to sell to Shawnee and 
Tecumseh as municipalities.
    Mr. Skeen.  But you are providing water for those two 
communities.
    Dr. Taron.  Yes, sir.
    Mr. Skeen.  You are bonded up to the hilt. Is this their 
drinking water system?
    Dr. Taron.  Yes, sir.
    Mr. Skeen.  Thank you very much.
    Mr. Watson.  Mr. Chairman, we thank you. I'd like to say 
that Dr. Joe Taron is not just a dentist by profession, but he 
lives out on a farming ranching operation. So, he goes deep in 
the roots and the soils of Oklahoma.
    Mr. Skeen.  Well, I appreciate that. Anybody that's 
involved in agriculture ought to have a good reliable income 
like dentistry.
    Dr. Taron.  Right. Thank you, Mr. Chairman.
    Mr. Skeen.  We thank you. Mr. Lehman. Delighted to see you. 
Welcome.
                              ----------                              

                                          Thursday, March 20, 1997.

                  SOUTH FLORIDA DAILY BREAD FOOD BANK

                               WITNESSES

HON. WILLIAM LEHMAN (RET.), UNITED STATES CONGRESSMAN
DAVID KREPCHO, EXECUTIVE DIRECTOR

    Mr. Lehman.  I'm happy to be here.
    Mr. Skeen.  Who do you have there with you?
    Mr. Lehman.  I have David Krepcho from the South Florida 
Daily Bread Food Bank. He was kind enough to meet with us a 
couple of years ago about the same problem that we're talking 
about today. We are happy to be back here before you.
    Mr. Skeen.  It is good to see you. You are well-attended.
    Mr. Lehman.  We are survivors.
    Mr. Skeen.  That's the name of the game, survival.
    Mr. Lehman.  Right. I'm on the Board of Directors of the 
South Florida Food Bank. I'd like to tell you again what the 
problem is and the best example about what's happening in Miami 
today.
    This week is the first week of two weeks of the huge Lipton 
Tennis Tournament. There are dozens of hospitality tents all 
serving food. Every day they have all kinds of prepared food 
left over. The Daily Bread Food Bank has need for this food and 
hungry people to feed. There is no way to get the food from the 
leftover hospitality tents at the Lipton Tournament to the 
people that are hungry.
    What we're trying to do is to set-up an arrangement for 
funds to buy the kinds of refrigerated vehicles to house the 
food from these institutions such as the Lipton Tennis 
tournament or the restaurants or the stadium, banquets and so 
forth, that have this leftover food and transport it to the 
Food Bank for distribution.
    Currently, the Food Bank has no way to get the food. What 
we want to do is to try to find a program in the Department of 
Agriculture that will be able to fund money for refrigerated 
trucks and other needs to salvage this prepared food that's so 
available and so needed.
    So, at this time, I will yield to David Krepcho, our 
Executive Director to better explain it. Thank you, again, Mr. 
Chairman.
    Mr. Skeen.  Thank you, Bill. Mr. Krepcho.
    Mr. Krepcho.  Thank you, Mr. Chairman for the opportunity 
to speak to this subcommittee. It is a privilege. The Daily 
Bread Food Bank is a member of the Second Harvest National 
Network of Food Banks. With us today we have the CEO, Christine 
Vladameroff from Second Harvest.
    We serve the Miami, Fort Lauderdale, and West Palm Beach 
area in South Florida and distribute otherwise wasted food to 
organizations that are feeding needy people. Through food banks 
like the Road Runner Food Bank in New Mexico and other food 
banks, 181 food banks across the country, we all do basically 
that same thing. Our request as Congressman Lehman mentioned, 
is for support from the Department on supplemental funding for 
not-for-profit prepared food rescue programs. Ours is one 
example.
    This funding will provide the means to leverage existing 
successful programs like ours to go out to restaurants, hotels, 
catering companies, sporting events, and the like. The lack of 
refrigerated vehicles, or operating, or technical support is 
the major problem in limiting the expansion.
    We request specific conference report language which 
supports these types of food recovery efforts to be funded 
through the TEFAP Administrative Fund. This administrative 
funding request is not a request for additional funding, but to 
protect the current level that it is at for fiscal year 1997 to 
maintain that for fiscal year 1998.
    We're very mindful of the significant budgetary pressures 
that this subcommittee has. So, we are not requesting in 
addition, but specific language that these prepared food 
programs could tap that administrative fund. The TEFAP 
commodities in themselves are a vital supplement to what food 
banks do across the country.
    We would love to see that funding of $100 million for 
commodity purchase stay intact for fiscal year 1998. While we 
have a program in place to get prepared foods, there is 
incredible supply. About 20 percent of the food in this country 
is wasted. That's equivalent to the EPA estimates to about 13.8 
billion pounds, enough to feed 49 million people.
    Just in South Florida alone, we have food donors lined up 
for our program. We're working with about 200 food donors on 
our prepared food program. We have in just our area about 6,000 
eating establishments. So, you can see that we've barely 
scratched the surface on the potential of a program like this.
    Last year alone over a half a million pounds of this type 
of food was collected and distributed. So, while so much food 
is going to waste, and we have so much interest from food 
donors, many, many people go hungry. Twenty-six million 
Americans are currently at risk of hunger each day.
    In South Florida alone, the demand is huge. Food banks 
across the country are experiencing increased demand for their 
services; some food banks as high as a 50 percent increase. The 
U.S. Conference of Mayors in December released their annual 
report which showed an 11 percent increase in the number of 
people asking for emergency food assistance.
    So, it's not just indicative of Southeast Florida, but 
across this nation. For nearly two decades, food banks have 
been there to fill a part of the gap when the government 
benefits have fallen short. Just a couple other quick 
additional reasons for support of these kinds of programs.
    The nutritional value of the prepared food at times can be 
extremely high and a good complement to what we do with private 
donations already. As a national network, we distributed close 
to one billion pounds.
    The leveraging of funds. When dollars are invested into a 
program such as this, and our program is just one example, for 
every dollar invested we can distribute enough food for four 
meals. If you multiply that across the country, the impact is 
significant.
    But it goes beyond feeding people as well. As we supplement 
these charitable organizations on their food and beverage, 
those are expenses that they do not have to incur whether they 
run a day care center, a home for the elderly, a soup kitchen, 
or a homeless shelter.
    They can take those funds they do not have to spend and 
plow that right back into social services in their community. 
The Gleaning Initiative which the Department of Agriculture has 
launched ties right into this. That has opened up many new 
doors such as school cafeterias.
    Food is out there. We need help to go collect it. The Bill 
Emmerson Good Samaritan Food Donation Act is also opening up 
many potential new food donors. It does waive the risk of 
liability. So, in conclusion, Daily Food Bank and Second 
Harvest would, again, thank this subcommittee for this 
opportunity to present this very vital need and request that 
this funding do come from the TEFAP Administrative Fund, and 
that you protect that funding for fiscal year 1998.
    Food banks are ready, willing, and able to show this 
subcommittee what we do day-in and day-out and invite anyone to 
visit their local food bank and see first hand what we do. So, 
on behalf of the needy of this country, again, I'd like to 
thank you.
    [The prepared statement of Mr. Krepcho follows:]

[Pages 802 - 808--The official Committee record contains additional material here.]


    Mr. Lehman.  Mr. Chairman, I'd like to just add one thing. 
I'd like to be able to work with David to try to have the best 
approach to the kind of language, bill language or report 
language, that you will be able to incorporate in your bill 
this year. We would like to work with him and your staff to 
determine how best to support this problem, either in the 
report language or bill language for the next fiscal year. 
Thank you very much.
    Mr. Skeen.  Let me advise you of something. I appreciate 
your testimony. I appreciate particularly the work that you 
folks do. You've made this program work. It's been a personal 
dedication for each and every one of you and a great hardship. 
We certainly appreciate that.
    Last year, the USDA told us that they had the authority to 
use TEFAP administrative funds to purchase freezer and cold 
storage equipment. I'm surprised that they haven't followed 
through evidently, on the trucks necessary to distribute these 
foods that you pick-up and so forth.
    The USDA obviously may not be using that authority they 
already have. So, what I want to do is advise you that they 
have that authority. We don't need the language. We need to 
tell the USDA to use it as they indicated they wanted to. Let's 
go back to the USDA again and tell them that you folks need 
that equipment.
    How are you handling it now?
    Mr. Krepcho.  It's totally privately funded.
    Mr. Skeen.  Do you have refrigeration?
    Mr. Krepcho.  Refrigerated trucks.
    Mr. Skeen.  But that service is donated to you?
    Mr. Krepcho.  No. We have to go out and raise money 
privately to go purchase those vehicles.
    Mr. Skeen.  I see. We'll talk to the USDA about this and 
give you a referral.
    Mr. Lehman.  Mr. Chairman, is there any point in putting in 
any report language to urge the USDA to do this?
    Mr. Skeen.  If necessary, Bill, yes. We can do that. But 
rather than going through all of the business of trying to put 
the language in there, I'd like to just go tell the USDA to do 
what we told you to do in the first place.
    Mr. Lehman.  Maybe all they need is a phone call.
    Mr. Skeen.  Well, that usually works pretty good. Mr. 
Serrano.
    Mr. Serrano.  Thank you, Mr. Chairman. I also join the 
Chairman in making sure that we take care of this situation. 
I'm one of those individuals, as are most Americans, who is 
outraged at the amount of food in this country that is left 
over, if you will, that could very well be used by other 
people. It's just a matter of getting it there.
    I think people should always be aware of the fact that 
we're not talking about leftovers in the classic sense of a 
lesser quality food.
    Mr. Lehman.  It is quality stuff.
    Mr. Serrano.  Yes. Great quality stuff, and this country 
just wastes a lot of food. We do. We do at home. We do in 
school. We do everywhere. We have to find a way of doing it. 
So, I just want to second the Chairman's comments. I will work 
and our staffs will work together to make sure that USDA does 
what it was supposed to do. If not, I join the Chairman in 
making sure that the----
    Mr. Lehman.  I'm sure that the committee is aware that once 
the Food Stamps are no longer available for the legal 
immigrants that are not naturalized yet, there will be an extra 
demand for this same kind of food in both my old territory and 
I'm sure in your own districts right now.
    Mr. Serrano.  Absolutely. This is a big issue in the South 
Bronx because there is food like everywhere else, but at times 
it is the ability to get it to other people.
    Just a personal question. The refrigerated vehicles, is 
there a standard vehicle that is used in most places? Does it 
vary?
    Mr. Krepcho.  It all depends on the particular community 
that you're in. In our situation which is, I guess, a large 
urban center, we have three 14-foot refrigerated trucks on the 
road full-time just for the prepared food program. They are 
constantly going out to kitchens with containers.
    The drivers are trained in safe food handling, as well as 
the recipient organizations. So, that food is picked up, put 
into containers, put on the racks in the back of the trucks, 
and then delivered directly to the organizations that can 
handle that food properly, and serve it to folks.
    Mr. Serrano.  I just took a look at the testimony here. I 
don't know to what extent it's related to this issue, but I do 
have the concern, have we taken care of or are we in the 
process of taking care of the issue of any liability that some 
donors may have or that may hold them back from donating this 
food?
    Mr. Krepcho.  The Bill Emerson Good Samaritan Act that was 
just passed very recently is a tremendous help to programs 
across the country because that's one of the first hurdles we 
come across with a potential new donor and that is the worry of 
a lawsuit. We can get over that hurdle with the Good Samaritan 
Act and at the same time, we can tell that donor of the other 
benefits.
    There are tax benefits to donating. They reduce their 
dumping cost. They get to feel really good about helping being 
a part of the solution of feeding the needy in this country. 
Again, we appreciate your support of the language. The funding 
is absolutely critical to go along with that to expand what we 
have in place already that is successful.
    Mr. Serrano.  Again, Mr. Chairman, I join you in support of 
this fine effort in either getting the USDA to do what they 
were supposed to do or getting new language to make sure they 
do what they were supposed to do when they had language to it 
before.
    Mr. Skeen.  Thank you, Mr. Serrano. I think we're traveling 
the same track. Mr. Kingston.
    Mr. Kingston.  No questions, Mr. Chairman.
    Mr. Skeen.  We thank you very much.
    Former Congressman, Larry Coughlin.

                                ---------

                                          Thursday, March 20, 1997.

                 FRIENDS OF THE U.S. NATIONAL ARBORETUM

                               WITNESSES

HON. R. LAWRENCE COUGHLIN (RET.), UNITED STATES CONGRESSMAN
MURIAL GOSS
LINDA WILSON, EXECUTIVE DIRECTOR

    Mr. Skeen.  Welcome. I see that you're well attended as 
usual.
    Mr. Coughlin.  Thank you very much, Mr. Chairman.
    Mr. Skeen.  The most powerful companions in the whole 
Capitol area.
    Mr. Coughlin.  Mr. Chairman, with me is Murial Goss, the 
distinguished wife of our distinguished colleague from Florida 
and Linda Wilson who is the Executive Director of the Friends 
of the National Arboretum.
    Mr. Skeen.  I recognize power when I see it.
    Mr. Coughlin.  Mr. Chairman and Members of the 
subcommittee, thank you very much for the opportunity to submit 
testimony on behalf of the Friends of the National Arboretum in 
support of three specific programs at the U.S. National 
Arboretum.
    FONA, the Friends of the National Arboretum, is a private 
non-profit corporation dedicated to providing support for the 
U.S. National Arboretum. Since 1927 the U.S. National Arboretum 
is engaged in horticultural research and education in nursery 
and floral crops, the fastest growing segment of the U.S. 
agricultural business.
    Thanks to your foresight and your generosity, as well as 
the generosity of the private sector, the U.S. National 
Arboretum has introduced over 150 important new cultivars of 
disease resistant ornamental plants. This year with the support 
of generous contributors to FONA, the U.S. National Arboretum 
went on-line on the Internet in a further effort to enhance 
dissemination of research and horticultural information.
    Today, nursery and floral crops represent 11 percent of the 
total cash value of all U.S. agricultural products. Gardening 
is the number one leisure activity in the United States. We at 
FONA are well-aware of the fiscal constraints on the Federal 
Government.
    At the same time, the U.S. National Arboretum is a tiny 
piece of the budget of the Agricultural Research Service. In 
fact, the Arboretum represents less than one percent of the 
President's fiscal year 1998 budget of $726.8 million for the 
ARS.
    In addition to the allocations of funds that FONA is 
seeking for the Arboretum are a small part of a specific 
increase proposed in the President's budget. The President's 
budget requests a $4 million increase for integrated pest 
management research and biological control.
    Of this amount, we request the committee to direct that a 
modest increase of $150,000 be allocated to the Arboretum's 
very successful IPM program. This is $150,000 of a $4 million 
increase. This would match and supplement current private grant 
funds and allow the Arboretum to develop a landscape IPM 
program with significant national implications. Second, we 
request the committee to direct the $250,000 of the $4 million 
IPM biocontrol increase be allocated to the Arboretum's ongoing 
program to develop environmentally safe pesticides.
    Products like Rose Guard, containing neem oil, are paving 
the way for a new generation of ``people safe'' products to 
control harmful pests and diseases. Again, this is a small part 
of a specific increase requested by the President and is for 
the purpose of the requested increase.
    Third, the President's budget for fiscal year 1998 requests 
an increase of $2 million to expand ARS germ plasm collection. 
We request the committee to direct $250,000 of this increase be 
allocated to expand the Arboretum's modest program of germ 
plasm collection of trees and shrubs.
    This will provide potentially useful genetic materials for 
the development of new and improved ornamental trees and floral 
plants. It is, of course, important that these allocations not 
be done in such a way that the funds are shifted from other 
U.S. National Arboretum priorities.
    Modernizing and adapting the Arboretum to the information 
age, as well as providing new horticultural research is ongoing 
with both public and private funds. It is important that the 
federal support for the U.S. agricultural research not be 
regarded as waning. We would emphasize again that our request 
is not for unbudgeted funds or for new programs.
    It is for a portion of budgeted funds, funding increases, 
for ongoing priority programs. The U.S. National Arboretum 
performs outstanding research, as well as providing the outlet, 
the outreach, and the showcase for U.S. agriculture.
    Mr. Chairman, we thank you and Mr. Serrano for your 
stewardship of the jewel that is our U.S. National Arboretum 
and for your consideration of FONA's request.
    [The prepared statement of Congressman Coughlin follows:]

[Pages 813 - 815--The official Committee record contains additional material here.]


    Mr. Skeen.  One of the greatest monuments we have in this 
local area is the U.S. National Arboretum. It is a spectacular 
place. Also, the germ plasm bank and some of the things you're 
headed for I think follows the line that we're following now in 
medicine. We are finding a lot of cures for a lot of diseases 
through plant elements.
    The Smithsonian is involved and several others. It is very 
interesting. I want to particularly express the appreciation we 
have for the volunteer work that you folks do and the promotion 
you do for that wonderful asset we have out there. Mr. Serrano.
    Mr. Serrano.  No questions, Mr. Chairman. Just to welcome 
our former colleague and just to again join our Chairman in 
thanking you for the work that you do. It is a national asset 
and a jewel. I just look forward to the days when you can tell 
us how we can get palm trees in New York. I'm convinced there 
is a way. I'm trying to do it.
    Mr. Skeen.  Indoors.
    Mr. Serrano.  I'd like them outdoors. I know you have to 
cover them up with something for the winter. I can't get the 
city to listen to that. That's my problem. Thank you.
    Mr. Skeen.  We're going to work on that with each other. 
Thank you all very much.
    Mr. Coughlin.  Thank you very, very much, Mr. Chairman.
    Mr. Skeen.  Dr. Anne Vidaver.

                              ----------                              

                                          Thursday, March 20, 1997.

                   AMERICAN SOCIETY FOR MICROBIOLOGY

                                WITNESS

ANNE K. VIDAVER, PH.D. CHAIRMAN

    Mr. Skeen.  Welcome, Dr. Vidaver. I'm sorry that we delayed 
your appearance slightly, but we had to get these wonderful 
folks who have been with us for a long time as Members of 
Congress.
    Dr. Vidaver.  I understand.
    Mr. Skeen.  It is the least amount of respect that we can 
give them.
    Dr. Vidaver.  I understand.
    Mr. Skeen.  I know that you do. I appreciate that. You may 
proceed.
    Dr. Vidaver.  I appreciate the opportunity to make comments 
to you on behalf of the American Society for Microbiology. I 
Chair the American Society for Microbiology's Committee on 
Agriculture, Food, and Industrial Microbiology. I'm also head 
of the Department of Plant Pathology at the University of 
Nebraska-Lincoln.
    Today, I am testifying on behalf of the ASM's fiscal year 
1998 support of the USDA's research budget. To introduce you to 
the American Society for Microbiology, it's the largest and the 
oldest life science society in the world. It represents over 
42,000 members. They are employed in academia and government.
    These members are involved in many facets of 
microbiological research impacting agriculture all the way from 
foodborne diseases to new and emerging plant and animal 
diseases, which I will touch upon later, soil erosion, soil 
biology, agriculture biotechnology, and in the development of 
new agricultural products and processes.
    In addition, the Society has been an active member of 
coalitions that foster fundamental research and needs for 
agricultural research. Now, there are five points in my written 
testimony. In view of time constraints, I will only focus on 
one.
    That is on new and emerging infectious diseases in plants 
and animals. I provide you and the committee a copy of a 
document that the American Society for Microbiology as put 
together on this issue. I believe you will find it of extreme 
interest.
    These diseases are a threat to the U.S. agricultural system 
that requires not only immediate, but sustained attention as 
well. I point out that we spend, for example, over a billion 
dollars on human diseases and probably only about $100 million 
on all the other species combined. Consider that when you eat 
your food today and look at the clothes that you're wearing 
from natural products.
    Like the human population, U.S. agriculture is also 
experiencing severe problems that are caused by these new and 
emerging infectious diseases in plants and animals. The reasons 
for these are multiple. They involve changes in agricultural 
practices, population growth, climate, microbial evolution, 
including fungicide and antibiotic resistance, as well as 
international trade and travel, and the lack of knowledge to 
effectively manage and control new an emerging infectious 
diseases as you well probably know can lead to very severe 
consequences.
    I'd like to just illustrate a few examples of these. I 
would say that in your states represented by this committee, at 
least some of these diseases occur. The Chairman, for example, 
may well be aware of Karnal bunt disease of wheat. This was not 
detected in the United States prior to just March of 1996; not 
only in Arizona, Texas, and also in California. This puts the 
U.S. wheat market, the export market, at risk.
    Secondly, another fungal disease is late blight of 
potatoes. The colleague from New York would probably be 
familiar with this. This was the cause of the Irish potato 
famine. This has reappeared partly due to fungicide resistance, 
but also to developments in the pathogen itself.
    This is a severe disease that impacts not only potatoes, 
but tomato production as well. In some other areas, for 
example, the colleague from Georgia, gray leaf spot of corn is 
concerned. That is spreading to the Midwest as well. In the 
Midwest we also have a virus called the High Plains Virus that 
is so new it's in a new class all by itself.
    The significance of that is not fully known. We have 
probably emerging this spring--soygum that is going to blow 
into Texas and perhaps into other areas where soygum is grown. 
These are plant diseases.
    In animals we have tuberculosis as a reemerging disease at 
least partly due to drug resistance. This tuberculosis in 
cattle can infect other animals and can also be transmitted to 
humans and obviously cause a severe illness. I understand you 
have a colleague particularly interested in pigs.
    There is a new porcine respiratory viral disease that is 
devastating pig production in the Midwest. These are 
illustrative of the many kinds of problems that are occurring 
and will continue to occur because the world does not stand 
still. It changes all the time.
    Thus, you will not be surprised to hear ASM strongly 
supports the $5 million total in the ARS budget to fund airious 
and emerging infectious diseases to develop methods to reduce 
the risk to U.S. crops and animals from infection with both the 
new domestic and exotic foreign diseases.
    In addition, the ASM encourages the ARS to support 
coordination, communication and new program development in 
comparative pathobiology across a broad range of plants and 
animals as a way of more fully understanding and managing 
disease agents that infect them and host response.
    I thank you for your attention.
    [The prepared statement of Dr. Vidaver follows:]

[Pages 819 - 828--The official Committee record contains additional material here.]


    Mr. Skeen.  Thank you for your contribution because we're 
learning more and more often that microbiology with plants and 
the development of diseases and so forth in plants also 
parallels a lot of things that happens in humans.
    Dr. Vidaver.  Absolutely.
    Mr. Skeen.  We're becoming much more aware of this day-by-
day in your area of expertise and the contribution that you 
make to it. We want to keep those funds rolling because we have 
only 2 percent of our whole nation involved in agriculture. If 
we don't have the research to keep us producing, well, somebody 
is going to go hungry.
    Dr. Vidaver.  Yes, sir.
    Mr. Skeen.  We thank you. Mr. Jim Mallow with the 
Association of State Foresters. Welcome.

                              ----------                              

                                          Thursday, March 20, 1997.

                NATIONAL ASSOCIATION OF STATE FORESTERS

                                WITNESS

JIM MALLOW, STATE FORESTER OF MARYLAND

    Mr. Mallow.  Thank you, Mr. Chairman.
    Mr. Skeen.  Your full written testimony will be included in 
the record.
    Mr. Mallow. Yes, sir. I'll be as brief as possible.
    Mr. Skeen.  We appreciate that.
    Mr. Mallow.  My name is Jim Mallow. I'm the State Forester 
of Maryland. I'm here representing the National Association of 
State Foresters. My written testimony will, as you've said Mr. 
Chairman, provide recommendations for a number of programs that 
assist my colleagues in the other 50 States, including New 
Mexico, to work with roughly 9,000,000 private land owners to 
help them bring their forests under better management.
    In my oral remarks here today I want to focus on three 
programs; the Renewable Resources Extension Act, the Forest 
Incentive Program, and the Rural Community Fire Protection 
Program. Under the Renewable Resources Extension Act, members 
of the National Association are extremely distressed at the 
Administration's proposal to eliminate funding for this 
particular program.
    We see this as a critical link in USDA's extension efforts 
to provide landowners with advice and assistance in managing 
their renewable resources. Survey after survey has shown that 
this type of assistance is a key stimulus to manage private 
lands. The target audience is the non-industrial private forest 
landowner.
    As you can imagine, this audience continues to grow by 
leaps and bounds, particularly in this part of the country. The 
Administration should be using this program as a model for 
federal programs instead of proposing its elimination. It uses 
a network of State extension agents to achieve much more than 
its small budget implies.
    The Renewable Resource Extension Act is implemented 
locally. It leverages local resources and provides national 
direction at minimum cost to the Department. It seems to us 
that zeroing out a program like this sends the wrong message. 
It says that you lose out on funds if you have a low cost high 
benefit program.
    As I say, this is, we think, the wrong message at a time 
when we're supposed to be encouraging federal agencies to do 
more with less. The NASF strongly urges the committee to at 
least restore the RREA to last year's funding level of $3.4 
million if not higher. In our opinion there are ample 
opportunities to achieve this within the budget levels proposed 
by the Administration.
    The second program I'd like to highlight is the Forest 
Incentive Program or FIP. This program remains a high priority 
for the National Association of State Foresters. As you know, 
timber demand remains extremely high and more and more the non-
industrial private forest lands are having to meet a growing 
proportion of that demand. FIP is the only cost share program 
targeted specifically at ensuring long-term timber supplies and 
the need for that remains very high. Last year, the Department 
began allocating FIP funds under a new formula which spread the 
funds out beyond their traditionally targeted areas and regions 
of the country.
    While this is a laudable goal, we think the key here is 
increasing the funding and the need to ensure that they 
continue to have sustainable impact on the ground. We continue 
to support FIP because it reaches out to landowners in a non-
regulatory way in an incentive-based approach.
    It's a cost share; a 50/50 cost share which means that 
there is a required level of investment and a commitment on the 
part of the participating landowner. In other words, it's not a 
handout. We would also note that in spite of its timber focus, 
FIP does provide numerous conservation benefits including long-
term soil protection and wildlife habitat. NASF recommends 
funding FIP at $10 million for fiscal year 1998.
    The last program we would mention is the Rural Community 
Fire Protection Program, RCFP. It is one of the key ones in the 
State Foresters' effort to combat wildfire nationwide. Fire 
protection is part of the core mission of most State forestry 
agents and certainly here in Maryland it is that. RCFP allows 
us to work with one of our closest partners, the nation's 
26,000 rural volunteer fire companies to ensure that they're 
adequately trained and equipped and organized to fight wild 
land fires. These volunteers are often times the first line 
defense against wild land fire. We're asking them more and more 
to protect our homes and communities as we continue to grow and 
build houses in the woods around our urban areas.
    RCFP represents a modest investment and a resource that is 
currently valued at over $30 billion. This program has been cut 
to the bare bones over the past two years. In its current 
level, it's barely functioning as a national program. With 
federal agency fire policies being implemented, new ones, 1998 
may be the first year we see a real bite on volunteer fire 
fighters.
    These people who are ordinary members of our communities 
serve as the only fire defense in some areas of our country. 
When a fire season rages as long and as hot as the one did last 
year, these volunteers make up almost a third of the personnel 
staffing our fire lines across the country.
    Without RCFP, a large and dangerous gap in our preparedness 
and ability to respond to wild fire could open. We strongly 
recommend that this program be restored to $10 million for this 
coming fiscal year.
    I thank you Mr. Chairman for the opportunity to testify 
today. Our written testimony does include recommendations for 
other conservation programs. We recommend those to your 
attention. We thank you for your time and consideration.
    [The prepared statement of Mr. Mallow follows:]

[Pages 832 - 836--The official Committee record contains additional material here.]


    Mr. Skeen.  We thank you for your time, Mr. Mallow. As an 
observation, I've noticed of late the federal management of 
forests and forest situations, both in Interior and Agriculture 
and have come to some of the conclusions that the State 
Foresters have been using and the methodology that they've 
adopted.
    Mr. Mallow.  Yes, sir.
    Mr. Skeen.  I had the Secretary of Interior say to me today 
that he approved controlled burns as a management tool. We've 
known this for a great length of time, but there was the 
attitude no fire is the best situation in the national forest.
    So, I think that without this business of reducing the 
funding, they probably ought to be upping the funding for State 
forestry because they've been leading the technology.
    Mr. Mallow.  Thank you for that compliment. Thank you, sir.
    Mr. Skeen.  We don't want to lose that expertise because 
you're going to teach the Feds how to manage forests.
    Mr. Mallow.  I'm glad you said that.
    Mr. Skeen.  I said it and there ain't much they can do 
about it.
    Mr. Mallow.  Thank you, sir.
    Mr. Skeen.  We thank you, sir. Albert Hale, President of 
the Navajo Nation. Welcome.

                              ----------                              

                                          Thursday, March 20, 1997.

                             NAVAJO NATION

                                WITNESS

ALBERT HALE, PRESIDENT

    Mr. Hale.  Good morning, Mr. Chairman.
    [A discussion in Navajo between Chairman Skeen and Mr. 
Hale.]
    Mr. Hale.  Mr. Chairman and Members of the subcommittee.
    Mr. Skeen.  We're glad to have you here and welcome.
    Mr. Hale.  Thank you very much. Glad to be here. I 
appreciate the opportunity to address the issue that's on the 
table before the subcommittee which is the fiscal year 1998 
appropriation for the U.S. Department of Agriculture.
    Over the past several years, the USDA, at the urging of the 
Navajo Nation, has made notable progress in developing a 
cooperative relationship with the Navajo Nation. I recently 
visited with Secretary Glickman and he affirmed to me that USDA 
will continue to support the Navajo Nation's participation in 
USDA programs. Secretary Glickman also committed to visiting 
the Navajo Nation this spring to learn first-hand about our 
rural development needs and opportunities.
    Over the past several years, the USDA--at the strong urging 
of the Navajo Nation--has made notable progress in developing a 
USDA/Navajo Nation cooperative relationship. Some of the 
progress is outlined in our written statement submitted to this 
subcommittee. In February 1997 the USDA's Civil Rights Action 
Team issued recommendations based on a series of Listening 
Sessions held throughout the United States.
    A Listening Session was held on the Navajo Nation on 
January of this year. Some of the recommendations from the team 
include, one, adjust the USDA budget and develop statutory or 
regulatory changes to eliminate the disparity in funding of the 
1890 and the 1994 Land Grant Colleges.
    Two, target $100 million annually from the Rural Utilities 
Service Water and Waste Disposal Grant Programs to Indian 
Nations.
    Three, increase Environmental Quality Incentive Program 
funding to $300 million and target $100 million for assistance 
to minorities and those with limited resources, including 
farmers, ranchers, and Indian nations.
    Four, extend and fully fund the Indian Reservation 
Extension Program at $8 million annually.
    We fully support the team's recommendations and urge the 
implementation thereof. I will now highlight several important 
items that we have requested for inclusion in the fiscal year 
1998 budget.
    First, full funding for the Navajo Community College which 
is the oldest and largest of the 29, 1994 Tribal-owned and 
operated colleges. Unfortunately, NCC and other Tribal-owned 
colleges only acquired land-grant status in 1994. Before 
acquiring land-grant status, the Tribal-owned colleges have 
never shared in the land-grant educational programs.
    The enormous and well documented deficit in all aspects of 
Native American rural development is, therefore, caused in part 
by the critical shortage of precisely those knowledge bases and 
skills which are required for successful planning and 
implementation of needed rural development.
    Therefore, the Navajo Nation requests full funding amounts 
for which the 1994 Land Grant Tribal-Owned Colleges are 
authorized.
    Second, due to massive infrastructure deficiencies, 
geographic isolation and related legal issues, the Navajo 
Nation and Indian country in general are perhaps the most 
poverty-stricken areas in the United States. There is little 
economic development activity and very few jobs.
    In an effort to reverse this trend, I recently initiated a 
new economic development plan for the Navajo Nation. This plan 
includes the creation of a business development council. My 
goal is to create employment opportunities on the Navajo 
Nation. Basic infrastructure is essential and critical to such 
development.
    The lack of basic infrastructure such as electric, water 
and sewer lines significantly hampers our ability to attract 
outside businesses and to foster Navajo entrepreneurs. Welfare 
reform presents a potential disaster for Indian country if we 
do not create jobs.
    On the Navajo Nation we expect over 7,000 Navajos to be 
looking for jobs in five years. We need the help of the Federal 
Government and the States and the local governments to create 
the jobs now.
    Lastly, based on the Navajo Nation's 1994 proposal for an 
integrated rural planning and development, which is referred to 
as the Rural Development 2000 Plan submitted to USDA, and the 
current changes that are occurring in funding and in funding 
authorization, the Navajo Nation requests $750,000 to initiate 
a pilot rural development planning team to be located on the 
Navajo Nation.
    The Navajo Nation proposes a holistic approach to rural 
development, integrating each of the necessary sectors of rural 
development through comprehensive planning while at the same 
time providing urgently needed capacity building for the Navajo 
people.
    We are convinced that this approach is vastly superior to 
and far more efficient and cost effective than the existing 
piecemeal project-by-project focus that constrains USDA's rural 
development agencies.
    In conclusion, USDA's cooperative efforts must now be 
significantly expanded and enhanced with direction from this 
subcommittee. We request this subcommittee to encourage and 
direct the USDA to redirect its priorities and staffing to 
Indian nations.
    Indian nations have a compelling need for USDA expertise in 
programs and, sad to say, a demonstrated lack of access to such 
service. To overcome this inequity the subcommittee must direct 
necessary funding to ensure that the Navajo people can at last 
access the important USDA programs, services, and expertise to 
which they have previously virtually no access.
    The Navajo Nation wishes to thank the Chairman and the 
Members of the subcommittee for their leadership and support of 
these programs. Thank you very much. [Navajo spoken.]
    [The prepared statement of the Navajo Nation follows:]

[Pages 840 - 844--The official Committee record contains additional material here.]


    Mr. Skeen.  [Navajo spoken.] I appreciate the dissertation. 
Could you bring me up-to-date on what's going on with your 
NAPE, that's your agricultural production industry out there? I 
have followed that development for many years, but I haven't 
heard anything lately. What's the status on NAPE?
    Mr. Hale.  We have developed seven blocks.
    Mr. Skeen.  You have developed how many?
    Mr. Hale.  That will be about 72,000 acres of land that's 
now being farmed.
    Mr. Skeen.  How many more blocks do you have left?
    Mr. Hale.  We have four more blocks.
    Mr. Skeen.  Four more blocks.
    Mr. Hale.  To go. That's 11,000 acres per block. We also 
are engaging on developing a french fry plant right there on 
sight.
    Mr. Skeen.  I knew that you were producing potatoes.
    Mr. Hale.  We're producing potatoes.
    Mr. Skeen.  You're processing them now?
    Mr. Hale.  We want to process them there now, but we're 
running into the dual taxation problem.
    Mr. Skeen.  Dual taxation?
    Mr. Hale.  The dual taxation where any non-Navajo owned 
business that operates on the Navajo Nation must be taxed by 
the state and also by the----
    Mr. Skeen.  The State and the feds.
    Mr. Hale.  Right.
    Mr. Skeen.  Always get the tax bite.
    Mr. Hale.  Right. I think we've resolved that to some 
extent. We were informed yesterday that a bill we were 
supporting in the State legislature in New Mexico was passed. 
What that does in trying to address dual taxation is it doesn't 
exempt, it sets a ceiling like, for example, 5 percent.
    Mr. Skeen.  I see.
    Mr. Hale.  Then share within that 5 percent between the 
nation and the State. So, I think we're moving towards 
resolution of that issue, at least in New Mexico. That will 
also enhance our ability to finally realize this french fry 
project that we're proposing. It's not french fry. It's Navajo 
fries, excuse me. But we're proposing that project there.
    Mr. Skeen.  I can understand that. If you can do that with 
potatoes like you do with Navajo fry bread, you've got a real 
product.
    Mr. Hale.  We certainly would.
    Mr. Skeen.  We're looking to send you some mutton to go 
along with that.
    Mr. Hale.  We're looking for help from Congress to provide 
us some capital to do the infrastructure development.
    Mr. Skeen.  The infrastructure development.
    Mr. Hale.  Yes.
    Mr. Skeen.  You've done a great deal in strengthening your 
Tribal economy--the Navajo's and your leadership.
    Mr. Hale.  I thank you very much.
    Mr. Skeen.  We hope to keep it going. We hope that we can 
help along the way. I appreciate your recommendation. We thank 
you very much for being here today. [Navajo spoken.]
    Mr. Hale.  [Navajo spoken.]
    Mr. Skeen.  Ruth Goldstein with American Farmland Trust. 
Welcome.
                              ----------                              

                                          Thursday, March 20, 1997.

                        AMERICAN FARMLAND TRUST

                                WITNESS

RUTH GOLDSTEIN, FEDERAL POLICY PROGRAM MANAGER

    Ms. Goldstein.  Thank you, Mr. Chairman for this 
opportunity to testify today. My name is Ruth Goldstein and I 
am the Federal Policy Program Manager for American Farmland 
Trust.
    The American Farmland Trust is a 30,000 member non-profit 
organization founded to protect our nation's farmland. Since 
1980 American Farmland Trust has been working to stop the loss 
of productive farmland and to promote farming practices that 
lead to a healthy environment.
    My written testimony discusses conservation, research, and 
eduction programs; in particular, the complement of NRCS and 
FSA programs under the 1996 Farm Bill. These include the CRP, 
WHIP, CFO, WRP, EQUIP, and Farmland Protection Programs. Fully 
funded, these conservation provisions of the 1996 Farm Bill can 
help protect the integrity of the natural resource base upon 
which farming depends and protect farmland for the multiple 
environmental benefits it provides; food production, scenic 
views, open space, and wildlife habitat to name a few.
    American Farmland Trust supports these programs and funding 
for the man and woman power to implement them. Please refer to 
my written testimony which discusses these programs in more 
detail. I'd now like to highlight the Farmland Protection 
Program which is a vital part of this conservation tool kit. 
Every year, hundreds of thousands of acres of our nation's most 
productive farmland are lost due to urbanization.
    When urban pressure pushes up the value of agricultural 
land, the next generation simply cannot afford to continue 
farming. The Farmland Protection Program in the 1996 Farm Bill 
encourages States and local communities to expand their own 
farmland protection efforts by providing federal matching 
funds.
    In addition to preserving the food production capability of 
the land, Farmland Protection Program funds help communities 
retain the important natural resource conservation benefits 
provided by farmland. This program was authorized to draw $35 
million in CCC funds.
    When funded in fiscal year 1996 at $15 million this program 
protected 77,000 acres on more than 200 farms. It created no 
new bureaucracy, required no additional FTEs. It leveraged 
funds through 37 State and local farmland protection programs 
for 17 States.
    Unfortunately, in fiscal year 1997 this program was capped 
at $2 million, which is not enough for a functioning program. 
We strongly urge that you not cap this program in fiscal year 
1998. Let it continue to work encouraging action at the State 
and local level to protect farmlands across the country.
    Before I close, I would like to note that American Farmland 
Trust has just completed a new report that Chief Johnson spoke 
of yesterday. It's called Farming on the Edge and highlights 
the top 20 most threatened agricultural regions in the path of 
development. You will find a very comprehensive story on this 
issue in today's Business Section of the New York Times. It 
highlights New York State and California in particular.
    I have provided copies of that article for Members of the 
subcommittee. Thank you very much for this opportunity to 
testify. I look forward to working with this committee to 
ensure the vitality of our nation's farmland and natural 
resources.
    [The prepared statement of Ms. Goldstein follows:]

[Pages 848 - 853--The official Committee record contains additional material here.]


    Mr. Skeen.  We appreciate your testimony. We appreciate the 
objectives that you have. It is a serious problem, the 
transition of urban spoil into productive agricultural land. 
Somewhere along the line we're going to have to make some 
determination just how far we can go with that situation or do 
a better job of classifying the land, leaving those that are 
agriculturally adept or useful to us to protect them. We 
appreciate the work that you do.
    Ms. Goldstein.  Thank you, sir.
    Mr. Skeen.  Thank you for being here today. Scott Berg. We 
welcome you, the American Forest and Paper Association. Your 
written testimony will be in the record. You may proceed.

                              ----------                              

                                          Thursday, March 20, 1997.

                 AMERICAN FOREST AND PAPER ASSOCIATION

                                WITNESS

SCOTT BERG, DIRECTOR FOREST POLICY RESEARCH

    Mr. Berg.  Thank you, Mr. Chairman. I'm another one of 
those foresters. I'm with the American Forest and Paper 
Association. I'm representing our Forest, Science, and 
Technology Committee here today.
    Mr. Skeen.  You're on the right side.
    Mr. Berg.  Yes. I am. Thank you. I'm not going to read my 
full testimony, but there are a few key points I wanted to 
make.
    Mr. Skeen.  Thank you. We appreciate that.
    Mr. Berg.  For sort of a take-home message. I wanted to 
start out by mentioning that forest crops are the number one 
agricultural commodity in the nation. We hope that it will 
increase with changes in the farm subsidies in the Farm Bill 
Program. We appreciate those changes. It allows forestry to 
compete more on a level playing field with other agricultural 
crops.
    Agriculture really does have a major stake in forestry, 
research, and education as forestry becomes much more like 
agriculture over time. Some 60 percent of our total forest land 
base is actually owned by close to 10 million tree farmers, not 
the 9 million that the State Forester from Maryland mentioned. 
It keeps going up.
    The industry really isn't in a position to do the research 
and education for those 10 million small land owners. That 
actually compares with 2 million farmers out there. So, the 
government really does have an important role in collaborative 
research. But really what's happening, Mr. Chairman, is the 
timber supply responsibility has shifted from the public lands 
to the private lands.
    There has been a substantial increase in the harvesting on 
private lands, particularly in the South; a major increase in 
imports from overseas. In fact, I was a part of the U.S. 
delegation to a meeting in Chile last year. The Chileans gave 
us a carved bird recognizing the positive influence that a 
reduction in our federal Timber Sale Program has had on their 
timber economy.
    Our Timber Sale Program here in the U.S. went from about 11 
billion board feed down to about three or four today. So, those 
economies, the Chileans, the New Zealanders, and the other 
folks that are now exporting wood into the U.S. have really 
benefitted from that.
    To add insult to injury, they're using one of our 
California species, Radiada Pine, to out compete us. At the 
same time, our private land owners and production forestry in 
general has been largely abandoned through reprogramming of 
Forest Service Research and, as the State Forester from 
Maryland mentioned, the zeroing out of our education program, 
the Renewable Resources Extension Act. Since we think that 
government is partly responsible for the crisis that we're 
currently facing in forestry, we would ask that the Agriculture 
Appropriations Subcommittee not abandon, and in fact enhance, 
research and eduction to assist those 10 million small land 
owners that we, the industry, rely on for our raw material.
    There are three critical components that I wanted to 
mention that are in my testimony. One is funding for our 
forestry schools and colleges through the Cooperative Forestry 
Research Act. We would ask that at least $21.62 million go for 
McIntire-Stennis. That program leverages $5 for each one dollar 
that you folks invest. We think that's a pretty good darn 
investment for the government.
    Forestry Competitive Grants through the National Research 
Initiative reward the best scientist with the best research 
projects. We're very much supportive of competitive grants at 
least $109.5 million. We're continuing to try to get the 
forestry's share of that up by submitting good and sound 
research projects each year.
    Then the education of the tree farmers that I talked about, 
the $4 million in the Renewable Resources Extension Act. So, 
Mr. Chairman, in conclusion we really need the help of Congress 
to adjust to our new reality in forestry of this shift from the 
public lands to the private lands and those 10 million small 
land owners that are going to have to increase their 
productivity, and the research investments in education that 
are going to have to be in place to make sure that we achieve 
sustainable management of our private lands as the 
Administration and other folks want us to do.
    So, the research and education investments on private lands 
are going to be key investments to the future prosperity of a 
lot of rural areas in this country that rely on forestry and 
forest crops, and the sustainability of those resources.
    Thank you very much for the opportunity to testify and I 
will answer any questions.
    [The prepared statement of Mr. Berg follows:]

[Pages 856 - 861--The official Committee record contains additional material here.]


    Mr. Skeen.  We thank you. I don't have any questions, but I 
would like to make this comment. I don't understand the 
National Forestry Policy we have had for a long time.
    When you can study what's happened in Europe using forests 
as a renewable resource, those forests in Europe, Germany, 
France and some of the mainland areas have been forested and 
cropped for years, and years, and years. It's a renewable 
resource. We've absolutely let our national forests decay, rot, 
become insect infested and so forth.
    I did, however, see the beginning of learning in the 
federal sector because the Secretary of Interior was mentioning 
the other day about using controlled burn fires to remedy some 
of our problems in the forest. So, that's at least an admission 
that we're beginning to understand how to handle this renewable 
resource which we had in such an abundant supply.
    Now, it relies almost entirely on private sector 
production. So, we're very interested in what you do. We're 
interested in watching the philosophy and the change. I think 
right now we want to keep the research going and we want to 
keep you folks producing. Thank you for being here today.
    Mr. Berg.  Thank you. I appreciate your help with working 
with our small land owners through the research and education 
programs.
    Mr. Skeen.  Well, we may be able to educate through the 
U.S. Forest Service and others through your medium.
    Mr. Berg.  I hope so. We're trying.
    Mr. Skeen.  Thank you.
    Kim Wardensky, American Federation of Government Employees, 
and American Federation of State, County and Municipal 
Employees. That's a big area.

                              ----------                              

                                          Thursday, March 20, 1997.

AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES AND AMERICAN FEDERATION OF 
                 STATE, COUNTY AND MUNICIPAL EMPLOYEES

                                WITNESS

KIM WARDENSKY, PRESIDENT, LOCAL 3870

    Ms. Wardensky.  I will be speaking on behalf of two Unions.
    Mr. Skeen.  We appreciate having you. Welcome.
    Ms. Wardensky.  Thank you. Mr. Chairman and subcommittee 
Members, my name is Kim Wardensky. I'm the President of AFSCME 
Local 3870 which represents employees of the Rural Development 
Headquarters here in Washington.
    We're testifying today on behalf of both American 
Federation of Government Employees and American Federation of 
State, County and Municipal Employees Local 3925 regarding 
issues which affect both the programs and employees of the 
former Farmers Home Administration which has been transferred 
to Rural Development in FSA.
    I have a number of issues that I would like to cover. I 
will try to synopsize them.
    Mr. Skeen.  We appreciate that. Your full testimony will be 
in the record.
    Ms. Wardensky.  Thank you. The first topic I'd like to 
discuss is direct versus guaranteed loans programs. We've 
consistently, over the last several years, worked to defend and 
even to increase the funding of the Section 502 and Section 515 
Housing Direct Loans, Farm Operating and Ownership Direct 
Loans, and the Minority Farmers Outreach Programs, Section 2501 
of the 1990 Farm Bill. There is a large unmet need out there 
for direct farm ownership and operating.
    We have a three- to five-year waiting list for direct farm 
ownership loans in most States. We're running out of direct 
operating loan funds in March of each year. A farmer who is not 
independently wealthy cannot farm without operating loans for 
credit.
    Lack of funding or improper administration of the Farm 
Credit Program however will put them out of business. The 
Minority Farmer Outreach Grants are very low cost, yet a very 
effective program under which Native Americans, historically 
Black colleges, and community based organizations with a proven 
track record are funded to do outreach and technical assistance 
with minority farmers in accessing USDA programs.
    In those areas where this program has been funded, the loss 
of Black farm land has actually been slowed down considerably. 
To continue to slash funding in the direct lending in order to 
maintain higher funding levels or corporate welfare programs 
within USDA is bad policy.
    I would like to discuss multi-family and single family 
housing just briefly if I can. The Section 502 Single Family 
Direct Lending Program is the only federal housing program that 
targets the system to low and very low income home buyers in 
the rural areas.
    Since the program's start in 1949, over 1.8 million homes 
have been financed by the Section 502 Program. Considering that 
the average income of the Section 502 direct borrower is about 
$15,000 or 55 percent of the rural median household income, the 
Guaranteed Loans Program does not work for these individuals 
and their families. These loans are far too expensive for them 
to obtain.
    We respectfully request appropriations for the Section 502 
program at least at the fiscal year 1997 levels, preferably at 
the fiscal year 1994 levels. We can always hope. Maybe they 
won't get the point messed up this year.
    Multi-family housing loan programs in the Rural Development 
mission area at USDA are undergoing reinvention under the 
guidance of this committee from last year's instructions. The 
Secretary of Agriculture is also cooperating with the Secretary 
of HUD to convert expensive 20-year Section 8 housing 
assistance payments into our rural assistance, rental 
assistance payments in the Section 515.
    Previous owners of those units, could request an exception 
to obtain an adjustment for the HUD rates if they were 
understated. But there is no incentive for them to request an 
adjustment for an overly generous fair market share of that. 
HUD was attempting to remedy that problem, but to no avail. So, 
it is saving the government quite a number of dollars to 
convert them over to the Rental Assistance Program. HUD is 
getting full credit for subsidy savings under Credit Reform 
Rules while USDA picks up an increased subsidy burden without 
an effective recognition of the savings overall to the Federal 
Government.
    The agencies implementing the multi-family housing reforms 
will be in a position of meeting the Congressional conditions 
imposed release of new funds for new construction. Industry 
interface of automated data to eliminate entering already 
automated data is being tested.
    Success in this area should result in significantly 
improved service to the public and better oversight of program 
operations. Continued support of adequate funding for multi-
family housing projects is critical in meeting the housing 
needs of rental rural residents. Adequate funding to protect 
against displacement is essential.
    Under water and waste, we have some concerns regarding the 
State Block Grant Program which is a set aside of 5 percent of 
water and waste grant money which has been proposed in the 
President's budget. The money will be allocated to the States. 
These funds can be used for whatever rural development purposes 
are deemed necessary.
    We're concerned that with over $4 billion in backlog in 
water and waste programs, services will not be available to 
very needy communities and could be used for other rural 
development programs, not just water and waste. The moniesat 
the national level can be leveraged at a higher rate. The budget 
assumes it will only take $9.76 in budget authority to make $100 in 
program loan level. We doubt that the States could leverage funds 
anywhere close to that ratio. Due to the small allocations, an average 
of $1 million per State, the States will receive, funds could only be 
used for small grants.
    Now, I'd like to cover some of our employee issues. Our 
labor unions appreciate the recognition of the leadership of 
this subcommittee that we can only create a USDA that works 
better and costs less if we make sure that the proposed changes 
and their implementation will enhance rather than harm the 
ability of the front line workers to serve the public in the 
most effective and efficient manner.
    Unfortunately, we must report to Congress that most of the 
Department has failed to adopt this common sense approach. 
Instead, both our front line employees and the programs we 
deliver, have suffered from management turf battles. Since USDA 
management is using your subcommittee as an excuse for their 
actions, we feel compelled to turn to you, our elected 
Congressional representatives and ask for some micromanagement 
of USDA from Congress.
    Over the past two years our unions have entered into the 
record of your subcommittee enormous evidence that significant 
taxpayer savings could be achieved by utilizing federal 
employees to perform work that is currently being performed by 
service contractors. During the past 13 years an increasing 
amount of work which could be performed more effectively by 
USDA employees has been contracted out, than even performing a 
cost comparison, in the name of reducing government. If our 
goal is to build a new USDA that truly works better, then the 
11,000 service contracts which use taxpayer dollars to pay 
contract workers to perform USDA services should also be put on 
the table for review and reduction whenever it would be more 
cost effective for federal employees to do the work.
    We urge the Appropriations Committee to revisit this issue. 
We urge you to require the Department to conduct cost 
comparisons on all current and future such service contracts. 
No more federal employees should be laid off so long as 
contractors are working for the Department performing work that 
federal employees can do.
    Streamlining the middle management bureaucracy. The House 
Agriculture Committee adopted report language in Section 213 in 
the final USDA Reorganization Act of 1994 for reductions in the 
number of Department personnel which stated the Congressional 
intent that to meet the objectives of improving customer 
service while reducing cost, the committee expects the 
Department to maintain the greater possible number of front 
line workers, both in the field and in Headquarters in 
administrative support functions.
    The committee therefore expects the Department to 
accomplish the required staffing reductions by reducing and 
streamlining the necessary layers of middle management, 
supervision, and control. The committee specifically went on to 
require the department to reach its own goals of supervisory to 
non-supervisory ratios as outlined in the reorganization 
proposal submitted to Congress that year. USDA isn't close to 
those goals. They admit that they have a 1:9 ratio. So, we 
request the Appropriations Committee enforce the intent of 
Congress as established by the Authorizing Committee's report 
language on this matter. The Department should be banned from 
making any further non-supervisory staff reductions until the 
number of supervisors has been reduced to a rate of 1:14.
    Recently, a proposal has surfaced as administrative 
convergence. I don't know if you've heard of this. In a recent 
decision memo signed by Rominger, USDA is continuing to make 
proposals for the abolishment of some or all of our current 
main frame administrative processing centers; specifically 
Kansas and St. Louis, to enable development of a common 
administrative system.
    These proposals meant nothing more than that managers are 
too incompetent and turf driven to provide the leadership 
needed to develop common administrative systems. We are 
adamantly opposed however to proposals that assume that the 
only way people can do work together is by being physically 
located in the same city.
    This is a 19th Century idea, not a 21st Century idea. In 
contrast, our Union believes that the idea of consolidating 
government automation related operations from several locations 
into big offices in one locality should no longer be seen as 
the top choice for getting government to work better.
    It generally leads to hidden costs and lower quality of 
services because 80 percent of the experienced employees 
usually take the severance pay and leave the government rather 
than relocate to the new service center. The House Committee 
and agriculture report language accompanying Section 105, 
Section 216 of the final bill, improvement of information 
sharing, very specifically expresses the intent of Congress in 
support of this view.
    We ask for a reiteration of the Appropriations Committee 
this year. The next issue I'd like to talk about is the County 
Committee Employment System. The Secretary's Civil Rights 
Action Team and the Secretary himself have now called for 
removing the County Committees from personnel matters.
    This would create one personnel system within USDA instead 
of two. More importantly, it would establish a clear line of 
accountability for civil rights and other matters, from the 
Secretary through the state directors to district directors and 
county directors.
    It's not good business practice for our programs or 
employees to continue to allow its system of service employment 
at the whim of the County Executive Directors to remain in 
place, especially when those CEDs are themselves farm loan 
borrowers or recipients of other USDA programs. It is creating 
a fairly large conflict of interest which I expect will get 
worse the longer we allow this two-tier employment system to 
continue.
    Delegation of farm credit loan making authority should be 
restricted to federal employees. In 1994 the Department, OPM, 
House points of contact and the Agriculture committees reached 
consensus on these issues and made a commitment that the Farm 
Credit Federal Employee jobs would remain federal jobs after 
their transfer to FSA.
    Despite this commitment, FSA managers, state executive 
directors are back-filling agriculture credit jobs with 
employees at the county committees. They have given crash 
courses in farm credit to these employees and then delegated 
loan making authority to non-federal county office employees 
without proper training.
    If Congress allows this to continue, FSA will be making 
loans without supervised credit assistance and the Farm Credit 
Program will eventually be destroyed. Farm Operatingand 
Ownership Credit is a very different type of program than corn loans 
and deficiency payments.
    Operating an ownership loan requires judgment, knowledge, 
and background of the particular family farm history. The 
county office employment system is dominated by the local 
politics of the county committees and not by the financial 
integrity or compassion of the family farmers.
    Employees of the county committee are not governed by the 
FMFIA, EEO, and Civil Rights or Merit Systems laws which govern 
federal employees. Farm Credit decision making authority is not 
being granted to the county committees for the same reason it 
should not be granted to the employees of the county 
committees.
    We further request that there should be alignment with the 
number of agriculture credit offices for their case load. 
Previously there was one agriculture credit officer and one 
agriculture credit technician for every 56 farm loan borrowers. 
That ratio is now in the average case load of 150:200 
borrowers.
    It makes it impossible to adequately perform and supervise 
credit functions which are necessary to the success of the 
program. This occurred when the employees were transferred from 
the former Farmers Home to FSA. There were not enough that were 
sent over for the Agriculture Credit Teams. Our technicians and 
the Agriculture Credit Office are overwhelmed in the field. 
They're unable to provide adequate supervised credit.
    Finally, we ask that no Farm Service Agency employee be 
allowed to have a federal farm credit loan. For years FMHA 
guarded the financial integrity of the Farm Credit Program by 
ruling that no FMHA employee could receive a farm operating or 
ownership loan. FSA has abolished this most basic protection 
against potential conflicts of interest. Unless Congress 
intervenes to change this policy, the Farm Credit Program will 
become subject to the same type of abuses that have been 
reported to the Environmental Working Group report, Fox in the 
Hen House, as were reported on the former ASCS.
    This concludes my testimony. I'll be glad to answer any 
questions.
    [The prepared statement of Ms. Wardensky follows:]

[Pages 868 - 875--The official Committee record contains additional material here.]


    Mr. Skeen.  I appreciate your testimony. We're certainly 
going to go through it and consider your recommendations. 
You've brought up some very serious points. We appreciate that 
very much.
    Ms. Wardensky.  Yes. We look forward to working with you.
    Mr. Skeen.  Thank you for your time.
    Ms. Wardensky.  Thank you.
    Mr. Skeen.  I'd like to take next Dr. James McGuire. Go 
ahead, sir.
                              ----------                              

                                          Thursday, March 20, 1997.

  AMERICAN ASSOCIATION OF STATE COLLEGES OF AGRICULTURE AND RENEWABLE 
                               RESOURCES

                                WITNESS

DR. JAMES M. McGUIRE, DEAN, COLLEGE OF AGRICULTURE

    Dr. McGuire.  Mr. Chairman, I'm Jim McGuire.
    Mr. Skeen.  Welcome, Jim.
    Dr. McGuire.  Thank you; Dean of the College of 
Agriculture, Southern Illinois University. I'm here 
representing AASCARR, the American Association of State 
Colleges of Agriculture and Renewable Resources.
    Mr. Skeen.  It's not easy to say AASCARR.
    Dr. McGuire.  In fact, when I first became Dean, I asked 
someone what AASCARR stood for. No one in my office knew.
    Mr. Skeen.  We appreciate you enlightening us as well.
    Dr. McGuire.  I appreciate this opportunity to speak with 
you this morning about the support for the funding of the 
higher education programs administered by the USDA. This 
testimony that I'm giving compliments that testimony which you 
received on March 4th from the Board of Agriculture of NASULGC.
    I want to make about four major points to you about the 
USDA higher education programs. The first point is that we 
submit that the development of well prepared human capital to 
strengthen the nation's scientific, professional, and technical 
work force in support of the food and agriculture industry is 
critical to the well being of the American people.
    It's our business at the AASCARR and Land Grant 
Universities to educate and prepare this human capital. We have 
well over 90 percent of the four-year baccalaureate students at 
the AASCARR and Land Grant Universities.
    The support for all of the USDA higher education programs 
is important in the development of this human capital. 
Therefore, we recommend the funding of all of these programs in 
that office at the levels that are listed in my written 
testimony.
    The second point, the Challenge Grants Program is the 
cornerstone of this USDA higher education program. It enhances 
and compliments the priorities of all of the other USDA higher 
education programs. It's therefore, the highest priority of 
AASCARR to fund these challenge grants. AASCU, the American 
Association of State Colleges and Universities, with whom we 
are affiliated and NASULGC have also listed the Challenge 
Grants Programs as highest priority. These three organizations 
speak as one voice to you to recommend and ask for $5.35 
million for fiscal year 1998 for the Challenge Grants Program 
in order to expand this program.
    This would be an increase of $1.35 million over the fiscal 
year 1997 funding level. There are some characteristics of the 
Challenge Grants Program that make it so important. It supports 
and encourages innovative and enriched course materials, 
teaching technology, and curriculum.
    It supports and promotes faculty development. Both of those 
areas are very critical to our education of students. It 
encourages universities to cooperate on educational enhancement 
projects to work together in groups and to work also with 
private industry. The ultimate result of the Challenge Grants 
Program is better education of traditional and non-traditional 
students in agriculture; a majority and minority students, 
including the Native American students, the Hispanics, and the 
African Americans.
    Fourth, the Challenge Grants give a big bang for the buck. 
The federal dollars that are invested in Challenge Grants are 
matched dollar-for-dollar with non-federal funds by the 
institutions which receive those grants. The program 
supplements the basic educational programs of the AASCARR and 
NASULGC universities.
    The results of the projects that are funded are shared 
throughout the entire system for use by all of the universities 
who desire to use these results. It, therefore, helps to 
prepare human capital to deliver the important research and 
extension programs in agriculture, as well as the human capital 
requirements of all of the food and agriculture industry.
    For these reasons, we're requesting this $5.35 million for 
Challenge Grants in fiscal year 1998 and also funding of the 
other programs at the recommended levels. I want to thank you, 
Mr. Chairman, for the support that you've given to higher 
education programs in agriculture and especially the support 
that you've provided for a long time to this Challenge Grants 
Program. I'll be very happy to answer any questions.
    [The prepared statement of Mr. McGuire follows:]

[Pages 878 - 888--The official Committee record contains additional material here.]


    Mr. Skeen.  I don't have any questions. I just want to 
commend you on the work that you're doing. It's your leadership 
that keeps us running. We appreciate the combination of the 
two. We'd like to put the money to a good program. If it 
produces results, that's what we expect. It certainly has in 
this case. We'll do our best.
    Dr. McGuire.  I appreciate that.
    Mr. Skeen.  We thank you.
    We've got a vote on. If you don't mind waiting, Dr. Lewis, 
I'll be right back. I'll go vote and come right back.
    [Recess.]
    Mr. Skeen.  We're back on the record.
    Dr. Lewis, welcome. You are with the American Indian Higher 
Education Consortium. Please proceed.

                              ----------                              

                                          Thursday, March 20, 1997.

              AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM

                                WITNESS

DR. TOMMY LEWIS, PRESIDENT, NAVAJO COMMUNITY COLLEGE

    Dr. Lewis.  Thank you, Mr. Chairman. I'd also like to greet 
you in my native tongue. [Navajo spoken.]
    Mr. Skeen.  [Navajo spoken.]
    Dr. Lewis.  My name is Tommy Lewis. I'd like to present 
some information to you on behalf of the American Indian Higher 
Education Consortium and the 29 Tribal colleges that comprise 
the AIHEC Land Grant Institutions. I thank you for this 
opportunity to share our funding request for fiscal year 1998.
    Navajo Community College is the largest and oldest of all 
of the Tribal colleges. We have seven campuses scattered 
throughout Arizona and New Mexico. I'm honored to be here to 
respectfully request on behalf of the Tribal college full 
funding for our four Land Grant Programs.
    These are $4.6 million for Tribal college endowment; $1.45 
million for the Equity Grant Program; $5 million for the Joint 
1862, 1994 Institution Extension Program; and $1.7 million for 
Institution Capacity Building Grants.
    My remarks will touch on four key points which are 
discussed in greater detail in my written statement. First, I 
will provide a brief background on the Tribal colleges and our 
long awaited inclusion in the Land Grant System.
    Second, I will discuss the untapped agricultural potential 
of American Indian lands.
    Third, I will discuss ways in which the Tribal colleges are 
working with the Department of Agriculture and State Land Grant 
Institutions.
    Fourth, I will describe our program requests for fiscal 
year 1998.
    Under background information; since American Indian 
Reservations became the final lands under the American Flag to 
receive land grant status in 1994 we had heard very quietly but 
persistent rumblings that Tribal colleges should not be a part 
of the Land Grant System because we are not ``true'' Land Grant 
Institutions.
    Mr. Chairman, nothing could be further from the truth. 
Today, 130 years after the enactment of the first Land Grant 
legislation, Tribal colleges more so than any other 
institutions truly exemplify the original intent of land grant 
legislation.
    The first moral act was enacted in 1862 specifically to 
bring education to the people and to serve their fundamental 
needs. The institutions were to ``promote'' education that 
would be practically applied to meet the economic development 
needs of that area.
    In effect, they were to be chartered by the people to serve 
the people. Mr. Chairman, this is the definition and mission of 
Tribal colleges. We truly are institutions by, of, and for our 
people. Twenty-five years ago, the first Tribal colleges were 
chartered on remote reservations by their respective Tribal 
governments to be governed by boards of local Tribal people. 
Today, Tribal colleges serve 25,000 students each year offering 
primarily two-year degrees with a few colleges offering four-
year and graduate degrees.
    In addition, tribal colleges offer a wide range of 
community services. Since their inception, Tribal colleges have 
helped address the problems and challenges of our welfare 
system. Tribal colleges provide GED and other college 
preparatory courses probably more than any other community 
colleges in this country.
    We have done this because our mission requires us to help 
move American Indian people toward self-sufficiency and make 
American Indians productive tax paying members of American 
society. Despite our many obligations, functions, and notable 
achievements Tribal colleges are the most poorly funded 
institutions of higher education in this country.
    In fact, total funding for the agriculture programs 
authorized for all 29 of the 1994 Institutions combined, equals 
approximately the amount the Department of Agriculture gives to 
just one State Land Grant Institution each year.
    The third item; although current Land Grant Programs at 
Tribal colleges are modest, the 1994 authorizing legislation is 
vitally important to us because of the nature of our land base. 
Of the 54.5 million acres of land that comprise American Indian 
Reservations, 75 percent are agricultural lands and 15 percent 
are forestry holdings.
    Land Grant funding is our hope for teaching American 
Indians about new and evolving technology for managing our 
lands. We are committed to becoming as we were when our 
forefathers came to this land centuries ago, productive 
contributors to this nation and the world's agricultural base.
    The 1994 Institutions are ready to address the challenges 
of Indian country, but we need this subcommittee's support. 
Already a firm and growing commitment exist on the part of the 
Department of Agriculture and mainstream Land Grant 
Institutions to work cooperatively with us.
    Last December AIHEC was placed to co-host with USDA a 
conference on departmental programs. This two-day meeting in 
Albuquerque, New Mexico gave Tribal college presidents and USDA 
officials and staff a chance to become better acquainted. In 
addition to the Albuquerque meeting we have met on several 
occasions with Deputy Secretary Rominger most recently at 
AIHEC's annual winter conference here in Washington last month.
    The Deputy Secretary gave us an update on the status of the 
memorandum of understanding between the Department and the 
Tribal colleges which we hope to sign shortly. The MOU which 
was mandated in the Farm Bill will strengthen and expand our 
partnership with USDA.
    We have also developed a strong working relationship with 
the National Association of State Universities and Land Grant 
Colleges, NASULGC. Our appropriations request for fiscal year 
1998 are extremely modest when compared with the annual 
appropriation for existing Land Grant Institutions. AIHEC 
respectfully requests full funding for the four programs.
    Number one, a $4.6 million endowment fund for the 1994 Land 
Grant Institutions. This endowment installment remains with the 
U.S. Treasury and only the interest is distributed to the 1994 
Institutions. The Navajo Community College got $13,000 out of 
this endowment this past year. That is just a small amount of 
money to do hardly anything with.
    The first year payment totalled nearly $116,000, which was 
distributed last fall to the 29 Tribal Land Grant Institutions 
on a formula basis.
    Two, the $1.45 million for the Tribal College Educational 
Equity Grant Program. This program provides $50,000 per the 
1994 Institutions to assist in academic programs. Through the 
funding made available in 1996, my own college, the Navajo 
Community College established a center for integrated rural 
development studies.
    The new center will design and deliver classroom, research, 
and extension programs in three inter-related fields; community 
development, economic development, and natural resources 
management. These three fields are critical to the Navajo well 
being.
    My President, Albert Hale, addressed you earlier talking 
about ways that the Tribal Government would work very closely 
with the Tribal colleges in delivering some of these training 
and needs.
    I wholeheartedly support the statement that President Hale 
presented to you earlier. I think they're right in line with 
what we're trying to accomplish through our Land Grant Program.
    Three, the $5 million Extension Programs; currently the 
extension services provided by the state on our reservations 
are inadequate. We are anxious to begin our first year of 
funding under a new extension program for the remote 
reservation communities served by Tribal colleges.
    For fiscal year 1997 Congress appropriated $2 million to 
begin this Competitive Grants Program which will be 
administered and coordinated through the 1862 Institutions. For 
fiscal year 1998 we are requesting a modest funding increase of 
$3 million to $5 million to the fully authorized level.
    Four, the $1.7 million Institutional Capacity Building 
Grant Program. This competitive program which requires a non-
federal match would help us strengthen and more fully develop 
our educational infrastructure.
    Unlike state institutions that have existed for nearly a 
century and a half, the 1994 Institutions have basic 
infrastructure needs. Facility is a real need. I know in my 
college it's a real matter of concern.
    In conclusion, Mr. Chairman, we appreciate your 
longstanding support of Tribal colleges and your commitment to 
our efforts to bring self-sufficiency to our communities. We 
look forward to continuing a partnership with you, the Members 
of your subcommittee, the Department of Agriculture, and the 
main stream land grant system; a partnership that will bring 
equal educational, agricultural, and economic opportunities to 
Native Americans.
    Thank you very much for your time.
    [The prepared statement of Dr. Lewis follows:]

[Pages 893 - 899--The official Committee record contains additional material here.]


    Mr. Skeen.  Thank you Dr. Lewis for your time.
    How many students do you have at the Navajo Community 
College now?
    Dr. Lewis.  Head count wise of all students taking classes, 
we have about 5,200.
    Mr. Skeen.  It's 5,200?
    Dr. Lewis.  When you convert that to FTE, the number that 
we submitted to the BIA was about 2,200 students?
    Mr. Skeen.  It's 2,200.
    Dr. Lewis.  Yes; FTE wise. We have seven campuses. Two of 
them, as you know, are in New Mexico.
    Mr. Skeen.  That's correct. How many did you graduate last 
year?
    Dr. Lewis.  Last year we graduated 176 students. Out of the 
176, 140 were able to transfer into mainstream universities.
    Mr. Skeen.  That's a pretty good percentage.
    Dr. Lewis.  That is a darn good rate. Our retention rate is 
very high. We keep track of these students. I just ran into a 
student the other day in Arizona who graduated from the Navajo 
Community College in 1993. We have a campus over there.
    She graduated in 1993 with an AA Degree. She transferred to 
the University of Arizona. She got her Baccalaureate as well as 
Masters Degree in guidance and counselor. I ran into her the 
other day at Great Hill High School as a certified school 
counselor. I think that's a success story right there.
    Mr. Skeen.  Absolutely; a good example.
    How many of your graduate students go into the economic 
community outside of the reservation?
    Dr. Lewis.  A large percentage of our students do go off 
because there is not much back home for them; the 
infrastructure to put them to work.
    Mr. Skeen.  You're slowly converting that.
    Dr. Lewis.  Definitely, I think so through these kinds of 
training rather than bringing in outsiders to do these kinds of 
work for us, we can put our Navajo people in these positions as 
professional engineers.
    Mr. Skeen.  Your educational system has supported that.
    Dr. Lewis.  Right. We will have our own people take over. 
That's the hope and dream.
    Mr. Skeen.  For many years.
    Dr. Lewis.  For many years.
    Mr. Skeen.  After all, the Navajo were the greatest 
agricultural producers for a period of time from the records 
that we can read from the evidence that was left behind. So, I 
think that you have a great heritage.
    Dr. Lewis.  Yes. My Navajo people still hold land close to 
their heart. It's a way of life for us.
    Mr. Skeen.  They're wedded to the land.
    Dr. Lewis.  Yes.
    Mr. Skeen.  We thank you very much for your presentation.
    Dr. Lewis.  Thank you, sir.
    Mr. Skeen.  We will give it very serious consideration.
    Dr. Lewis.  [Navajo spoken.]
    Mr. Skeen.  [Navajo spoken.] That's all we have I believe. 
We sure appreciate it. Thank you all very much.
    [The following statements were submitted by individuals 
unable to attend the hearing:]

[Pages 902 - 1243--The official Committee record contains additional material here.]




                 M E M B E R S   O F   C O N G R E S S

                               __________
                                                                   Page
Bereuter, Hon. Doug..............................................   681
Coughlin, Hon. R. L..............................................   811
Emerson, Hon. Jo Ann.............................................   701
Gordon, Hon. Bart................................................   741
Hall, Hon. T. P..................................................   669
Hansen, Hon. J. V................................................   903
Hastings, Hon. Richard ``Doc''...................................   737
Hilliard, Hon. E. F..............................................   705
Hooley, Hon. Darlene.............................................   763
Hunter, Hon. Duncan..............................................   654
LaHood, Hon. Ray.................................................   731
Lehman, Hon. William.............................................   798
Lewis, Hon. Ron..................................................   902
Lucas, Hon. Frank................................................   709
Meehan, Hon. Martin..............................................   748
Pallone, Hon. Frank, Jr..........................................   688
Pomeroy, Hon. Earl...............................................   771
Riggs, Hon. Frank................................................   756
Shaw, Hon. Clay, Jr..............................................   695
Watkins, Hon. Wes..............................................419, 779


                           W I T N E S S E S

                               __________
                                                                   Page
Albin, Dr. R. C..................................................  1019
Allen, W. R......................................................  1128
Archer, Dr. D. L.................................................  1093
Ballin, S. D.....................................................   977
Barry, P. J......................................................   906
Batterson, Dr. T. R..............................................   256
Beer, K. E.......................................................   240
Benepal, Dr. P. S................................................    58
Benoit, Harold...................................................   226
Benson, Dr. Dirk.................................................   344
Berg, N. A.......................................................   633
Berg, Scott......................................................   854
Berne, B. H......................................................  1002
Birdsall, S. L...................................................   648
Blackman, Peggy..................................................  1197
Bolusky, B. C....................................................   331
Branton, Brian...................................................  1035
Brichler, R. J...................................................    95
Brown, R. D......................................................   991
Bullock, Bruce...................................................   914
Bye, Dr. R. E., Jr...............................................  1027
Cabral, R. J.....................................................  1148
Campion, Dennis..................................................   912
Carlton, B. C....................................................   926
Carter, David....................................................   448
Chaikin, Steve...................................................   236
Chew, Dr. Ken....................................................   204
Chicoine, D. L.................................................914, 919
Clark, Les.......................................................  1148
Cline, K. E......................................................   243
Cochran, Mark....................................................   906
Connealy, Michael................................................   935
Cousins, R. J....................................................   113
Croft, Richard...................................................   238
Croker, K. A.....................................................   949
Curl, Dr. S. E...................................................   727
Dewey, W. F......................................................   246
Dixon, M. A......................................................   995
DuMelle, Fran....................................................   977
Dunlap, Jim......................................................  1177
Faga, Betsy......................................................  1207
Fender, D. H.....................................................  1145
Fore, T. H., Jr..................................................   960
Frank, Billy.....................................................   621
Gainer, Walter...................................................   373
Galvin, Mark.....................................................   943
George, Mel......................................................   914
Geringer, Jim....................................................  1006
Glass, Michael...................................................   398
Goldstein, Ruth..................................................   846
Goss, Murial.....................................................   811
Graham, L. T.....................................................  1045
Green, John......................................................   419
Greenstein, Bob..................................................   327
Guest, R. T......................................................  1054
Gunnerson, Chuck.................................................  1108
Hale, Albert.....................................................   837
Harper, Dr. David................................................   344
Harrison, Dr. K. E...............................................   263
Hawk, C. T.......................................................   155
Heichel, G. H....................................................   919
Helle, Aggie.....................................................  1219
Hershberger, W. K................................................   248
Hiler, E. A......................................................   557
Hocker, Jean.....................................................  1242
Holmer, A. F.....................................................   492
Holt, D. A.......................................................   914
Hood, Kenneth....................................................  1040
Hout, Eldon......................................................  1133
James, Harlan....................................................   613
Jefferson, Merle.................................................   616
Jenks, Eloise....................................................   410
Johnson, Roger...................................................   965
Johnston, K. D...................................................   363
Jones, R. G......................................................   274
Keen, Jack.......................................................   431
Kenny, M. P......................................................  1148
Kirtland, J. C...................................................   317
Kleine, M. A.....................................................  1074
Knudson, Jeff....................................................   943
Krepcho, David...................................................   798
Lacy, Dr. W. B...................................................    49
Lassoie, Dr. J. P................................................    60
Lawless, T. L....................................................   952
Layman, Dr. D. K.................................................    66
Lee, Dr. Cheng-Sheng.............................................   231
Levine, Dr. I. A.................................................   266
Lewis, Dr. Tommy.................................................   889
Lieberman, Laura.................................................   540
Liss, Cathy......................................................   500
Long, G. T.......................................................   547
Lynn, N. B.......................................................   924
Maguire, John....................................................  1113
Maizel, M. L. S..................................................   588
Mallow, Jim......................................................   829
Maselli, S. J....................................................   440
Matoian, Richard.................................................   953
Maurer, Teresa...................................................   382
McGuire, Dr. J. M..............................................876, 914
McMillan, S. P...................................................  1238
Menvielle, J. P..................................................   645
Minor, Samuel....................................................    22
Mitchell, M. J...................................................   251
Mitchell, R. L...................................................   914
Molseed, Richard.................................................   285
Morehouse, David.................................................   267
Mott, A. T.......................................................  1090
Myers, L. W......................................................   217
Nell, Dr. Terril.................................................    70
Nelson, Christian................................................   254
Netterville, Linda...............................................   955
Notar, R. C......................................................   457
O'Neal, J. F.....................................................   484
Owens, Dr. J. C..................................................    31
Pacelle, Wayne...................................................   170
Parsons, J. E....................................................   213
Payne, Dr. T. L..................................................    45
Peterson, R. M...................................................   601
Raab, G. G.......................................................   461
Raftopoulos, Steve...............................................  1049
Ramos, Dr. S. J..................................................   181
Rapoza, R. A.....................................................   389
Redden, G. T.....................................................   268
Reheis, C. H.....................................................  1148
Robertson, T. J..................................................  1024
Runnels, Bruce...................................................  1169
Rutta, R. L......................................................  1154
Sanders, Ted.....................................................   914
Sazama, Kathleen.................................................   508
Schram, S. G.....................................................  1065
Searle, Brent....................................................   943
Semmens, K. J....................................................   221
Siedow, J. N.....................................................    10
Silverglade, Bruce...............................................  1035
Skees, J. R......................................................   568
Smith, Dr. D. A..................................................   261
Spencer, Dr. Richard.............................................   233
Stephens, Norm...................................................   924
Stroope, Jerry...................................................   107
Stukel, J. J...................................................914, 919
Stutzman, Curtis.................................................   259
Sullivan, J. H...................................................  1071
Sullivan, Patrick................................................   943
Suttie, J. W.....................................................    79
Taron, Dr. Joe...................................................   779
Taylor, Gary.....................................................   601
Terski, Jim......................................................   356
Thames, Dr. S. F.................................................  1079
Thompson, Mary...................................................   130
Thor, Dr. Eric...................................................   943
Tucker, C. S.....................................................   224
VanDe Hei, Diane.................................................  1143
Vidaver, A. K....................................................   816
Vladimiroff, Christine...........................................  1016
Walker, Dr. W. W.................................................   988
Wardensky, Kim...................................................   862
Weidemann, Dr. Greg..............................................     1
Weist, M. R......................................................   297
Wells, Faye......................................................   477
White, Dr. J. M..................................................    54
Whitener, Bob....................................................   613
Wilder, Gordon...................................................   271
Williamson, Jerald...............................................   229
Wilson, Linda....................................................   811
Wyont, Jean......................................................   659
Yopp, Dr. J. H...................................................  1010
Ziller, S. A.....................................................   145
Zimmerman, G. R..................................................  1224


                          ORGANIZATIONAL INDEX

                              ----------                              
                                                                   Page
Academic Programs Committee on Organization and Policy (NASULGC).    54
Ad Hoc Coalition on Public Law 480...............................   317
American Association of Blood Banks..............................   508
American Association of Crop Insurers............................    95
American Association of Nurserymen...............................   331
American Association of Retired Persons..........................   995
American Association of State, Colleges of Agriculture and 
  Renewable Resources............................................   875
American Beekeeping Federation, Inc..............................   960
American Cancer Society..........................................   130
American Farm Bureau Federation..................................  1160
American Farmland Trust..........................................   845
American Federation of Government Employees......................   862
American Federation of State, County, and Municipal Employees....   862
American Forest and Paper Association............................   854
American Heart Association.......................................   977
American Honey Producers Association, Inc........................   107
American Indian Higher Education Consortium......................   889
American Lung Association........................................   977
American Physiological Society...................................   155
American Sheep Industry Association..............................  1049
American Society for Microbiology................................   816
American Society for Nutritional Sciences........................   113
American Society for Pharmacology and Experimental Therapeutics..   949
American Society of Plant Physiologists..........................    10
American Water Works.............................................  1071
American Zoo and Aquarium Association............................  1226
Association of Metropolitan Water Agencies.......................  1143
Association of Research Directors, Inc. (NASULGC)................    58
Baystate Health Systems..........................................  1090
Board on Human Sciences (NASULGC)................................    66
California Grape and Tree Fruit League...........................   953
California Industry and Government Coalition on PM-10/PM-2.5.....  1148
Center for Budget Priorities.....................................   327
Center for Science in the Public Interest........................  1035
Chocolate Manufacturers Association..............................  1045
City of Gainesville, Florida.....................................  1135
Coalition for Food Aid...........................................   297
Coalition of Agricultural Mediation Programs.....................   943
Coalition of EPSCOR States.......................................     1
Coalition to Promote U.S. Agricultural Exports...................  1121
Coastal States Organization......................................  1133
Colorado River Basin Salinity Control Program....................  1224
Colorado River Salinity Control Program..........................  1006
Commodity Supplemental Food Program..............................  1024
Consortium for International Earth Science Information Network...  1065
Consortium of Social Science Associations........................   568
Council for Agriculture, Research, Extension and Teaching........    22
Experiment Station Committee on Organization and Policy (NASULGC)    45
Extension Committee on Organization and Policy (NASULGC).........    49
FDA-NIH Council..................................................   540
Federation of American Societies for Experimental Biology........    79
Florida State University.........................................  1027
Florida Sugarcane League.........................................   962
Friends of the U.S. National Arboretum...........................   811
Golden Gate University...........................................  1074
Grazing Lands Conservation Initiative National Steering Committee  1219
Grocery Manufacturers of America.................................   145
Guld Coast Research Laboratory Consortium........................   988
Health Industry Manufacturers Association........................   461
Holden's Foundation Seeds, Inc...................................   344
Humane Society of the United States..............................   170
Illinois Groundwater Corsortium..................................  1010
Imperial County Whitefly Management Committee....................   645
International Association of Fish and Wildlife Agencies..........   601
Kotasys Project..................................................   285
Land Trust Alliance..............................................  1242
Lumni Indian Business Council....................................   613
Metropolitan Water District of Southern California...............  1060
Minor Crop Farmer Alliance.......................................  1103
National Association of Farmer Elected Committeemen..............  1040
National Association of Farmers' Market Nutrition Programs.......  1238
National Association of Home Builders............................   398
National Association of Meal Programs............................   955
National Association of Professional Forestry Schools and 
  Colleges (NASULGC).............................................    60
National Association of Resource Conservation and Development 
  Councils.......................................................  1197
National Association of State Foresters..........................   829
National Association of State Universities and Land-Grant 
  Colleges.......................................................    31
National Association of University Fisheries and Wildlife 
  Programs.......................................................   991
National Association of WIC Directors............................   410
National Center for Appropriate Technology.......................   382
National Center for Resource Innovations.........................   588
National Center for Tobacco-Free Kids............................  1086
National Congress of American Indians............................  1128
National Cooperative Business Association........................   448
National Corn Growers Association................................  1202
National Cotton Council of America...............................  1113
National Council of Farmer Cooperatives..........................  1210
National Dry Bean Council........................................  1229
National Easter Seal Society.....................................  1154
National Electrical Manufacturers Association....................   983
National Family Farm Coalition...................................   659
National Food Processors Association.............................   363
National Pharmaceutical Alliance.................................   547
National Potato Council..........................................  1108
National Rural Housing Coalition.................................   389
National Rural Telecom Association...............................   484
National Telephone Cooperative Association.......................   477
National Utility Contractors Association.........................   373
National Watershed Coalition.....................................   274
Nature Conservancy...............................................  1169
Navajo Nation....................................................   837
New Mexico Rural Water Association...............................  1177
North Dakota Department of Agriculture.........................969, 972
Northwest Indian Fisheries Commission............................   613
Oklahoma Agricultural Experiment Station.........................   727
Oklahoma Cooperative Extension Service...........................   727
Organization for the Promotion and Advancement of Small 
  Telecommunications Companies...................................  1030
Pharmaceutical Research and Manufacturers of America.............   492
Pickle Packers, International....................................   356
Pottawatomie Development Authority...............................   779
Protein Grain Products International.............................  1207
Regional Aquaculture Center......................................   204
Rocky Mountain Farmers Union.....................................   451
Rural Community Insurance Services...............................   935
Rural Enterprises of Oklahoma, Inc...............................   419
Rutgers University Blueberry and Cranberry Research and Extension 
  Station........................................................   931
Rutgers University Plant Science and Biotechnology Complex.......   926
Rutgers University, IR-4 Project.................................  1054
Second Harvest...................................................  1016
Society for Animal Protective Legislation........................   500
Society of American Florists.....................................    70
Soil and Water Conservation Society..............................   633
South Florida Daily Bread Food Bank..............................   798
Southern Illinois University.....................................   914
Sustainable Agriculture Coalition................................  1172
Texas A&M Research Foundation....................................   557
Texas Tech University............................................  1019
Turfgrass Producers International................................  1145
U.S. Agricultural Export Development Council.................1097, 1214
U.S. Apple Association...........................................  1137
United States Telephone Association..............................   431
University of Florida Aquatic Foods Products Program.............  1093
University of Illinois..........................906, 912, 914, 919, 924
University of Missouri...........................................   914
University of Puerto Rico........................................   181
University of Southern Mississippi...............................  1079
Western Rural Telephone Association..............................   440

                                <all>
</pre></body></html>
